<html>
<title> - OVERSIGHT HEARING ON ``OFFSHORE DRILLING: ENVIRONMENTAL AND COMMERCIAL PERSPECTIVES''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                          OFFSHORE DRILLING:
                           ENVIRONMENTAL AND
                        COMMERCIAL PERSPECTIVES

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, February 11, 2009

                               __________

                            Serial No. 111-1

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
                                  -----

                   U.S. GOVERNMENT PRINTING OFFICE
47-302 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001











                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 11, 2009.....................     1

Statement of Members:
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina, Prepared statement of.........    59
    Capps, Hon. Lois, a Representative in Congress from the State 
      of California, Prepared statement of.......................   128
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     4
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................    35
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Allen, Bruce, Co-Founder, SOS California.....................    91
        Prepared statement of....................................    93
        Response to questions submitted for the record...........    94
    Angers, Jefferson M., President, Center for Coastal 
      Conservation...............................................   100
        Prepared statement of....................................   102
        Response to questions submitted for the record...........   134
    Cousteau, Philippe, President and Chief Executive Officer, 
      EarthEcho International, and Board Member, Ocean 
      Conservancy................................................    15
        Prepared statement of....................................    17
        Response to questions submitted for the record...........   135
    Danson, Ted, Member, Board of Directors, Oceana..............     8
        Prepared statement of....................................    10
        Response to questions submitted for the record...........   139
    Grader, W.F. ``Zeke,'' Executive Director, Pacific Coast 
      Federation of Fishermen's Associations.....................    82
        Prepared statement of....................................    84
        Response to questions submitted for the record...........   142
    McCormick, Carolyn, Managing Director, Outer Banks (NC) 
      Visitors Bureau............................................    70
        Prepared statement of....................................    72
        Response to questions submitted for the record...........   143
    Minich, D.T., Executive Director, St. Petersburg/Clearwater 
      Area Convention & Visitors Bureau..........................    76
        Prepared statement of....................................    78

Additional materials supplied:
    Branham, Brant, Chairman, and Brad Dean, President & CEO, 
      Myrtle Beach Area Chamber of Commerce, Letter submitted for 
      the record.................................................   130
    CRS memorandum entitled ``Possible Federal Revenue Estimates 
      From Oil and Gas Production in Areas Currently Off-Limits 
      (under leasing moratoria or inaccessible)'' submitted for 
      the record.................................................   122
    Florida Association of Convention & Visitors Bureaus' paper 
      entitled ``Position on Offshore Oil Drilling'' submitted 
      for the record.............................................   126
    Gemmill, Faith, Executive Director,, Resisting Environmental 
      Destruction on Indigenous Lands (REDOIL), Letter submitted 
      for the record.............................................   131
    List of documents retained in the Committee's official files.   128
    Luyendyk, Bruce, Professor of Marine Geophysics, Letter 
      submitted for the record...................................   112

 
OVERSIGHT HEARING ON ``OFFSHORE DRILLING: ENVIRONMENTAL AND COMMERCIAL 
                             PERSPECTIVES''

                              ----------                              


                      Wednesday, February 11, 2009

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, II, 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Faleomavaega, Abercrombie, 
Pallone, Napolitano, Holt, Grijalva, Bordallo, Costa, Boren, 
Sablan, Heinrich, Kind, Capps, Inslee, Sarbanes, Shea-Porter, 
Tsongas, Kratovil, Young, Gallegly, Duncan, Flake, Brown, 
Gohmert, Bishop, Lamborn, Smith, Broun, Fleming, Chaffetz, 
Lummis, McClintock and Cassidy.

 STATEMENT OF THE HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will come 
to order.
    The Committee is meeting today in the first of a three-part 
series of oversight hearings designed to look at our current 
offshore drilling policy and determine where we may need to go 
next.
    Today we will hear from representatives of the 
environmental, tourism and fishing industries. On February 24, 
we will hear from State officials; and on February 25, we will 
have the oil and gas industry present their viewpoint.
    The purpose of these hearings is to allow all sides to air 
their views so that we can begin to determine the best way to 
move forward and how to ensure that our offshore resources are 
managed in an environmentally and physically responsible 
manner.
    I believe we all remember last year when oil prices neared 
$150 a barrel, gas was over $4 a gallon, and, ``Drill, Baby, 
Drill'' was chanted repeatedly as a solution to high energy 
prices. While undoubtedly a catchy slogan, good for the 30-
second sound bites, it drowned out a number of key facts that 
are essential to this debate.
    First, the United States does drill, and we drill a lot. We 
are the third largest producer of oil and the second largest 
producer of natural gas in the world, with roughly a third of 
that production coming from public lands.
    There were more drilling rigs operating in the United 
States last year than in the rest of the world combined. Let me 
repeat that. There were more drilling rigs operating in the 
United States of America last year than in the rest of the 
world combined. Anyone who implies that we are not currently 
going after our own resources is being misleading, and perhaps 
a little disingenuous.
    Second, the vast majority of oil and natural gas in our 
Outer Continental Shelf is in those areas that are already 
being leased. According to the Minerals Management Service, 82 
percent of the oil and 84 percent of the natural gas in the 
Outer Continental Shelf are in those areas that were already 
available for drilling before the congressional moratoria 
expired last year.
    Talking about the percentage of the OCS that is not being 
leased is far less important than whether or not we are leasing 
the right acreage.
    Third, no reputable economist believes that increasing the 
amount of drilling we do in the OCS will have any real impact 
on energy prices. The Energy Information Administration looked 
at what would happen if we started leasing every single acre of 
the OCS, and they found that the impact on prices would be 
quite insignificant. Oil prices, as we all know, are set on the 
world market, and the United States does not have the reserves 
required to make a big dent in that market.
    Fourth, we cannot drill our way to energy independence. The 
Energy Information Administration found that drilling 
everywhere on the OCS would produce roughly 200,000 barrels in 
additional oil per day in 2030, only 1 percent of what we 
currently consume. Even the oil and gas industry agrees. A 
study contracted by the American Petroleum Institute found that 
unlimited OCS drilling would generate less than 300,000 barrels 
a day.
    And finally, to be clear, I am not opposed to drilling. I 
understand the benefits that we get from domestic oil and gas 
production, the jobs, the royalties, the money that we keep 
here at home instead of sending overseas; but I am also very 
well aware of the risk. Last week was the 40th anniversary of 
the Santa Barbara oil spill--an environmental disaster that 
showed us, in no uncertain terms, what the dangers are.
    If we are going to start drilling in new areas offshore, we 
have to be aware what the tradeoffs are, we have to ensure that 
it can be done safely and carefully, and we have to ensure that 
it is being done in the best interests of the American people, 
the true owners of these lands.
    These three hearings are just the start of this discussion. 
Under the leadership of our Subcommittee Chairman, 
Representative Jim Costa, the Subcommittee on Energy and 
Mineral Resources will be looking at these issues in even more 
depth in the coming months. With oil prices down to multi-year 
lows, no leasing moratoria on the Atlantic and Pacific Coast in 
place, and a new administration in the White House, this is the 
time to look at these issues anew.
    I want to thank our distinguished witnesses, who I will be 
introducing in a moment, for being with us, but before that I 
will recognize our Ranking Member, the gentleman from 
Washington, Mr. Hastings.
    [The prepared statement of Mr. Rahall follows:]

       Statement of The Honorable Nick J. Rahall, II, Chairman, 
                     Committee on Natural Resources

    The committee is meeting today in the first of a three-part series 
of oversight hearings designed to look at our current offshore drilling 
policy, and determine where we may need to go next.
    Today we will hear from representatives of the environmental, 
tourism, and fishing industries. On February 24th we will hear from 
state officials, and on February 25th we will have the oil and gas 
industry present their viewpoint.
    The purpose of these hearings is to allow all sides to air their 
views so that we can begin to determine the best way to move forward, 
and how to ensure that our offshore resources are managed in an 
environmentally and fiscally responsible manner.
    I believe we all remember last year when oil prices neared $150 a 
barrel, gas was over $4 a gallon, and ``Drill, Baby, Drill'' was 
chanted repeatedly as the solution to high energy prices. While 
undoubtedly a catchy slogan, it drowned out a number of key facts that 
are essential to this debate.
    First, the United States does drill, and we drill a lot. We are the 
third largest producer of oil and second largest producer of natural 
gas in the world, with roughly a third of that production coming from 
public lands.
    There were more drilling rigs operating in the United States last 
year than in the rest of the world combined. Anyone who implies that we 
are not currently going after our own resources is being misleading.
    Second, the vast majority of oil and natural gas in our Outer 
Continental Shelf is in those areas that are already being leased.
    According to the Minerals Management Service, 82% of the oil and 
84% of the natural gas in the outer continental shelf are in those 
areas that were already available for drilling before the congressional 
moratorium expired last year.
    Talking about the percentage of the OCS that is not being leased is 
far less important than whether or not we are leasing the right 
acreage.
    Third, no reputable economist believes that increasing the amount 
of drilling we do in the OCS will have any real impact on energy 
prices.
    The Energy Information Administration looked at what would happen 
if we started leasing every single acre of the OCS, and they found that 
the impact on prices would be, quote, ``insignificant.''
    Oil prices are set on the world market, and the United States does 
not have the reserves required to make a big dent in that market.
    Fourth, we cannot drill our way to energy independence. The Energy 
Information Administration found that drilling everywhere on the OCS 
would produce roughly 200,000 barrels in additional oil per day in 
2030, only 1% of what we currently consume.
    Even the oil and gas industry agrees: a study contracted by the 
American Petroleum Institute found that unlimited OCS drilling would 
generate less than 300,000 barrels per day.
    Finally, to be clear, I am not opposed to drilling. I understand 
the benefits that we get from domestic oil and gas production: the 
jobs, the royalties, the money that we keep here at home instead of 
sending overseas.
    But I am also very aware of the risks. Last week was the 40th 
anniversary of the Santa Barbara Oil Spill, an environmental disaster 
that showed us in no uncertain terms what the dangers are.
    If we are going to start drilling in new areas offshore, we have to 
be aware what the trade-offs are, we have to ensure that it can be done 
safely and carefully, and we have to ensure that it is being done in 
the best interests of the American people.
    These three hearings are just the start of this discussion. Under 
the leadership of Representative Costa, the Subcommittee on Energy and 
Mineral Resources will be looking at these issues in even more depth in 
the coming months.
    With oil prices down to multi-year lows, no leasing moratorium on 
the Atlantic and Pacific coasts, and a new administration in the White 
House, this is the time to look at these issues anew.
    I thank the witnesses for coming today, and I now recognize our 
Ranking Member, Mr. Hastings, for his opening remarks.
                                 ______
                                 

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman. And I want 
to thank you for calling today's hearing. And I hope that this 
hearing and the others that are scheduled that we will have 
will be focusing on the important issue that clearly will lay 
out the value of the resources in America and that American 
taxpayers have in those resources, and specifically in the 
Outer Continental Shelf areas.
    Mr. Chairman, few areas are more important to the American 
economy than energy. At a time when our country is facing 
economic turmoil, it is more important than ever that we are 
taking the steps to create more American jobs, not taking them 
away.
    There are recent reports that OPEC leaders are planning to 
meet in March to raise prices on American families and 
businesses. The belief is that OPEC will announce production 
cuts in order to double the current price of oil. We must send 
a message to the world that America will produce its own energy 
and no longer allow ourselves to be held hostage by foreign 
governments to high energy prices.
    This Committee has previously heard testimony that during 
the first half of this decade, America lost more than 3 million 
manufacturing jobs due to high energy costs. Yet the energy 
crisis of last year which hurt our economy can also provide the 
solutions to bring our economy back.
    Expanded domestic energy production will create good, high-
paying jobs and free America from our dependence on foreign 
energy. This renaissance is possible because for the first time 
since 1982, the moratoria restricting development of our 
Nation's Outer Continental Shelf was not included in this 
year's appropriation bills. Lifting the moratoria finally 
opened one of the richest resources in the entire world to 
potential development.
    The Minerals Management Service estimates that our Outer 
Continental Shelf holds more than 86 billion barrels of oil and 
420 trillion cubic feet of natural gas. Of these amounts, an 
estimated 18 billion barrels of oil and 76 trillion cubic feet 
of natural gas had been left undiscovered in areas previously 
off limits. It is entirely possible that America could multiply 
our undiscovered resources in the Atlantic many times over. 
Without further exploration it is impossible to tell exactly 
what amount of oil and gas reserves the United States is 
neglecting in the OCS.
    The development of the OCS isn't just about energy, though, 
Mr. Chairman, it is also about creating good American 
manufacturing jobs and building the infrastructure to harness 
that energy. The oil and gas industry is one of the highest-
paying industries in America. In addition, this capital-
intensive industry means that the development of a single 
platform can cost between $2- and $5 billion, depending on the 
platform. Now that really is economic stimulus, in my mind.
    Each productive new offshore lease will bring hundreds of 
jobs. When multiplied by the thousands of productive new 
leases, we could create millions of new jobs and have a 
renaissance of American domestic manufacturing.
    Exploration and development in the OCS doesn't mean 
destruction of our environment, contrary to some thoughts. In 
fact, modern technology has made OCS development cleaner and 
safer than ever. In 1999, the Clinton administration report 
stated, and I want to quote this entirely, ``In the past three 
decades, the petroleum business has transformed itself into a 
high-technology industry. Dramatic advances in technology for 
exploration, drilling and completion, production and site 
restoration have enabled the industry to keep up with the ever-
increasing demand for reliable supplies of oil and gas at 
reasonable prices. The productivity gains and cost reductions 
attributable to these advances have been widely described and 
broadly recognized.'' But I want to emphasize this: ``But 
public awareness of the significant and impressive 
environmental benefits from new exploration and production 
advances remain limited.'' In other words, all this is going 
on, but the public doesn't know about it.
    More recently, Hurricanes Ivan, Katrina and Rita impacted 
the oil and gas infrastructure in the Gulf of Mexico, including 
refineries, causing many producing oil and gas wells to be shut 
down. It is worth noting that no oil field workers were killed, 
and no oil blowouts occurred, even though many platforms were 
destroyed during these catastrophic storms. The safety and 
environmental protection technology built into the platforms 
worked.
    Finally, new production also brings financial benefits to 
taxpayers. In Fiscal Year 2008, the Minerals Management Service 
generated over $23 billion in revenue for State, Federal and 
tribal treasuries. Since the majority of these resources sit on 
Federally held lands, new expanded development will result in 
bonus bids, royalties and rents. In addition, expanded 
development will mean increased payroll and income taxes, 
increased business development, and a stronger U.S. dollar. A 
recent ICS study said that there is $1.7 trillion in revenue 
awaiting development in the OCS, a figure I believe anyone in 
this time would call a stimulus.
    This issue is of major national significance. Developing 
our resources will create desperately needed jobs across much 
of America. In addition, as our economy starts to rebound, 
energy prices will rise; and if they rise, it could stunt 
future growth. The longer we leave ourselves dependent on 
foreign oil, the more fragile our economy will be.
    As I stated at the outset, reports are that OPEC will be 
meeting in March to purposely manipulate oil production to 
raise prices on American families and businesses. The OPEC 
cartel may raise the price of a barrel of oil by 75 to 100 
percent, from $40 a barrel to $75 or $80 a barrel. America 
simply can't afford to leave the fate of our economy in the 
hands of this foreign cartel that controls 35 percent of the 
world's oil production. America can't afford to continue giving 
away $700 billion a year in thousands of high-paying energy-
production jobs to foreign countries who willfully manipulate 
prices to harm our economy and cost us even more jobs.
    The American people have spoken strongly in support of 
utilizing our resources on the OCS, and in these tough economic 
times, Congress and the President can't afford to sit by and 
not develop the tens of thousands of high-paying energy-
production jobs in America.
    Mr. Chairman, I believe that we can free America from our 
dependence on foreign oil, free America from imported foreign 
natural gas, and invigorate America's economy by harnessing the 
resources of America's OCS to create more energy with the skill 
and knowledge of the American worker.
    I look forward to hearing from the witnesses today and in 
subsequent hearings.
    [The prepared statement of Mr. Hastings follows:]

       Statement of The Honorable Doc Hastings, Ranking Member, 
                     Committee on Natural Resources

    Mr. Chairman, I want to thank you for calling today's hearing. I 
hope that this hearing and the others that we have focusing on this 
important issue will clearly lay out the value of the resources America 
and American taxpayers have in the OCS areas.
    Few issues are more important to the American economy than energy. 
At a time when our country is facing economic turmoil, it is more 
important than ever that we are taking steps to create more American 
jobs--not taking them away.
    It is important that we hold these hearings now to set the record 
in support of increased American development. There are reports that 
OPEC leaders are planning to meet in March to raise prices on American 
families and businesses. The belief is that OPEC will announce 
productions cuts in order to double the current price of oil.
    We must send a message to the world that America will produce its 
own energy and no longer allow ourselves to be held hostage by foreign 
governments to high energy prices.
    This committee previously heard testimony that during the first 
half of this decade America lost more than 3 million manufacturing jobs 
due to high energy costs. Yet the energy crisis of last year which hurt 
our economy, can also provide the solutions to bring our economy back.
    Expanded domestic energy production will create good high paying 
jobs and free America from our dependence on foreign energy. This 
``renaissance'' is possible because, for the first time since 1982, the 
moratoria restricting development of our nation's Outer Continental 
Shelf (OCS) was not included in this year's appropriations bills.
RESOURCES
    Lifting the moratoria finally opened one of the richest resources 
in the entire world to potential development.
    The Minerals Management Service estimates that our Outer 
Continental Shelf (OCS) holds more than 86 billion barrels of oil and 
420 trillion cubic feet of natural gas. Of these amounts, an estimated 
18 billion barrels of oil and 76 trillion cubic feet of natural gas 
have been left undiscovered in areas previously off-limits.
    While those numbers may seem large in their own right, they are 
actually small when compared to what really may be recoverable in that 
part of the OCS. Much of the data we have on the Atlantic is more than 
30 years old, from a time when most Americans were still using rotary 
phones.
    The technology of that era was not nearly as sophisticated as we 
have today. Advances in seismic exploration and drilling technology 
mean that we can both find and develop resources that we didn't know 
existed in the 1970's.
    It is entirely possible that America could multiply our 
undiscovered resources in the Atlantic many times over. Without further 
exploration it is impossible to tell exactly what amount of oil and gas 
reserves the United States is neglecting in the OCS.
JOBS
    The development of the OCS isn't just about energy, it is also 
about creating good American manufacturing jobs and building the 
infrastructure to harness this energy. The oil and gas industry is one 
of the highest paying industries in America. The average oil field 
worker makes nearly twice the national average.
    In addition, this capital intensive industry means that the 
development of a single platform can cost 2, 3, or 5 billion dollars 
depending on the platform.
    Each productive new offshore lease will bring hundreds of jobs. 
When multiplied by the thousands of productive new leases, we could 
create millions of new jobs and have a renaissance of American domestic 
manufacturing.
ENVIRONMENT
    Exploration and development in the OCS doesn't mean the destruction 
of our environment. In fact, modern technology has made OCS development 
cleaner and safer than ever.
    A 1999 Clinton Administration Report stated:
    ``In the past three decades, the petroleum business has transformed 
itself into a high-technology industry. Dramatic advances in technology 
for exploration, drilling and completion, production, and site 
restoration have enabled the industry to keep up with the ever-
increasing demand for reliable supplies of oil and natural gas at 
reasonable prices. The productivity gains and cost reductions 
attributable to these advances have been widely described and broadly 
recognized. But public awareness of the significant and impressive 
environmental benefits from new exploration and production (E&P) 
technology advances remains limited.''
    More recently, Hurricanes Ivan, Katrina and Rita impacted the oil 
and gas infrastructure in the Gulf of Mexico, including refineries, 
causing many producing oil and gas wells to be shut in. It is worth 
nothing that no oil-field workers were killed and no oil blowouts 
occurred even though many platforms were destroyed during these 
catastrophic storms. The safety and environmental protection technology 
built into the platforms worked.
    It is a testament to the coordination between the Minerals 
Management Service (MMS), the Coast Guard, and industry that everyone 
was safely evacuated and modern technology protected our environment.
REVENUE
    Finally, new production also brings financial rewards to the 
taxpayers. In Fiscal Year 2008, the Minerals Management Service 
generated $23.4 Billion in revenue for Federal, state and tribal 
treasuries.
    Since a majority of these resources sit on federally held lands, 
new expanded development will result in bonus bids, royalties and 
rents. In addition, expanded development will mean increased payroll 
and income taxes, increased business development, and a stronger U.S. 
dollar. A recent ICF study said that there is $1.7 trillion in revenue 
awaiting development in the OCS, a figure I believe anyone would call 
stimulus.
CLOSING
    This issue is of major national significance. Developing our 
resources will create desperately needed jobs across much of America. 
In addition, as our economy starts to rebound, energy prices will rise, 
which could stunt or cut off growth. The longer we leave ourselves 
dependent on foreign oil the more fragile our economy will be.
    As I stated at the outset, reports are that OPEC will be meeting in 
March to purposefully manipulate oil production to raise prices on 
American families and businesses. The OPEC cartel may raise the price 
of a barrel of oil by 75 to 100 percent--from $40 a barrel to $75 or 
$80.
    America simply can't afford to leave the fate of our economy in the 
hands of this foreign cartel that controls 35% of the world's oil 
production.
    America can't afford to continue giving away $700 billion a year 
and thousands of high-paying energy production jobs to foreign 
countries who willfully manipulate prices to harm our economy and cost 
us even more jobs.
    The American people have spoken strongly in support of utilizing 
our resources on the Outer Continental Shelf. And in these tough 
economic times, Congress and the President can't afford to sit by and 
not develop the tens of thousands of high-paying energy production jobs 
here in America.
    Mr. Chairman, I believe that we can free America from our 
dependence on foreign oil, free America from imported foreign natural 
gas, and invigorate America's economy, by harnessing the resources of 
America's OCS to create more energy with the skill and knowledge of the 
American worker.
    I look forward to hearing from our witnesses.
                                 ______
                                 
    The Chairman. We are going to move now to the two witnesses 
that are with us this morning, Ted Danson and Philippe 
Cousteau. Both are strong ocean advocates with a long history 
of defending and protecting our irreplaceable ocean resources. 
They understand the importance of our oceans as a valuable 
national resource for all Americans to enjoy, Ted, through his 
work with Oceana, and Philippe, through his lasting family 
legacy, and they both know that ocean conservation is a worthy 
cause.
    I think the background of Ted Danson is known to all of us 
as an award-winning film and television actor. Along with his 
many accomplishments as an actor, he continues to receive much 
acclaim for his work as a longtime advocate for the 
sustainability of the world's oceans.
    Philippe is the son of Jan and Philippe Cousteau--his 
mother is with us today, and we appreciate that--and the 
grandson of Captain Jacques Yves Cousteau. He is the CEO of 
EarthEcho and an Ocean Conservancy Board member.
    So, gentlemen, we are very honored to have you as our lead-
off witnesses for our hearings today and for the series of 
hearings over the next several months. We want to welcome you.
    Ted, you may proceed first. As I tell all witnesses, we do 
have your prepared testimony, which will be made a part of the 
record as if it was actually read. You may proceed in any 
manner you desire, both of you. We usually try to enforce a 5-
minute rule, but if you run over, that is fine. How is that for 
enforcement?

                STATEMENT OF TED DANSON, OCEANA

    Mr. Danson. Thank you very much. Good morning. My name is 
Ted Danson. I am a longtime ocean activist and a member of the 
Board of Directors of Oceana. We are a global ocean 
conservation organization based here in Washington, D.C. And I 
would like to thank you, Mr. Chairman, and members of the 
Committee for giving me the opportunity to speak to you today.
    In the late 1980s, Occidental Petroleum proposed slant 
drilling off the coast of Santa Monica. I was very concerned 
about the impact this would have on the ocean environment, so I 
teamed up with an environmental lawyer to fight it. I am happy 
to report that we won. After that, to make sure our oceans 
would continue to be protected, we co-founded American Oceans 
Campaign, which worked for 15 years to protect the oceans from 
oil drilling and other threats. We later decided to expand the 
capacity of the American Oceans Campaign by joining with 
Oceana, which is now the largest international organization 
focused solely on protecting the oceans. And so today I am here 
to testify against the opening up of the Outer Continental 
Shelf of our oceans to oil and gas development.
    The same reasons that made more offshore drilling a bad 
idea when I founded the American Oceans Campaign are still 
valid today. I am encouraged by the administration's 
announcement yesterday that they will be taking additional time 
to examine the offshore drilling issue.
    Oil and water don't mix. Our oceans give essential protein 
to nearly half the world's population. In the U.S., 
recreational and commercial fisheries combined supply over 2 
million jobs. On top of that, coastal tourism provides 28.3 
million jobs, and annually generates $54 billion in goods and 
services.
    Ecosystems are disrupted, top to bottom, by the short- and 
long-term effects of oil. More oil spills mean less abundant 
oceans; more oil spills mean fewer wonderful, pristine beaches; 
more oil spills mean fewer jobs.
    While not intentional, spills do happen. And according to 
the National Academy of Sciences, no current cleanup methods 
remove more than a small fraction of oil spilled in the marine 
waters, especially in the presence of broken ice.
    Approximately 120 million gallons of oil end up in the 
world's oceans every year from oil platforms, marine 
transportation, vessel discharges, and accidents. The impacts 
of oil on fish and other wildlife are numerous and well own. 
Ingesting oil is usually lethal, and long-term exposures can 
result in serious problems, such as reduced reproduction and 
organ damage.
    Each offshore oil platform generates approximately 214,000 
pounds of air pollutants a year. These pollutants include 
precursors to smog, acid rain, and contribute to global 
warming. Pollution released from rigs can affect people and 
animals living within 180 miles of that platform.
    For all these reasons, offshore oil drilling is such a bad 
idea that for more than 25 years our leaders put an end to it. 
Today it is still a terrible idea. In fact, with today's 
science, we have even more reason to keep the oil companies out 
of our oceans. That is because we now know that burning fossil 
fuels contributes to climate change.
    Climate change is potentially catastrophic for the oceans 
due to something scientists call acidification. As our oceans 
absorb carbon dioxide from the air, they become more acidic. 
Coral reefs, essential to ocean life, are already in trouble. 
If emissions continue to increase, there is likely to be mass 
extinctions of coral by the middle of the end of the century.
    Acidification also threatens the very base of the entire 
ocean food chain. Scientists estimate that the southern ocean 
could reach the tipping point as early as 2030. This means that 
in only 20 years, it is likely that creatures at the base of 
the food web, such as krill and sea snails, will be unable to 
create their shells. If the base of the ocean food web 
collapses, it would be catastrophic for the oceans, especially 
for our fisheries and everyone that depends on them for food 
and for jobs.
    Despite all of these problems, oil companies still want to 
invest billions of dollars in continuing our dependence on oil 
instead of creating a sustainable plan for the future. The 
argument for increased offshore drilling is essentially that it 
will get gas prices to come way down. That is simply not true. 
The oil companies are making us a sucker's offer. They are 
asking Americans to take 100 percent of the risk of ocean 
drilling for just a fraction of any potential benefits. In 
fact, even at peak production, increased drilling offshore 
would account for less than 1 percent of current energy demand 
in the U.S., and that is if in this global market the oil would 
stay in the U.S., which is unlikely. It would only amount to 
mere pennies in savings at the pump.
    The high gas prices from this summer were not due to a lack 
of oil drilling in American oceans, they were a result of high 
demand in a worldwide oil market. As we have seen, prices came 
way down in just a few months, which is a clear demonstration 
of that fact.
    The bottom line is this: Offshore oil drilling may be a 
good deal from the perspective of an oil executive's office, 
but it is a bad deal for a citizen looking at it from a 
California or a New Jersey beach. And so today I ask you to 
take three important steps that would steer our country in the 
right direction toward affordable energy and healthy oceans.
    First, I believe Congress should quickly reinstate the 
moratorium on new oil leasing in the Outer Continental Shelf 
and Bristol Bay.
    Second, the threats to the Arctic demand a separate and 
distinct planning process. Ongoing oil development activities 
must be suspended until that is completed.
    Finally, clean, carbon-free ocean energy, such as wind, 
tidal, wave and current power, must be a piece of our 
sustainable energy future. The Natural Resources Committee 
should hold hearings on the renewable resources that our oceans 
offer. Stimulating these energy sources creates jobs.
    Let's work with the oceans, not against them. Let's use 
their abundant wind and water energy to do things that will be 
good for the planet and good for America. Let's give future 
generations oil-free beaches and oceans that are an abundant 
source of food, wildlife and clean energy.
    Thank you for this opportunity.
    The Chairman. Thank you, Ted.
    [The prepared statement of Mr. Danson follows:]

      Statement of Ted Danson, Member, Board of Directors, Oceana

Introduction
    My name is Ted Danson and I am a member of the Board of Directors 
of Oceana, a global ocean conservation organization based here in 
Washington, D.C. that works to restore and protect the world's oceans. 
Besides our headquarters in Washington DC, Oceana also has staff 
located in Alaska, California, Florida, Oregon, and Massachusetts, as 
well as international offices in Brussels, Belgium; Madrid, Spain; and 
Santiago, Chile. We have 300,000 members and supporters from all 50 
states and from countries around the globe. Our mission is to protect 
our oceans and the fish and wildlife that depend on them.
    Today, I will present testimony regarding the need to protect our 
oceans from the threats posed by oil and gas development on the outer 
continental shelf of the United States.
    In the late 1980s, Occidental Petroleum proposed slant drilling off 
the coast of Santa Monica. I was very concerned about the impact this 
would have on the ocean environment so I teamed up with an 
environmental expert to fight it. I'm happy to report that we won. 
After that, to make sure our oceans would continue to be protected, we 
co-founded American Oceans Campaign, which worked for fifteen years to 
protect the oceans from oil drilling and other threats.
    We later decided to expand the capacity of the American Oceans 
Campaign, by joining with Oceana, which is now the largest 
international organization focused solely on protecting the oceans.
    And so today, I am here to testify against the opening up of the 
outer continental shelf of our oceans to oil and gas development. The 
same reasons that made more offshore oil drilling a bad idea when I 
founded the American Oceans Campaign are still valid today.
    Oil and water don't mix. Our oceans give essential protein to 
nearly half the world's population. In the U.S., recreational and 
commercial fisheries combined supply over 2 million jobs. On top of 
that, coastal tourism provides 28.3 million jobs and annually generates 
$54 billion in goods and services. Ecosystems are disrupted top to 
bottom by the short and long term effects of oil. More oil spills mean 
less abundant oceans. More oil spills mean fewer wonderful, pristine 
beaches. More oil spills mean fewer jobs.
    While not intentional, spills happen. These spills range from 
small, steady leaks to large accidents and they occur at every stage in 
oil production from the oil platform to the oil tanker to the pipeline 
and storage tanks. Approximately 120 millions gallons of oil are 
discharged into the world's oceans every year from oil platforms, 
marine transportation, vessel discharges and accidents. The impacts to 
fish and wildlife are numerous and well documented, often resulting in 
death.
    In addition, more offshore drilling contributes to climate change 
by continuing our reliance on fossil fuels without creating a 
sustainable plan for the future. Additionally, as our oceans absorb 
carbon dioxide from the air, our oceans become more acidic. This ocean 
acidification could drastically change life as we know it. Our corals 
are already at risk. Additionally, the base of the food web may 
collapse due to the inability to create their shells in a more acidic 
ocean. Scientists estimate that the Southern Oceans could reach the 
tipping point as early as 2030. The collapse of the food web would be 
catastrophic for our oceans, our fisheries and everyone that depends on 
them for food and jobs.
    Despite these risks to the oceans, it is hard to imagine why the 
perceived demand for expanded offshore drilling is so strong. The oil 
companies are asking Americans to take 100% of the risk for just a 
fraction of any benefits. In fact, even at peak production, the U.S. 
Energy Information Administration admits that increased offshore 
drilling would account for less than 1% of the current energy demand in 
the U.S. It would amount to merely pennies in savings at the gas pump.
    We should be thinking of our oceans as part of the solution to our 
nation's energy problems. Instead of offshore drilling, America needs 
science-based, precautionary management for our oceans. Our energy 
policies should fit within a consistent blueprint in which expanded 
conservation and improved energy efficiency are paired with 
facilitating renewable energy production to reduce our reliance on 
fossil fuels.
    And so, today, I ask you to take three important steps that will 
steer our country in the right direction toward energy independence 
based on renewable and carbon-free energy sources.
    First, it is critical that Congress quickly reinstate its moratoria 
on drilling in the Outer Continental Shelf (OCS) areas and Bristol Bay. 
Congress put the OCS moratorium in place in a bipartisan fashion every 
single year since 1982. Protection for Bristol Bay lapsed in 2004, and 
last year, due to the combined pressures of rising gas prices and an 
important election, the OCS moratorium was allowed to lapse.
    Secondly, the threats to the Arctic demand a separate and distinct 
planning process. The OCS moratoria do not include any of the offshore 
areas in Alaska except Bristol Bay, and there has been a significant 
expansion of oil and gas activities in the Arctic during the last eight 
years. The ongoing activities must be stopped, until a comprehensive 
conservation and energy plan for the Arctic is put in place that is 
based on assessment of the unique Arctic ecosystem and a precautionary, 
science-based approach.
    Finally, clean, carbon-free ocean energy such as wind, tidal, wave 
and current power must be a piece of our sustainable energy future. The 
Natural Resources committee should hold hearings on the renewable 
resources that our oceans offer. Stimulating these energy sources 
creates jobs. Let's work with the oceans, not against them. Let's use 
their abundant wind and water energy to do things that will be good for 
the planet, and good for America. Let's give future generations oil 
free beaches and oceans that are an abundant source of food, wildlife 
and clean energy.
    These points are further discussed in the testimony below:
I.  Moratoria in the OCS areas and Bristol Bay are Needed to Protect 
        our Oceans
    Our oceans and coasts are now at greater risk than at any time 
since the early 1980's. Since 1982, Congress has protected Outer 
Continental Shelf water in the ``Lower-48'' with a moratorium on oil 
and gas activities. Congress also has enacted a moratorium to protect 
the sensitive areas of Bristol Bay, Alaska. In addition, Executive 
moratoria have been issued by two Presidents. In 1990, responding to 
the 11 million gallon Exxon Valdez oil spill, President George H. W. 
Bush used his executive authority to place a moratorium on any leasing 
or pre-leasing activity in Lower-48 offshore areas, including a small 
portion of the Eastern Gulf of Mexico. In a separate action President 
Clinton limited new drilling in the rich Bristol Bay fishing grounds in 
Alaska until 2012. Unfortunately, Congressional protections for Bristol 
Bay lapsed in 2004 and President George W. Bush lifted the Executive 
moratorium in 2007. The broader Congressional moratorium for the Lower-
48 offshore areas was allowed to expire in 2008, and the Executive 
moratorium was lifted by President George W. Bush that same year. 
Reinstating both of the Congressional moratoria, including valuable 
habitat areas that were previously removed, such as Bristol Bay, must 
be a top priority. The Executive moratoria also should be reinstated to 
provide an added layer of protection for our marine life and coasts.
    Offshore oil and gas activities create a myriad of threats to 
marine life including accidents, routine spills, disposal of wastes 
such as drilling muds and produced water, and noise pollution. The 
dramatic increase in shipping activity associated with platform 
maintenance, and increased risks of marine mammal collisions, also 
imperil marine species, many of which are already threatened or 
endangered.
    Accidents inevitably accompany all stages of offshore production. 
The most typical causes of accidents include equipment failure, 
personnel mistakes, and extreme natural impacts from seismic activity, 
ice movements, hurricanes, and so on.
    According to the National Academy of Sciences, ``No current cleanup 
methods remove more than a small fraction of oil spilled in marine 
waters, especially in the presence of broken ice.'' Discharges 
associated with oil platforms, marine transportation, vessel discharges 
and accidents add around 120 million gallons of oil to the world's 
ocean every year, about a third of all inputs combined, including 
natural oil seeps.
    The impacts of oil on wildlife are numerous. Wildlife can become 
coated in or ingest oil, which will often lead to a quick death. 
However, oil in the environment can also result in non-lethal impacts, 
such as reduced reproduction and liver damage. These impacts are a 
death sentence for most animals in the wild, crippling their ability to 
avoid predators, find food and shelter and reproduce, all of which are 
essential to healthy functioning populations.
    Toxic compounds in oil have a similarly varied set of effects. 
These can include reduced reproductive success due to interruption in 
breeding behaviors and damage to the reproductive and immune systems. 
Oil's toxic constituents can also damage a long list of organs in 
marine animals including the eyes, mouths, skin, nasal cavities, 
nervous system, red blood cells, liver, lungs and stomach. It can also 
cause damage to turtle and fish eggs, larvae and young, all leading to 
varied impacts on survival and reproductive success.
    Oil can also affect the habitat of marine species, for example, by 
contaminating breeding beaches, estuaries, coral reefs, and seagrass 
and mangrove communities that are important feeding, breeding and 
resting grounds for a variety of species.
    Finally, these impacts can linger for extremely long time periods 
creating continuous low-level exposure to oil in the form of tarballs, 
slicks, or elevated levels of chemicals that can cause cancer, 
developmental and reproductive impairments.
    Besides accidents, daily offshore drilling operations also create 
other forms of pollution that affect marine and other wildlife. 
Offshore rigs can dump tons of drilling fluids, metal cuttings, 
including toxic metals (lead, chromium and mercury) and carcinogens 
(such as benzene, xylene and toluene and especially polycyclic aromatic 
hydrocarbons) into the ocean. Drilling muds are used to lubricate and 
cool the drill bit and pipe. One drilling platform normally drills 
between seventy and one-hundred wells and discharges more than 90,000 
metric tons of drilling fluids and metal cuttings into the ocean. One 
well can potentially affect an area of 1000 meters when it comes to the 
discharge of these materials. Some studies suggest that drilling-
related chemicals can stunt fish growth and affect breeding patterns. 
For example, cod exposed to this waste water had smaller eggs and 
delayed spawning time.
    Produced water, fluid trapped underground and brought up with the 
oil and gas is another type of pollution that comes from drilling. 
Produced waters have high salinity and oil content, so discharges sink 
to the seafloor where they poison the rich communities of plants and 
animals that often reside there.
    Factors other than pollutants can affect marine wildlife as well. 
For example, the firing of air guns during oil exploration sends such a 
strong shock across the seabed that it is believed to be capable of 
causing marine mammal strandings and increased whale mortality, 
decreased fish catch and damage to the hearing capacity of various 
marine species. For example, endangered grey whales were scared away 
from their only feeding grounds by unusually high noise levels at an 
oil and gas construction site near Sakhalin Island. Offshore oil rigs 
may also attract seabirds at night due to their lighting, flaring and 
aggregation of fish species, all of which can result in bird mortality.
    Air pollution from offshore oil rigs also poses a health threat to 
people who live in proximity to offshore oil platforms. The Living 
Oceans Society reports that a single offshore operation emits as much 
air pollution as 7,000 cars driving fifty miles per day. Various types 
of toxic air pollutants are emitted in the process of flaring. This 
process releases more than 250 different contaminants into the 
atmosphere, many of which are known to cause health problems such as 
lung and heart disorders, cancers, asthma, and reproductive problems. 
These pollutants can affect people and animals living within 300 
kilometers from the drilling platform.
    The harm posed by oil and gas activities in the Outer Continental 
Shelf is too large to ignore. As a result, it is incumbent upon the 
Congress to reinstate the OCS moratoria as soon as possible.
A.  Oil Production will worsen Climate Change.
    As described in detail above, the harm posed by oil and gas 
activities in the Outer Continental Shelf provides as good a reason to 
place a moratorium on such activities today as it has provided everyday 
since 1982. However, the worsening threat of climate change imposes a 
new urgency. We now realize that the release of carbon dioxide and 
other greenhouse gases that results from the use of oil is creating 
even more harm to society than was previously understood. Indeed, the 
need to curtail releases of greenhouse gasses adds another layer to the 
already strong argument for preventing the expansion of oil and gas 
production on the Outer Continental Shelf by renewing the moratorium.
    If left unchecked, human-caused emissions of greenhouse gases will 
have dramatic effects on the oceans and the planet as a whole. These 
impacts are already being felt in the Arctic, which is warming twice as 
fast as the rest of the planet. The loss and thinning of sea ice has 
made hunting and travel increasingly dangerous for indigenous peoples, 
and threatens the long-term survival of walrus, polar bears, ice seals 
and other ice-dependent animals as their essential habitat melts away. 
As these changes affect the Arctic, they will begin to affect all of 
us. Loss of sea ice and other changes in the Arctic may, in fact, 
amplify climate change on a worldwide scale and lead us closer to a 
tipping point, or a point of no return.
    Climate change is also causing our oceans to acidify. Since the 
industrial revolution, the oceans have absorbed almost 450 billion 
metric tons of carbon dioxide from the atmosphere, or about one-third 
of all anthropogenic carbon emissions. The oceans continue to absorb 
approximately 30 million metric tons of carbon dioxide every day. At 
the same time, 80% of the heat that is added to the atmosphere is 
absorbed by the oceans. Without the oceans, global warming would be far 
worse than it already is. But this service is, at the same time, making 
our oceans sick. The increased acidity is expected to take its toll on 
corals and other species that make their shells and skeletons from 
calcium carbonate. In fact, the Intergovernmental Panel on Climate 
Change (IPCC) predicts that, under a business-as-usual scenario, we 
will likely have a mass extinction of corals by the middle of this 
century. Impacts on marine life may be much more imminent in waters 
with lower carbonate availability such as those of the Arctic.
    These changes are a direct result of our dependence on fossil fuels 
for energy. Thus, we must reduce our emissions of greenhouse gases and, 
to do so, we must move away from fossil fuels, such as oil, and instead 
toward conservation, energy efficiency and alternative energy. As 
evidenced by the effects already occurring in the Arctic and elsewhere, 
there is an urgent need for action now.
    While we must begin this process now, reducing emissions of 
greenhouse gases will take time. The concentration of greenhouse gases 
in the atmosphere is increasing steadily as our emissions increase. We 
must first slow emissions of greenhouse gases and then take action to 
reduce their concentration in the atmosphere.
    Expanding oil and gas production on the Outer Continental Shelf 
will only exacerbate the already damaging effects of climate change on 
our oceans.
B.  Offshore Drilling Provides No Real Relief from High Gasoline Prices 
        and Will Not Create Energy Independence.
    The U.S. Energy Information Agency has found that at peak 
production in 2025 increased drilling offshore would produce 220,000 
barrels a day, which would account for less than 1 percent of current 
energy demand in the United States. As the recent drop in oil prices 
demonstrates, global demand for oil drives the global price and since 
the market for oil is truly global--oil from the United States is sold 
all over the world and increased demand from countries like China and 
India will have a greater effect on the price of oil than the 
availability of oil from the OCS.
II.  A Separate Planning Process is Necessary for the Arctic, Which is 
        Particularly at Risk from Industrialization.
    The Arctic is among the most beautiful and forbidding places on 
Earth. Life there swings between twenty-four hour daylight in the 
summer, and the long, dark, and cold months of the winter. The U.S. 
Arctic is home to tens of thousands of people and some of the world's 
most iconic wildlife species. Protected by sea ice, an unforgiving 
climate, and geographic remoteness, the ecosystems of the Arctic Ocean 
have been, until recently, among the Earth's least-disturbed. However, 
climate change is affecting the Arctic, which is warming nearly twice 
as fast as the rest of the world. This is forcing pronounced 
alterations of the Arctic environment that affect Arctic ecosystems and 
have worldwide implications.
    Climate changes and, in particular, the decline of sea ice, in the 
Arctic are creating the potential for industrial activities, including 
oil and gas development. While historically, there has been little oil 
and gas activity in the U.S. Arctic waters, the situation has begun to 
change. Until recently, there were no leases owned in the Chukchi Sea, 
and the limited activities in the Beaufort Sea have been focused on the 
nearshore areas close to existing infrastructure. We are now seeing a 
dramatic expansion of activities in the U.S. Arctic waters, and nearly 
80 million acres of ocean are currently available for oil and gas 
leasing.
    These areas are not covered by the Congressional or Executive 
moratoria discussed above, and leasing or exploration activities have 
begun in some places. These activities pose particular threats to 
Arctic marine ecosystems and the people who use and depend on them. 
Wells, pipelines and vessels create a substantial risk of an oil spill. 
No reliable method exists to clean up an oil spill in icy Arctic 
conditions, and such a spill would have catastrophic effects on 
important habitat for polar bears, other marine mammals, fish and 
recreational, spiritual and subsistence uses. In addition, the drill 
rigs, icebreakers, and seismic vessels necessary for oil and gas 
activities create substantial noise, which can cause marine mammals, 
such as bowhead whales, to stray far from their normal migration routes 
and feeding grounds, impact the animals' hearing and potentially cause 
other problems such as increased collisions with oil platform support 
vessels. The negative effects incurred by the bowhead whales from these 
activities are acutely felt by the Native communities that depend upon 
them.
    Many of the adverse effects of oil development described above may 
cause particular harm in Arctic ecosystems already stressed by climate 
change. For example, the toxic muds and fluids that are often 
discharged into the oceans from rigs threaten already stressed 
populations of Arctic marine species and the greenhouse gases, black 
carbon soot and other pollutants released from rigs and vessels into 
the air, accelerate Arctic warming and ice loss compounding ecological 
stresses on these species.
    In addition, decisions have been made in the absence of adequate 
scientific information. Particularly in light of the rapidly changing 
climate, much more information is needed about the sensitive Arctic 
ecosystems before prudent development should be allowed to proceed.
    Because the previous moratoria did not include most of the offshore 
areas in Alaska, a separate and distinct planning process must be 
undertaken, ongoing activities stopped, and a comprehensive 
conservation and energy plan developed. The development of this plan 
would begin with a comprehensive scientific assessment of the health, 
biodiversity, and functioning of Arctic ecosystems, including the 
benefits and consequences of carrying out specific industrial 
activities. A science-based precautionary approach should be used to 
determine if those activities should be conducted and, if so, when, 
where and how.
III.  We Must Shift Toward a Future in which We Rely Upon Affordable, 
        Carbon-Free, Renewable Energy and End Our Dependence on Oil--
        Entirely!
    We must shift toward a future in which we rely upon affordable, 
carbon-free, renewable energy; one in which our oceans and the 
environment are healthy, and one that ensures our freedom from oil 
dependency. Part of this effort must include an emphasis on development 
of carbon-free technologies, including wind and solar power in 
conjunction with improved energy efficiency.
    Halting the expansion of offshore drilling on the Outer Continental 
Shelf, and developing a comprehensive plan for all activities in the 
Arctic are important first steps in developing a comprehensive 
conservation and clean energy plan. In order to address a rapidly 
changing climate we must reduce our dependence on fossil fuels and 
shift to a future with affordable, renewable energy, a healthy 
environment, and freedom from the control of oil companies. Thus, we 
must begin to build a more sustainable foundation for the future based 
on renewable energy enabled by improved conservation and energy 
efficiency.
    While we will not be able to stop oil use all at once, there are 
many conservation measures that could be put in place immediately to 
reduce our energy needs. For example, raising fuel efficiency standards 
just for light-duty vehicles could save 18.4 billion barrels of oil by 
2030. Relatively small efforts such as properly maintaining vehicles 
and commuting one day less each week could result in substantial 
savings for families and reduce our oil consumption dramatically. If 
just 10% of U.S. passenger car travel were shifted to mass transit, 75 
million tons less carbon dioxide would be emitted each year. Similarly, 
minor adjustments in our thermostats could reduce our greenhouse gas 
emissions by 35 million tons each year. Numerous other conservation 
measures, from improving the energy efficiency of newly constructed 
homes and other buildings to avoiding unnecessary short-distance travel 
could reduce U.S. emissions of greenhouse gases by 20% or more.
    The United States Department of Energy has projected that we can 
generate 20% of electricity demand from renewables by 2030. Offshore 
wind could provide 20% of this amount. Supplying even 5 percent of the 
country's electricity with wind power by 2020 would add $60 billion in 
capital investment in rural America, provide $1.2 billion in new income 
for farmers and rural landowners, and create 80,000 new jobs. This 
effort has started, as the United States added enough wind power in 
2007 alone to provide electricity to more than a million homes.
IV.  Oceana urges Congress to reinstate the moratorium on offshore 
        drilling, begin the development of a comprehensive conservation 
        and energy plan for the Arctic, and move us towards a clean, 
        carbon-free, renewable energy future.
    These issues--oil, climate change, energy, and the ocean 
environment--are inextricably linked and must be addressed together. 
For example, reducing greenhouse gas emissions is necessary to protect 
our oceans; moving toward renewable energy sources is necessary to 
reduce greenhouse gas emissions; and we have an opportunity right now 
to make an unprecedented investment in the solution: renewable energy.
    On behalf of Oceana, I urge the United States Congress to act 
swiftly to set up a rational policy to protect our oceans, coasts--and 
planet--from the impacts of offshore oil and gas drilling. 
Specifically, in the first 100 days Congress should take the following 
essential steps to set America on course toward a new energy economy:
    <bullet>  Reinstate the moratorium on offshore drilling in U.S. 
waters on the Outer Continental Shelf including sensitive ecosystems 
such as Bristol Bay, Alaska.
    <bullet>  Begin the development of a comprehensive conservation and 
energy plan for the Arctic that provides a bridge from oil to renewable 
energy and conservation. The plan should include a comprehensive 
scientific assessment of the health, biodiversity and functioning of 
Arctic ecosystems, as well as the benefits and consequences of specific 
industrial activities. Ongoing activities must be stopped, and a 
precautionary, science-based approach must be applied to all oil and 
gas leasing, exploration and development activities in Arctic waters to 
determine if those activities should be conducted and if so, when, 
where and how.
    <bullet>  Adopt legislation that provides for clean, carbon-free, 
renewable sources of energy, including ocean energy such as wind, 
tidal, wave and current power must be a piece of our sustainable energy 
future. The Natural Resources committee should hold hearings on the 
renewable resources that our oceans offer. Stimulating these energy 
sources creates jobs.
    The challenge to provide affordable energy and a healthy 
environment is monumental, but there still is time for leadership and 
personal responsibility to turn the tide. We can and must think 
comprehensively and creatively about our oceans, energy, climate 
change, and the broader environment. U.S. leadership in this area will 
not only help stem the changes in our climate, it will help create a 
new energy economy that will benefit Americans and that can be exported 
to other nations, making the United States a leader and exporter of 
clean energy technology.
                                 ______
                                 
    The Chairman. Philippe.

       STATEMENT OF PHILIPPE COUSTEAU, OCEAN CONSERVANCY

    Mr. Cousteau. Thank you, Chairman Rahall, Ranking Member 
Hastings and the Committee, both for holding this series of 
hearings and for inviting me to speak here today. It is 
certainly an honor to speak on behalf of the oceans.
    I am CEO of EarthEcho International, as the Chairman said 
earlier, where we work to empower individuals to take action to 
restore and protect our oceans. And I also serve on the board 
of trustees of the Ocean Conservancy, the country's oldest and 
largest ocean nonprofit, harnessing over 35 years of policy and 
scientific expertise to anticipate ecological threats to the 
ocean.
    As many of you know, I have grown up around the ocean, and 
marine conservation has been part of my family's legacy for 
decades. Indeed, I remember hearing tales about my grandfather 
and his adventures, diving for the first time off the southern 
coast of France. But I also remember stories about how 
devastated he was by the changes that he saw over his lifetime, 
over a relatively short period of time, on those very reefs 
which are more or less a dead zone today. And I think that it 
is an irony that in the last 50 years we have seen not only the 
greatest amount of exploration of the oceans, but also the 
greatest amount of exploitation and destruction of them at the 
same time.
    Now, what is so critical about the Outer Continental Shelf 
is that almost all of the nonfisheries-based, not to mention 
much of the fisheries-based, exploitation occurs there.
    We face great hardship in this country at this time, and 
the ocean and coastal communities are a critical part of our 
economy. Over 50 percent of our GDP is generated in coastal 
counties where approximately 50 percent of our population 
resides, with blue jobs and marine industries contributing 
greatly.
    I am not advocating that we do not develop the Outer 
Continental Shelf, but if we are to realize the full benefit of 
our oceans, if they are to continue to provide us with the 
opportunities for economic development, it must be done in a 
way that is planned and that takes into consideration the 
health of the environment, or we will merely reap short-term 
gains at the expense of future generations.
    Specifically, speaking on behalf of Ocean Conservancy, we 
seek three things. First, Congress must act where it failed 
last fall. As Ted said, we must fully reinstate the moratorium 
on new oil leasing in the Outer Continental Shelf. Now, I 
strongly maintain that the reinstatement of that moratorium is 
absolutely critical to the health of the ocean. But if there is 
to be new drilling, at the very least--and again, I am against 
it--but at the very least, if there is to be new drilling, we 
must make sure and legislate that the process of new drilling 
siting and the conditions applied to exploration and production 
minimize their impacts. Science should guide any activity that 
occurs in the OCS, and where science is not adequate, it is 
absolutely crucial that studies should be conducted before any 
leasing occurs for any uses.
    And contrary to popular belief, not all ocean floors are 
created equal. There are a myriad of different types of 
habitat, from deep coral reefs to rich rocky habitats, to some 
relatively barren terrain, but the current process does not 
sufficiently consider these variables.
    Similarly, some regions are especially vulnerable, and 
Congress must ensure they are protected. In the Arctic, for 
example, as Ted said, we lack the baseline scientific 
information necessary to make informed decisions, and there is 
no capacity to handle accidents and oil spills in its ice-
filled seas.
    Rather than oil, I believe we must vigorously enhance our 
efforts to develop ocean renewable energy. That is the future. 
From wind, solar, wave, tidal, and even ocean thermal energy 
conversion, there is an endless potential to responsibly 
develop new and clean sources of energy and provide new jobs 
and economic development for this country.
    The second specific recommendation is for a comprehensive 
plan to put order in the ocean and stop the anarchy of 
fractionalized development. In late 20th century America, urban 
sprawl saw suburbs creep across the landscape in ever-widening 
mazes of highways and strip malls. In the ocean, the situation 
is similar, only worse. We need comprehensive planning, with 
conservation as a central deciding factor, so that the multiple 
competing industrial uses work together in a way that is 
sustainable for our shared ocean future. Indeed, it is not only 
critical for the environment that we plan, but also for 
industry, so that they can anticipate more accurately the 
outcome of permitting and development.
    And the third specific recommendation is the creation of an 
ocean investment fund. This would set aside a small portion of 
the revenue generated off these uses to pay for activities and 
projects that maintain and restore marine ecosystem health, 
such as comprehensive environmental-based spatial planning of 
the Outer Continental Shelf.
    Now, just as I said earlier that the last 50 years have 
seen the greatest amount of change and damage to our oceans, I 
believe it is the next 50 years that are the most crucial, the 
next 50 years that are our years, years that we will decide the 
fate of the world, and we have no time to lose. We must have 
the courage and conviction and foresight to make the decisions 
now that will set the course for our future forever.
    Let me close my time with you by sharing some final words 
from my grandfather, one of my favorite quotes: ``We can find 
happiness in protecting the world around us not only because we 
cherish it for its awesome beauty, power and mystery, but 
because we cherish our fellow humans, those who live today, and 
those who will live tomorrow, living beings who, like 
ourselves, will increasingly depend on the environment for 
happiness, and even for life itself.''
    Thank you for giving me this opportunity, and on behalf of 
EarthEcho International, as well as the half-million members in 
support of Ocean Conservancy, thank you for allowing their 
voices to be heard as well.
    The Chairman. Thank you, Philippe. Very powerful quote. 
Beautiful.
    [The prepared statement of Mr. Cousteau follows:]

          Statement of Philippe Cousteau, President and CEO, 
      EarthEcho International, and Board Member, Ocean Conservancy

    Thank you Chairman Rahall, Ranking Member Hastings and the 
Committee both for holding this series of hearings and for inviting me 
to be here today.
    It is a great pleasure and honor to be here to testify about the 
critical importance of responsibly managing our fragile and 
increasingly important marine resources. As many of you know I have 
grown up around the ocean and marine conservation has been part of my 
family's legacy for generations. I am the CEO of EarthEcho 
International, where we work to empower individuals to take action to 
restore and protect our oceans and also serve on the Board of Trustees 
of Ocean Conservancy, the country's oldest and largest ocean non-profit 
harnessing over 35 years of policy and scientific expertise to 
anticipate ecological threats to the ocean.
    Ever since the invention of the aqualung, or scuba tank as it is 
referred to today, by my grandfather, there has been an explosion of 
ocean exploration. Indeed, I remember growing up with tales about my 
grandfather's adventures; about when he took his first breath 
underwater and descended onto the reefs in the South of France. I also 
was told of how devastated the changes he saw in his lifetime on those 
very reefs which are all but dead today.
    I spent many hours of my own youth there, as well, diving off the 
coast of France as a young boy. I can no longer stand to go back. I 
find the barren and desolate underwater landscape so terrible. It can 
break your heart when you see the beauty that was once there--that was 
captured by my grandfather on film--and know that it's all gone now.
    I think that there is an irony that the last 50 years have seen not 
only the greatest amount of exploration of the oceans, but also the 
greatest amount of exploitation and destruction of them and it 
continues apace. What is so critical about the Outer Continental Shelf 
is that almost all of the non-fisheries based, not to mention much of 
the fisheries exploitation occurs there. From oil and gas drilling, to 
renewable ocean energy development and even aquaculture and traditional 
fishing, the OCS is under increasing pressure every year.
    We face great hardship in the country at this time and the ocean 
and coastal communities are a critical part of our economy ``Over 50% 
of our GDP is generated in coastal counties where approximately 50% of 
our population resides, with ``blue jobs'' and marine industries 
contributing greatly. I am not advocating that we do not develop the 
ocean. But if we are to realize the full benefit of our oceans, if they 
are to continue to provide us with opportunities for economic 
development, it must be done in a way that is planned and that takes 
into consideration the health of the environment or we will merely reap 
short term gains at the expense of our children.
    Specifically, speaking on behalf of Ocean Conservancy, we seek 
three things:
    First, Congress must act where it failed to act last fall: most 
preferably by fully reinstating the moratorium on new oil leasing in 
the OCS. While I strongly maintain that the reinstatement of the 
moratorium is critical to the health of the ocean, if there is to be 
new drilling we must at the very least legislate to ensure the process 
of new drill siting and the conditions applied to exploration and 
production minimize their impacts. Science should guide OCS oil and gas 
development, and where the science is not adequate, it is absolutely 
crucial that studies should be conducted before leasing occurs. 
Contrary to popular belief, not all ocean floors are created equal. 
There are myriad different types of habitat from deep coral reefs to 
rich rocky terrain to relatively barren mud but the current process 
doesn't sufficiently consider these variables. Similarly, some regions 
are especially vulnerable and Congress must ensure they are protected. 
In the Arctic, for example, we lack the baseline scientific information 
necessary to make informed decisions, and there is no capacity to 
handle accidents and oil spills in its ice-filled seas. There are 
cheaper, faster, safer alternatives to new offshore oil drilling to 
meet our energy needs and end our dependency on foreign oil. We must 
vigorously enhance our efforts to develop ocean renewable energy. From 
wind...solar...wave...tidal and even Ocean Thermal Energy Conversion 
there is an endless potential to responsibly develop new clean sources 
of energy. To give you an idea of the power of the oceans, on an annual 
basis, the amount of solar energy absorbed by the oceans is equivalent 
to at least 4000 times the amount presently consumed by humans.
    The second specific recommendation is for a comprehensive plan to 
put order in the ocean and stop the anarchy of fractionalized 
development. In late 20th century America, suburbs crept across the 
landscape in ever-widening maze of highways and strip malls. The term 
``urban sprawl'' entered the vernacular as a way to describe our 
penchant for building our cities outward with little forethought as to 
what we built where, and why. In the ocean the situation is similar, 
only worse. As we gaze out over the great blue expanse of the ocean, 
the peace and tranquility that we often witness is deceiving. Wind 
farms compete with recreation. Recreation competes with shipping. 
Shipping competes with conservation and so on down the line until the 
pattern reflects a tangle of uses that are neither economically 
efficient nor sustainable. It's clear that we need order in the ocean 
just as surely as we need it on land. We need comprehensive ocean 
planning--with conservation as a central deciding factor--so that the 
many competing uses work together in a way that is sustainable for our 
shared ocean future.
    I am sure that everyone can agree that having no laws, no zoning 
and no plan for the development of a city would lead to chaos and 
economic disaster, so too with the ocean. Indeed, it is not only 
critical for the environment that we plan, but also for industry so 
that they can anticipate more accurately the outcome of permitting and 
development.
    And the third specific recommendation is the creation of an ocean 
investment fund. This would set aside a small portion of the revenue 
generated off these uses to pay for activities and projects that 
maintain and restore marine ecosystem health, such as this 
comprehensive environmentally based spatial planning of the outer 
continental shelf. It is ironic that OCS mineral receipts have been 
devoted towards many causes, but never the preservation of our oceans. 
There is an appallingly low amount of investment in ocean exploration 
and conservation. In fact, we spend 1000 times more on space 
exploration than ocean exploration. This fund would be vital in the 
effort to push forward the veil of mystery that obscures much of the 
ocean and help enormously in further refinement of both management and 
conservation of our dwindling ocean resources.
    Just as I said earlier that the last 50 yrs have seen the greatest 
amount of damage to our oceans it is the next 50 that will be the most 
critical. The next 50, these are our years, these are the years where 
we will decide the fate of the world and we have no time to lose. We 
must have the courage and conviction and foresight to make the 
decisions now that will set our course forever.
    Let me close my time with you by sharing some final words my 
grandfather once wrote, and I'm quoting:
    ``We can find happiness in protecting the world around us not only 
because we cherish it for its awesome beauty, power, and mystery, but 
because we cherish our fellow humans, those who live today and those 
who will live tomorrow, living beings who, like ourselves, will 
increasingly depend on the environment for happiness and even for life 
itself.''
    Thank you for giving me this opportunity. And on behalf of 
EarthEcho International as well as the half a million members and 
supporters of Ocean Conservancy, thank you for allowing their voices to 
be heard today as well.
                                 ______
                                 
    The Chairman. Gentlemen, I thank you both for your 
testimony; it has been superb. And I appreciate what you said 
and understand your desire to see the moratoria reinstated. 
However, we may be in a situation where the ship has already 
sailed, and the political reality may be that the moratoria, as 
we knew it, will not be reimposed. You both have alluded to 
that.
    If that is the case--and I know, Philippe, you have said 
that science should be our guide--but if that is the case, what 
environmental safeguards would you both suggest be incorporated 
into any leasing program beyond what is in current law? For 
instance, do we need buffer areas? Or do we need certain areas 
with unique resources and features set-off limits? Do we need 
environmental and safety safeguards imposed before we allow 
drilling to continue?
    Mr. Cousteau. Well, I think we do indeed need as much 
protection as possible and as much research and knowledge as 
possible. We know so little about our oceans. I think people 
look at space and think ``the final frontier,'' when, in fact, 
we have explored less than 10 percent of our oceans.
    One of the challenges with the idea of a buffer zone, I 
would say 50 miles off the shore, is that ecosystems don't 
respect a straight, direct line around the continental United 
States. They vary in size and space where they are. So, I think 
a buffer zone, while a good idea, is probably not the best way 
to proceed.
    I think we need as much to understand and explore as much 
about the various ecosystems that exist in the ocean and then 
site appropriately. There are some places that are just not 
appropriate for any kind of development, very fragile marine 
ecosystems, deep sea coral reefs, et cetera, and I think all of 
that needs to be taken into consideration. Siting is the first 
and foremost, and knowledge, science. We need to know what 
exists before we exploit it. You would not put a coal-fired 
power plant in the middle of a pristine national forest. It is 
the same in the oceans. We must at least, at the very first, 
know what exists there before we exploit it.
    The Chairman. Ted.
    Mr. Danson. My hope would be that you would sail the ship 
back into port, because I think we are flirting with disaster 
by drilling and opening up the Outer Continental Shelf, period.
    We don't talk a great deal about what is happening to the 
fisheries of the world, and a lot of times when we talk, it 
sounds like we are talking about an environmental sweet, 
thoughtful, let's take care of the fishes and the beauty, but 
we are talking about economy and jobs and food.
    Our fisheries around the world are an $80-billion-a-year 
landed industry. One-third of the world's fisheries have 
totally collapsed, which means that they are below the 10 
percent level, which means they may not come back. The U.N. 
says that 75 percent of our fisheries are either fully or 
overfished.
    If we continue to harvest our fisheries the way we are by 
destroying habitat with bottom-trawling and wasteful bycatch 
being thrown overboard, science tells us we could literally 
fish out our oceans commercially in the next 40 to 50 years if 
the trends continue.
    So, you have an incredibly delicate balance in our 
fisheries already. Now you add acidification to the ocean, 
which would destroy, literally make it impossible for the 
bottom of the food chain to create shells that allow them to 
survive. The animals and creatures that eat the bottom of the 
food chain would also disappear.
    So, you have insults to the ocean from all different sides, 
besides the pollution of oil spills in areas--the Outer 
Continental Shelf, which is the nurseries for most of our 
fisheries, so that all of the added insults could literally 
have an impact on our oceans in our children's lifetime or our 
grandchildren's lifetime where we could fish out or destroy our 
fisheries completely. That is $80 billion a year, that is a 
billion people a year around the world that depend on that 
food. That is, you know, 200 million people who have jobs that 
they depend on to go out and be able to fish. So, this is about 
the economy, and it is about jobs.
    So, my answer is, absolutely do not open it up. You are 
pulling your finger out of the dike, and all sorts of bad 
things, I do believe, will happen. And we take the risks for 
very little benefit.
    The Chairman. Let me observe that the money from the oceans 
appears to go to everything but the ocean.
    Philippe, you have called for the creation of the Ocean 
Investment Fund, and I appreciate that. Do you have any 
recommendation on what percentage of OCS receipts should be 
dedicated to such a fund? And would you like to elaborate on 
what type of activities should be financed by that fund?
    Mr. Cousteau. Well, Chairman, that is a great point, that 
there is a fund that already exists that is subject to 
appropriations, the Land and Sea Conservation Fund, where 
revenue from current offshore drilling is placed--a percentage 
of revenue is placed, but none of it goes to ocean 
conservation, which is ironic.
    We certainly advocate an investment fund, new investment 
fund, for any new revenue that would be generated--or 
percentage. I think that it is up to policymakers to decide 
what that percentage is, but needless to say, it is a small 
percentage that would still generate potentially hundreds of 
millions of dollars--a fraction of the billions of dollars 
generated. A few hundred million dollars would go very, very 
far toward helping us to understand and having the investment 
necessary to research and understand what exists in the Outer 
Continental Shelf.
    We know so little about the oceans, and any additional 
research and planning and conservation would go very, very far.
    The Chairman. Ted.
    Mr. Danson. Unfortunately, I am not in the discussion from 
that point of view.
    The Chairman. Mr. Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. And thank 
both of you for your testimony.
    Just to kind of put an exclamation point on what you were 
discussing regarding the moratoria, both of you are in favor, 
yes or no, of reinstating the moratoria that has been in place 
since 1982?
    Mr. Danson. Yes.
    Mr. Hastings. Mr. Cousteau.
    Mr. Cousteau. I am absolutely fully in support of 
reinstating a moratorium.
    Mr. Hastings. Both of you represent organizations that are 
obviously pretty broad dealing with oceans. And you also said, 
both in your oral and written testimony, that you are in favor 
of wind power. Do you or your organizations support the 
placement of wind turbines on the coastline and/or in coastal 
areas and in ocean waters?
    Mr. Danson. With as much research and care going into what 
is the best place as far as it impacts fisheries and shipping 
and everything, if the studies were complete, yes, I would. I 
would be right up there probably muttering, ``Not in my back 
yard,'' but I would rather have that by far than oil rigs.
    Mr. Hastings. Mr. Cousteau.
    Mr. Cousteau. Absolutely. I think that oil is not the 
future, renewable energy is the future. And we can grasp that 
future. Wind power has a tremendous potential, especially 
offshore; it is much more reliable and much more powerful 
offshore. And as Ted said, I think all development of the OCS 
should be subject to a comprehensive plan that takes in spatial 
planning, takes in ecosystems. We would not advocate planning 
an offshore wind farm in a deep-sea coral reef either or a 
seagrass bed or anything like that. So, we need to know as much 
as possible, and it should be subject to the same kind of 
siting and responsible management as the OCS.
    Mr. Hastings. What about specifically of the potential 
siting off Nantucket Sound off the north Atlantic coast?
    Mr. Danson. That is sounding very much like my back yard, 
Congressman.
    Mr. Hastings. And your response?
    Mr. Danson. My response would be, I would be sad to change 
my view. I would be thrilled to have it be in that direction as 
opposed to oil. And I would also note, if I could slip in this, 
that for every million dollars that was invested into green, 
into the wind, it would be creating 17 jobs as opposed to 5.5 
jobs for every million invested into oil. So, I would be happy 
for the economy as well.
    Mr. Cousteau. I think that any development of offshore 
wind, if it is an appropriate place, is a good thing, certainly 
off of Nantucket. I think, again, as I said, I think they are 
quite elegant. I think it represents the future. I think it is 
a great example that every time we don't build an offshore wind 
farm or renewable energy, and we build, say, a coal-fired power 
plant--and one out of four children in New York City have 
asthma--there are other prices that we pay for the further 
development of oil and coal and gas in the health care of this 
Nation, in the health of our children. It is not just the 
direct impact of jobs, though, as Ted said, green jobs are 
potentially a much greater source of jobs than the traditional 
oil. So, I am fully supportive of any wind anywhere if it is an 
appropriate place.
    Mr. Hastings. Well, we focused a bit on Mr. Danson's back 
yard. I assume that your answer to that question would be the 
same off the east or west coast; is that correct?
    Mr. Cousteau. Absolutely.
    Mr. Danson. Yes.
    Mr. Hastings. One last question I have. You are talking 
about alternative power and so forth. Has your organizations, 
or have you, taken a position on nuclear power, which, of 
course, is emission free?
    Mr. Danson. That is not part of our campaign. Just as a 
civilian saying--first off, I don't know enough about it. 
Second off, it seems to me that the disposal of the waste is 
still a problem that we need to fix. But it is not something 
that I am by any means an expert on.
    Mr. Hastings. Mr. Cousteau.
    Mr. Cousteau. We have not taken a position either way on 
nuclear power.
    Mr. Hastings. I might say that, since you brought up the 
waste issue, it is worth noting that if we recycled the spent 
waste, we could drastically reduce the footprint. If that could 
be satisfied, at least you would be open to looking at that; is 
that correct?
    Mr. Danson. Ted would. I can't speak for Oceana. Sorry, it 
is way above me.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    The Chairman. I am going to recognize Members according to 
their presence here this morning, and I believe on our side the 
next would be Mr. Kind of Wisconsin.
    Mr. Kind. Thank you, Mr. Chairman. I, too, want to thank 
Mr. Danson and Mr. Cousteau for their testimony here today. And 
obviously it is a big area that we are going to have to come to 
grips with, given the expiration of the moratorium last year 
and the debate that will undoubtedly ensue.
    And one of my big problems with the idea of drilling on the 
OCS is the illusion that this can be the answer to our energy 
challenge in the 21st century. When, as the Chairman indicated 
in his opening statement, we can't drill our way out, we have 
to be smarter than that, which means enhanced investment in 
clean technology, clean energy sources, but by offering this 
illusion that offshore drilling is going to solve all our 
problems, it may take our eye off the ball, and that is the 
future and where we have to go with the investments that we 
have to make.
    But there are a couple of arguments that I was hoping you 
guys could quickly touch upon that we constantly hear. One is 
the enhanced technology and the reduction of spills or mistakes 
or accidents occurring. And the second one is the States rights 
argument, and that is, if a State where drilling will occur 
offshore has done the calculation and the cost/benefit or the 
analysis, and they think, fine, let's take that risk, what is 
wrong with that? Why not leave it up to the States to determine 
if they are going to allow offshore drilling off of their 
shores since the risk and the impact is going to be much 
greater on them than anyone else?
    Mr. Cousteau. Well, I think that oceans do not respect 
geographic boundaries. I mean, oil spreads in the ocean, as I 
pointed our earlier. I mean, currents carry oil everywhere. And 
while technology has advanced--mind you, the U.S. Coast Guard 
reported that over 9 million gallons of oil were released into 
both land and water from six major spills and five medium 
spills during Rita and Katrina. So, there is still a tremendous 
amount of oil that can be spilled during natural disasters. The 
technology has not advanced that far, it is still a great 
problem. And that can be felt for 20 or 30 miles away from the 
site where the oil spill occurred, if not further. So, there is 
currently no technology to clean up, especially in the Arctic, 
such a fragile place, with ice floating. We have absolutely no 
idea how to clean that oil up.
    So, I think that still the technology is not far enough for 
that kind of an argument, for the argument that it is safe to 
drill now. It is not.
    Mr. Kind. Mr. Danson.
    Mr. Danson. I would just reiterate what Philippe said, that 
the technology of actual drilling may be better, I don't know. 
But the whole package is transporting it, pipelines, platforms 
cutting loose. Our figures are 120 million gallons of oil end 
up in the water every year. And I think you have to, when you 
think about drilling for oil, you have to think about the 
entire package, which means you are also going to burn it.
    We have denied climate change for so long, the rest of the 
world is so far ahead of us in making and producing a 
technology to deal with that. So, why would we be the last in 
line to create a technology and jobs that would be lasting 
forever, that would also not spew carbon dioxide into the 
oceans and risk destroying the bottom of the food chain in the 
oceans? I mean, it is just a whole package you have to think 
of, not just one argument.
    Mr. Kind. And I think both of you are correct that the 
great potential that exists with alternative renewable energy 
sources, we are just scratching the surface on that right now. 
And the technology is leaping forward, and it is going to make 
it much more viable in capacity building, too.
    But, Mr. Danson, what is wrong with the argument that if 
the people in the State of California, that benefits greatly 
from the ocean, the tourism, the economy there, decides that 
they are willing to take the risk of setting up some platforms 
offshore, what is wrong with leaving it up to the State of 
California to make that determination as opposed to us?
    Mr. Danson. I don't know the legality or the legislative 
way to deal with that, but the fact is that Oregon and Mexico 
and Washington and Nevada and Utah may have a strong feeling 
about that because of air and wind and currents. You are not 
acting alone anymore. We are all in this together, and we need 
to find a solution together. States, I don't think, can just, 
you know, go it alone and say, I don't care if I mess up my 
back yard because you are messing up someone else's.
    Mr. Kind. Thank you, both.
    Thank you, Mr. Chairman.
    The Chairman. After consultation with the Ranking Member, 
we have decided we are going to recognize Members as much as I 
can follow the order in which they came to the hearing, 
physically present, this morning.
    So, on the Minority side, I recognize the gentleman from 
South Carolina Mr. Brown.
    Mr. Brown. Thank you, gentlemen, for coming.
    To give me a little bit broader perspective of the area 
that you are involved in, Ted, is this an American 
organization, or is it an international organization?
    Mr. Danson. It is international. We have offices in 
Santiago, Chile; and Madrid and Brussels; small presence in 
Geneva; Juno, Alaska; Washington.
    Mr. Brown. So, you are not just concerned with just the 
United States as far as the energy policy or the environmental 
policies?
    Mr. Danson. You know something, we are in the process of 
coming up with, as an organization, our stand on energy and 
oil. This Committee hearing, I think, came before Oceana has 
had a chance to formulate a policy that is worldwide. So, I am 
here really dealing with this specific moment in time.
    Mr. Brown. And I guess that is always my concern is 
exactly, you know, how does the United States fit into the 
world? We are such a small portion of it, about 5 percent of 
the population, and yet I think we all want to become bullish 
in trying to find a new resolve to the petroleum base that we 
find our economy, but it is a slow transition. And I know we 
are trying to move into some other energy source, but we are 
still dependent upon natural gas and petroleum. It is going to 
be difficult for us to keep our economy at the pace that we 
find today without having another reliable energy source.
    Are you as opposed to natural gas development as you are 
petroleum?
    Mr. Danson. My understanding is that most of the time you 
find natural gas by drilling for oil. So, my fear in saying, 
yes, go drill for natural gas, is it would be a back-door way 
for oil companies to drill for oil.
    Mr. Brown. But isn't the scientific evidence now that you 
actually can determine at the source what you are going to be 
finding underneath the surface?
    Mr. Danson. I am sorry, I don't know. That may be so. I am 
sorry.
    Mr. Brown. As we look at the United States in perspective 
with the rest of the world, you know, I have traveled to many 
countries in this great universe, and we find a good number of 
those countries aren't as sensitive to the environment as we 
are. In fact, we have some countries that are just filling in 
the ocean. And you would think that the environmental community 
would be in an outrage over doing that. What comment could you 
give me on that?
    Mr. Danson. And we are, we are absolutely outraged wherever 
this takes place. We deal with these issues all around the 
world. And this country has, in many ways, some of the best 
environmental laws and regulations. Some of the most thoughtful 
people on both sides of the aisle are involved with making this 
an environmentally sound Nation. So, we have a record we should 
be proud of. But this would not be one of those things we 
should be proud of, opening up the Outer Continental Shelf.
    Mr. Brown. And I think we must maintain some level of the 
economy that we can all have a good quality of life. You know, 
I am not willing to give up my automobile. You know, I mean, I 
like riding bicycles and this sort of stuff, but I think it is 
going to be a long time coming.
    I am just really kind of appalled that the national 
community--like cutting down the rain forest. We were in Brazil 
the other day, and it is amazing how that is going to impact 
climate change. We want to do our part, but I know the Chairman 
mentioned the fact that we drill more than any other country, 
but the fact remains that we still are 70 percent dependent on 
foreign countries for our energy sources. We have to resolve 
that problem not only for our economy, for our security, too. 
And I would hope somehow that the environmental community and 
the oil-developing companies could all come together with some 
sense of operation.
    Mr. Danson. Can I just say one more thing? I so agree with 
you. I think people are suffering. I think our energy crisis is 
real. What upsets me is it feels cynical and shortsighted, and 
not creating more jobs, and not doing the right thing for our 
economy in the long term, and not doing the right thing for the 
environment. So, when you look at just the jobs, you end up 
doubling the jobs if you go with investing in green energy. 
Those jobs also--well, anyway----
    Mr. Brown. Well, I feel the same way about the 70 percent 
of energy that is being developed in these other countries. If 
they could be developed in the United States, look at all the 
jobs that could be created, maybe not in the same portion as 
the green, but we have to do both. I just feel that that is 
important.
    Mr. Chairman, I know my time is expired. Thank you very 
much.
    Thank you all very much for coming.
    Mr. Cousteau. May I add something to that? I agree that 
there needs to be collaboration in finding solutions. I just 
want to say that I think that this is such an outstanding 
country. The United States has an opportunity to take a real 
leadership role in our management of resources. And since the 
moratorium was not reinstated, there is virtually no protection 
for the Outer Continental Shelf. And I think that if we want to 
maintain our leadership role and enhance our leadership role 
from an environmental perspective, that you refer to, 
Congressman, that we must have an integrated management plan, 
which ideally would not include oil and gas, but nonetheless 
would be a plan that we can be proud of and that can provide 
leadership for ocean management for rest of the world.
    Mr. Brown. You wouldn't be in favor of closing the ones we 
have down now, would you?
    Mr. Cousteau. No. I think we are supportive on reinstating 
the moratorium on any new oil and gas drilling.
    Mr. Brown. But keep the current ones.
    Mr. Cousteau. I think if they are there, I think it is 
unrealistic to expect that they would be shut down.
    Mr. Danson. I would say in the Arctic Ocean, we need to 
look at that very carefully because oil spills of any kind 
there, even with existing wells, we are not advocating shutting 
down pumping, but it is very tricky in the Arctic Ocean. An oil 
spill would be disastrous and uncleanable--
    Mr. Brown. Thank you very much.
    The Chairman. The gentlelady from Massachusetts, Ms. 
Tsongas.
    Ms. Tsongas. Thank you very much for your testimony and 
your great passion around protecting the oceans. And also, Mr. 
Cousteau, I was moved and reminded again by your grandfather's 
quote how we have only one Earth, and how it is our obligation 
to protect it.
    As you have both testified, our oceans contain unique 
ecosystems that support diverse species and many of our 
national treasures. One of these national treasures is the 
Georges Bank off the coast of Massachusetts, a mass of sand and 
gravel underwater plateau. Nearly the entire bank is less than 
200 feet deep, in some places only 10 feet deep. And as you can 
imagine, it plays an important role in the Gulf of Maine by 
accelerating the tidal waves as they race across the bank 
toward and away from New England. This cycle distributes 
nutrients which support an abundance of marine life, including 
259 different species of animals. Congressman Ed Markey from 
Massachusetts has introduced legislation, which I support, that 
would protect this area, and I hope that we are successful in 
passing this important bill.
    But as you know, and as you both mentioned, waters and 
ecosystems are not contained within State or national 
boundaries. How would you suggest we work with our neighbor, 
Canada, here on the east coast, and our neighbor, Mexico, on 
the west coast as we begin to address the importance of 
protecting these natural resources? Have you given it any 
thought? Have you worked with partners there? I am curious to 
hear your comments.
    Mr. Danson. For Oceana, do you mind if I get back? Because 
I know there is a great answer, I am not aware of it. But I 
know we do work and think about that a great deal. So, do you 
mind if we get back to you with that answer?
    Ms. Tsongas. Absolutely.
    Ms. Tsongas. Mr. Cousteau.
    Mr. Cousteau. I think certainly, as well, that any specific 
work that Ocean Conservancy has done with Mexico and Canada I 
would have to get back to you, and we certainly can do that.
    Mr. Cousteau. But I think, again, that this is such an 
outstanding country, and we have such an opportunity for 
leadership, we must focus on our own back yard first and 
provide the protections and the responsible management of those 
systems first to then be able to walk the walk and not just 
talk the talk. And I think that is absolutely critical, and it 
is going to be a difficult process, but since when has the 
United States, this great country, turned its back on a 
difficult challenge? We have always embraced them and overcome 
them. And I think we must start now, because it will be 
difficult to map and to understand the Outer Continental Shelf 
as much as we need to, and we must start now.
    Ms. Tsongas. Well, I don't see it as an excuse for not 
acting, failure to engage or somehow finding a way to work with 
our neighboring countries. It is really more of the challenge 
we have, as we do our part here, how we prevent actions from 
beyond our borders from having a negative impact on all our 
good work. So, thank you for that.
    Mr. Cousteau. That is a very good point.
    Mr. Danson. May I just say, one of the places is the World 
Trade Organization, and the chance of reducing subsidies for 
the first time, fishing subsidies. That is one way for all the 
nations to work together, because Canada and New England have 
all the same problems, they are dealing with the same fishing 
issues. So, I know we have been working very hard at the World 
Trade Organization.
    Ms. Tsongas. Well, I would welcome your further thoughts as 
you have a chance to go back to your organizations.
    The other question I have is that proponents of offshore 
drilling often point to new technologies and equipment that you 
have mentioned that minimize impacts on aquatic ecosystems. I 
am just curious if you think these are effective, if people are 
underestimating the impacts in spite of these new technologies, 
if there is truthfulness in all of these statements around 
these new technologies.
    Mr. Danson. You know, I assume there is some truthfulness 
to that statement. And then there is truthfulness to the 
statement that 120 million gallons of oil end up in the ocean 
waters every year. So, maybe the drilling technique is better, 
but you still have to get the oil from there to our cars, and 
in the process you have a lot of spillage, obviously, 120 
million gallons in the ocean. So, the problem still exists.
    Ms. Tsongas. Mr. Cousteau.
    Mr. Cousteau. I agree. You know, the spills that are still 
occurring from, as I said a little earlier, 9 million gallons 
of oil from Hurricane Rita and Katrina alone. Just recently 
Hurricane Gustav, there were 33 oil spills of up to 8,000 
gallons each off Louisiana. Just off of Santa Barbara a few 
months ago there were 10,000 gallons or so that were spilled.
    So, oil spills still occur, and I think that the public 
doesn't realize that really. I think a lot of people think the 
days of Exxon Valdez are over. I must say that many of the oil 
tankers in the world still are not double-hulled, they are 
still not reinforced as they should be. And we lack any real 
technology to clean up an oil spill.
    And to give you an idea, 16,000 gallons of oil still remain 
in the sound where the Exxon Valdez spilled, Prince William 
Sound, 20 years later. So, the impacts of oil spills are 
lasting and myriad, and I think that is very important.
    And Ted mentioned earlier, he made a great point, that the 
footprint of oil drilling is not just the oil rigs themselves, 
it is the entire infrastructure that is designed--the 
pipelines, the receiving stations that is necessary to support 
those rigs. And if you look at a lot of the development on the 
coast of Louisiana, it is from servicing platforms for oil rigs 
that destroyed many of the wetlands and the natural resources 
there that would have helped to mitigate Hurricane Katrina and 
would have saved potentially billions, if not tens of billions, 
if not more billions of dollars, out of our economy that was 
spent to mitigate Katrina, to repair after Katrina, and to 
potentially save lives, and certainly save people and culture 
and this country a lot of heartache.
    So, oil has many compound effects, negative effects. And I 
think, again, that we can do a lot better.
    Ms. Tsongas. Thank you.
    The Chairman. The gentleman from Texas Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And as we discuss oil spills, I would like to urge that we 
not get into ``word spills'' over disagreements, different 
opinions. The Chairman said that anyone who represents we are 
not going after our own resources is being disingenuous, or 
worse. It seemed like we were tiptoeing up, to our words being 
taken down, when we just have a disagreement.
    Some of us believe that since 85 percent of the Outer 
Continental Shelf is off limits, I think we are not going after 
all of our resources, where as apparently the Chairman and 
others think 15 percent is going after all our resources. But I 
applaud our witnesses for your efforts in doing what many 
believe was the original job for man, and that was tending this 
garden that we have been given, because we should be good 
stewards.
    Mr. Gohmert. But I also have concerns just trying to make 
sense of some of these things. We are provided figures that 
indicate that 63 percent of the oil in the ocean is coming from 
natural seepage and that 32 percent is coming from boats, 
ships, tankers and--I am sorry, 4 percent from tankers but 32 
percent from sources. And also that after Katrina there were 
spills, but according to this--we had a statement from the 
Coast Guard--it didn't come from platforms; it came from 
industrial plants, storage depots and other facilities, because 
the information that I have been able to get said that the 
platforms, even though it was a level 5 when it hit the 
platforms, 3 when it hit the coast of Louisiana, it destroyed 
about 100 of the platforms, but there was no leakage from the 
platforms themselves. They were able to--let's see, this report 
says shut in with the subsurface safety valves. They were 
closed as the personnel abandoned before the storm. Some 
platforms were equipped with control systems that allowed them 
to be monitored remotely and shut in.
    And as I look at the advances and I have to tell you Mr. 
Cousteau, your grandfather was entertaining and so educating 
and was really inspirational to so many of us. But when you 
look at products he used and designed and engineered and all 
the incredible finds that he was able to do to make this a 
better place to live--natural gas was a feedstock for so many 
of the products. As I recall watching, I watched every Jacques 
Cousteau special there was and thoroughly enjoyed them. But I 
was thinking that the Calypso was not a sailboat, right? I mean 
it used oil-based products, correct?
    Mr. Cousteau. The Calypso was an old World War II mine 
sweeper, diesel-powered, yes.
    Mr. Gohmert. So, we do have to balance these things.
    And, Mr. Danson, we may disagree on some things but I have 
to tell you, you provided pleasure and laughter and 
entertainment and enjoyment at a time when around my house it 
was much needed, and I will always be grateful to you for the 
pleasure that you brought my family.
    But Ralph Regula was on this Committee back in the 1981 
area and he said that the big complaint they got from people 
that were begging for the moratorium, first from California, 
was they just did not want platforms on the horizon seeing the 
sunset, and also there had been in 1969 the big oil spill at 
Santa Barbara; but to my understanding we haven't an oil spill 
since '69 from a platform, and I think it is largely because of 
efforts by people like you demanding better accountability. But 
then he said, then Florida came in and said we don't want oil 
rigs or platforms in our sunrise. And then once California and 
Florida got the moratorium, then the rest of the Nation said, 
well, we don't want it either for the most part.
    But on the fishing, growing up in Texas we heard this 
complaint, that if we allow these platforms off the coast then 
it is going to destroy fishing. And, Mr. Danson, you made such 
a great point about how many people were allowing fishing, but 
since the platforms have been out there if you want to go 
fishing, they take you to the oil platforms. And in fact the 
data that I have been provided here from some friends that are 
involved in this effort say that 100 platforms each year are 
removed and most taken to the shore for recycling and some are 
taken, towed and installed as approved artificial reef sites. 
That is 10 percent that are done with that. And that increases 
fishing and helps folks.
    And I realize I have used my 5 minutes but, again, thank 
you for your effort. I think it does make people more 
accountable, but I hate to put people out of work or make 
things too expensive that hurt us as we move toward things like 
wind power. I think solar power could be tremendous, and I 
would encourage what basically it sounds like you were alluding 
to: if we get some resources, allow OCS to be open for 
drilling, then take those proceeds and dedicate it to further 
research and development for these other sources that really 
are our future. But thank you very much.
    Mr. Danson. Thank you.
    The Chairman. I am not sure I heard a question but you can 
go ahead and comment.
    Mr. Cousteau. If I could just add something, thank you for 
your comments. I agree that we must tend this garden, that we 
must protect this planet, Congressman. I appreciate that. I 
will say, though, in my grandfather's defense----
    Mr. Gohmert. He doesn't need a defense. I have nothing but 
praise for your grandfather.
    Mr. Cousteau. The second ship he built, the Alcyone, was 
designed to be a sail-powered, wind-powered vessel. But I will 
also say that while oil spills from rigs were perhaps rare, if 
they occurred at all, during the hurricanes, the impact on the 
infrastructure still resulted in 9 million gallons. So, it is 
still part of the drilling of the oil and gas, 9 million 
gallons spilled on both land and sea, in total, through the 
infrastructure and pipelines and through the receiving 
stations, et cetera.
    And I also agree with you that the ocean energy, renewable 
energy, is of tremendous potential. Every year the ocean 
absorbs 4,000 times more energy than is used by the entire 
planet. It is pretty remarkable, the ocean--the potential that 
exists in ocean energy. So, I thank you for that comment.
    Mr. Danson. I think blighting the sunset and creating more 
fishing around platforms is a very kind of small part of the 
whole picture. It is not--I don't think you can just look at 
the drilling of oil and say that--and just talk about that. You 
have to talk about burning it. You have to talk about the 
entire picture.
    So, on every level we create more jobs with green energy, 
and jobs are so important now. So, to imply that we are losing 
jobs by not drilling in the offshore feels to me disingenuous. 
The benefits at the pump, people are scared at high prices 
coming our way. And to make people think that it is going to be 
solved by drilling seems to me also not a good thing to put out 
in the world when we are all so scared.
    The big picture of oil, not just the sunsets and the 
fishing around them is that--the result of burning carbon fuels 
is disastrous to our planet right now. In just my area, oceans, 
we literally could be destroying the bottom of the food chain 
at the same time we are fishing out the top of it. But we could 
literally destroy--and I am told not to use percentages because 
it is not scientific; but you know, 20, 30 percent of our 
oceans could be wiped out like that because of acidification, 
which comes from carbon dioxide coming into our waters and 
changing the pH balance, which comes from burning carbon fuels.
    So, it just seems to me we are on this incredible path of 
destruction and we are using this one little thing. This Outer 
Continental Shelf could help us create jobs and turn around our 
energy problem when the big picture is we are going so far in 
the wrong direction with continuing this addiction to oil. 
Sorry.
    Mr. Gohmert. But it sounds like fishing problems, as you 
pointed out, was from overfishing and not from platforms that 
have created fishing jobs off the coast----
    Mr. Danson. Carbon dioxide getting in at the levels we are 
putting in there from burning oil will absolutely wipe out the 
bottom of the food chain, which would devastate fishing. There 
would be very few fishermen around our oil platforms.
    Mr. Gohmert. Do you still drive a car?
    Mr. Danson. Yes. And I drive hybrids, which can--yes. 
Sorry. I do drive a car and I used plastic and----
    Mr. Gohmert. But the hybrids plug in, don't they?
    Mr. Danson. I use all of those things. Sorry. I shouldn't 
be interrupting.
    The Chairman. I think we will have more time to discuss 
this. The gentleman's time from Texas has been extended by 5-1/
2 minutes.
    The gentleman from New Jersey, Mr. Pallone, is recognized.
    Mr. Pallone. Thank you, Mr. Chairman. I want to thank both 
of our panelists for all you have done not only today but 
historically to protect the oceans. And I wanted to say that I 
join with you in wanting to reinstate the moratorium and, 
frankly, making it permanent. And I also would be willing to 
have wind farms off the coast of my district. In fact, some 
have actually been proposed.
    But I wanted to really kind of zero in on--and I thought 
that Ted Danson--I actually wrote this down, Ted, when you 
said, ``This is about the economy and this is about jobs,'' 
because that is so true. My district is along the coast. We 
depend on tourism more than ever, particularly with the 
recession. And the bottom line is that when I think about the 
small amount of oil or natural gas that might be drilled for 
off the coast of New Jersey versus the damage to the economy, 
which is, you know, the second largest industry, and people 
unfortunately don't think of New Jersey as a tourism mecca all 
of the time, but the fact is it is the second largest industry 
in the State.
    So, I wanted to ask Ted Danson, has your organization or 
either of your organizations really done a cost analysis of the 
potential costs of drilling on coastal economies versus the 
potential energy savings? Because it seems to me that if you do 
that, it is weighted in favor of coastal economies in not 
having this drilling. Have either of you any statistics in that 
regard.
    Mr. Danson. Can you vamp while I look?
    Mr. Cousteau. I thank you, Congressman, for that insightful 
question. We do not have any statistics, but I will say there 
are far cheaper and more efficient ways to deal with our oil 
consumption in this country, including boosting oil efficiency 
in our homes, gas efficiency. Let us not continue to feed our 
gluttonous need for this product. Let's find other ways. And I 
think efficiency is a big way to do that. That will mean we 
don't need to continue new drilling and we can develop, as you 
said so well, though, the kind of renewable energies that have 
so much promise.
    Mr. Pallone. I mean I have seen figures that say when you 
talk about the mid-Atlantic coast, you are talking about--or 
actually the entire eastern coast of the United States, you are 
only talking about a few weeks' U.S. consumption. And I know 
that you are talking about billions of dollars annually just 
from my district that is directly related to tourism.
    And the other thing I wanted to say, because I know I don't 
have a lot of time, is that this whole idea of people being 
willing to swim and have active tourism near these oil rigs, 
that is just a lot of nonsense. I mean you start putting these 
oil rigs off the coast of New Jersey, people aren't going to 
come whether they spill or not. But the reality is there have 
been spills.
    I know that in the next panel I guess it is Mr. Minich's 
testimony, I have a little quote here I will read. It says that 
in 2005 Hurricanes Katrina and Rita destroyed 113 oil platforms 
and damaged 457 pipelines near Louisiana. This is according to 
Minerals Management Service. The agency reported 124 spoils 
totaling 741,000 gallons of petroleum from offshore rigs, 
platforms, and pipelines.
    You know, there is this notion out there that, you know, 
that no rigs caused spills and there was no damage per Katrina 
and Rita; and that if there was any, it was all localized and 
it didn't have any impact.
    Would you want to comment on that, either of you, because 
my understanding is that there were a lot of spills.
    Mr. Cousteau. Congressman, absolutely there were several 
spills; dozens, in fact. And satellite images clearly show oil 
slicks covering hundreds of miles, hundreds of square miles in 
the Gulf of Mexico. So, any idea that there is localization to 
the oil spills is untrue. You are absolutely correct.
    Mr. Danson. I have the same figures in front of me that you 
do: 183 oil platforms were affected, 113 completely destroyed.
    Also, green investments, this was the University of 
Massachusetts study, 17 jobs created for 1 million invested 
into green as opposed to 5.5 jobs from 1 million into oil. So, 
the jobs--the economy argument seems to go in the favor of not 
opening up and continuing offshore oil drilling in my mind. 
Total economic activity from offshore wind alone could reach a 
cumulative 950 billion by 2030 and create 250,000 jobs. Another 
little tidbit. A good one, too.
    Mr. Pallone. Thank you both. Really I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Louisiana, Mr. Fleming.
    Mr. Fleming. Thank you, Mr. Chairman.
    First let me say, Mr. Danson, I appreciate your movie 
career, your TV career. As a physician of 32 years I identify 
with your cranky doctor character, think about it a lot.
    And, Mr. Cousteau, your grandfather, of course I have seen 
every one of his TV segments and some of them many times over.
    There are a couple of things, Mr. Cousteau, that you said 
that I certainly agree with. You said this needs to be driven 
by science. Oftentimes in this debate, politics drive the 
science rather than the other way around. And I think it is 
really important that we let science determine where we are 
going to go with things, within a certain moral and ethical 
standard. You also said that we should have minimal impact or 
reduced impact, and I certainly agree with that.
    One of the problems that we are seeing today with this 
discussion about wind turbines and solar energy is the 
technology is really not as advanced in those areas as in the 
safety that we have in the petroleum industry to protect our 
environment. I would love to heat and cool my home with solar. 
I would love to have a windmill in my backyard that would drive 
everything. But to a great extent those are inefficient and 
noncompetitive forms of energy with what we have today with 
petroleum. So, while those are lofty goals, I am not sure that 
we are quite there yet, and we certainly need to bridge that 
gap.
    Jobs in Louisiana, which I represent and which is perhaps 
the most impacted among States, with whatever decisions are 
made here, good or bad, we have 21,000 producing company jobs 
that are related to oil and gas just to the Continental Shelf 
itself. Estimated payroll of 1.2 billion, with an average 
annual salary of around $60,000 per employee.
    Recently we had in our area, northwest Louisiana, finding 
of the Haynesville shale, which we didn't even know--didn't 
have the technology to exploit even several years ago because 
it is natural gas, it is in a shale. We don't know what all we 
can do out there in the ocean today because we have new and 
emerging technologies that are advancing.
    Also, with respect to the issue of 120 million gallons of 
oil that were spilled, I guess, last year and years before 
that, my question is what percentage of that was actually 
related to platforms themselves? Our statistics show that since 
1980 the estimates are less than .001 percent of oil has 
spilled from the U.S. production percentage out of a total of 
4.7 billion barrels of oil production.
    So, that is a question and then certainly I welcome any 
comments. Thank you, Mr. Chairman.
    Mr. Danson. I love Louisiana and I can imagine it would be 
hit hard if magically we switched to wind and solar and moved 
off of oil. So, I am not in a position to refute anything you 
are saying about jobs in Louisiana. Wind and solar has 
progressed more than I think you depicted it. For 17 years, 
Europe has had ocean wind farms and they have been very 
successful. Clearly you need to invest money into these areas 
to make them come up to the level of oil exploration and 
investments. But it seems to me that we were looking at this--
two things. I agree that science should lead the way, but I am 
not sure that science in fact has led us to the point where it 
is OK to open up the Outer Continental Shelf. I think you said 
once we open it up--what I heard was once we open it up, we 
need to let science and facts lead the way. But I don't think 
science and facts are leading the way to even have the 
conversation about opening up, because the science and the 
facts say don't. For the economy, don't; for the environment, 
for the long-term health of the planet and health of people's 
everyday health, don't. So, I would disagree on that point.
    Oil, it is not just the oil platforms that are perhaps 
behaving wonderfully well, but it is how do you get it to the 
cars? So, it is pipelines, it is barges, it is whatever. That 
is where some of the spills happen. So, I agree with you, 
platforms probably have gotten better and drilling technology 
perhaps has gotten better, but that is just one part of the 
entire picture and the entire picture to me is the wrong 
direction.
    Mr. Cousteau. If I may add to that, Chairman.
    Congressman, thank you for your comments. I agree with Ted. 
Wind power, certainly one facility can provide 4 to 5 megawatts 
or more of wind power. We are at least 10 years, if not more, 
behind Europe; and I think that is appalling when we think 
about the opportunities that we have missed over the last 
decade to develop our renewable energy economy here in this 
country.
    Certainly, as I have stated before, the infrastructure for 
the platforms affected the coastal habitats of Katrina--of 
Louisiana, which certainly had--allowed Katrina to have a 
greater impact on the State. And so I wonder what kind of 
offset there is with respect to the jobs and the money that is 
earned from the oil and gas industry in Louisiana compared to 
the damage and the cost that was required to mitigate that 
damage and rebuild after Katrina.
    I wonder, I don't know, but I wonder if that wouldn't 
offset at least a little bit some of that gain that you 
mentioned. And I think it is deceiving to think that overall, a 
small percentage of oil has been spilled, because we cannot 
forget that even a minor amount of oil has a devastating impact 
on environments. And certainly I think 9 million gallons is 
pretty substantial with respect to Katrina and Rita, and that 
is both land and water.
    And I think from a scientific perspective, I absolutely 
agree with you that science is critical to what we are doing 
and to understanding. And when I talk about science for the 
Outer Continental Shelf, it is because we know so little about 
it and we must start now in our understanding what our 
alternatives are in fighting in the Outer Continental Shelf for 
any development--renewable, aquaculture fishery, anything. We 
just don't know enough. And I think it is critical to start now 
to develop that science and to learn. And honestly, we will 
receive no gains from any further oil and gas drilling for a 
decade or more. It is not going to help us today.
    And I think it is a false promise to those people who are 
hurting at the pumps, who were hurting at the pumps this fall, 
to promise them that drilling is--while polluting the 
environment further, while hurting the oceans further, while 
continuing to pollute the air and our children, is going to 
help you at the gas pump, because it won't. And I think we need 
to vigorously engage in renewable energy and really get off the 
oil and gas as a primary focus. It should be last resort, if 
any at all.
    The Chairman. The gentleman's time has expired.
    Mr. Fleming. Could I just have two quick comments?
    The Chairman. Very quickly.
    Mr. Fleming. With respect to utilization of solar and wind, 
I know there are a lot of tax subsidies that go on with that. 
So, it is very hard to measure the success on that. And I think 
that if you look at the oil spills in a global way, the 
increased production and as a percent of production and flow, 
we have seen the instance of that in the numbers of gallons 
steadily decrease over time. So, it is not perfect and we need 
it better, of course, but it is getting better.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Maryland, Mr. Kratovil.
    Mr. Kratovil. Gentlemen, thank you for being here. My name 
is Frank Kratovil. I am a freshman Congressman representing the 
First District of Maryland, which includes the entire eastern 
shore of Maryland, and I am particularly concerned about this 
issue as a result of one of the proposals off the coast of 
Assateague, which is very close to me.
    As we have this debate I pride myself on trying to 
recognize the other sides of issues. I was a prosecutor and did 
my best to balance both sides of the issues. And I have to tell 
you on this issue, Ted, that you have raised, I am 100 percent 
in agreement with you. I just do not get the argument on this. 
And during the election I was amazed that the entire focus of 
the debate was whether or not we should be opening up 
additional places to drill. In my view, that is question number 
two. And we are having a debate here today on question number 
two, which is: Should we be opening up new places to drill?
    We haven't answered question number one. And question 
number one, during all of the debate in the Presidential 
election and still going on, question number one is: Why are we 
not drilling in the areas where they are able to drill?
    So, my question to you is--and I intend to ask this to the 
other panel when they come here--but before we move to question 
two, which is getting back to the cost and benefits of doing 
this, which is an appropriate argument to have, I am not sure 
the benefits are worth it. But before we get to that question, 
the first question is: Why are we not drilling in the areas 
that are currently leased?
    And my question to you folks as you have been looking at 
this, do you have a view--what is your perspective on that 
issue, even if it is one that is perhaps cynical? Why in your 
view are they not drilling in those areas that are available 
right now?
    Mr. Danson. It probably would be cynical and not factual; 
so I don't know the answer, but I would definitely say that I 
don't want them to drill in areas that they have permission to 
drill in on the Outer Continental Shelf. The argument for me is 
still the same, although it is a great question. Why are we 
talking about opening up new leases when there are existing 
leases? And I will say in the Arctic Ocean, do not drill in the 
existing leases that you own until you have done an 
environmental impact report that is genuine, because a spill 
there would be devastating.
    Mr. Cousteau. I agree. I don't know the specific reason. I 
know that some places that have been leased are under 
development currently. But I don't know why all of them have 
not been developed. Certainly I cannot speculate on that. But I 
must agree with Ted that in the Arctic it is very fragile.
    Mr. Kratovil. But my point is as that debate went on during 
the Presidential election, I was constantly amazed at how we 
were--the folks that were opposing the drilling were losing the 
argument. And my point to you guys is, it seems to me that 
should be the thrust, at least one of the thrusts of your 
arguments, which is asking that question and getting answers to 
that question. That question was never answered. So, we are 
moving to issue two when the folks that want to drill more 
haven't answered question one. So, I think in moving forward, 
that is a question we need to ask and we need to get the 
answers to that.
    Mr. Danson. In all honesty, I am a little afraid of their 
answer, which might be a ``good idea.'' So, for me, it is a 
mixed----
    Mr. Kratovil. Well, it isn't in terms of moving to 
additional----
    Mr. Danson. Absolutely. I agree.
    Mr. Kratovil. To getting the boat back in the port.
    I yield the rest of my time.
    The Chairman. The gentleman from Colorado, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Could I have my 
opening statement submitted to the record?
    The Chairman. Sure.
    [The prepared statement of Mr. Lamborn follows:]

       Statement of The Honorable Doug Lamborn, Ranking Member, 
              Subcommittee on Energy and Mineral Resources

    Mr. Chairman, development of America's Outer Continental Shelf 
(OCS) will create jobs, reduce our dependence on foreign oil, and 
generate substantial revenue for the federal government. The 
Congressional Research Service said there is nearly $800 billion in 
revenue available from the OCS areas that were under moratoria. This 
estimate is nearly the same amount proposed by the current majority in 
the pending stimulus package.
    The choice between a clean environment and OCS development is a 
false premise. We can have both energy development and a clean 
environment. In 1999 the Department of Energy, then run by Secretary 
Bill Richardson, produced a report which found that advanced technology 
means that oil exploration and development can be clean, create jobs, 
and produce the energy needed for America.
    We will need this energy. The Energy Information Administration 
says that we will continue importing massive volumes of oil from now 
through 2030. The United States currently imports more than 12 million 
barrels of oil per day, more than 60 percent of all the oil it 
consumes. Over the past 35 years, as America's demand for energy has 
grown, U.S. production of its own domestic resources has fallen 
steadily. We don't have to continue that trend. We can and must develop 
our domestic resources and reduce our reliance on foreign energy.
    While I am an advocate of increasing access to energy resources in 
the OCS I believe that we need more than just oil and gas development. 
We need to use all the resources available to us. This means we must 
expand areas for capturing wind and solar energy. Breaking down the 
barriers which stop those developments on federal lands is paramount. 
We should open more areas to tidal and wave energy harnessing the 
energy of the oceans and tides to help power America. We must open the 
Nation's vast oil shale resources in my home state of Colorado, as well 
as those in Utah and Wyoming. Unleashing these resources can help 
secure our energy future. We should expand our use of nuclear energy, 
and cut permitting times to make replacement structures a reality. We 
need an ``all of the above'' energy strategy to free America and spur 
our economy.
                                 ______
                                 
    Mr. Lamborn. I would like to ask you, Mr. Danson, about 
tradeoffs because there are so many tradeoffs in life. To the 
extent that we reduce the energy available from domestic 
sources, including from offshore drilling, we become more 
dependent, I believe, from foreign sources. Have your 
organizations analyzed the risk of a catastrophic oil spill 
coming from a tanker coming in from a foreign source, 
especially that we know there are terrorism risks to tankers, 
there are piracy risks, compared to that that could be incurred 
from a spill from a platform? Have you done that kind of risk 
analysis?
    Mr. Danson. No. No, we haven't. But I imagine it would be 
horrendous. Your example would be horrendous.
    Mr. Lamborn. Because I was just trying to compare the two, 
because to the extent we don't do one, we are going to have to 
do more of the other.
    Mr. Danson. But we will never stop having those foreign oil 
freighters coming into our waters if we think by drilling in 
the Outer Continental Shelf, which will produce 1 percent of 
our daily needs, we will never not have those foreign 
freighters in our waters. So, the argument of trying to get 
away from under foreign influence won't happen.
    Mr. Lamborn. Let us look at it a little differently. We 
have the most environmentally rigorous protections for offshore 
drilling in the U.S. than there are for any other country.
    Mr. Danson. Yes.
    Mr. Lamborn. So, to the degree that we shut down and don't 
have offshore drilling in the U.S., we will have more offshore 
drilling in Third World countries. Now, it doesn't--and I know 
you think globally, which is good. Won't we have more risks 
from a Third World offshore operation than we have from the 
rigorous and advanced types of operations we have here in the 
U.S.?
    Mr. Danson. If we just sat in that oil universe, yes, that 
is probably true. But I don't think the goal is to remain in 
this carbon universe. It is to develop and not--truly develop 
and have alternative sources of energy, relieve the burden of 
having to drill for oil and burn oil all over the world.
    Mr. Lamborn. Mr. Cousteau, would you----
    Mr. Cousteau. I agree. I think we need to get off the 
debate from the spectrum of oil and embrace a vigorous approach 
to renewable energy that is worthy of this country's ingenuity 
and power and gifts. The Outer Continental Shelf drilling in 
2007 accounted for 27 percent of total U.S. oil production. Any 
new drilling in the Outer Continental Shelf will not result in 
new oil for at least a decade. Any new drilling in the OCS is 
not going to mitigate drilling environmental effects elsewhere. 
It is not drastically going to reduce our continued importation 
through tankers of oil into this country. And so it is just not 
going to help that situation. Because I think you make a good 
point that tankers are very dangerous. They continue to be--as 
I mentioned earlier, many of them are still single-hulled like 
the Exxon Valdez. But continued drilling in the OCS is not 
going to significantly increase any of our domestic oil 
production and is not going to decrease our importation of oil 
significantly either.
    Mr. Lamborn. Well, we will have to continue to agree to 
disagree on some of those points. Thank you.
    Mr. Cousteau. Thank you.
    The Chairman. The gentlewoman from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And my 
first question is for Mr. Danson. I thank you for your 
testimony this morning and I know you have been personally 
committed to ocean conservation issues for more than two 
decades and I do appreciate your efforts.
    I represent a district that is in the middle of the ocean, 
so I am extremely interested in this topic. And I am sure you 
don't remember, but a few years ago at the Ocean Summit in 
Monterey you were seated right next to me. I remember you, but 
I know you don't remember me.
    Mr. Danson. Give me a chance. Wait.
    Ms. Bordallo. As you know, Mr. Danson, scientists are 
telling us that climate change is having considerable impacts 
on our oceans and the resulting ocean acidification is likely 
to cause a mass extension of corals by the middle to the end of 
this century. In fact, the Great Barrier Reef has been 
projected to stop growing around 2050. In your opinion, what 
are some of the critical steps that Congress can take to 
address ocean acidification in that regard?
    Mr. Danson. I think you are looking at it right now. I 
think if you were to say we are not going to drill on the Outer 
Continental Shelf because it would be--first of all, the 
benefits would not be--the risks way out--sorry, I am babbling 
here.
    I think by sending a signal that we are not going to 
continue drilling for oil and burning oil, that we are going to 
look for alternative sources of energy. We are serious. We are 
not going to do token drilling that makes no sense 
scientifically or factually; that we are actually going to 
focus all of our energy in renewable sources of energy would be 
a huge signal for that.
    I don't know that people realize the seriousness of the 
fact that our oceans are not able to absorb any more carbon 
dioxide without the oceans changing their pH balance. Global 
climate change sounds like this kind of liberal airy-fairy 
thought, and it is not. It has a huge impact on our industries, 
on our health, on the future of our oceans. Without coral reefs 
you don't have nurseries for our fisheries to expand. It is a 
huge problem. So, to answer your question I would say send a 
signal.
    Ms. Bordallo. Mr. Cousteau?
    Mr. Cousteau. Thank you Congressman. ``Airy-fairy,'' I like 
that, Ted.
    Mr. Danson. Sorry.
    Mr. Cousteau. No. I think it is true. You know, 25 percent 
of our coral reefs are already dead around the world, and 
scientists estimate another 25 percent by the middle of this 
century. That is shocking when you think that they hold at 
least a third of the biodiversity in our oceans. Ocean 
acidification is one of the greatest threats that we are facing 
today, I believe. And it is directly not from climate change 
but directly resultant of the output of carbon into the 
atmosphere and the absorption by the ocean.
    So, I think that is an interesting distinction to make. And 
the science can be done in the laboratory. I mean it is not 
controversial and cannot be debated. We know, however, from 
research, that if corals are to be resilient and are to 
withstand the additional stresses of ocean acidification that 
they cannot withstand further impacts--that they need to be 
healthy otherwise. So, if they are withstanding multiple 
impacts, be it impacts from oil, be it runoff, nutrification, 
nutrient overload in the water, whatever it may be, 
development, it is like having cancer, meningitis, 
tuberculosis, all those things at the same time. You are not 
going to survive. So, if there is any hope for our coral reefs 
to survive ocean acidification and the other threats that are 
facing them, we must do what we can to minimize our impacts on 
their health and certainly minimize immediately our output of 
carbon into the atmosphere, period.
    Ms. Bordallo. Thank you very much. And I have one more 
question, Mr. Chairman, for Mr. Cousteau.
    You spoke very eloquently about the need for better 
planning before we embark upon more development, even renewable 
energy development in the oceans. Can you elaborate more on 
that need for not just better planning but more comprehensive 
management that looks at all activities and their cumulative 
impacts?
    Mr. Cousteau. Thank you, Congresswoman. You know, as I said 
in my testimony, urban sprawl is something that has come to be 
seen as a negative thing on the land and a lack of planning and 
understanding of what sites in the ocean are appropriate--for 
what is bad for the environment is bad for industry as well.
    And I think first and foremost, we need the science to 
understand what exists, and then to be able to cite what uses 
are appropriate where--similar to the way we plan on the land. 
As I said, we wouldn't put a coal-fired power plant or a toxic 
waste dump in the middle of a national park, and this is with 
respect to any kind of development, wind, aquaculture, 
anything. There needs to be a comprehensive plan.
    I think it is incumbent upon Congress to manage this 
national resource that belongs to all of us as citizens of this 
country, and we must protect it in the best way that we can. 
And the best way we can do that is to have as much knowledge as 
we can.
    Ms. Bordallo. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    The problem that I see is we have--I think it is over 1,400 
conservancy groups in the country now. We have hundreds of 
other local environmental groups. You have all of these 
government agencies that oppose or throw up roadblocks and are 
mostly successful anytime anybody wants to drill for any oil or 
dig for any coal or cut any trees or produce any natural gas. 
And certainly they don't want any nuclear power. And so they 
just shut down so much natural resource or energy production in 
this country. And what that does, as the Ranking Member pointed 
out in his opening statement, that destroys jobs, it drives up 
prices and we can't--and who that hurts the most are the poor 
and the lower income and the working people of this country.
    For instance, you are putting the final nail in the coffin 
of some of these small towns and rural areas if you drive gas 
prices up and utility bills up, because they have to drive 
further distances mostly, most of their people, to go to jobs, 
and they work mostly at lower-wage type jobs. And all of these 
places where these groups oppose these projects, they always 
say that it is just 1 percent or it is just some tiny 
percentage of the overall energy production in this country. 
But when you put them all together, it adds up to a very great 
percentage. And we can't base the entire economy of our country 
on tourism, especially in tough economic times.
    Michael Barone, who is a columnist for U.S. News and World 
Report and who writes the Almanac of American Politics--and he 
is considered a very middle-of-the-road columnist, he is not 
considered a conservative at all. But he wrote a few months 
ago, he said: ``Lobbyists and litigators for environmental 
restriction groups have produced energy policies that I suspect 
future generations will regard as lunatic. We haven't built a 
new nuclear plant for 30 years since the Jane Fonda movie 
exaggerated their dangers. We have allowed States to ban oil 
drilling on the Outer Continental Shelf, prompted by a failure 
of 40- or 50-year-old technology in Santa Barbara, California, 
in 1969, though current technology is much better, as shown by 
a lack of oil spills in waters off Louisiana and Mississippi 
during Hurricane Katrina.
    We have banned oil drilling on a very small portion of the 
Arctic National Wildlife Refuge that is god-forsaken tundra for 
fear of disturbing a herd of caribou, a species of hoofed 
animals in no way endangered or scarce. The ANWR ban is the 
work of environmental restriction groups that depend on direct 
mail fundraising to pay their bills and keep their jobs. That 
means they must always say the sky is falling. ANWR is a 
precious cause for them because it can be portrayed dishonestly 
as a national treasure.''
    So, I think what we need in this area is a little balance 
and common sense. I have noticed over the years that almost all 
of our environmental radicals and extremists come from very 
wealthy or very upper-income families, and perhaps they are not 
hurt when we drive the utility bills way up or we drive the gas 
prices way up, but a lot of the people that I represent are 
hurt by it. And those are my concerns.
    I don't really have any questions, Mr. Chairman, so I will 
yield back the balance of my time. Thank you.
    The Chairman. Would anybody like to respond?
    Mr. Danson. I think I probably have said it all, and I 
think we have different points of view.
    The Chairman. The gentlewoman from California is 
recognized, Mrs. Capps.
    Mrs. Capps. Thank you, Mr. Chairman.
    I want to continue just with one sentence, the conversation 
begun by our new colleague from Maryland, Mr. Kratovil, when he 
talked about the use-it-or-lose-it idea, and that currently 
there are, I believe, 6,000 leases already sited in the Gulf of 
Mexico to be drilled upon. And I also say that in part because 
I represent a coastal district in California, on the central 
coast with 23 oil platforms offshore, and my constituents and I 
deal with environmental and public health impacts from this 
every single day.
    I want to welcome our two witnesses and thank you for your 
excellent testimony, both of you; and thank the Chairman for 
getting this series of hearings on offshore drilling off to 
such a good start.
    We definitely have heard a lot from the industry about how 
things have changed, and technology is better, and we have 
heard that from some of our colleagues here today. My response 
is that oil spills and gas leaks still happen. No matter how 
careful you are, there is a huge risk of a spill and spills do 
happen.
    In fact our colleague from Tennessee just stepped out, but 
Mr. Duncan referred to the big blowout on platform A off the 
Santa Barbara coastline that I know and you all know very well 
too. Just this past December, a small hole the size of a 
quarter developed in a rusted pipe that sends oil to shore from 
that very platform A and 1,400 gallons of oil seeped into the 
ocean immediately. This was just last year.
    And I am going to pick on you, Mr. Danson, even though you 
said you have said it all. I agree with you as a longtime--in 
fact, we are neighbors. I unfortunately don't get to be your 
congressional representative, but we share a big concern about 
our region off the shore. As a longtime advocate that you are, 
I respect that. You have said that you really can't safely 
drill in the oceans. But I want to underscore what that really 
means. It is not just the drilling. It is not just the 
platform. It is the pipelines. It is the barges. It is the 
onshore infrastructure that has to be there and is there. All 
of this puts our environment at risk. The industry has come to 
our oceans.
    And my question is: Would you like to expand upon that?
    Mr. Danson. I think I understand your question. I was just 
sitting here agreeing with everything you were saying, so 
forgive me. I wasn't formulating any kind of rebuttal or 
anything. I was enjoying it.
    Mrs. Capps. Well, I think it is a simplistic notion from 
some, and some in the industry too, that we just want to get 
rid of those platforms, that we just want to get rid of 
offshore drilling, but it is whole bigger picture than that. 
And either of you can respond.
    Mr. Danson. I probably should back up. I probably should 
have said something when I had the chance, but I don't think 
you can dismiss tourism as something that doesn't have anything 
to do with the economy, as if only oil and oil energy is truly 
about our economy; that that is the real source of energy for 
real Americans. New Jersey makes a huge sum of money from its 
tourism, so to dismiss it I think is wrong.
    And I think that what this Committee should do is to have 
facts and figures. There must be somebody that you can all 
agree on that will tell you this amount of jobs would be 
produced by wind power and solar and green energy, this amount 
would be produced by drilling offshore, this amount of money 
would be made, the price would go down, so that people could 
have a real chance at saying, oh, I get it, this is not good 
for the environment. And it is also a fib that it will give me 
a better chance at lower gas prices and a job.
    Mrs. Capps. I want to get to another topic, so I am going 
to change. But I think you sound a lot like our new Secretary 
of the Interior, who also wants to base our energy policies now 
on sound science and particularly our renewable energy, because 
they are so new that we haven't amassed this body. But we are 
going to hear more about this from the next panel, but I want 
to give either of you a chance to respond now about many who 
are saying--and some from my district--how the largest source 
of oil in the ocean is actually natural seeps, not industrial 
activity. And playing devil's advocate, if that is the case, 
why do we have to be concerned about man-made spills at all?
    Mr. Danson. I didn't understand that question. I am sorry.
    Mrs. Capps. That natural seeps are the cause of oil damage 
to our coastline.
    Mr. Danson. Are you saying, or is that fact saying that is 
part of the 120----
    Mrs. Capps. There are some who argue that it helps to drill 
because it relieves the pressure off the natural seeps.
    Mr. Danson. I don't know the facts and figures. I can't 
believe that. I know that 120 million gallons that gets in 
there from spills and seeps, I know about that--I mean from the 
pipelines.
    Are you aware of----
    Mr. Cousteau. Yes. First of all----
    Mrs. Capps. That is why there are two of you. You play off 
each other.
    Mr. Cousteau. First of all, thank you for your insightful 
and outstanding comments very much. I was sitting here as well 
with Ted, just agreeing. So, thank you for that.
    You know, I think just because there are natural seeps and 
they do occur, we should be no less concerned about man-made 
spills, because natural oil and gas does seep out of fissures 
in the ocean. But human caused oil spills occur very 
differently. Their seepage is a very slow process that happens 
in distinct areas and oftentimes over a long period of time and 
habitats have adapted to that. Human-based spills have been in 
a concentrated fashion in a specific area that can oftentimes 
be very fragile and not at all adapted to natural oil and gas.
    I have a great point here about Prince William Sound, the 
spill that happened there over 20 years ago or 20 years ago 
this March, and 20 years later there are still species that are 
struggling to recover from that oil spill from the Exxon Valdez 
because of the concentrated nature of the spill in a specific 
geographic location. So, seeps do occur. It is a natural 
process and there is nothing we can do about that, but what we 
can control is our own behavior and our own actions, and we can 
do better.
    Mrs. Capps. Thank you both.
    Mr. Cousteau. Thank you.
    The Chairman. The gentleman from Louisiana, Mr. Cassidy.
    Mr. Cassidy. Thank you. I have had to step out a couple of 
times. I apologize if someone addressed something that I 
mention.
    There is a little bit, I will say, a little bit of a 
disconnect between the reality of what I have experienced in 
Louisiana and what you have been describing. In Louisiana we 
probably have more offshore drilling than any other State, or 
at least as much as almost any other. We have the most 
productive fisheries outside of Alaska. So, actually this 
problem, Mr. Danson--and I also enjoy your acting, by the way--
this problem of fisheries isn't in Louisiana.
    In fact, when I read your testimony that if there is 
pollution at the base of the platform that is so toxic to fish, 
the favorite place for folks to fish is next to the platform. 
Now the other issue--so let's just correct the record.
    Second, regarding the spill of Katrina that was actually 
from the Murphy Oil Refinery where tankers floated and oil got 
out, but from the platforms themselves there was actually very 
little.
    Another thing I want to correct is that, although I may 
have put it down, petroleum in American waters is very 
interesting here. Frank talked about how he is concerned about 
this issue and polluting his streams. You know, the Maryland 
crab cake we will have at lunch today is actually crab meat 
from Louisiana that they fly up here and they make Maryland 
crab cakes with Louisiana crab meat. One of the great things 
about the job, you learn those facts. And the reason is that 
the Chesapeake Bay doesn't produce as much crab meat anymore, 
and that is because of runoff from petroleum products on the 
land into the Chesapeake Bay, among other reasons I am sure.
    And here we see that--and this is from the Minerals 
Management Service and Representative Capps talked about 
seepage. According to this government agency, 63 percent of the 
oil in American waters is from natural seepage, 31 percent from 
cars, boats, and other sources in the Chesapeake Bay, 1 percent 
is from drilling, or less than 1 percent.
    So, in Louisiana we have the most productive fisheries than 
anyone else, and we have the most drilling. In fact, we have so 
much fisheries, you will be eating Louisiana crabmeat for 
lunch. So, I think there has been a little bit of a disconnect.
    The other thing, I think we are focusing upon oil, but 
natural gas is a major production and natural gas, of course, 
has a lower carbon footprint than does oil. And if you look at 
the projected natural gas stores off the eastern coast of 
Florida, which, by the way, already had OCS drilling 
grandfathered in before the moratorium, and the pipelines run 
underneath back through Louisiana, so it doesn't spoil the 
beach. But that is tremendous natural gas reserves which does 
have the potential to not only give us the lower carbon 
footprint but also cheaper fertilizer for farmers, cheaper 
plastics, other things that make life good. Natural gas fuels 
so much of our economy.
    So, one, I just want to correct the record. Some of the 
things said do not pertain to offshore drilling. Indeed, 
offshore drilling is much safer than, say, the cars we are 
driving around and dropping oil on the street which then runs 
off into the bay.
    The Katrina disaster was from the Murphy Oil Refinery. I 
imagine you might say, well, we just need to get away from a 
petroleum-based economy. That is true. But even your testimony, 
Mr. Danson, said that 20 percent of electricity could be 
provided by wind power by 2030. Well, that is electricity, but 
it is not what powers our vehicles. And most folks don't think 
that we can completely get away from a carbon-based economy for 
at least some time, however good that goal. And I agree the 
goal is good. I am not arguing that point. So, just to correct 
the record, I think there are some issues here.
    Last, tourism, again to correct that record, we have so 
much tourism off the coast of Louisiana, we have so much 
recreational fishing, we have scuba diving at the rigs because 
it has become this kind of man-made reef and everybody goes 
down and scuba dives. And it is just--when I hear that tourism 
is hurt, I am thinking, wow, man, wow; think about where we 
have so much drilling, we have so much tourism. Brownsville, 
Texas, lots of offshore drilling. Corpus Christie, a great 
place for the snowbirds to come down during the winter.
    And last, Mrs. Capps, you are rightly concerned about the 
effects of rusted infrastructure causing leakage, but the nice 
thing about new OCS is that it is new infrastructure. That if 
you look at the leakage that does happen from pipelines, it is 
old pipelines, it is not new pipelines. Those typically have 
newer techniques and newer stuff and so therefore they don't 
leak as much. So, I think the environmental hazard with the new 
stuff is less than the old stuff.
    The Santa Barbara spill, which was terribly egregious, was 
not reproduced in Katrina because of, as I think Louie 
mentioned, the valves they put at the base of the ocean.
    Last, I want to say, Mr. Cousteau, I agree with you. I 
agree with you positively that science should guide what we do. 
And one thing in your testimony, that you said let science 
guide where we go further. I applaud that. And if we do an OCS 
bill, I would agree to an amendment that would devote a certain 
amount of that to restoring oceans.
    Again, I live in an ocean State. We are affected by rising 
sea levels, so we have a dog in this hunt.
    Last, how come you don't have a French accent? I have to 
admit I kept thinking about that the whole time.
    Mr. Cousteau. Congressman, my mother, who is actually right 
behind me, she is American and I spent most of my life growing 
up here in the United States. I have a dual citizenship of 
American and French. So, that is probably why. I do speak 
French and some Spanish, but no French accent, though I can 
fake a pretty cheesy one, but I will spare you that.
    And thank you for comments. Certainly I think that the 
bottom line is that if we continue to drill and we continue to 
rely on oil, then we won't get off our dependence off of oil, 
and I think that----
    Mr. Cassidy. But isn't that a different point? Because 
really we are going to rely on oil. It is just going to come 
from something else until we can transition out of a carbon-
based economy if only for fertilizer and plastics.
    Mr. Cousteau. Well, I think we need a paradigm shift 
mentality from continuing to say at some point we will get off 
of oil. I think we have better ways to do that than continue to 
drill for oil in the Outer Continental Shelf. As I said 
earlier, efficiency, energy efficiency, is a big way to do 
that. And if we could actually reduce our need for oil, that 
could help balance in the short term our need to drill for more 
oil and instead to be able to develop renewable energy.
    And I think that it is deceiving to talk about the seepage 
issue again, as I said earlier, because while about 60 percent 
of oil seeps into the United States waters, again that is a 
very slow process. It is a natural process. It is nothing like 
the catastrophic and exponentially greater impact of the 
relative to the 60 percent the small percentage of oil from 
drilling from----
    Mr. Cassidy. Good point. I agree with that. On the other 
hand, the major spills you are referring to, except for Santa 
Barbara, which we now have different technology, the major 
spills have come from tankers. So, the one off of France a few 
years ago was from a tanker; the Prince William Sound, a 
tanker. So, it is actually the transportation. Any degree that 
we can decrease tankers would probably be safer for the 
environment, because if you look at this, tankers provide more 
than do offshore drilling.
    The Chairman. The gentleman's time has expired.
    The gentlewoman from California, Mrs. Napolitano, is 
recognized.
    Mrs. Napolitano. Thank you, Mr. Chairman, and it is good to 
see you again, Mr. Danson. We met in California a while back.
    But before I start, I would like to recognize Ms. Lois 
Capps, Lois's daughter, who is in the audience, and I know she 
is going to be embarrassed but we wanted you to know there is 
an activist out there and we hope that you will be working with 
us more. Thank you.
    It is very interesting to hear the testimony that you have 
given. And yes, like my colleague, I saw all your grandfather's 
series. I would marvel at what was out there and I am sure if 
he were to do a lot of those again, he would find a lot of the 
shortages in a lot of the marine life not only because of the 
impact nature has had but human beings have imposed upon our 
oceans.
    Having sat upon the sanitation district in California, 
going out into the outflow where there was DDT spilled that 
created a problem for marine life off of Point--not Mugu, I 
can't remember the Point out there that mutated a lot of the 
sea life. Well, if we only rely on the decreasing of the 
tankers, we also need to rely on what we put into the ocean, 
whether it is the pipelines or whether it is the outflow of 
effluent from the sanitation districts. That is why one of the 
things that would be perfect would be an ocean investment fund 
that would take a look at all of it and put their arms around 
being able to determine we need funding to be able to do this, 
so that this is the outcome. But in that same vein, we ought to 
start looking at what impact--and, Mr. Danson, I was marveling 
at, well, I would rather have a windmill out in my backyard 
rather than an oil pipeline. Well, maybe hydrokinetics would be 
important, the ocean current.
    We have countries in New Zealand and Australia--I am sorry, 
in Scotland and Norway that are really ahead of the curve. 
Those are the things that need this ocean investment fund could 
begin to look at and how do we apply them and be able to have 
more power and less reliance on imported oil and drilling in 
our ocean.
    I would like to hear what you would want us to consider, 
looking at the future, for putting all of it together, so that 
we don't say, well, you are wrong because you are saying this. 
Everybody's areas are a little different. Louisiana versus New 
York versus California, how do we put it all together to 
improve the quality and maintain the marine life for future 
generations?
    I have a greatgrandson I want him to enjoy going out into 
the ocean, maybe scuba diving someday, and watching the beauty 
of the ocean. How do we do that?
    Mr. Cousteau. Well, thank you, Congresswoman. I think that 
part of the--well, first I would comment that growing up, as I 
said in my testimony, I saw great change myself with my own 
eyes in the Mediterranean and in other places, so indeed I 
think my grandfather would be appalled at many of the changes 
that continue to occur around the world and very saddened by 
them. I just finished a series of Discovery, and we visited 
many of the places that he had been in--Red Sea, the Baja, et 
cetera--all over the world, and even I saw changes from looking 
back at the films from the fifties and sixties to today. It is 
very, very serious.
    I think that the interplay here, you know, the OCS 
recommendation is that we have an integrated planning for 
Federal waters. And I think it is going to be very important at 
how that interplays with State waters, because within the 3-
mile mark I think there are some great examples from the 
Massachusetts Ocean Act, Rhode Island is doing a lot of 
outstanding work, California has done a lot of work on 
fisheries management. I think there is a great deal that we can 
learn from the various different practices some of the States 
have engaged in. I think that needs to be a big part of the 
dialogue about how any Federal regulations would interplay with 
State regulations. But that is for much wiser and smarter 
minds.
    Mrs. Napolitano. But some of the authorities tell us that 
if you start putting fisheries and growing them--in other 
words, fisher nurseries--is different than wild, and that we 
are reducing the endangered species by not allowing it to grow 
naturally.
    Mr. Cousteau. In terms of aquaculture?
    Mrs. Napolitano. Yes.
    Mr. Cousteau. Yes. Well, there is great concern with 
aquaculture and how to responsibly develop that. Unfortunately, 
farming of the oceans is a future that is here. I mean, it is 
already happening and it will continue to happen. I know at 
Ocean Conservancy we are doing a lot of work on----
    Mrs. Napolitano. But not as a replacement for.
    Mr. Cousteau. Well, unfortunately, I think in some cases we 
will look at--in terms of protein, potentially, but not as a 
replacement of species. But already over 2 billion people rely 
on fish as a primary source of protein on the oceans. And a 
great deal of aquaculture. In fact, a great percentage of the 
protein that comes from seafood today comes from aquaculture 
globally, especially in countries like China, et cetera. So, it 
is not a replacement of species, but it will increasingly be a 
replacement of protein.
    Mr. Danson. I think that there are, as you said, huge 
problems, especially with fish that are carnivorous, because 
the salmon that we eat, the farmed salmon we eat comes perhaps 
from Chile. And to make 1 pound of farmed salmon, you need to 
catch and feed 3 pounds of wild fish with that salmon. So, it 
is 3 to 4 pounds of wild fish to create 1 pound. So, it is 
great for us here or in Europe to be able to continue eating 
salmon, but fish in the markets in Santiago are getting smaller 
and smaller because their wild fish are being fed to farm 
salmon. And then there is all of the problems with biotics.
    Mr. Cousteau. And disease.
    Mrs. Napolitano. And rise in the temperature of the ocean, 
too.
    Mr. Danson. Complicated.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Listen, I appreciate it. I am a freshman. It 
is an honor to be here and to ask you some questions and talk 
about the serious dialogue. I appreciate the passion and 
commitment that you have to this. You could both be doing 
something else, and you are sitting here about lunchtime, and 
so I appreciate it.
    I also want you to know that I have a passion for our 
environment. I have a passion for the outdoors. Part of that 
came from watching Jacques Cousteau. Part of it came from 
watching Mutual of Omaha. Most of it came from being in the 
outdoors and enjoying that, sharing it with my wife and my 
three kids. And so I am passionate about that and I care about 
it.
    My time is short, so rapid fire here, if I could. You are 
in favor of wind technologies, correct? You are in favor of 
tidal technology to capture energy. You are in favor of wave 
and current power. In order to capture that power and then 
transmit that power, explain to me the difference between your 
concerns--take the word oil out of it--a rig that is placed in 
a waterway, that is placed out in the ocean, and the difference 
between that rig and what you might see if, for instance, you 
were going to create a wind tower; what does that effect have 
on the ocean? What is the difference?
    Mr. Cousteau. Well, again, it comes down to a siting issue. 
I would not place a wind farm that you would drill into the 
ground, the post in a fragile seagrass bed or fragile deep sea 
coral reef or shallow coral reef. So, it is a siting issue. So, 
the siting issues aside, if there is an appropriate place that 
would have minimum impact on the environment, that is the main 
thing.
    Mr. Chaffetz. Well, it is drilling, too. It is not the fact 
that there is actually a rig or an actual structure there.
    Mr. Cousteau. Well, the thing about wind that is different 
than oil is that it is not producing a caustic toxic substance.
    Mr. Chaffetz. And I think I understand and appreciate the 
concern that there are inevitably spills. No one is in favor of 
spills; no one has ever advocated that they are pro-spill. But 
the question is: the structure itself, is that problematic to 
being in the ocean? Does that harm whales or fish or anything 
else like that?
    Mr. Cousteau. It is a siting issue. Again, it depends on 
where it is placed.
    Mr. Chaffetz. If it is actually placed in the right spot, 
in your professional opinion it is not going to cause a problem 
long term to the health and ability of the ocean to thrive, 
correct?
    Mr. Cousteau. Everything will have an impact. It is just a 
balancing of----
    Mr. Chaffetz. But there is nothing worse about an oil rig 
as opposed to a wind tower.
    And then let me ask you about the transmission----
    Mr. Danson. Are you saying the rig itself----
    Mr. Chaffetz. Yes.
    Mr. Danson.--or the fact that it is extracting oil? 
Probably not. If the oil rig were placed correctly and is not 
pumping oil, it would probably be the same as the wind tower.
    Mr. Chaffetz. OK, I appreciate that.
    Now, once that energy is captured, there has to be a way to 
transmit it, right? I mean, we run into this with the windmills 
that are actually within the Continental United States to 
actually transmit that power. What challenges and problems do 
you see with that?
    Mr. Cousteau. Transmitting power from wind?
    Mr. Chaffetz. Again, wind, tidal, wave, current.
    Mr. Cousteau. Again, it is a siting issue. You must take 
into consideration the entire habitat from the shoreline to the 
facility. But typically it is a DC power cable that is buried 
underground and that remains there. As long as it is not 
impacting a fragile environment in between the shore, it has 
very minimal impact.
    Mr. Chaffetz. So, the actual installation, the long-term 
effect of once it is actually placed upon the floor of the sea 
bed, that is not a problem.
    Mr. Cousteau. Of wind power----
    Mr. Chaffetz. I mean, I understand you have a nice coral 
reef, you don't want to tear it out and have something drill. I 
think I understand and appreciate that. But the fact that once 
that power line or once that transmission line is actually laid 
down, it is not going to create a problem. In fact, the sea 
life might actually thrive on that; is that correct?
    Mr. Cousteau. Ideally, any kind of a power line that is 
connecting the shore to any kind of wind power would be 
submerged underground. Sea life wouldn't thrive. Ideally, it 
wouldn't impact them at all if you find a place that is 
appropriately sited that doesn't have a lot of vibrancy left to 
begin with.
    Mr. Chaffetz. And would you support the acceleration of the 
permitting process to go through this? I mean, if this is such 
urgency, one of the challenges out there is the NEPA process 
and going through the permitting process to actually accelerate 
the inevitable challenges. We see this in our wind farms now. 
We have them in Utah, we have them in Wyoming, we have them 
across the country. You get these nice big structures out 
there, and then they have a permitting problem to actually 
transmit the energy, so you can't take advantage of that. We 
have that with geothermal as well.
    Would you support the acceleration of the permitting 
process and rapidly accelerating the appeals process that is so 
cumbersome to the development of alternative energies and 
traditional forms of energy as well?
    Mr. Danson. Can I get back to you from Oceana's point of 
view? I don't know the answer to that.
    Mr. Chaffetz. Sure.
    Mr. Cousteau. Well, no matter what, the NEPA process, we 
will go through the NEPA process, and that is important to go 
through. But I think that our advocacy for a comprehensive plan 
will greatly accelerate the NEPA process in and of itself 
because siting is a major issue, as I said a few times. If you 
can appropriately site and plan, spatial planning of the 
oceans, then you can provide a better certainty that the 
permitting process will be approved and that NEPA will move, 
thus, faster just through planning.
    Mr. Chaffetz. Any other comments to what we were talking 
about with the siting?
    Mr. Danson. I will get back to you from Oceana's point of 
view.
    The Chairman. The gentleman from the Commonwealth of the 
Northern Mariana Islands, Mr. Sablan, is recognized.
    Mr. Sablan. Thank you, Mr. Chairman. Thank you, Mr. Danson 
and Mr. Cousteau.
    I understand Mrs. Bordallo has brought specific questions 
that relate to the Mariana Islands. As you are aware, I come 
from an area that is as large as the Continental United States, 
but 99 percent of it is water. And the Cousteau family has been 
out in Micronesia before, particularly in Palau, I understand. 
So, thank you for your testimony today. This is important to 
us.
    As I understand, Mr. Cousteau is aware of the recent 
declaration of a monument in the Northern Mariana Islands. It 
was an issue that actually was very divisive, not because of 
the monument, but because of the approach that was taken. Some 
people preferred that it be a sanctuary approach, and some 
people thought the exercise of the antiquity site was the only 
way to go.
    But the ocean is very important to us; it is our livelihood 
for many people. Tourism is the only industry we have in the 
Northern Marianas at this time. And so I will read into your 
testimony, and thank you for your time.
    Mr. Danson. Thank you.
    Mr. Cousteau. Thank you.
    The Chairman. The gentlelady from Wyoming, Ms. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    And I would like to thank you as well for spending some 
time with us today.
    I am as devoted to the land as you are to the oceans. Being 
from Wyoming, it is one of the most beautiful States in the 
United States. So, I understand your passion for your 
particular natural resource.
    The question is, the ``not in my back yard'' issue, and I 
want to pursue that line of thinking because we need assistance 
from organizations such as yours who are devoted to protecting 
a natural resource in finding other ways, better ways, to do 
what we need to produce energy for this country and for this 
world. And not just here, not in my back yard.
    So, in pursuit of that line of thinking, I want you to know 
that we have a world-class wind resource in Wyoming, and the 
other world-class wind resource is in the oceans. I am facing 
in my area, within my view, 20,000 acres' worth of wind 
turbines. And the ranchers in my area are very concerned about 
the effects that it will have on rafters, on livestock raising, 
on wildlife migration corridors. So, these same issues appear 
on land. But we are willing to allow for that kind of resource 
to be exploited on that land because of its importance to the 
world at large.
    The problem I am having is I don't hear that same 
commitment to solving problems from organizations such as 
yours. I am hearing we don't want energy production in the 
resource that we love, which is the oceans. But it has to be 
produced somewhere. We could blanket the entire State of Ohio 
with wind turbines and it would only produce as much energy as 
one square mile of Wyoming coal. Yet groups are protesting 
building new coal-fired power plants and not supporting carbon 
sequestration research or clean coal technology because they 
say there is no such thing. The only way to get such a thing is 
to fund the research.
    So, I want to make a plea to you that, while you are 
passionate about your resource and I am passionate about my 
resource, we need to work together to find answers and not just 
throw up roadblocks.
    The gentleman earlier said, I would like an answer to the 
question about why those leases are not being produced on the 
Outer Continental Shelf now. Well, the answer is because they 
can't get a drilling permit. Once you have a lease to drill, 
you don't have a permit to drill; all you have is the 
opportunity to go through the greater roadblocks, the greater 
processes that we throw up in order to produce those resources. 
And it is that we will allow nothing to be produced, and yet 
you want the gal in my home district, in my State, who is 
trying to raise three children while working at a fast food 
joint, to find a way to get her children to day care and then 
to work.
    I am expressing my frustrations only because I am as 
devoted to my resource as you are to yours, the land. I love 
the land and I love the Rocky Mountain West. But we have to 
find answers, we can't just establish roadblocks. And I simply 
make a plea to you, in your passion for your resource, to also 
bring about positive alternatives to the consequences to your 
resource that you are so passionate about.
    Thank you, Mr. Chairman. I deeply appreciate the 
opportunity to be here today and to have you here today.
    The Chairman. The gentleman from Oregon, Mr. Inslee.
    Mr. Inslee. A little better than Oregon. It is actually 
Washington, but just a little better. We do have some coastline 
in Washington.
    Mr. Abercrombie. Mr. Chairman, the people of Oregon have 
enough trouble already.
    Mr. Inslee. We do have coastline in my State. I just want 
to assure Ms. Lummis, given enough time and burning enough 
fossil fuel, you will have a shoreline, too, in Wyoming. That 
is what we are trying to prevent here.
    I want to refer to a famous philosopher who before almost 
every revelation said, ``It is a little known fact'' and that 
was philosopher Cliff Claven. And I want to tell you that I 
really appreciate our two witnesses bringing out this issue of 
a little known fact of ocean acidification. It really is the 
sleeping time bomb in public perception that has not arrived in 
public perception yet. So, I appreciate you talking about it.
    And I want to make a suggestion that we change how we talk 
about this issue about what the percentages are of oil spills 
from offshore oil drilling.
    I think that the fact is, in offshore oil drilling, a fact 
of life we have to live with is that, despite the improvements 
of technology--and there have been improvements in oil drilling 
technology from safety perspectives--100 percent of that oil 
spills because the carbon that goes up in carbon dioxide 
eventually comes back down and lands where we live. Seventy 
percent of it spills in the ocean, and 30 percent of it spills 
on the land. And that 70 percent of the ocean is now making the 
oceans 30 percent more acidic than in preindustrial ages, and 
will clearly cause the mortality of coral species in probably 
my grandson's lifetime--who is now 9 weeks old.
    So, I think that as we talk about this, we need to talk 
about the inevitability of oil spills from every single 
offshore--and onshore, frankly--drilling rig that we have. And 
that is a reality we have to build into this policy. I just 
suggest it is a way of thinking about this; 100 percent oil 
spills from offshore drilling if we continue on this course. 
So, I want to thank you for talking about this issue.
    Second, I want to focus on the Arctic. I have been a 
sponsor of a bill to essentially call a time-out on Arctic oil 
drilling, both in the Bering Sea and in the Polar Sea from the 
polar bear perspective. And we now have seen virtually the 
disappearance of the Arctic during the summers due to global 
warming; that is a scientific fact. And it has accelerated a 
lot faster, just like acidification, much faster than the 
models predicted.
    Now, as it has happened, every time I hear a story that the 
Arctic has disappeared, I read another story about how the oil 
industry is absolutely salivating at the prospect of going out 
there and drilling oil in the places where we used to have the 
Arctic ice sheet until the oil drilling destroyed it.
    I think we should consider an international moratorium on 
oil extraction in the areas of the planet that our use of 
fossil fuels has destroyed. And the reason I say that is that I 
think that there is generally in all of our guts something that 
would seem wrong about doing something--which is burning oil, 
which destroys the Arctic, which is the heat shield for the 
whole planet--and then responding to that by going up and 
drilling for more oil in the Arctic, which will cause more 
Arctic melting, which will allow more Arctic drilling, et 
cetera, et cetera. I think there is something in the human 
psyche that would reject that kind of idea.
    And I would suggest this is something--I haven't talked to 
anyone but my wife about this, she thought it was an OK idea. I 
am just going to throw that idea for you guys' consideration. 
And I think it is one way for us to focus the world on what is 
happening and why we ought to pay particular concern about 
marine extraction policies. I will just throw this idea out for 
you. What do you think?
    Mr. Cousteau. Bravo, Congressman. I will restrain from 
applause, but I am tempted. I think that is a great way of 
looking at the challenge that we face.
    You are right; 100 percent of our exploitation of not only 
oil, but coal, comes back into our own backyards. And I think 
it is a great way of looking at the challenge. And ocean 
acidification is one of those things that few people are 
talking about. And it is just chilling when you really 
understand the potential devastation that it will cause to our 
oceans.
    I think your wife clearly has great judgment because you 
make an outstanding point, I will say that. And I appreciate 
you bringing that up because I had not looked at it that way, 
and I think it is a great way to look at it.
    I think specifically the Arctic. I was there in June 
filming. We were up just a few miles south of the North Pole, 
and, look as we may, we could not find multi-year ice, which is 
of great concern. All the ice is melting. We did some research 
up there as part of the film for NASA on drilling in the ice.
    Mr. Inslee. What do you think of this moratorium idea in 
the Arctic?
    Mr. Cousteau. I think it is an outstanding idea. If there 
is anywhere that is the most fragile for drilling it is the 
Arctic. Because not only do we not have the technology to 
sufficiently clean up oil spills in the Gulf or in places 
without floating ice, the Arctic is especially fragile. And we 
know so little about it. In places where the ice has retreated, 
we have no scientific data. We cannot conscientiously and 
morally and responsibly exploit those areas because we know 
nothing about them. And we don't know what kind of tremendous 
impact we will have on these amazing resources that provide the 
basis of food chains for the entire northern Pacific oceans. I 
mean, the gray whale travels to the Bering Sea, 6,000 miles 
from the Gulf of Mexico, in the longest migration of a mammal 
in the world to feed in these rich, rich waters. And they 
provide the basis of a food chain that goes all the way down 
through the Pacific.
    The Arctic is such a critical habitat. It is the smallest 
ocean, if not one of the most critical oceans in the world. And 
we know so little. I think your idea for a moratorium certainly 
in the Arctic is absolutely appropriate.
    Mr. Danson. It is interesting that fishermen who don't 
always like to be told what to do have come to the same 
conclusion. And they are going to not fish, period, until they 
have done the science to know what is the environmentally 
correct, sustainable, responsible way to go about it. And I 
think the same applies to oil.
    Mr. Inslee. Thank you.
    The Chairman. The gentleman from California, Mr. 
McClintock.
    Mr. McClintock. Thank you, Mr. Chairman. I would 
respectfully withhold my support of the gentleman from 
Washington's idea, although I am sure that the Saudis would 
certainly applaud such an approach.
    I wanted to weigh in on the colloquy with Mrs. Capps 
earlier concerning national seepage. I grew up in Ventura 
County in Thousand Oaks just a few miles from the coast, spent 
a great deal of time at the beach as a young person. I was a 
NAWI- and PADI-certified scuba diver in my younger days. And I 
can tell you from personal experience that in the 1960s, 
whenever you visited a friend near the beach, there was a 
ubiquitous tin pan of turpentine in the garage. And the reason 
for that was the beaches throughout that region were so spotted 
with natural seepage that you couldn't walk across a beach 
without ending up with big globs of tar on your feet. And every 
family had a big tin pan by the garage door so that you could 
get the tar off your feet before you went inside. You won't 
find those tin pans today. There has been a great relief in the 
natural seepage in the 45 years of my experience in that 
region. In fact, I represented the coastline from the LA County 
line all the way up to Ventura in the Assembly; and then for 
the past 8 years in the State Senate, all the way up to Santa 
Maria.
    So, again, I can tell you from personal experience, 
dramatic change over those 45 years for the better. And in 
fact, if one opens a history book, you will find Juan 
Cabrillo's notes on the coast of California as he sailed up the 
coast in the 16th century. When he anchored off the coast of 
what is now Carpendria, he made extensive notations in his log 
books over a massive, massive oil slick that covered the water 
as far as he could see. And it was, to my recollection, before 
the offshore rigs went in.
    Mr. Danson. Thank you.
    The Chairman. The gentleman from Oklahoma, Mr. Boren.
    Mr. Boren. I really appreciate both of you being here, Mr. 
Danson and Mr. Cousteau. And I knew when we had this hearing 
that we would have a lot of Cheers references, so I have to add 
mine.
    I know we have France and the United States. And of course 
my favorite episode is where Sammy beat the French gigolo. And 
USA did win, by the way. ``USA, USA'' as Carla said. But, 
anyway, I had to throw that in.
    Mr. Cousteau. I had not seen that episode. I don't know 
why. I will take your word for it though.
    Mr. Boren. Anyway, I am kind of an outlier. I know we have 
Republicans and Democrats here, and a lot of times this becomes 
kind of a regional argument. I am a Democrat from Oklahoma. It 
is an oil and gas producing State. It is a big industry in our 
State. And, you know, I want to say to you all, it is a large 
producer of income for our Federal Government. It is actually 
the second largest contributor to the Treasury next to income 
taxes.
    And in Oklahoma, the oil and gas industry buys a lot of 
textbooks for education. We also have a check-off program in 
Oklahoma called the Oklahoma Energy Resources Board where we go 
back and clean up well sites.
    So, when you think about the oil and gas industry, I know a 
lot of folks on our side sometimes disparage them as these kind 
of greedy JR Ewing types. Most of the folks in the oil and gas 
industry want to protect the environment, they want to give 
back, and they want us all to coexist.
    I am the incoming chairman of the Congressional Sportsmen's 
Caucus, and I support responsible energy development. I don't 
think we should just drill for the sake of drilling, but I do 
think it is a big part of our economy.
    One thing that we heard today was about spills and 
everything else--and I wanted to go back to Katrina and Rita 
where we had 3,050 offshore platforms in the Gulf--and 
according to the MMS and the U.S. Coast Guard, that there 
weren't any significant spills. Now, this is just from the 
platforms. The industry that produces about 1.4 billion barrels 
of oil per day, which since 1980 less than .001 percent of that 
has spilled, how do you all reconcile that? I mean, you are 
saying, well, it is a problem. Is it just this oil that is 
running around there? Is it from fishing boats? Are you saying 
it is mainly from rigs? Because from my estimation, .001 
percent is a very small percentage. That is my first question.
    And again I just want to reiterate there are a lot of 
responsible people in the oil and gas industry, patriotic 
people that want to do what is right by our country.
    Mr. Danson. I have a huge amount of respect. When I first 
started doing this 20 years ago, we were invited up to Prudhoe 
Bay by the oil companies. We got to know them, we enjoyed them. 
We disagreed, but we came together and decided how can we work 
together. We are never going to agree on the wildlife refuge, 
but let's find something we can do together. And we started to 
reuse the motor oil, a recycling used motor oil program in 
Southern California that kept more oil out of our oceans, our 
coastal waters, almost than Exxon Valdez. You dump that much 
down, do-it-yourselfers every year. So, I have a huge amount of 
respect for you all--not ``you all,'' I am sorry.
    Mr. Boren. I am part of the oil and gas industry, 
absolutely. Sure, sure, my family has been in the business.
    Mr. Danson. And it makes absolute sense I think from your 
perspective, an oilman's perspective, to drill. But I just 
think the risks far outweigh. But it is not out of a lack of 
respect.
    Mr. Boren. And I want to make one comment, too. I think 
that, as Boone Pickens and a lot of other folks who have been 
involved in the oil and gas industry for a long time, I think 
we all want alternatives. I think we all want to move in that 
direction. And natural gas is really a bridge to the future 
there. And we have a ton of domestic natural gas that is not 
even produced offshore. A lot of it actually is produced in my 
congressional district in eastern Oklahoma in the Woodford 
shale. And if we use that natural gas--which is actually less 
than what it would be for oil--and use that as a transportation 
fuel, the carbon footprint will be smaller and we won't be 
relying on Saudi Arabia and these other places. And we will 
employ a lot of Oklahomans and Californians and a lot of 
Americans. So, I appreciate your candor there, that comment.
    Thank you.
    The Chairman. As it has all been said to my right, but not 
everybody has said it, I am going to recognize the gentleman 
from Utah, Mr. Bishop.
    Mr. Bishop. Did you put me in here between these two 
microphones so it would be uncomfortable to talk? Is this the 
subtle version?
    Hey, I appreciate the kind words of the Chairman. I am 
assuming they will get better as the day goes on. And I 
apologize for being late. My solar-powered airplane was late 
arriving.
    I have not had the opportunity of hearing a lot of the 
questions that have been asked so far. I will try not to be 
redundant. I did have the opportunity of looking at some of the 
testimony that was added, and so let me start off with a couple 
of things because, to be honest, my math is confusing here.
    The number of 120 million barrels that are spilled into the 
oceans that has been floating around, how many gallons are in a 
barrel?
    Mr. Danson. Oh, you got me.
    Mr. Inslee. Forty-two.
    Mr. Bishop. If it is 42, then that means the number is 
somewhere around 3 million barrels that we are talking about is 
existing.
    Mr. Inslee. 2.9.
    Mr. Bishop. 2.9? If the actual leakage from an area is .001 
percent, and 63 percent we have been told of actually the oil 
spillage comes from that, for some reason those numbers don't 
seem to add up in some way. The .001 percent of 4.7 that is 
produced is actually more than 3 million barrels that is 
supposed to be in there. So, I am making the assumption that we 
are throwing around numbers here pretty fast and loose, looking 
at different years, different atoms, different concepts, in 
coming up with some of these figures that are there, with the 
only constant being that seepage is really one of the narrower 
of problems that has to be there, or in some way that it just 
doesn't fit in some particular way.
    I am concerned. And I would like to ask either of you to 
respond to a couple of implications that were made, one in 
which it was stated that decisions over offshore drilling have 
been made in the absence of adequate scientific information. 
And I would like to know if you wanted to amplify that, 
especially because any kind of offshore drilling activity would 
first of all go through, by law and regulation, a study before 
a lease program is established, a study before the lease sale 
is given, another study before the exploration would take 
place, another study before production. A minimum of three 
separate environmental impact statements would be made. And if 
we are talking also--let me see if I can list--that there are 
no laws, at the very least, legislature is to ensure the 
process of new drilling sites and conditions applied to 
exploration minimize their impact. We already have the Outer 
Continental Shelf Lands Act, the Coastal Zone Management Act, 
Marine Mammals Protection Act, the Endangered Species Act, the 
Clean Water Act, the Clean Air Act, the National Environmental 
Protection Agency Act, and all sorts of other protections.
    Are you really serious when you say that you firmly believe 
decisions have been made without adequate scientific input?
    Mr. Danson. Yes, I do. I don't know if that is necessarily 
accurate; but yes, I do believe that. The reason why I got into 
this conversation to begin with was the scientific information 
that was coming our way about the acidification of the oceans.
    Mr. Bishop. But if indeed we are having--they just gave me 
a list of the laws that are applicable, and they are not 
numbered, it goes from A to ii. Is there not some room maybe to 
vary some of that approach and saying, yes, there is a 
significant amount of research impact, at least environmental 
statements that have to be made before any of this stuff 
progresses?
    Mr. Danson. You know well more than I do. I will defer to 
you. But if you are not taking into consideration that by 
burning fossil fuels you are dumping so much carbon dioxide 
into our oceans that a vast percentage of that could die as a 
result of acidification, then no, we haven't done enough 
science.
    Mr. Bishop. All right. I mean, if you want to work with me, 
I am told I have a great deal of ability for having rhetorical 
excess around here, at least the Chairman does. You don't have 
to verify that.
    The Chairman. That is why you were given two microphones.
    Mr. Bishop. OK. We can work on those. Now I can't reach 
this one. You noticed I moved to the left to talk here, though. 
We can try and move on that particular approach.
    There is another thing. We are in a State that is currently 
trying to balance the budget. I am an old classroom teacher. 
This is not my native area of expertise. They are desperately 
trying to fund education in the State of Utah and make sure 
that my retirement checks keep coming through, and yet the 
Secretary recently withdrew 77 leases of potential gas, which 
took $3 million off the table that the legislature is now 
trying to bundle with. Now, that has got to be made up in a 
particular way.
    So, in your position as maybe an expert--I am running out 
of time--an expert on these issues, if we had traditionally had 
since the 1950s about $200 billion in royalties that have gone 
to the State and local government, the expectation is somewhere 
in the name of $1 trillion billion that have gone to State 
government so they can fund themselves, what tax would you 
suggest should be used to replicate that funding source?
    Mr. Danson. You outdid me, sir. I know the staff heard the 
question, and we will get back an answer to that.
    Mr. Bishop. Is that my rhetorical excess again one more 
time?
    Mr. Danson. No. I honor the question, I just don't have an 
answer.
    Mr. Bishop. If I could ask the indulgence of Chairman 
Rahall, this is the last question. I don't want to abuse my 
privilege yet.
    The Chairman. Will you leave after this set of questions?
    Mr. Bishop. If the Chairman would be satisfied, I would be 
happy to do that. The things I do to make you happy around 
here.
    We import about $700 billion worth of petroleum from the 
Middle East, and every barrel of gas, of product--oil, I was 
just told, 19 percent of that equates to fuel that is pulled 
off, which any kind of green alternative could kind of handle 
that. The other 42 percent is the stuff that is left over, 
which is reserve, that goes into making plastics and chemicals.
    And, in fact, they just told me you went into an operating 
room, something with which you are familiar--and you go in 
there--everything except for the steel comes from some source 
that is oil-based product. Jobs are oil-based product. I am not 
sitting on leather up here, these are all oil-based products. 
If indeed we do not come up with an American source to supply 
those types of needs in the chemical and the medical and the 
plastics area, what product are we going to--how are we going 
to replace that? What is the process that goes through that? We 
are not just talking about fueling automobiles when we talk 
about oil production, we are talking about a whole series of 
issues: jobs, input, things that have made life better.
    Mr. Cousteau. Well, if I may, Congressman, I think in 
answer to your first question, there are several acts that 
govern management of the oceans. However, since the moratorium 
was not reinstated, there is no comprehensive management 
legislation for the Outer Continental Shelf. And the research 
is inadequate. We know for sure that the research that exists 
right now--and I am not making a comment on what has happened 
in the past, it has happened--but going forward, the research 
of the Outer Continental Shelf, the knowledge of the ecosystems 
there and spatial planning is inadequate today in many, many 
places.
    I will also say that in answer to your second question, to 
replace some of the tax revenue from that, I think renewable 
energy will certainly--there will be taxes on renewable energy 
in the development of that, certainly in offshore and domestic 
on the land. And I think that we forget, too, that there are 
negative costs to developing and our reliance on oil.
    As I said earlier, 1 out of 4 children in New York City 
have asthma. I think that we must balance the negative impacts 
to our health, to our health care industry--we have some of the 
highest costs in the health care industry in the world. I 
believe there are multiple estimates that I have seen, various 
different research studies, but certainly numbering in the 
thousands of deaths that occur from air pollution in this 
country. So, if you want to fully factor the costs in, you need 
to factor those in as well to the costs on taxpayer dollars for 
health care and for other things that are negatively impacted 
by oil.
    And to the third point. I agree with you, I think it is not 
going to be realistic for a very long time to fully eliminate 
oil from our economy. I think that the critical--and what we 
must embark upon now is a drastic reduction with the goal of 
eventually eliminating it. But we can't wait any longer, we 
have to start now. And continuing to drill and continuing to 
focus on this issue of drilling is not, I think, the way to do 
it.
    Mr. Bishop. I think there are some serial things where we 
can actually work together on this.
    I appreciate the very eloquent answer that is there. And I 
realize that Pampers come from oil, and that they do cause 
problems in landfills. But as somebody who had three kids under 
3 in the cloth diaper era, I like Pampers. And I may like them 
in the future a lot more; who knows?
    The Chairman. The gentleman's time has expired.
    The gentleman from California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    Mr. Cousteau and Mr. Danson, are either of you familiar 
with the last evaluation of research that was done by the 
National Academy of Sciences in 2002 that talked about the 
impacts of pollution in the seas throughout the world?
    Mr. Danson. Probably not.
    Mr. Costa. Well, it is my understanding one of the last 
comprehensive compilations of all the different information 
that is put out there, some of the information has already been 
discussed this morning. I guess you put me somewhere out in the 
middle. I mean, you talked about, earlier this morning, about a 
comprehensive approach. And if there is going to be some 
additional expansion of offshore oil and gas resources, that 
the revenues from that ought to be used to get us off of fossil 
fuels. We had such a bill last year, Congressman Abercrombie 
and myself, on a bipartisan basis, I would suggest you look at 
it.
    But basically what the National Academy of Sciences 
concluded in this report was that today accidental spills from 
platforms represent about 1 percent of the petroleum inputs in 
North America waters and about 3 percent worldwide. And it goes 
on to stipulate that when you look at the impacts around the 
world, that over 85 percent of the contributions of decline of 
fisheries that we have talked a lot about today is a result of 
nonpoint sources. And I want to use all the energy tools in our 
energy toolbox to get us off of fossil fuels. But what you 
haven't talked about today is how we get there, how you develop 
an orderly process. Because there is a near-term, there is an 
intermediate-term, and there is a long-term strategy. And just 
wishing or saying that offshore drilling or oil and gas 
exploration in this country is bad, when we have the highest 
standards--and I would take issue with you, Mr. Cousteau, 
because the moratorium has been lifted, that in fact there are 
not the protections that Mr. Bishop--you prefer a moratorium, I 
understand that, and we may agree to disagree on that, but all 
the protections are still in place in terms of all the 
requirement and permits that have to be done.
    Do you agree that nonpoint source, both of you, is the 
primary source of decline of fisheries and degradation of the 
oceans of the world?
    Mr. Danson. I would say, you know, I don't know the facts 
and figures exactly, but absolutely it plays a huge part of it.
    Mr. Costa. It is 85 percent.
    Mr. Danson. Huge part of it. But then when you add what 
happens----
    Mr. Costa. Do you agree, Mr. Cousteau? We had 1.5 billion 
people living on the planet 200 years ago, we have 6 billion 
people living on the planet today. Do you know where a lot of 
them live? Around the world, around the coast. And they have 
all of that nonpoint source pollution going into the oceans.
    Mr. Cousteau. Correct.
    Mr. Costa. And what my point is, I think that your efforts 
are misplaced. I mean, if I want to correct an ecological 
nightmare that is taking place, I would be focusing on the 
nonpoint source pollutions that we do in this country, that we 
require cities and counties with tertiary treatment facilities 
and with waste disposal and all of the like, and every time it 
rains--I am one of those that does sail the coast of California 
and sails the Caribbean. I am a passionate sailor. And my 
Portuguese compatriot, Juan Rodriguez Cabrillo's notes I have 
read when he sailed the coast of California 400 years ago. And 
obviously we can't go back 400 years. But I think trying to see 
where our differences lie is an acknowledgement, as you made a 
point of with ANWR, that it just seems to me you want to get us 
off of fossil fuel. I want to get us off of fossil fuel, but no 
one is talking here about an orderly process on how we do that.
    Mr. Danson. It feels to me that the reason why we are not 
at this particular moment is because I feel, from my point of 
view, we are putting out the fire of opening up the Outer 
Continental Shelf to oil drilling. I mean, that is the 
conservation that--I agree with you wholeheartedly; to sit back 
and say no, no, no is not responsible. I agree.
    Mr. Costa. We are going to have to continue, for the near 
term, I believe, extraction of oil and natural gas not only 
along our coasts, but around the world. And we do it better--I 
mean, do you spend the same focus on the impacts of this 
offshore activity in Nigeria and along the Arabian coasts as we 
are talking about here----
    Mr. Danson. I respect the fact that we do it really well. I 
am not denying that.
    Mr. Cousteau. If I may add----
    Mr. Costa. Your grandfather spent a lot of time around the 
world, Mr. Cousteau, and talked about that pollution occurring 
in other places where they didn't have very good management 
practices, whether it be from oil or nonpoint sources. And I 
haven't heard you comment about the nonpoint sources.
    Mr. Cousteau. Well, because--I mean our discussion today is 
for management of the Outer Continental Shelf. I agree the 
nonpoint source pollution is a challenge, but----
    Mr. Costa. And what percentage of the challenge do you 
believe it to be on the Outer Continental Shelf in North 
America, where we have some of the best management practices, 
so that we stay focused on this morning's topic.
    Mr. Cousteau. Can you repeat the question?
    Mr. Costa. What percentage of the problems of degradation 
of the oceans on the Outer Continental Shelf in North America 
is contributing to the decline versus nonpoint sources versus 
activity of offshore oil and gas?
    Mr. Cousteau. I don't have any of those figures in front of 
me.
    Mr. Costa. Well, don't you think a good comparative 
analysis would be appropriate if we are talking about concerns 
about good science, best management practices?
    Mr. Cousteau. I am sure if they don't exist----
    Mr. Costa. We have limited dollars, and it just seems to me 
that we ought to put our dollars for the best bang for the best 
buck. And so we should do a quantitative analysis on how much 
the nonpoint source pollutions are contributing to the decline 
of the Outer Continental Shelf off North America versus the 
impacts of oil and gas. That is all I am asking.
    Mr. Cousteau. I don't disagree that we don't know enough 
about the oceans, and I think I have been saying that all day. 
But----
    Mr. Costa. But we know that the overwhelming majority comes 
from nonpoint source to the decline of the fisheries.
    Mr. Cousteau. Well, today what we are advocating is the 
management of the Outer Continental Shelf, not to the exclusion 
of focusing----
    Mr. Costa. I understand. But I just want to know, you as a 
very high-minded citizen, and you, Mr. Danson, I mean, you live 
off--Mr. Danson, did we, for the record, substantiate--by the 
way, they say you and I look a lot alike. I love your Arctic 
blonde hair.
    Mr. Danson. That is very kind of you.
    Mr. Costa. I think it is very becoming. Mine is actually 
naturally black, but I do this to get more gravitas for 
people----
    The Chairman. On that point, I think we ought to tell the 
gentleman his time has expired.
    Mr. Costa. Well, it has expired. But just for the record, I 
think that it would be helpful in terms of ocean management 
studies--of which I have read some--that we do the kind of 
comparative analysis on this, because we have 27 platforms off 
the California coast. And I know tourism is a big thing in 
California, because I live there. And I don't think those 27 
platforms have turned anyone away from wanting to visit 
California.
    Mr. Cousteau. I agree that more research is needed on all 
fronts, Congressman.
    Mr. Danson. And I hope that today's conservation is giving 
the impression that we are not just looking at oil rigs per se, 
we are looking at the whole process of oil; what happens when 
you drill it, what happens when it gets spilled in 
transportation, what happens when we burn it in our cars and it 
gets washed off in nonpoint into the coastal zone, and what 
happens when it falls back down into our oceans. So, we are 
trying to look at it from a complete point of view of what are 
the risks and costs of drilling and continuing our addiction to 
oil.
    The Chairman. The Chair will recognize the gentleman from 
South Carolina just quickly for a UC. I believe you want to 
submit a statement.
    Mr. Brown. Yes, thank you, Mr. Chairman. If it is in order, 
I would like to submit an opening statement.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., a Representative in 
               Congress from the State of South Carolina

    Mr. Chairman, I am pleased that you have scheduled this oversight 
hearing on the Federal Outer Continental Shelf oil and gas leasing 
program.
    It is not only the first hearing of the Natural Resources Committee 
this year but it is the first time we have reexamined the benefits of 
the OCS program since the 110th Congress wisely ended the 27-year old 
leasing moratorium.
    The U.S. Mineral Management Service has estimated that the Federal 
OCS contains as much as 86 billion barrels of oil and 420 trillion 
cubic feet of natural gas.
    As a representative of the 1st Congressional District of South 
Carolina, I proudly represent 75 percent of the coastline of my State 
and some 140 miles that includes some of the finest beaches in the 
world.
    Every year, millions of Americans, Canadians and other visitors 
travel to my District to enjoy these beaches and I would never support 
any Federal action that would put our pristine beaches in peril.
    Yet, the real facts of the OCS Program are frequently ignored and 
blatantly misrepresented. Despite the heated rhetoric, the OCS Program 
has an outstanding environmental record. It is our Nation's safest 
energy extraction program. In fact, urban runoff dumps more oil into 
the ocean than offshore rigs.
    We will also hear from a witness today who will testify that 70,000 
barrels of oil and 3 billion cubic feet of methane are seeping into 
California coastal waters each and every year. These annual seeps are 
equal to the volume created by the 1969 Santa Barbara oil spill.
    Furthermore, let's be clear. The greatest threat to my beaches and 
those in California, Florida and New Jersey is not the Federal OCS 
Program but oil spills from leaking foreign tankers. Of the 50 largest 
oil spills, not a single one was the result of the Federal OCS leasing 
program.
    In the Gulf of Mexico, which is the site of the greatest amount of 
OCS activity, commercial energy production and fishing activities have 
co-existed for decades. In 2006, commercial fishermen landed 1.3 
billion pounds of fish and eight of the top 25 ports for commercial 
landings were in the Gulf of Mexico. We know that offshore rigs provide 
habitat for millions of fish and the potential of using rigs for 
offshore aquaculture is a huge untapped source of protein for this 
nation.
    In the final analysis, the choice is clear. We can continue to 
obtain our vital energy resources from foreign governments that hate 
the United States and are more than willing to strangle our economy or 
we can develop our resources in a safe and responsible way. We can 
continue to have our imported energy resources transported on foreign 
tankers which sometimes foul our beaches or we can increase the amount 
of production on the Federal OCS which is our safest energy extraction 
program.
    I choose to support the Federal OCS program and would remind my 
colleagues that in a recent Rasmussen nationwide survey, 68 percent of 
Americans indicated they support offshore oil drilling. Since our 
witnesses did not walk from their homes to this hearing and visitors to 
my State need gasoline to drive their cars to the Grand Strand, it is 
essential that we move forward with the OCS Program and not reinstate 
the short-sighted and ill conceived leasing moratoriums.
    Thank you, Mr. Chairman.
                                 ______
                                 
    The Chairman. By way of housekeeping, the Chair intends to 
recognize the remaining members on the majority side, including 
the gentlelady from New Hampshire next, who was here early on 
in the hearings for some time and did not get recognized. And 
then, with the forbearance of the panel, there are some that 
still would like to go through a second round of questions, but 
if the panelists--yes, I will leave it up to your discretion 
after we go through our Democrats.
    Mr. Danson. I would love to stay here all day. Next time I 
will learn not to be nervous and drink a lot of water.
    Is it possible to----
    The Chairman. We shall have a 5-minute break.
    Mr. Danson. That is so kind of you.
    The Chairman. OK. The Committee will be in recess.
    [Recess.]
    The Chairman. The Committee will resume. And the Chair and 
all members of the Committee certainly want to extend our 
appreciation to Ted and Philippe for their patience and 
willingness to share so much time with us today. We deeply 
appreciate it.
    The Chair will now recognize the gentlelady from New 
Hampshire, Ms. Carol Shea-Porter.
    Ms. Shea-Porter. Thank you very much for being here.
    I grew up along the oceans of New York and New Hampshire. 
And there can be no doubt that the oceans are degraded and that 
they are greatly stressed. So, I am concerned that there is not 
universal consensus about the conditions of the oceans right 
now.
    And I am particularly concerned by the statistic that you 
used, Mr. Danson, when you were saying that half the people in 
the world depend on the ocean for their protein as a major 
source of food. And it occurred to me that the argument that we 
are having here and other places would just be wiped off the 
map if we started to argue about the food and the loss of food 
if our oceans continue being degraded.
    The question that I wanted to ask, I first wanted to talk 
about Georges Bank, and that obviously is in New England. If 
they did develop it, it could only give maybe 3 percent of the 
recoverable oil for the Nation's preserves, 3 percent. And I 
have concerns because it is such a rich fishing area. Would you 
comment on the possible damage that could be done to Georges 
Bank?
    Mr. Danson. I think you just said it. I just keep going 
back--sorry, I don't know the specifics of Georges Bank, so it 
is hard to for me to sound intelligent about that.
    Ms. Shea-Porter. In the Gulf of Maine, Massachusetts, New 
England area.
    Mr. Danson. But spills do happen, oil spills do happen. And 
the fact that we keep burning fossil fuels and contributing to 
climate change and that carbon dioxide is falling into the 
oceans and creating something that we haven't talked about a 
lot, which is acidification, so that your fishing areas are 
getting stress from overfishing, they are getting stress from 
pollution, and now if they start getting stressed from the 
bottom of the food chain being eradicated by carbon dioxide 
getting in and acidification, then you could seriously lose 
your fisheries completely.
    Ms. Shea-Porter. Right. In New Hampshire we have a great 
deal of concern. We call ourselves--and, indeed, all of New 
England--the tailpipe of America. We don't feel good about 
that, and I know you know what that means. And we do see the 
effects of acid rain from coal and others. And we are seeing 
the impact, if you go up to the top of some of our mountains 
and you can see the damage to the leaves, and you see damage in 
the environment just in general because of the climate change 
and because of our addiction to fossil fuels.
    Now, I think it is interesting also that we are having this 
discussion, but we haven't brought up the fact that at some 
point we are probably going to run out of this. So, I want to 
talk to you about what T. Boone Pickens had to say when he came 
and spoke to the Democrat Caucus, and I know you have seen his 
ads on television. And he has a lot of faith in our ability to 
harness the wind and solar and use other renewables. And what I 
am hearing from a certain segment of the population is a kind 
of scorn that we actually could change our use of fuels and we 
could use the alternatives.
    I am sure that you have looked at what our predicted energy 
needs will be. And we all agree that for the short term we have 
to continue in oil. But having looked at all of this, do you 
think that, along with T. Boone Pickens and so many of us, do 
you think that we are capable and that there will be enough 
energy that we could harness to meet our needs, not this 
generation, but next generation maybe?
    Would you like to take a crack at that?
    Mr. Cousteau. Well, thank you, Congresswoman, for your 
question and insight.
    I think that we have the capability to overcome any 
challenge in this country. And I have great faith in the 
ingenuity and the ability of the workers in this country, of 
our economy, the resiliency of us to be able to do so.
    We have put people on the Moon. I think we can solve our 
energy crisis if we dedicate ourselves and start now with a 
really vigorous approach to do so and a vigorous commitment to 
doing so.
    The technology exists. It may take some hardship as well. 
Maybe we don't need to have two SUVs in our garages, or three. 
Maybe we don't need to have 50,000 square foot homes. Maybe we 
don't need to be flying around just a few people on massive 
private jets. Maybe we don't need some of these things; I would 
argue that we don't.
    I think that there are multiple factors that will be 
required for us to continue to live sustainably on this planet. 
And I think that the answers to that is myriad. And I think we 
can do it. I have great faith that we can do it, because I am 
not a big fan of the alternative. Because the alternative, I do 
believe, is for us to literally wipe ourselves off the face of 
this Earth.
    Ms. Shea-Porter. Well, I have always told my children, 
little house, big world. And I think that is a safe philosophy 
for all of us, because conservation is not being talked about 
and it is not being respected yet, so we are not really 
addressing it.
    I also wanted to talk a moment about what happened with 
Valdez. For many, many years the fishermen and those who relied 
on that industry tried to get the oil company to settle up and 
pay their bills. And it finally went to the Supreme Court and 
the fishermen lost. Is there some kind of warning here for 
people who live along the coastline who are thinking, well, 
maybe that would be the answer, maybe that would help us if we 
did get more oil? Is there some kind of lesson for them as 
small business and people who rely on tourism, et cetera, to 
take a look? What are the lessons there? 
    Mr. Cousteau. I think that is a great quote. I am actually 
a student of history. And I believe it was Churchill who said, 
``Those who do not learn from the past are doomed to repeat 
it.'' And I think that all we need to do is look back at the 
past. Have our reliance and continued exploitation of oil led 
us to anywhere positive? I would say no.
    I think that it is incumbent upon us to develop renewable 
energy and to get off of oil or we will continue to repeat the 
mistakes of the past. And I think we only need to look at oil 
spills of the past and how we still have 16,000 gallons, I 
believe, of oil in Prince William Sound from Exxon Valdez. I 
mean, these legacies live for a long time.
    Mr. Danson. It is probably not just that the oil companies 
are stingy about giving their money to the fishermen, it is 
probably that it is so overwhelmingly expensive that it is 
probably impossible to clean up the damage, that you do not 
have enough money to make it right. It is not just that they 
don't want to part with their money, it is probably an 
impossibility to make it right with money, which I think is a 
lesson. If you have a disastrous spill, there is nothing that 
can mitigate that; it is forever.
    Mr. Cousteau. And immediately, if you begin to hold oil 
companies accountable for the entire cost of their actions and 
the entire cost of the oil and what they do, then you start to 
get into the question of do you start to account for all of the 
health care costs that come from air pollution from 
exploitation of these resources? I mean, do you start to charge 
them for the full life cycle? That would drive up oil costs 
tremendously. I mean, we pay for everything. It is just where 
we end up paying for it. So, they probably don't want to open 
Pandora's box and set a precedent.
    Ms. Shea-Porter. OK. And so for those that are looking at 
that as maybe a temporary relief, there is definitely a lesson 
to be learned, what the actual experience was, that people lost 
their livelihood. And it takes us right back to the beginning 
of the hearing when we were talking about we need this for 
jobs, we need this for a food source, and we can use it for an 
energy source as well.
    And on that note, I will say thank you and yield back.
    The Chairman. The gentleman from Hawaii is recognized, Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman. And gentlemen, 
thank you for being here.
    Mr. Costa indicated that we had a bill--when I say ``we,'' 
this was a broad consensus of Republicans and Democrats. We 
didn't call it even bipartisan, we called it nonpartisan. We 
developed a bill; it is H.R. 6709 from last year. We are going 
to reintroduce it again this year, the National Conservation 
Environment and Energy Independence Act. It came out of an 
effort that Mr. Peterson of Pennsylvania--since retired I am 
very, very sorry to say--and myself put together originally, 
H.R. 2784, which had to do with the development offshore of 
natural gas absent oil production. And it might be useful to 
you just to read what we originally wrote some years ago, it 
took us years to put this together, ``to enhance the Nation's 
environmental energy, economic and national security by 
terminating longstanding Federal prohibitions on the domestic 
production of abundant offshore supplies of natural gas.''
    This is where we started. I was converted to this, by the 
way. I supported the moratorium that you speak of for many 
years. I didn't think much about it. Offshore oil, OK, I am 
against that, and I didn't think about it. But I listened to 
Mr. Peterson at the time about the crisis that we faced in 
terms of being able to go from a carbon-based fuel economy now 
to an alternative energy, and how would we get there, what kind 
of alternative energy bridge could we use? And I concluded that 
we had to have exploration and extraction of carbon-based fuels 
now to fund and make the transition period. So, we started with 
natural gas. ``To dedicate fixed percentages of the resultant 
royalties for environmental restoration projects, renewable 
energy and carbon sequestration research, weatherization and 
energy assistance for those in need, and to share a portion of 
such royalties with the producing States, and for other 
purposes.''
    That is how we started out with this. We tried to figure 
out, how do we get to restoration of various areas? And some of 
the things that we did were to take the revenues from--this was 
just from natural gas leases before we got to oil--energy 
efficiency and renewable reserves, $32 billion; carbon capture 
and sequestration reserve, $32 billion; Chesapeake Bay 
restoration reserve, $20 billion; Great Lakes restoration 
reserve--the Great Lakes get forgotten all the time in all the 
discussion that takes place. I was born in Buffalo, and I 
watched Lake Erie become inert liquid, not H20. It didn't 
qualify as a lake anymore, it was inert liquid. I watched 
rivers catch on fire in Buffalo.
    Great Lakes restoration. Everglades restoration reserve, 
$12 billion; Colorado River Basin restoration, $12 billion; San 
Francisco Bay restoration reserve, $12 billion. LIHEAP and 
Weatherization Service.
    We put all this in because we tried to say, well, what can 
we do to get the transition period from gas. And then we moved 
to 6709--I give you these numbers because I am going to ask you 
to refer to them because this hearing--and I want to say 
parenthetically about the Chairman and Mr. Bishop, there could 
not be better legislators in terms of fairness and openness and 
dialogue that we have with one another about how to get to the 
solution. We will get new numbers for what was 6709 before, but 
I want to refer to you because if we are going to get to where 
you want to go, you are going to have to work through the 
Congress and work through this Committee, in particular, and 
the members on it and the members associated with it who came 
in.
    We went into a room, no lobbyists--including yourselves, no 
offense--no lobbyists, no leadership from either party, 
members, no staff--and we worked this out among ourselves to 
try and get this transition.
    So, what I am going to ask you to do, you needn't comment 
further on it, the bill itself, 6709, essentially says the same 
thing: to dedicate fixed percentages of royalties received for 
conservation programs, environmental restoration projects, 
renewable energy research development, clean energy technology 
research and development, increased development of existing 
energy sources, energy assistance to those in need, and to 
share a portion with the States and with the Federal Treasury 
to enable us to do these renewable energy and alternative 
energy products, including giving money for hybrid electric 
cars and energy stations and so on. In other words, a complete 
spectrum out there.
    And if you just give me one more minute, Mr. Chairman, what 
we did is we took ANWR off the table because we knew that those 
of us who have been against the ANWR and those who supported 
the ANWR drilling knew that that was such a volatile political 
issue that it would get in the way of us trying to move 
forward.
    I then, and people like myself who were for raising the 
CAFE standards, we took that off the table because that caused 
so much political difficulty. So, we tried to zero in on those 
things where we could get agreement that it had to be faced up 
to, like carbon sequestration and carbon capture, and put money 
behind it, real money. Because out where I am from in Hawaii, 
we are trying to do wind right now, we are trying to do 
geothermal, we are trying to do biofuels. I am a strong 
supporter of all that. But we have to get the money for all 
that. We have to be able to invest it. Where are we going to 
get the money? We wanted to use the carbon-based energy culture 
that we have now to finance the alternative energy future that 
we want to get to.
    The final thing was that we wanted to stop the hemorrhaging 
of money leaving this country to supply the energy that we have 
right now by developing these domestic resources offshore and 
on land here, so that whatever arguments we were having and 
whatever conclusions we would make would at least be over 
domestic supply that we control so the money stayed here. And 
the money that we were generating from the extraction of 
domestic oil and natural gas would be invested in alternative 
energy here in this Nation rather than seeing those dollars 
flow out to the Saudis or Venezuelans, or whomever; and also 
because we felt the Chinese were going to try to corner every 
possible energy resource that they could get to fund their own 
domestic concerns, so that it would cause the price of carbon-
based fuel--particularly oil--to, on the whole, rise regardless 
of fluctuations such as we see now.
    Mr. Abercrombie. So, I am going to ask you to kindly take a 
look at what we started out with, which was called the NEED 
Act. That was 2784, which evolved into the National 
Conservation and Energy Independence Act, 6709, because we are 
going to try to introduce it again because I think there is 
common ground here that if we can figure out a way to do 
domestic production in as safe a way as possible, and I am not 
going to argue with anything you have put forward here as to 
what the difficulties are, that we will actually be able to 
have a path for investment for alternative energy, and that is 
essentially what I am asking, 6709 and 2784.
    And I just want to conclude because everybody says it 
personally, I want to say to you, Mr. Danson, that there are 
two national media resources that we have in terms of 
entertainment. One was ``The Wire,'' which is, I thought I was 
the only person watching it in the country, and it turns out, I 
think it is Shakespearean. It was wonderful. But the other is 
``Damages.'' And I want to tell you, I fail to completely 
understand why it doesn't get the recognition it deserves, and 
right now if there is any contribution being made on a mass 
media basis--you know, C-SPAN or something covers us. We are 
just politicians and all the rest. But in terms of credibility, 
``Damages,'' that series, is doing more to create environmental 
awareness right now with the present story structure that is 
going on now and with the premises that were established there, 
I think, than anything else that is being done in the Nation 
right now.
    So, I, for one, am not one who dismisses the idea that 
people who have a national cultural resource to explore are 
somehow disenabled from being able to comment or to participate 
in the national discussion. On the contrary, I think it is the 
quality of the presentation that counts; and the quality of the 
presentation with which you are associated, I believe, enhances 
your capacity to speak authoritatively and to comment as a 
citizen. I welcome that and, on the basis of goodwill and good 
intentions, hope that you, in turn, with the Ocean Conservancy 
will take a look at 6709 and our intentions and purposes and 
perhaps we can begin a dialogue.
    Thank you, Mr. Chairman, for your indulgence.
    The Chairman. Thank you.
    The gentleman from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    And I personally welcome our two distinguished witnesses 
this morning, Mr. Danson and Mr. Cousteau.
    If my numbers are correct, and please correct me if I am 
wrong, I think between 4 to 5 percent of the world's population 
is from the United States, and in doing so, I think we consume 
about 25 to 30 percent of the world's energy. From that, I am 
told that we import approximately $700 billion worth of fossil 
fuel every year to meet the demands of our country's need, and 
I say with tremendous pride that our country also contributes 
tremendously to the world's needs. And as Mr. Costa has said 
earlier, Mr. Danson, that while I respect your efforts in 
seeing that we continue the moratorium in doing any offshore 
drilling, I think it raises the same question about what we can 
do to make up for the $700 billion worth of oil that we have to 
purchase from foreign countries and foreign companies in order 
to meet our own consumer demands? Have you given--we talked 
about wind, solar energy, and all the others, but do you think 
that will make up substantially the $700 billion worth of 
fossil fuel that we need, Mr. Danson?
    Mr. Danson. I am not an expert on how to and I hope that 
is--and clearly that is what this Committee will be looking 
into. But I feel fairly confident that the figures that say 1 
percent, that if we do open up the Outer Continental Shelf, we 
will get 1 percent of our daily need. So, it is not going to 
come from us drilling on our Continental Shelf. That won't 
happen.
    So, the hope would be that over time you do find ways to 
supplement your energy needs with alternative sources of 
energy. But you will not drill your way out of it, and you 
certainly won't in the Continental Shelf.
    Mr. Faleomavaega. Mr. Cousteau?
    Mr. Cousteau. I agree with Ted.
    Thank you, Congressman.
    I certainly think we won't be drilling ourselves out of 
that problem. It certainly won't come from the Outer 
Continental Shelf. Only 27 percent of U.S. Oil production 
currently comes from the Outer Continental Shelf, and any new 
drilling will not bring new oil production into the country for 
at least a decade. So, I think we need to vigorously and 
aggressively now say, well, we have 10 to 15 years, even if we 
drill in the Outer Continental Shelf, before we get any oil 
from there. How much oil can we get? I think we can challenge 
ourselves. I know we can challenge ourselves to develop 
alternatives in that same period of time that I think we should 
challenge ourselves that will equal more than any of the 
production that would come from the Outer Continental Shelf. 
And I have great faith that we could do that. All we do is lack 
the will to do so.
    Mr. Faleomavaega. So, do you suggest that we ought to 
continue importing fossil fuel to meet our own consumer 
demands?
    Mr. Cousteau. I think that we will never not import fossil 
fuels. I mean, we cannot--at least, currently, we don't 
produce. We import 70 percent of that oil from other countries. 
That is not going to change by drilling in the Outer 
Continental Shelf. We have to find other ways to get off our 
addiction, period, to oil and develop other energies and energy 
efficiency for us to be able to reduce our dependence on 
foreign oil.
    Mr. Faleomavaega. Are both of you supportive of nuclear 
energy?
    Mr. Danson. I don't know enough about it. I hesitate 
because of the problems that we all talk about. What do you do 
with the waste? How do you deal with that? If we found a safe 
way to do that, but I certainly have nothing intelligent to 
contribute on that.
    Mr. Cousteau. I hesitate as well with nuclear energy, but 
we do not have a formal position currently on the development 
of nuclear energy.
    Mr. Faleomavaega. Mr. Cousteau, I, too, am a great admirer 
of your grandfather.
    Mr. Cousteau. Thank you, Congressman:
    Mr. Faleomavaega. I have here a photo that looks like a 
beautiful flower. It happens to be a nuclear explosion that 
took place on the island of Moruroa in French Polynesia on 
which I was able to visit. And the question that comes to mind 
was that the French government conducted some 200 nuclear 
explosions of this island and made a cheese hole, literally, 
out of this island of Moruroa. Your grandfather was 
commissioned by the French government to go under the island to 
see if there had been any nuclear leakages coming out of this 
because what the French government did was drill 3,000 feet 
below the islands and then conducted their nuclear testing. 
Supposedly the nuclear blast fuses, whatever, nuclear 
radiation, whatever the thing that comes out of it, and there 
was a real serious question about the danger of leakages coming 
out of it from what the French did for some 20 years.
    And what I wanted to ask you is that your grandfather did 
the research, but, unfortunately, I am told, according to 
scientific reports, he only went halfway down the atoll; so he 
never was really able to find out exactly the leakages that 
have come out of the contamination that the French did on this 
island. And I would like to ask you, sir, if you could do this 
by following your grandfather's legacy, go to Moruroa Island to 
find out if, in fact, that we have some real dangers here from 
the fact of what the French government did some years ago? 
Would you might be able to conduct a survey by going down there 
and finding out if this nuclear--you know, some 10,000 
Tahitians were subjected to nuclear radiation because of what 
the French did. Some 1.5 million Kazakhs in Kazakhstan were 
exposed to nuclear radiation because of what the Russians did 
in conducting some 500 nuclear explosions during its testing 
period. We conducted about 67 nuclear tests in the Marshall 
Islands. I am probably one of the few Members who has ever 
visited all of these islands, and I can say to you gentlemen, 
it is not a very pretty sight to see.
    But I just wanted to offer that challenge to you, Mr. 
Cousteau, since you have such a famous name to go with it, if 
you could follow your grandfather's legacy, find out what 
happened, because to my understanding, the French government 
does not allow people to go down there to see. It is still 
nuclear, if you want to put it in those terms. This island is 
still prohibited for visits. I know this has nothing to do with 
offshore drilling, but since I come from an island, I have a 
real sense of appreciation of what it means to live in an 
island community. And I sincerely hope you two gentlemen may 
want to go visit this island called Moruroa. It is about 500 
miles south of Tahiti.
    Again, I want to thank you, Chairman, and thank you 
gentlemen for making the effort to come and testify.
    Mr. Cousteau. Thank you, Congressman.
    I think that underlines the concerns about nuclear and why 
both Ted and I are reticent about it as a technology, and it 
certainly has left a terrible legacy and a lasting legacy there 
that I appreciate, that I think you have a great point, we 
don't know enough about, like so many things in the ocean.
    So, thank you.
    The Chairman. The gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    You will find that I am a bit more conservative than Mr. 
Bishop, and I will be using just one microphone, but thank you.
    I am a fired-up freshman. I didn't create this problem, but 
I want to help solve it. We may disagree on some points, but 
the commitment to our long-term future, our kids, our 
grandkids, I am there with you on that. And again, I appreciate 
your passion.
    I believe we have established several times that your 
testimony is that because we can get, again plus or minus a 
little bit, 1 percent, only 1 percent is the number I keep 
hearing, 1 percent of our national energy needs out by drilling 
off the Continental Shelf, that that is insufficient. It is not 
going to make a difference. It is not going to be impactful and 
whatnot. Clearly that has been the position that you have taken 
along the way. And yet when I also look at the situation, and 
according to the National Academy of Sciences and whatnot, it 
is roughly less than 1 percent of the challenges and problems 
that we have with oil being dumped into our oceans; less than 1 
percent of the problem is caused by offshore drilling. So, why 
is the 1 percent number important when it is, well, it is not 
going to do anything, just ignore it; and on the other hand, 
when we talk about 1 percent, well, that is so critical, that 
is so important? Why the discrepancy between the importance of 
the 1 percent on both sides of this argument?
    Mr. Danson. I don't know. I mean, it seems like almost a 
trick question if I don't----
    Mr. Chaffetz. It probably is. But you see, from the 
hypocrisy that I see, and I use that word a little strongly. I 
mean it as softly as possible.
    Mr. Danson. It just feels to me that this is coming in a 
climate of, we need to be independent of foreign oil. We need 
to create jobs. People are hurting. So, that has been offered 
as the reason to drill on the Outer Continental Shelf. And none 
of those things, to my mind, which is why I bring up the 1 
percent or I bring up that you create more jobs per million 
investment doing green investments, that you will not see a 
significant lessening at the pump as a result 10, 11 years from 
now of this coming online, 10 or 11 years from now. It seems 
like we are not telling the American people what they really 
need to know right now. Drilling is not going to make a 
difference. If drilling were to make a difference to you, it 
wouldn't make a difference in the next 10 to 20 years. It would 
make pennies at the pump difference if that oil actually made 
it to us in this global market. And the cost of--continuing to 
make all of our energy effort, this is what this feels to me. 
It is like, if you open up the Outer Continental Shelf, you are 
really saying we are going to work on clean energy. We are. We 
will. It is important. But not as important as getting that 
last drop of oil. So, you are sending the wrong signal to 
people who are desperate. So, that is why I bring up 1 percent.
    Mr. Chaffetz. Again but----
    Mr. Danson. Because it is not just the spills. Sorry. It is 
not just the spills. It is the burning of--it is our whole 
addiction to it. It is the whole cycle, our whole use of it.
    Mr. Chaffetz. So, if we know that the problem of the oceans 
is 99 percent other than drilling off the Outer Continental 
Shelf--boating, it is interesting. If we look at the history of 
the world, transportation and shipping, it was all very eco-
friendly, right? We would have ships, and they put up sails. It 
was later that we developed a quicker, more efficient way, and 
you could argue all the positive things of turning our boats 
into diesel-oriented vehicles. Are you advocating or would you 
support--are you saying we should abolish diesel or fossil fuel 
propelled shipping in this country? Because we have an 
alternative that is totally eco-friendly.
    Mr. Danson. But--no, of course not. I am not saying that. 
But I will say that that shipping fleet actually puts off as 
much carbon dioxide as Great Britain does or something like 
that.
    Mr. Chaffetz. It is huge.
    Mr. Danson. Huge. So, find the technology to scrub it, to 
clean it, to make sure that, like you do with coal-burning 
plants, when you do it, that you find ways to clean up that 
pollution. You are not going----
    Mr. Chaffetz. So, even though it is a bigger, I mean, by a 
multitude, it is exponentially bigger than the 1 percent, you 
are fine with that. You are comfortable with that, our 
shipping, and you wouldn't advocate a change there?
    Mr. Danson. My mind is a little confused.
    Mr. Chaffetz. It is late, I know.
    Mr. Cousteau. I think that one of the points--I think that 
percentages can be deceiving, certainly, and I know a lot of 
them have been discussed today. And 1 percent can equal a lot 
of damage. Maybe 1 percent sounds like, in the abyss, in space, 
in air, as we talk about it, not a lot. But when you talk about 
an oil spill in the Arctic or critical habitats that have 
impacts on the entire ecosystems, that 1 percent or fraction of 
the 1 percent can be very, very serious. So, I think 1 percent 
is deceiving in that it sounds small, but it can have a 
tremendous impact, even for multiple years, as we have seen 
with Exxon Valdez.
    And I think it comes down to the point of why we are here. 
The specific recommendations that any kind of development on 
the Outer Continental Shelf must be subject to planning, 
process, a special planning that is not currently in existence 
and must be subject to science and research that we don't have 
enough investment in, we invest a thousand times more money in 
space exploration than we do in ocean conservation exploration. 
That is mind boggling to me. I love the idea of knowing whether 
there was ever water on Mars, but we don't need to know that to 
live on this planet. We do need healthy oceans and safe oceans 
to live on this planet.
    Mr. Chaffetz. I buy that.
    Mr. Cousteau. So we don't have enough investment in the 
oceans, and we don't know enough to make many decisions about 
how to use that. So, I think it comes back to the idea that 
fundamentally what we need is good planning, good science, and 
I think that it is deceiving to throw small numbers around like 
1 percent because that 1 percent can have a massive impact on 
very critical areas but then have a compound impact. I mean, if 
we destroy the Arctic ocean, that has consequences for 
fisheries and ecosystems throughout the entire Pacific ocean 
and fisheries that support economics for many, many, many 
people. And I think that that is important to remember.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Thank you.
    Mr. Cousteau. Thank you.
    The Chairman. That concludes episode one.
    The Chair wishes to certainly express his deepest 
appreciation to both of you, Ted and Philippe, for the 
tremendous amount of time you have given us today, of patience, 
of facts, of knowledge, intelligence, and passion. And I 
certainly commend you for being true champions of our oceans 
and the manner in which you fight for the sustainability of our 
oceans and the irreplaceable resources therein. I commend you 
in every stretch of the imagination, and thank you so much for 
being with us today.
    Mr. Danson. Thank you, Mr. Chairman.
    Mr. Cousteau. Mr. Chairman, thank you.
    The Chairman. Safe travels.
    Mr. Danson. Thank you. Thank you all.
    The Chairman. Thank you.
    The Chairman. Episode two. Our panel number two is composed 
of the following individuals: Ms. Carolyn Esther McCormick, 
Managing Director of the Outer Banks Visitors Bureau in North 
Carolina; Mr. D.T. Minich, Executive Director, St. Petersburg/
Clearwater Area Convention and Visitors Bureau; Mr. W. F. 
``Zeke'' Grader, Jr., Executive Director of the Pacific Coast 
Federation of Fishermen's Associations; Mr. Bruce Allen, Co-
Founder of SOS California; and Mr. Jefferson M. Angers, 
President of the Center for Coastal Conservation.
    Lady and gentlemen, we do have your prepared testimony and 
it will be made part of the record as if actually read, and you 
are given 5 minutes to proceed as you desire. And I assume we 
will go in the order in which I introduced you if that is your 
desire, starting with you Ms. McCormick.

STATEMENT OF CAROLYN ESTHER McCORMICK, MANAGING DIRECTOR, OUTER 
             BANKS VISITORS BUREAU, NORTH CAROLINA

    Ms. McCormick. Good afternoon and thank you for being here.
    Mr. Chairman and members of the Committee, again, thank you 
for this opportunity to be here today. My name is Carolyn 
McCormick, and I have been serving the public as a tourism and 
travel director since 1987, beginning in Gary, Indiana, to the 
State of Indiana, to West Texas, and now to Nags Head, North 
Carolina, for the last 11 years.
    We are here today to help preserve and protect one of 
America's National treasures, our beaches. We must encourage 
thoughtful and responsible discourse that recognizes the 
importance of our coastal tourism centers and our Nation's 
economic needs.
    The tourism industry generates trillions of dollars in 
income and provides memorable experiences to individuals and 
families worldwide. Tourism brings people and families together 
outdoors. Working families use the beaches of North Carolina's 
Outer Banks for vacations with children and their grandchildren 
and their great grandchildren. Half of all leisure travelers 
emphasize the importance of natural settings in deciding their 
family vacations.
    In North Carolina, tourism is a $15.4 billion industry with 
employment at 184,000 people. The Outer Banks accounts for 
expenditures of over $1 billion last year and 20,000 jobs. Dare 
County's Outer Banks hosts over 5 million visitors from all 
over the world annually.
    The Outer Banks Visitors Bureau's staff and I speak with 
thousands of visitors and their families every year. In 
overwhelming numbers, they tell us that the natural, cultural 
and historic resources, primarily the 130-mile stretch of 
barrier islands along the Outer Banks, are the main reason they 
visit us. The Outer Banks are truly America's beach, a free and 
open-access chain of barrier islands off the northeastern coast 
of North Carolina.
    Oil and gas development threatens coastlines, harms 
ecosystems, and directly impacts our tourism, fishing, and real 
estate economies. The people of Dare County have a long and 
strong history of opposing drilling along the Outer Continental 
Shelf. The towns of Duck, Nags Head, Kill Devil Hills, Kitty 
Hawk, Southern Shores, Manteo, the County of Dare, and the Dare 
County Tourism Board have all filed resolutions opposing 
drilling off the Outer Continental Shelf. The well-documented 
socioeconomic and environmental risks outweigh the rewards. We 
need policies that help us cope with climate change on the 
Nation's coastline.
    On January 29, Winston Salem Journal editorial staff put in 
an op-ed piece. I am going to read a couple of excerpts: ``The 
Interior Department has issued a detailed proposal for oil and 
gas drilling off both the Pacific and Atlantic Coasts, 
including the fragile, already-threatened North Carolina coast. 
Efforts and human ingenuity should concentrate on making the 
country more energy independent thus seeking alternative fuels 
that do not, in fact, increase levels of greenhouse gas 
emissions.''
    ``There's been talk for years about drilling off the North 
Carolina coast. Many of the State's top leaders have resisted 
such proposals, fearing that drilling could hurt the tourism 
this State increasingly depends upon. But when gas prices shot 
up to record highs last year, some of our elected leaders, like 
their counterparts nationwide, relaxed their resistance.''
    ``The Interior Department issued its proposal in the last 
days of the Bush administration, which had pushed for more 
drilling off America's coasts. The draft plan would allow 
drilling from New England to Florida and off the California 
coast...these areas were recently declared off-limits by 
Congress. Ken Salazar, the new Interior Secretary, indicated to 
the Associated Press that he likely would be receptive to 
scaling back his department's proposal for more oil drilling.''
    ``Drilling rigs would require nearby refineries and storage 
facilities and create increased traffic between the rigs and 
refineries. The rigs would threaten the environment especially, 
if one was knocked over in a hurricane. With the Outer Banks 
jutting right out into the path of so many storms, that danger 
would be very, very real.''
    In January of 2009, the State of North Carolina legislative 
body appointed a group to examine economic and environmental 
impacts of gas and oil exploration off the coast of North 
Carolina. That review is expected to be completed in 6 to 8 
months.
    Again, the industrial character of offshore oil and gas 
development is often at odds with the existing economic base of 
the effective coastal communities, many of which rely on 
tourism, coastal recreation, and fishing. In Dare County, North 
Carolina, the Outer Banks Visitors Bureau has been fighting 
efforts to lift the ban on coastal drilling precisely because 
we realize what a crushing effect coastal drilling could have 
on our Great Barrier Islands, a $1 billion tourist and fishing 
economy. If there is one spill, one disaster, the Outer Banks 
can be impacted for a long time. The powerful hurricanes that 
battered the Gulf Coast have destroyed drilling platforms, 
underwater pipelines, and coastal storage tanks, dumping 
millions of gallons of oil. Drilling in hurricane and storm-
plagued waters has proven to be disastrous.
    In addition to potentially catastrophic effects on the 
tourism industry, drilling for gas and oil off our coast could 
have significant negative impacts on commercial and 
recreational fishing, our fisheries, marsh lands, and marine 
habitat. Jobs and the environment are not mutually exclusive. A 
balanced economy is based on a clean, healthy marine 
environment, and efforts need to be focused on restoring our 
marine environment and sustaining our fisheries.
    According to the U.S. Travel Association, tourism in 
America is a $1.7 trillion industry, with coastal communities 
representing over $700 billion annually. Last year, travel and 
tourism generated over $100 billion in tax revenues for State, 
local, and Federal Governments. The world tourism industry has 
identified climate change as key to future strategic planning. 
United Nation's World Tourism Organization Secretary General 
Frangialli, addressing climate change, said, ``We,'' the 
tourism industry, ``are part of the problem,'' global warming, 
``and we will be part of the solution.''
    Social scientists recognize the need to create innovative 
responses to projected impacts of climate change on tourism. It 
is incumbent upon all industries, governments, nongovernmental 
organizations to work together to find solutions to our current 
energy needs and place a higher emphasis on seeking alternative 
fuels, wind, reintroducing efficient railway systems, 
encouraging smarter, more fuel-efficient transport vehicles, 
while reducing greenhouse gas emissions. We must create real 
incentives that motivate and drive the ingenuity of all of us 
to find a cure, not just a treatment, that will keep America 
working, traveling, and living.
    Again, gentlemen, thank you and the staff for giving me 
this opportunity today, and I respect each of your efforts to 
help to identify solutions to our energy needs during these 
very, very challenging times.
    [The prepared statement of Ms. McCormick follows:]

       Statement of Carolyn Esther McCormick, Managing Director, 
        Outer Banks Visitors Bureau, Travel and Tourism Industry

INTRODUCTION:
    Mr. Chairman and members of the committee, thank you for this 
opportunity to testify at the Committee on Natural Resources oversight 
hearing; ``Perspectives on the Outer Continental Shelf''.
    My name is Carolyn Esther McCormick, and I have been serving the 
public as a tourism and travel professional since 1987. My public 
service experience began in Lake County: Gary, Indiana then to The 
State of Indiana as Deputy Director of Tourism in Indianapolis; to 
Lubbock, Texas, (1993) as Director of Culture, Leisure and Recreational 
Services and now serve as the Managing Director (since late 1997), of 
the Outer Banks Visitors Bureau, Dare County Tourism Board. a North 
Carolina Public Authority. I am a resident of Nags Head, North 
Carolina; which is located along the Outer Banks and a mother of two 
girls.
    You and I are here today to help preserve and protect one of 
America's national treasures, our pristine beaches. We must encourage 
thoughtful and responsible discourse that recognizes the importance of 
our coastal tourism centers and our nation's economic needs.
    The tourism industry generates trillions of dollars in income and 
provides memorable experiences to individuals and families worldwide. 
Tourism brings people and families together outdoors. Working families 
use the beaches of North Carolina's Outer Banks for vacations with 
children and grandchildren. Half of all leisure travelers emphasize the 
importance of natural settings in deciding their family vacations.
    In North Carolina tourism is a $15.4 billion industry with 
employment at 184,000, and North Carolina's Outer Banks accounts for 
expenditures of over 1 billion dollars and 20,000 jobs. Dare County's 
Outer Banks host over 5 million visitors to our National Seashore, and 
National parks. The Outer Banks Visitor's bureau staff and I speak with 
thousands of visitors and their families every year. In overwhelming 
numbers they tell us that the natural, cultural and historic resources; 
primarily the 130 mile stretch of beaches of the Outer Banks are the 
main reason they visit us.
    The Outer Banks are truly America's Beach; a free and open access 
chain of barrier islands off the northeastern coast of North Carolina. 
The birth place of English speaking America in 1587--Ft. Raleigh 
National Historic Site; home of man's first powered flight in 1903--
Wright Brothers National Memorial; Cape Hatteras National Seashore 
Recreation Area, the Nation's first national seashore established in 
1953; Pea Island National Wildlife Refuge, and Alligator River National 
Wildlife Refuge. Seventy percent, (70%) of our dynamic barrier islands 
are owned by the people of the United States and managed by the United 
States Department of the Interior.
    Oil and gas development threatens coastlines, harms ecosystems, and 
directly impacts our tourism, fishing and real estate economies. The 
people of Dare County have a history of strongly opposing drilling 
along the Outer Continental Shelf. The Towns of Nags Head, Kill Devil 
Hills, Kitty Hawk, Southern Shores, Duck, Manteo, the County of Dare 
and the Dare County Tourism Board have filed resolutions opposing 
drilling. The well-documented socio-economic and environmental risks 
outweigh the rewards.
    The Outer Banks is particularly vulnerable to storms, beach erosion 
near our homes, and loss of our fish habitat. It is clear to us that a 
changing climate and a rising sea level could have a tremendous impact 
on tourism in all coastal communities. Researchers, businesses, and 
government agencies in the Outer Banks and throughout North Carolina 
are cooperating to develop solutions to the effects of climate change 
including storm severity. We need policies that help us cope with 
climate change on the nation's coastline.
    On January 29, 2009 the Winston Salem Journal, editorial staff 
printed an op-ed on the issue of drilling along the coast of North 
Carolina, The paper stated:
    ``The Interior Department has issued a detailed proposal for oil 
and gas drilling off both the Pacific and Atlantic coasts--including 
the fragile, already-threatened North Carolina coast. Efforts and human 
ingenuity should concentrate on making the country more energy 
independent thus seeking alternative fuels that do not in fact increase 
levels of green house gas emissions.''
    ``There's been talk for years about drilling off the North Carolina 
coast. Most of the state's top leaders have resisted such proposals, 
fearing that drilling could hurt the tourism this state increasingly 
depends upon. But when gas prices shot up to record highs last year, 
some of our elected leaders, like their counterparts nationwide, 
relaxed their resistance.''
    ``The Interior Department issued its proposal in the last days of 
the Bush administration, which had pushed for more drilling off 
America's coasts. The draft plan would allow drilling from New England 
to Florida and off the California coast, The Associated Press reported 
last week. These areas were recently declared off limits by Congress. 
Ken Salazar, the new Interior Secretary, indicated to The Associated 
Press that he likely would be receptive to scaling back his 
department's proposal for more oil drilling.
    ``The N.C. legislature announced last week the formation of a 
committee to study the effects of drilling off our coast. One can't 
imagine a scenario in which the economic benefits of such a plan could 
outweigh the damage to the environment and scenery--and, consequently, 
tourism.''
    ``Drilling rigs would require nearby refineries and storage 
facilities, and create increased traffic between the rigs and 
refineries. The rigs would threaten the environment, especially if one 
was knocked over in a hurricane. With our Outer Banks jutting right out 
into the path of so many storms, that danger would be very real.'' 
Winston Salem Journal, North Carolina
    In January 2009 the State of North Carolina legislative body 
appointed a group to examine economic and environmental impacts of gas 
and oil exploration off the coast of North Carolina. ``The Offshore 
Energy Exploration Study Committee will be co-chaired by Dr. James 
Leutze, former University of North Carolina at Wilmington chancellor, 
and Dr. Doug Rader, chief oceans scientist for the Environmental 
Defense Fund. The committee--comprised of university researchers, 
industry and environmental representatives, coastal residents and other 
members of the public. North Carolina Senate President Pro Tempore Marc 
Basnight and Speaker of the House Joe Hackney will name a legislative 
panel that will review the study committee's findings and develop any 
legislation that might be needed as a result of the committee's work 
``In our nation's effort to move toward energy independence, we must 
take a long, careful look at how energy exploration off our shores 
could affect our coastal economy as well as our environment,'' Basnight 
said. ``This study will be thorough and balanced reviews that will help 
us better understand all possible risks and benefits that might be 
associated with drilling off our coast.''
    ``People on both sides of this issue have already declared what 
they believe the right thing to do is, but there has been only a 
limited scientific examination of what the true benefits and dangers 
would be,'' Speaker Hackney said. ``We cannot head down this path 
halfway. Drilling along the coast is irreversible and we must fully 
appreciate what we're doing before we take such a step.''
    The North Carolina Committee shall study the following and the 
review is expected to be completed in 6 to 8 months:
    The implications of leasing federal waters off North Carolina's 
coast in the Atlantic Outer Continental Shelf to energy companies for 
oil and natural gas exploration.
    <bullet>  Relevant federal law and the legal authority of the State 
of North Carolina with regard to offshore drilling.
    <bullet>  The potential impacts on the nation's energy supply, 
including documenting the best-unbiased estimates available for what 
oil and natural gas might exist.
    <bullet>  The potential financial impact of proposed exploration on 
the State of North Carolina, including effects on the economy, tourism, 
the commercial fishing industry, the impacts of a more industrial 
coastline, and ensuring a share of state profits.
    <bullet>  The environmental impacts of exploration on North 
Carolina's coastline, including possibilities of spills, effects on 
water quality, air quality, marine life, and contributions to global 
climate change.
    <bullet>  The environmental impacts of the infrastructure that 
would be associated with exploration and drilling for oil and natural 
gas.
    The industrial character of offshore oil and gas development is 
often at odds with the existing economic base of the affected coastal 
communities, many of which rely on tourism, coastal recreation and 
fishing. In Dare Country, NC, the Outer Banks Visitors Bureau has been 
fighting efforts to lift the ban on coastal drilling precisely because 
it realizes what a crushing effect coastal drilling could have on the 
Outer Banks' 1 billion dollar tourist and fishing economy. If there's 
one spill or one disaster, the Outer Banks could be devastated for a 
long time. The powerful hurricanes that battered the gulf coast have 
destroyed drilling platforms, underwater pipelines and coastal storage 
tanks, dumping millions of gallons of oil. Drilling in hurricane and 
storm-plagued waters has proven to be disastrous.
    In addition to potentially catastrophic effects on the tourism 
industry, drilling for gas and oil off our coasts could have 
significant negative impacts on commercial and recreational fishing, 
our fisheries, marshlands, and marine habitat. Jobs and the environment 
are not mutually exclusive. A balanced economy is based on a clean 
healthy marine environment and efforts need to be focused on restoring 
our marine environment and sustaining our fisheries.
    The U.S. tourism industry is one of America's major retail 
industries employing 7.7 million people. Tourism creates jobs, adds to 
income, spurs economic development, promotes economic diversification, 
introduces additional products, spawns new businesses, increases tax 
revenue, and contributes to economic integration. Global tourism, $7.1 
trillion industry, is a large fast growing industry that employs more 
than 232 million people. According to the U.S. Travel Association, 
tourism in America is a 1.7 trillion dollar industry with coastal 
communities representing over 700 billion dollars annually. Last year 
travel and tourism generated over 100 billion dollars in tax revenues 
for state, local and federal governments.
    The world tourism industry has identified climate change as key to 
future strategic planning. United Nations World Tourism Organization's 
Secretary General, Francesco Frangialli, addressing climate change 
said: ``We (tourism industry) are part of the problem (global warming) 
and we will be part of the solution''. Social scientists recognize the 
need to create innovative responses to projected impacts of climate 
change on tourism. Climate change presents a special challenge to the 
Atlantic Ocean coastline of the Outer Banks of North Carolina. 
Stakeholders along this dynamic chain of barrier islands are planning 
strategies now to mitigate future negative climate change impact. The 
beautiful environmental coastline is a major reason why five million 
visitors from more than 50 countries visit the Outer Banks each year.
    It is incumbent upon all industries, governments and non-
governmental organizations to work together to find solutions to our 
current energy needs and place a higher emphasis on seeking alternative 
fuels, reintroducing efficient railway systems throughout the entire 
United States, encouraging smarter more fuel efficient transport 
vehicles while reducing green house gas emissions. We must create real 
incentives that motivate and drive the ingenuity of all to find a cure 
not just a treatment that will keep America working, traveling and 
living.
    Thank you for this opportunity today and I respect each of the 
committee's efforts to identify solutions to our energy needs during 
these very challenging times.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you.
    Mr. Minich.

 STATEMENT OF D.T. MINICH, EXECUTIVE DIRECTOR, ST. PETERSBURG/
          CLEARWATER AREA CONVENTION & VISITORS BUREAU

    Mr. Minich. Good afternoon.
    Being from the great State of Florida, I don't think I need 
to tell you that we rely on tourism very heavily. It is our 
number one industry. It has been since day one when the Spanish 
Conquistadors visited our State, we have been welcoming 
visitors. It is a $3.9 billion industry for the State. It 
represents 18 percent of our total tax revenues.
    I come from a place called St. Petersburg/Clearwater, which 
is on the west coast of Florida, about halfway down, and we are 
known for our beaches. In fact, last year, Dr. Beach, the 
national expert on beaches, named Caladesi Island the number 
one beach in the world. And Fort DeSoto was ranked by visitors 
to tripadviser.com as--Fort DeSoto is in the southern part of 
our county--as the number one beach in North America. So, 
beaches are our backbone. That is what brings in the tourism 
for our area, and for our area, it is a $7 billion industry, 
with 84,000 jobs related to tourism. So, you can see how 
important it is.
    We are very opposed to offshore drilling off of our coast 
because of these beaches and the importance of the beaches. And 
I think what is important is there are a lot of States 
represented here, and every one of you--we welcomed guests from 
all 50 States and from over 100 different countries last year. 
So, your constituents are coming to our beaches and they are 
experiencing those kinds of experiences that they want in a 
beach vacation. So, it is very important to point that out, I 
think. And 180 million Americans made 2 billion visits to the 
ocean last year, so it is very, very important.
    We cannot afford a risk of some sort of a spill like you 
heard of earlier this morning. We can't afford any of those 
kinds of things for our tourism industry. But, in fact, in 
1993, we did experience a spill. Two tankers collided right off 
of our coast, and I am going to read to you what happened.
    The incident resulted in oiling of birds, sea turtles, 
mangroves, salt marches, sea grasses, mud flats, oyster beds, 
seawalls, and finger canals within Boca Ciega Bay, and miles of 
shoreline, including sandy recreational beaches. Some of the 
fuel oil sank, forming mats on submerged sediments in offshore 
depressions, in the Passes and in Boca Ciega Bay. This spill 
was very small in number. It sounds big, but it was really only 
about 360,000 gallons of jet oil and other oils. What it did, 
though, was 366 birds were injured or killed. More importantly, 
on the endangered and threatened list, 2,177 loggerhead sea 
turtle hatchlings and eggs were injured by oiling, and this 
resulted in death. And hatchling success was just completely 
obliterated for the year on our beaches.
    The resulting cleanup--we had to remove 39,000 cubic yards 
of sand from our public beaches. Out of our 35 miles of 
beaches, 18 miles of our beaches were closed for months to get 
this cleaned up. We were fortunate, and I say fortunate, but 
this happened in August and September, when it is starting to 
slow down. September is our slowest tourism month. If this 
would have happened in February, or March or April, our high 
season, it would have been devastating to the industry. We saw 
a lot of people stay away from the beaches for months after 
that. We had huge occupancy decreases for months. And just the 
perception alone, the media, it was detrimental to our industry 
for quite some time.
    The other thing that you heard this morning that I would 
like to address is, why the need for these additional leases; 
why the need for this exploration? Out of the 43 million leased 
acres, there is only 8 million in 2006 that the oil companies 
were using. They were using 8 million of the 43 million leased. 
Big Oil has not drilled three-quarters of the territory that 
Congress has made available for exploration. And so we say, 
when we rely on tourism, why now? Why do we need to do this? 
There should be no reason for this. We can't take the risk.
    The other argument that I have heard is that this will be a 
quick fix. And it will not. And I think you heard plenty of 
that this morning, but I just want to reiterate that this would 
not be a quick fix. Why open this up when we don't have the 
rigs? A $700 million oil rig being built today is going to be 
taken away to other countries. You heard 10 years. I have heard 
up to 30 years before this would even slightly make an impact 
by opening up these waters. It is just not worth--it is just 
not worth it. We are very opposed to this exploration or from 
opening this up. It just--everything that we have seen, all of 
the information that we have and from our past experience with 
just a small, small spill, it makes us very frightened for our 
number one industry in Pinellas County and the number one 
industry in Florida.
    And you also heard--just to finish up here--about what 
happened with Katrina and the rigs and all of the things that 
washed off of those rigs during these storms. We do get 
hurricanes in Florida, as you know. We don't like to talk about 
those in the tourism business, but that is another factor in 
here that is very worrisome. We have enough worries with 
hurricanes that we don't need a component on top of that, of 
what is going to happen to our beaches with these rigs off of 
our coast.
    Thank you very much.
    [The prepared statement of Mr. Minich follows:]

          Statement of D.T. Minich, CDME, Executive Director, 
      St. Petersburg/Clearwater Area Convention & Visitors Bureau

    Travel and tourism is big business. The numbers speak for 
themselves.
    The tourism industry is the world's largest, with the broad measure 
of economic activity--Travel and Tourism Economy (TTE)--contributing 
$5.4 trillion in 2007 to the world's Gross Domestic Product (GDP), 
according to the World Travel and Tourism Council. It exceeds the GDP 
of all countries other than the United States. Similarly, TTE 
contributes $1.4 trillion to America's GDP, or 10.2% of U.S. output and 
the largest contribution to GDP just ahead of durable goods 
manufacturing. Travel and tourism also is the world's largest employer, 
with 231 million people working in the industry worldwide.
    In the U.S., travel generated $739 billion in domestic and 
international expenditures in 2007; and $116 billion of that figure 
went to federal, state and local governments as tax revenue. Moreover, 
the tourism industry is America's largest employer, with 7.7 million 
direct travel generated jobs and $186 billion direct travel generated 
payroll. One of every eight U.S. non-farm jobs is created directly or 
indirectly or is induced by tourism.
    In Florida, 82.4 million travelers visited the state in 2007. 
That's more than the combined populations of New York, California and 
Texas. They generated more than $65 billion in taxable sales. To put 
that into perspective, 65 billion dollar bills end-to-end would circle 
the world 247 times!
    Tax-related revenue to the state was $3.9 billion, which is 18% of 
the state's annual sales tax revenue for schools, transportation, 
museums and more. With an annual payroll of $16.4 billion, nearly one 
million Floridians are employed by the tourism industry. That's seven 
jobs for every 2006 Florida high school graduate. Just think, a 1% 
increase in visitors to Florida generates an additional $39 million a 
year--more than $1 a second!
    In St. Petersburg/Clearwater on the Gulf Coast of Florida, tourism 
is the engine that drives the local economy. Total direct and indirect 
visitor expenditures are approximately $7 billion. That is more than 
$19 million per day, about $800,000 per hour, more than $13,000 per 
minute and about $220 per second. For perspective, a line of 7 billion 
dollar bills laid end to end would wrap around the Earth at the equator 
26 times.
    The impact of the tourism industry on the local job market is just 
as dramatic. With a 25% drop in tourism, Pinellas County would lose 
about 21,000 jobs; at 50%, it would lose about 42,000 jobs; at 100%, 
about 84,000 jobs would be lost. And with lost jobs would come closed 
businesses. When a local business closes, hundreds are affected not 
just its employees. This trickle-down effect can devastate a community. 
Suppliers rely on small local business for their income. So when a 
business closes, its suppliers feel the pinch as well.
    For instance, just a 25% drop in tourism would cause 300 local 
restaurants to close. Tourist dollars are vital to their success, not 
only to keep the doors open, but also to give these restaurants the 
revenue necessary to provide everything residents enjoy most. From 
sitting on the deck, listening to a live steel-drum band, to enjoying 
social event nights and parties, tourist dollars make it all happen.
    Not to mention the tax revenues. Tourism contributes almost $300 
million in taxes annually to Pinellas County. Fuel taxes alone equal 
roughly $15 million. That means visitors to the county save the average 
household more than $600 per year in taxes.
    So tourist revenue is vital to the success of the county's 
businesses and the community. It keeps restaurants and retail locations 
open, taxes down, and gives residents conveniences such as low-cost 
flights and world-class entertainment. It supports beach nourishment 
programs and helps fund transportation, public safety programs and 
more.
Quality of Life Benefits
    But tourism revenues are only part of the story. Not only do people 
benefit from the economic impact of the travel industry in dollars and 
cents, but they also benefit from the quality of life to which it 
contributes. So, the industry's impact is actually measured in two 
ways.
    The ``value in exchange'' measurement considers expenditures, jobs, 
taxes and the like; AND the industry's ``value in use'' takes into 
account the quality of life that tourism gives not only to visitors but 
also to residents who reap the rewards of tourism expenditures on local 
infrastructure. This latter measurement of tourism's impact reframes 
the industry's purpose from an ends--meaning the dollars spent--to a 
means--meaning what is done with those dollars locally. In essence, 
tourism is a tool for enhancing what residents love about their region.
    From performing arts to low cost travel, tourism affords a better 
quality of life. It also impacts parts of the community that are far 
beyond the obvious. The Penny for Pinellas program in Pinellas County 
would suffer without tourism. Visitors contribute approximately 35% of 
Penny for Pinellas revenues, which equals roughly $40 million annually. 
This program adds value to the county by funding roads, bridges, parks, 
drainage and other capital improvement projects.
    And because of tourism, Ruth Eckerd Hall performing arts center has 
record-breaking ticket sales. The Palladium Theater in St. Petersburg 
offers year-round musical performances. And the Salvador Dali Museum 
continues to provide world-class exhibits due to its tourist revenue. 
Plus, its visitor dollars do more than enhance the museum. The museum's 
profits fund educational programs for local youth.
    All of this paints a clear picture of the contributions that 
tourism makes to every community around the world that it impacts and 
the trickle down benefits of visitor expenditures. Yet another relevant 
part of the picture is the economic value of beaches.
Leading Tourist Destination
    Beaches are the key element of U.S. travel and tourism, since they 
are the leading tourist destination. Coastal states receive about 85% 
of tourist-related revenues in the U.S. largely because beaches are 
tremendously popular. It is estimated that each year approximately 180 
million Americans make 2 billion visits to ocean, gulf, and inland 
beaches. This is almost twice as many visits as the combined 1.06 
billion visits made to properties of the National Park Service (272 
million), Bureau of Land Management (55 million), and all state parks 
and recreation areas (735 million). The 2 billion beach visits also 
dwarf the 138 million visitors to all theme parks in the U.S.
    Given these facts, it is not surprising that beaches make a large 
contribution to America's economy. Beach tourism in Florida made a $52 
billion contribution to the economy in 2007 dollars, and U.S. beaches 
currently contribute $322 billion annually to the economy in 2007 
dollars. This is more than 25 times the $12 billion contribution of the 
National Park Service system to the national economy.
    In order to protect the lucrative tourism industry and the beaches 
that are a cornerstone of that industry, we must not risk the potential 
damages of off-shore drilling in Florida. Despite the impressive 
technological advances the oil industry has made, there still are too 
many potential risks. Two of the major hazards are pollution from every 
day operations and oil spills from platforms, pipelines and tankers.
    When oil is brought up from beneath the ocean floor, other things 
are too. Chemicals and toxic substances such as mercury and lead can be 
discharged back into the ocean. The water pumped up along with the oil 
may contain benzene, arsenic and other pollutants. Even the exploration 
that precedes drilling, which depends on seismic air guns, can harm sea 
mammals.
    And while large spills are rare, smaller spills are still too 
common. The biggest pollution risk involved is in transporting the oil 
back to shore--by pipeline, barge or tanker. A 2002 National Research 
Council report found that marine transportation was responsible for 
one-third of worldwide petroleum spillage, about eight times the amount 
caused by drilling platforms and pipelines.
First-Hand Experience
    Pinellas County has first-hand experience with this fact. In 1992, 
the local convention and visitors bureau hired a Tampa firm, Research 
Data Services, to study how a major oil spill would affect Pinellas 
County. Although the figures are dated, at the time the company's 
founder, economist Walter Klages, estimated a major spill could cause a 
45% decrease in visitors over two years. It also could result in the 
loss of 7,392 tourism-related jobs in the county, Klages estimated.
    His predictions seemed prophetic a year later, when in August 1993, 
the beaches of southern Pinellas County suffered a minor oil spill that 
nonetheless caused beach hoteliers major headaches. The spill occurred 
after two barges and a freighter collided in the shipping channel west 
of the Sunshine Skyway Bridge south of Mullet Key in Tampa Bay, 
Florida. After the accident, a few large resorts reported that their 
occupancy rates fell by double digits when compared with the previous 
year.
    Furthermore, the environmental impact not to mention the clean-up 
efforts for what would be considered a ``minor spill'' were 
significant. Systematic shoreline surveys were conducted and oil was 
found buried by two to eight inches of clean sand deposited during high 
tide. Cleanup crews focused on manually removing the band of surface 
oil high on the beach. A plan was developed to remove the subsurface 
oil without generating large volumes of sediment for handling, 
disposal, and replacement. The plan called for mechanical removal of 
the heavy buried layers, manual removal of moderately oiled sediments, 
and mechanically pushing stained sand onto the lower part of the beach 
for surf washing.
    Meanwhile, cleanup crews were contending with very thick oil that 
had been deposited around some mangrove islands. Tarmats formed when 
sediment was mixed with oil along the shallow flats surrounding the 
islands. Large thick mats coated mangrove roots, oyster and seagrass 
beds, and tidal mud flats.
    Roughly 14.5 miles of fine-grained sand beach from St. Petersburg 
Beach north to Redington Shores Beach were affected by this spill. Sand 
beaches on Egmont Key at the entrance to Tampa Bay were also oiled. 
Additionally, four mangrove islands inside the entrance to Boca Ciega 
Bay at Johns Pass and two small areas of Spartina Marsh were oiled. 
Jetties, seawalls, and riprap within the bay and at Johns Pass and 
Blind Pass were also oiled to varying degrees. It is estimated that 
more than 30 miles of residential seawalls were oiled within Boca Ciega 
Bay. Some impact also occurred on the northern side of Mullet Key at 
Bonne Fortune Key in fringing mangroves.
Oil Spills
    And that's just one spill. The U.S. Coast Guard estimates that more 
than 200,000 small spills occurred in the Gulf of Mexico from 1973 to 
2001. The Minerals Management Service, the federal agency that 
regulates offshore oil production, thinks spills will continue and 
projects about one oil spill per year of at least 1,000 barrels in the 
Gulf of Mexico over the next 40 years. Every three to four years, it 
says, a spill of at least 10,000 barrels can be expected. Having seen 
what happened in Pinellas County, one can only imagine the extensive 
impact on this grander scale!
    How badly the Tampa Bay area would suffer would depend on where a 
spill took place, according to Robert Weisberg, a physical oceanography 
professor at the University of South Florida-St. Petersburg. If a spill 
occurred in the deep water of the Gulf, the currents likely would sweep 
it south to the Florida Keys and carry it to the east coast of Florida. 
It might not affect the Bay area much, he contends. However, if the 
spill occurred over the West Florida Continental Shelf--an area of 
relatively shallow water that extends as much as 100 miles out from 
Florida's coast--he thinks the currents could sweep it to the Bay area 
and rest of the West Coast. When determining the impact of a spill, he 
believes the distance offshore is much less important than whether the 
drilling is on the continental shelf.
    The potential risks are magnified by the Gulf's well-known 
propensity for annual hurricane activity. In 2005, hurricanes Katrina 
and Rita destroyed 113 oil platforms and damaged 457 pipelines near 
Louisiana, according to the Minerals Management Service. The agency 
reported 124 spills totaling 741,000 gallons of petroleum from offshore 
rigs, platforms and pipelines.
    Damages from those two storms are a prime example why the 
moratorium on new offshore drilling should not be lifted. That 
moratorium can trace its roots to the industry opposition ignited by 
the Santa Barbara oil spill of 1969. Roughly 3.4 million gallons of oil 
were spilled, spreading across 800 square miles of ocean and spoiling 
35 miles of shoreline. It was our nation's worst oil spill until 20 
years later, when the Exxon Valdez struck a reef and lost almost 11 
million gallons. Let's not let time erase the sting of those two 
catastrophic environmental and economic disasters.
    And, closer to my home, let's remember the oil spill in the Gulf of 
Mexico in 1979 that caused tar balls to wash up on Texas beaches and 
resulted in a 60 percent decline in the state's tourism business. It is 
a clear historical precedent of how detrimental and catastrophic an oil 
spill could be to Florida's tourism industry.
Central Debate
    Beyond environmental and economic impact concerns, the central 
debate regarding offshore drilling focuses on where to drill for more 
oil. Democrats in Congress, led by House Speaker Nancy Pelosi of 
California, say areas where drilling already is permitted should remain 
the bull's eye. Only about 8 million of 43 million leased acres were 
producing oil in 2006. Big Oil has not drilled three-quarters of the 
territory that Congress has made available for exploration. Why 
endanger our beautiful, economically lucrative beaches if the oil 
industry refuses to explore the areas already open for drilling?
    And why open up the 574 million acres now off limits along the 
outer continental shelf, when tight supplies of equipment and labor 
will severely constrain exploration in the next decade. Only a limited 
number of shipyards are capable of building the necessary $700 million 
drilling rig, and many of the rigs being built today are going to other 
countries where the oil business is also booming. Even then, it usually 
takes at least seven to 10 years for the oil to start flowing, with 
some estimates placing the economic impact of exploration around 2030. 
Not to mention the Department of Energy estimates that, even if 
Congress removed all restrictions on offshore drilling, the impact on 
global oil prices would be ``insignificant.'' Witness that domestic 
drilling permits have increased 361 percent since 1999, yet the price 
of gas continues to climb to record-breaking plateaus.
    One final point. Finding oil has become more costly. The oil boom 
has led to a surge in exploration and drilling activity, which has 
pushed up the price for skilled workers and equipment. Furthermore, new 
supplies of oil are increasingly difficult to find and generally tend 
to be located in harder to reach--and hence more expensive--places. Yet 
surely the oil companies can find ways to utilize their existing 
leases, no matter the costs.
    Exxon Mobil, the world's largest publicly traded oil company, made 
history on January 30, 2009, by reporting the highest quarterly and 
annual profits ever for a U.S. company, boosted in large part by 
soaring crude prices. Exxon said fourth-quarter net income rose 14% to 
$11.66 billion, or $2.13 per share. The company earned $10.25 billion, 
or $1.76 per share, in the year-ago period. The profit topped Exxon's 
previous quarterly record of $10.7 billion, set in the fourth quarter 
of 2005, which also was an all-time high for a U.S. corporation. Exxon 
also set an annual profit record by earning $40.61 billion last year--
or nearly $1,300 per second in 2007. That exceeded its previous record 
of $39.5 billion in 2006.
    Similarly, America's second largest oil company Chevron Corp. has 
reported soaring annual profits of $23.9 billion for 2008, a whopping 
28% jump from its 2007 annual profits of $18.7 billion that were lifted 
by sky-rocketing oil prices.
    Exxon and Chevron aren't the only two oil giants to report 
impressive earnings recently. Conoco, the nation's third-largest oil 
company, trounced profit estimates by nearly 25% when it reported in 
late January. And Royal Dutch Shell PLC, Europe's largest oil company, 
reported a 60% increase in profits on January 29 of this year.
National Treasure
    Florida's beaches are a national treasure, and their preservation 
should be a top priority. Yet, because the tourism industry is so 
interwoven into the fabric of the community, the state, the country and 
the world, it is sometimes taken for granted, especially the beaches. 
We cannot afford to do that.
    Travel and tourism is America's leading industry, employer, and 
earner of foreign exchange; and beaches are America's leading tourist 
destination. Few Americans realize that beaches are a key driver of 
America's economy and support U.S. competitiveness in a world economy.
    One reason why Americans do not appreciate the importance of 
tourism to the national economy may be because 98% of the 1.4-million 
tourism-related businesses in the United States are classified as small 
businesses. That makes the industry extremely fragmented and not well 
represented. Hence, the importance of the tourism industry to the 
national economy has not been communicated to the American people.
    Until there's a fundamental shift in awareness of the economic and 
quality of life contributions of travel and tourism to the world, our 
beaches will not be adequately protected and the infrastructure that 
sustains them will not be effectively managed. And ultimately, the U.S. 
will risk relinquishing its dominant worldwide lead in its most 
important industry.
References
Barge Bouchard 155--History's 10 most famous oil spills--gCaptain 
        publication for Maritime Professionals retrieved February 3, 
        2008 from http://www.gCaptain.com.
Ellis, D. (2008, February 1). Exxon shatters profit records. CNNMoney. 
        Retrieved February 3, 2008, from http://www.CNNMoney.com.
Houston, J.R. (2008, Summer). The economic value of beaches: A 2008 
        update. Shore & Beach, 76, 22-26.
Jervis, R., Welch, W. M., & Wolf, R. (2008, July 14) Worth the risk? 
        Debate on offshore drilling heats up. USA Today. Retrieved 
        February 3, 2008 from http://www.usatoday.com
Sasso, M. (2008, June 19). Tribune taps experts on drilling for oil off 
        Florida. The Tampa Tribune. Retrieved February 3, 2008, from 
        http://www.tampatribune.com
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Grader.

  STATEMENT OF W.F. ``ZEKE'' GRADER, JR., EXECUTIVE DIRECTOR, 
      PACIFIC COAST FEDERATION OF FISHERMEN'S ASSOCIATIONS

    Mr. Grader. Thank you, Chairman Rahall and Mr. Hastings, 
and thank you very much for the opportunity to provide 
testimony here today regarding potential impacts to the 
commercial fishing industry from opening up new lease sales off 
of our coast.
    As I mentioned in my written testimony, among our members 
along the West Coast are fishermen in Santa Barbara who not 
only experienced the major spill in 1969 but have, for 40 to 50 
years now, experienced offshore drilling right in their waters. 
They know firsthand what the impacts are. And it is largely 
based on what their experiences have been, not mere speculation 
on our part that has given rise to many of our concerns here 
today. We have heard it here this morning being said that at 
best that the most optimistic projections are that any of the 
oil developed from new leases off of our shores will probably 
get to market in about 10 years. So, the effect to the consumer 
is about 10 years out. However, for the fishing industry, the 
impacts are going to be almost immediate. And that is primarily 
from the seismic testing that goes on. And this isn't spoken 
about. I don't think I heard it mentioned here once this 
morning, but it is a very real impact on fishery resources. I 
served on a committee in the 1980s looking at the impact of 
seismic testing on anchovy and it did. It had a mortality in 
those stocks of up to 30 to 40 percent of a particular 
population. So, we know that seismic surveys do kill fish. 
Moreover, they also scare fish. They make it impossible for 
fishing operations to be held. So, while everybody talks about, 
well, we put these rigs out there and, gosh, what great fishing 
sites they are, nobody discusses the fact that since we had 
these seismic boats operating, it is impossible to fish. And 
that was certainly true in the 1980s, when the California 
Coastal Commission actually had to set up areas where the 
seismic boats could operate, so they would not interfere with 
fishing activities. So, this is an almost immediate impact, and 
if you look at what just recently happened in Norway where, if 
you listened to Speaker Gingrich, you would think everything 
was hunky dory there, as far as oil and fishing, well, in fact, 
it wasn't. Fishermen were offering civil disobedience because 
of the problems specifically with seismic testing in some new 
areas that were being developed offshore there.
    The second problem of course is, what happens when the 
development occurs? Now, again here, fishermen are going to be 
the first to feel the impacts. First, it is going to be in 
their ports as the materials are brought in to begin setting up 
to build the offshore structures. But then there is also the 
building of the pipeline. So, there is that spatial 
interference that directly has an impact. But probably the 
other thing is, again, what people don't discuss is these rigs 
particularly as you are drilling in deeper water, the anchors 
and cables extending out for them extend out a great deal of 
distance. There are precautionary zones that are placed around 
these rigs. So, if you are trolling for salmon, or you are 
trolling for sole, you cannot operate in these areas. That is a 
large area that becomes a no-fishing zone for you. And if you 
put enough of them out there, pretty soon it becomes impossible 
to operate. This is really something else that has to be looked 
at.
    Now, we have heard a lot this morning about the 
contamination, the problem with pollution spills. Frankly, the 
spill issue is not a big one for us because we recognize that 
most of the spills have come from tankers. They do, in fact, 
come from runoff offshore. And that is one of the reasons why 
we ask that they have better cleanup of our municipal runoffs 
and deal with other nonpoint source pollutions. But there is 
contamination that comes about, again, which wasn't discussed 
here this morning, is the problem with the toxic drill muds 
that are oftentimes dumped right nearby those sources. 
Fishermen may go fish near those rigs. But what nobody is 
telling them is often those fish are very toxic, particularly 
heavy laden with mercury, more so than in background areas, and 
that has to be considered. Now, if a moratorium is not going to 
be reinstated, and we think it should be, we think certainly 
certain areas of the coast need to be taken off limits, made 
permanently off limits. And the big three we think are, first 
of all, going to be Bristol Bay, and I would agree with Mr. 
Hastings that all of the Arctic should be taken off limits. We 
just heard that the North Pacific Council last week said we are 
not going to fish there. That was a unanimous vote. The fishing 
industry people called for no fishing there. So, that should be 
taken off limits.
    The second place is Northern California. The area there, it 
is one of the greatest upwelling areas in the world. It is just 
too rich for fisheries. It has the Nation's only roadless area 
in the ``Lower 48.'' It is just not an area to be drilling.
    And finally, Georges Bank, which we heard talked about this 
morning. Those three areas need to be taken off the--off limits 
being made permanently.
    If you are going to go ahead and do some planning, you also 
have to develop some mitigations and better protections. The 
existing system does not work well, and so we need to have 
that.
    And finally, I think in looking at this whole issue, 
because we are looking at our oceans, and I will be quick here, 
is it really call for a national oceans policy. If we are 
moving--even if we are moving to nonrenewables, we need to know 
how to space wave and wind energy out there. It is incumbent 
upon the administration and the Congress--administration 
through an executive order--that we put in place a national 
ocean policy that is the policy of the country to protect our 
oceans. Then we need to call for the Federal agencies to better 
coordinate so that we can protect those oceans, and then 
finally put in place a trust fund.
    Thank you, and I apologize for going over.
    [The prepared statement of Mr. Grader follows:]

      Statement of W.F. ``Zeke'' Grader, Jr., Executive Director, 
          Pacific Coast Federation of Fishermen's Associations

    Chairman Rahall, members of the Natural Resources Committee, thank 
you for the opportunity to testify before you here today on the 
perspectives of my organization and many in the commercial fishing 
industry on new offshore oil and gas development on the Outer 
Continental Shelf,
    By way of introduction, the Pacific Coast Federation of Fishermen's 
Associations (PCFFA) represents working men and women in the U.S. West 
Coast commercial fishing fleet. Its offices are in San Francisco with a 
Northwest branch office in Eugene, Oregon. PCFFA is a member of the 
Marine Fish Conservation Network and the newly-formed Commercial 
Fishermen of America.
    PCFFA was founded in 1976 bringing together mostly port-based 
fishermen's marketing associations to address with a single voice 
common issues facing mostly the small to mid-sized family fishing 
operations. PCFFA is currently comprised of 16 fishing associations, 
mostly in California. The fishing men and women in PCFFA member 
organizations are engaged in a number of different fisheries, including 
salmon, crab, herring, rockfish, halibut, sablefish and swordfish, 
utilizing a variety of different gears including, troll, trawl, trap, 
longline, hook-and-line, seine and gillnets. Among PCFFA's members are 
the Commercial Fishermen of Santa Barbara, Inc., and the Southern 
California Trawlers Association. Both those organizations have had 
first hand experience with offshore oil development in the Santa 
Barbara Channel.
    My background is in the commercial fisheries, having worked part-
time in fish buying and processing plants while in high school and 
college and managing a fish processing plant while in law school. I 
joined the PCFFA at the time of its founding in 1976, shortly after 
graduation from law school and passing the California Bar. In addition 
to my role for the past 33 years as PCFFA's executive director, I was 
the first chair of the Pacific Council's Salmon Advisory Subpanel, 
served on the board of the West Coast Fisheries Development Foundation 
(President--1985) for nearly a decade, was a member of the Secretary of 
Commerce's Marine Fisheries Advisory Committee (MAFAC) during the 
Reagan and first Bush Administration, and currently serve on the 
executive committee for the Marine Fish Conservation Network. Since 
1993, I have served as executive director for the Institute for 
Fisheries Resources, in addition to my work with PCFFA, and am a member 
of the California Bar's Environmental Law Section.
    A few years after PCFFA's founding, California fishermen were 
confronted with an issue none, at least north of Santa Barbara, had 
ever dealt with before--the prospect of oil and gas drilling offshore 
along California's narrow shelf. Lease Sale 53 was initially proposed 
to extend from the Santa Maria Basin--just north of Santa Barbara to 
the Oregon Border. There was a strong temptation by PCFFA's member 
groups to support offshore drilling.
    The oil embargo had affected commercial fishing as it had the rest 
of the nation, with shortages and price increases. Oil industry jobs, 
we were told, could help our coastal communities already beginning to 
reel from the downturn in the timber industry. Oil industry 
representatives assured our members there would be no conflicts--even 
promising the rigs would be good habitat for fish. Our members were 
told there were no conflicts between commercial fishing and oil 
drilling in the Gulf of Mexico.
    PCFFA's Board, however, wanted to hear what California fishermen 
who had lived with offshore oil in the Santa Barbara Channel had to 
say. The Santa Barbara Channel fishermen they called on had experienced 
the major spill from a Union Oil platform a decade before, as well as 
day-to-day offshore oil and gas activities
    Surprisingly, that major oil spill was not the problem for Santa 
Barbara fishermen. It was rather, the small, unreported spills they 
said would foul their gear and contaminate catches. There were even 
instances where fishermen were cited for pollution when they sought to 
clean their gear that had been in oily waters near the rigs.
    There was a problem with fishing gear becoming snagged on debris 
left by oil companies in their operations ranging from old washing 
machines disposed overboard from the rigs to tractor tires. While the 
rigs may act as fish attraction devices, this did most fishermen little 
good due to the precautionary zones established around many of the rigs 
where fishermen could not operate. Trawlers, in particular, were 
affected losing much of their fishing grounds, over sandy and soft 
bottoms, for the catch of halibut, sole and flounder. Although 
California banned bottom trawling in state waters for decades, it did 
open some state waters in sandy and soft bottom areas off Santa Barbara 
for halibut and flounder to partially mitigate losses of fishing area 
in federal waters to oil and gas development.
    Considering California's narrow shelf--considerably different than 
the wide shelf in the Gulf of Mexico--the PCFFA Board felt the 
potentials for conflict with offshore drilling operations were just too 
great. That, and the fact that the oil reserves off central and 
northern California, along with Oregon and Washington, were not 
expected to be that large, made it seem the prudent course to oppose 
drilling off central and northern California.
    Then-Secretary of Interior Cecil Andrus subsequently reduced the 
scope of Lease Sale 53 to the Santa Maria Basin. PCFFA, along with 
other West Coast commercial fishing groups, supported Congressional 
appropriations language thereafter prohibiting oil and gas development 
off central and northern California--Lease Sale 73 for example, and 
later for Oregon and Washington. New England fishermen fought plans for 
oil drilling off Georges Bank and Alaska fishermen sought to stop 
drilling from going ahead in Bristol Bay where a lease sale had already 
been held (the leases were later bought back at a cost of $100 million 
to the federal government).
    Offshore drilling has taken a back seat in recent years among the 
issues fishermen have to contend with. The 27-year old congressional 
moratorium and the Presidential offshore oil moratorium established by 
the first President Bush took away the threat. All that changed when 
the last President Bush lifted the executive order against drilling 
this past July 14th and the Congressional moratorium was allowed to 
lapse.
    Times change and certainly the cost of diesel fuel the past two 
years was cutting deeply into fishermen's meager profits and made it 
just too costly to untie the boats where a great deal of running for 
fish was necessary or the anticipated catches too small to offset the 
cost of fuel. So, thirty years after first voting to oppose new 
drilling along the coast, the issue was brought back to the PCFFA Board 
this past year. After a full discussion of the issue, the vote was 
unanimous to stay the course, to oppose new drilling. We know of no 
other fishing groups along the West Coast that have changed their 
positions in opposition.
Problems for Fishing from Offshore Drilling
    The conflicts between commercial fishing and offshore oil and gas 
operations can be summed up as 1) seismic surveys; 2) spatial and gear 
losses; and 3) pollution/contamination. Before I detail the nature of 
the conflicts, let me state that much of this is a repeat from 
testimony I gave the Congress in the 1980's and from various 
correspondence to members at that time.
    Seismic Surveys. While the American public may not see any of the 
oil developed from new offshore leases for a decade or more, the impact 
on commercial fishing will be almost immediate, as soon as the 
companies decide to go ahead with drilling they will be wanting to 
update information to give them information on where the most likely 
deposits of oil and gas are likely to be under the seabed. To find this 
out they will deploy seismic vessels to explore areas both before and 
after any lease sale.
    The powerful sound waves generated by seismic surveys can have a 
variety of harmful effects on fish. Within close range, seismic surveys 
have been found to kill adult fish as well as larvae and fish eggs. 
More than 20 years ago research in the Santa Barbara Channel found 
seismic surveys were lethal to anchovy populations. Scientific studies 
have also shown that air gun blasts can cause a variety of sublethal 
impacts on fish such as damaging orientation systems and reducing their 
ability to find food. Researchers have noted disturbances in the 
migration routes of salmon and other anadromous species as a result of 
seismic operations.
    Seismic surveys can cause physical damage to fish ears and other 
tissues and organs such as swim bladders. Although such effects may not 
kill fish immediately, they may lead to reduced fitness, which 
increases their susceptibility to predation and decreases their ability 
to carry out important life processes. Furthermore, if important prey 
species in the food web such as squid and zooplankton are harmed by 
seismic testing, the fish dependent on these creatures may also be 
negatively affected.
    Seismic surveys not only threaten commercial and subsistence 
fishing by harming fish resources, but also by interfering with fishing 
operations and dramatically affecting catch rates. Seismic ships tow 
streamers that can be miles long. These can get tangled up with crab 
pots, set nets and trawl nets causing damage and decreasing crucial 
fishing time. The best time to conduct seismic surveys in Arctic and 
sub-arctic environment is during the summer, which is also prime season 
for many Alaskan fisheries. As a result, seismic survey operations can 
end up competing with fishing for time and space on the water.
    In California, the state's Coastal Commission was forced to utilize 
its CZMA authority to end a conflict between the hook-and-line fleet in 
the Santa Barbara Channel by prohibiting seismic surveys during key 
fishing seasons. There seismic surveys were making it impossible for 
fishermen to operate. Even then the one of the companies, Exxon, sued 
to try to keep operating with full knowledge of what their seismic 
surveys were doing to fishing.
    Even if these kinds of conflicts can be avoided, several studies 
have shown that seismic operations have greatly reduced catches of fish 
around areas where air guns were being fired. These studies have 
demonstrated reduced catches over 20 miles away from the source with 
catch reductions continuing five days after the testing was complete 
(see table below). Researchers believe these catch reductions are a 
result of altered fish behavior due to seismic operations which cause 
them to be less likely to take hooks and/or to move down and away from 
the seismic firing.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The conflicts with seismic surveys are not unique to the U.S. 
fishing industry. This past year, the Norwegian Association of Fishing 
Boat Owners threatened to initiate civil disobedience action around oil 
installations in the Barents Sea, where they said increased oil and gas 
related activities in the area scare the fish away from their fishing 
fields. In 2006 and 2007, 800 tons of Atlantic pollock were caught off 
the Vesteralen and Lofoten Islands. By comparison, in 2008 just 83 tons 
of the fish have been caught. The fishermen say that drop off in catch 
was primarily due to oil and gas operations. Unfortunately, former 
Speaker Gingrich, it seems, didn't talk to any fishermen before 
returning from his trip last year to Norway proclaiming how well 
offshore oil was working for that nation.
    Spatial Conflicts (Including Gear Loss and Construction and 
Presence of OCS Infrastructure). The second problem for commercial 
fishing with offshore oil and gas is the displacement of fishing by oil 
on either the fishing grounds, in the ports, or both. While looking at 
a chart, it may seem that the ocean is large enough to accommodate a 
myriad of uses. However when looking at where fishing takes place, 
mostly on the shelf, and where oil and gas development occurs, they 
tend to be in the same places and the footprint of the rigs is not 
limited to the area covered by a platform.
    The rigs have precautionary zones around them, precluding most 
fishing. Thus, the area taken from fishing tends to be quiet a bit 
larger than the platform. Cables and anchors can extend out making 
fishing, particularly trawling impossible.
    The spacing of the rigs can also hinder fishing operations where 
the fishing is mobile, such as a trawler working a tow, or trollers on 
a tack. The rigs may not present a spatial conflict, as I mentioned, 
where there is a wide shelf, but along the West Coast the shelf is 
narrow and most fishing occurs along that shelf, thus there is a real 
potential for displacement of fishing.
    In the Final Environmental Impact Statement (FEIS) for the 5-Year 
(2007-2012) Offshore Oil and Gas Leasing Program for Alaska, the 
Minerals Management Service found:
        ``Some exploration, development, and production activities have 
        a potential to result in space-use conflicts with commercial 
        fishing activities. Commercial fishing vessels could be 
        excluded from normal fishing grounds to avoid the potential for 
        gear loss.'' (IV-256)

        ``Offshore construction of platforms could infringe on 
        commercial fishing activities by excluding commercial fishing 
        from adjacent areas due to safety considerations.'' (IV-257)

        ``Fishing activities could be temporarily excluded from some 
        areas during construction of offshore pipelines. Once pipelines 
        are put into place, they could result in entanglement hazards 
        for some types of fishing gear...'' (IV-257)
    Pipelines, during construction and once in place, can act as snags 
for fishing gear--thereby displacing fishing. Making matters worse, as 
fishermen experienced in the Santa Barbara Channel, is the fact some 
oil and gas operators treated the ocean as if it were there own 
personal landfill where they could dump old machinery, tires used for 
bumpering and other materials that then snagged fishing gear--from 
trawl nets to troll lines. That has been the experience in the Santa 
Barbara Channel. Of course, pipelines and their construction affect not 
just fishing, but fish. For the Bristol Bay area, MMS concedes in its 
FEIS for the 5-year leasing plan:
        ``Pipeline installation would include trench excavation through 
        intertidal and shallow subtidal areas.'' (IV-204)

        ``Trenching and excavation for pipeline installation could 
        directly disturb tidal and mud flats, eelgrass beds, marshes, 
        or other coastal habitats (depending on the location of the 
        pipeline route) resulting in direct habitat losses.'' (IV-204)

        ``Pipeline crossings (onshore) of streams could affect EFH for 
        several life stages of managed anadromous salmon, including 
        eggs, larvae, juveniles, and adults.'' (IV-184)

        ``Onshore facility construction (e.g. pipelines, processing 
        facilities, service bases, etc.) causes definite short-term and 
        long-term changes, with localized long-term effects on coastal 
        habitats along onshore pipeline corridors.'' (IV-522)
    The spatial problem is not limited to fishing grounds. Fishing 
activities in ports--ranging from areas for berthing, processing fish, 
mending fish gear and other space required to support commercial 
fishing have been displaced by offshore oil and gas support operations 
and vessels. This is not a problem where there is adequate space, space 
not used to support fisheries, but it becomes a real problem in smaller 
ports where space may be at a premium.
    Some of the areas where drilling is planned are relatively remote 
with little infrastructure in place, thus the impacts will be far 
greater. The area of northern Mendocino, southern Humboldt Counties in 
California--known as the Lost Coast, for example, is the one area in 
the lower continental U.S. where there is no coastal road, yet the area 
(around Shelter Cove) is under consideration for development. Much of 
Alaska is equally as remote.
    Pollution/Contamination. As mentioned earlier, the concern voiced 
by commercial fishermen from the Santa Barbara Channel has been with 
the small, but chronic, unreported spills and leaks that caused the 
oiling of fishing gear or catch. That, however, was before the Exxon 
Valdez spill in 1989 or a number of other spills that have occurred 
subsequent where there is a greater understanding now of the impacts of 
a major spill on certain key species.
    The Prince William Sound herring fishery has still not recovered 
from the Exxon Valdez spill and even the small herring fishery in San 
Francisco Bay seems to have been affected by the November 2007 spill of 
bunker fuel by the Cosco Busan, judging from the size of the biomass 
now in the Bay. While both the Exxon Valdez and Cosco Busan were spills 
from ships, not rigs, it does point out to the danger posed by oil to 
the marine environment. Again, quoting from the MMS' 5-Year FEIS:
        ``...localized areas of shellfish essential fish habitat (EFH) 
        could be affected by leaks from offshore pipelines.'' (IV-186)

        ``...contact with some EFH [Essential Fish Habitat] resources 
        from an oil spill would probably be unavoidable.'' (IV-188)

        ``Valuable shellfish species, including various crabs and 
        weathervane scallops, could be affected by oil spills that 
        occur when planktonic life stages are present in surface 
        waters.'' (IV-186)
    Oil spills, however, are not the only pollution source from 
offshore oil and gas. Santa Barbara fishermen complained of the 
disposal of drill muds on the seafloor containing diesel fuel. The 
State of California has banned the disposal of drill muds in state 
waters and requires them to disposed of safely onshore. The problem 
identified by the Santa Barbara fishermen with diesel fuel in the drill 
muds may be far greater with findings in the Gulf of Mexico of mercury 
and heavy metals in the drill muds and fish sampled from the nearby 
rigs. In its FEIS, MMS stated:
        ``Depositions of sediments could smother more sedentary 
        invertebrates (e.g. clams or scallops) located within a given 
        radius of discharge points.'' (IV-182)

        ``Settling of discharge cuttings on the seafloor could smother 
        some prey species, displace some managed groundfish species, 
        and change substrate composition in the area where the cuttings 
        settle.'' (IV-184)

        ``Eggs, fry, and small prey occurring or entering the mixing 
        zone during the discharge of muds and cuttings could experience 
        lethal and sublethal effects if they are within 1-2 m of the 
        discharge point and if the volumes of muds and cuttings are 
        released at the rates permitted by the U.S. EPA (500-1,000 bbl/
        hour).'' (IV-182)

        ``...approximately 522 tons of drill cuttings would be released 
        into the environment for each exploration well constructed. Up 
        to 20 exploration wells are anticipated, which could result in 
        the release of up to 10,440 tons of cuttings.'' (IV-181)
Major Fishing Grounds Threatened
    As we are discussing offshore oil drilling here today, the clock is 
already ticking under the previous 5-year plan for Lease Sale 214, the 
North Aleutian Basin, which includes Bristol Bay--with the largest 
salmon fishery in the world. After the lifting of the moratorium, under 
the revised plan, the clock is also ticking for lease sales of the 
Northern and Central Coast of California, Georges Bank and the Virginia 
coast.
    Some of the nation's most productive fishing grounds are now 
threatened. They include:
    Bristol Bay. In its October 16, 2008 letter to the Minerals 
Management Service regarding the EIS for Lease Sale 214 in the North 
Aleutian Basin, which affects Bristol Bay, the United Fishermen of 
Alaska described the area as ``the most important economic driver of 
the region, the commercial fishing industry has impacts extending 
throughout Alaska and the Pacific Northwest. As shown by National 
Marine Fisheries Service statistics, over 40% of the commercial U.S. 
fisheries catch including the nation's richest crab, Pollock, cod, 
halibut, and salmon fisheries come from the Bering Sea region with 
annual harvests worth more than a half a billion dollars.
        ``Both groundfish and shellfish fisheries completely overlap 
        the proposed lease sale area 214. Shellfish harvested in 
        significant numbers include Bristol Bay red king crab, Bering 
        Sea tanner crab, and Bering Sea snow crab. Commercially 
        harvested groundfish species include Pacific cod, Alaska 
        Pollock, Pacific halibut, flatfish species, rockfish species, 
        Atka mackerel and sablefish. The Bristol Bay and north Alaska 
        Peninsula salmon fisheries depend on the large numbers of all 
        five species of Pacific salmon that utilize the area for 
        feeding and migration. Subsistence fisheries, while not 
        economically comparable to the region's commercial fisheries, 
        are vital to local communities.''
    An earlier letter sent to President Bush by six Alaskan 
organizations (Bristol Bay Native Association, Bering Sea Fishermen's 
Association, Bristol Bay Economic Development Corporation, Alaska 
Independent Fishermen's Marketing Association, and Bristol Bay Reserve) 
stated, ``[t]he economics of the fisheries that depend on the North 
Aleutian Basin have sustained an annual average wholesale value of 
about $450 million dollars; we estimate the retail value to be nearly 
$2 billion annually. The snapshot of oil and gas development for this 
area does not compare to the longevity of these fisheries or to the 
future value. The Bristol Bay salmon fishery alone maintained an 
average annual catch value of $105 million from 1980-2003. This 
represents a 20-40% total value of Alaska's salmon fisheries. Jobs in 
Bristol Bay that depend on fisheries and wildlife provide an annual 
payroll of about $175 million. The economic benefits and impacts of 
Alaska's fishing industry extend far beyond the region in which they 
are located as the Commercial Fisheries Entry Commission reports 41% of 
the Bristol Bay Drift and Set Gillnet permit holders to be residents of 
states other than Alaska.
        ``Even though the North Aleutian Basin does not directly 
        overlap with the Bristol Bay salmon fisheries, it provides 
        significant habitat for salmon. Salmon smolt outmigrate through 
        the area and adult salmon migrate through the area on their way 
        to spawn in Bristol Bay Rivers. Juvenile salmon also feed and 
        grow to maturity within and surrounding the area. Clearly, 
        leasing in the North Aleutian Basin poses serious risks to 
        salmon. Even a small spill or contamination event could damage 
        the ability to market Bristol Bay salmon and could harm new 
        efforts to increase their value.''
    Northern California. Although much of the Central California coast 
enjoys protection in one of four national marine sanctuaries, the area 
from Sonoma Coast to the Oregon border remains vulnerable. North of San 
Francisco the coast is increasingly remote, to the roadless area of the 
Lost Coast. The shelf is narrow and the area is frequented by 
treacherous winter storms with few ports of refuge. The fishing and 
tourism industries that support this region of the coast would be 
devastated by offshore oil and gas development.
    In his recent letter to you, Mr. Chairman, Representative Mike 
Thompson stated the coastal part of his district, ``is remote, 
pristine, and rocky. It is also host to one of four major upwelling 
regions in the world. Upwelling regions are coastal areas that support 
extremely abundant and productive marine life. This is because 
upwelling brings cold, nutrient-rich waters up from the ocean depths 
that, when combined with sunlight, enhance seaweed and phytoplankton 
growth. The seaweed and phytoplankton provide energy for some of the 
most productive ecosystems in the world, including many of the world's 
most important fisheries, such as the North Coast fisheries. According 
to the National Oceanic and Atmospheric Administration, while upwelling 
regions make up only one percent of the world's oceans, they contribute 
to approximately half of the world's fish catch.
        ``Northern California's coast brings biological and economic 
        benefits to the entire country as a result of the incredibly 
        productive and diverse ecosystem found within its waters. 
        Drilling activity off the Northern Coast of California could 
        cause serious harm to the unique ecosystem and abundant marine 
        life found off my district. The impact this would have on the 
        California fishing industry and the coastal communities that 
        depend on it could far exceed any benefits we would hope to 
        gain by drilling.

        ``Even if the price of oil were to skyrocket again, the 
        Minerals Management Service's own estimates show that the 
        amount of oil we could expect to recover would only be enough 
        to satisfy about 100 days of national demand.''
    Georges Bank. Part of MMS' proposed North Atlantic lease sale, 
includes the fishing rich ground of Georges Bank. Representative Ed 
Markey reflects the feelings of most fishermen in New England, when he 
says Georges Bank is vital to New England's economy. New Bedford, 
Massachusetts is the most productive fishing port in the United States, 
raking in $268 million in catch value. The collective catch of New 
Bedford, Gloucester, and Provincetown-Chatham-all of which rely on 
Georges Bank-is worth nearly $350 million annually.
        ``From the boats and wharfs to the markets and restaurants of 
        New England, the unique habitat of Georges Bank is a key 
        economic engine for Massachusetts and the region and an 
        important part of our cultural heritage,'' said Congressman 
        Markey. ``In this economic crisis, the preservation of Georges 
        Bank is vital to not just the environmental integrity of New 
        England but also the stability of its economy.''
    In the case of all three areas identified above, if the fishing is 
well-managed these areas will continue to provide economic benefit to 
the nation well into the future. But these areas are now at risk in 
order to pursue finite oil and gas reserves, whose extraction will 
affect fish and fisheries for, at best, a short supply of carbon-based 
fuel.
If Drilling Were to Go Ahead
    It is PCFFA's position supporting reinstatement by Congress and the 
Administration of the offshore oil and gas moratorium. However, if a 
moratorium is not reinstated, PCFFA recommends at minimum the following 
actions are taken:
    1.  Remove Bristol Bay, Northern California and Georges Bank 
immediately from any lease sales. We would also ask for consideration 
of much of the rest, if not all, of the lease sales planned for 
offshore Alaska, as well as Oregon and Washington, any unprotected 
areas of Central and Southern California, the remainder of the North 
Atlantic and the Mid-Atlantic be protected from oil and gas 
exploration. We cannot comment on the South Atlantic and Straits of 
Florida, but those areas, too, may be worthy of protection from 
offshore oil.
    2.  Consolidate oil and lease sales around areas where existing oil 
and gas development is taking place to minimize disruption to fishing 
and coastal communities.
    3.  Establish mitigation measures to protect fishing where new 
drilling is to occur. To this end, we support the recommendations made 
by the United Fishermen of Alaska for fishery protection and mitigation 
including:
         <bullet>  Creation of Regional Citizens Advisory Councils for 
        states, following approved OCS lease sales, to be funded by the 
        approved leaseholders
         <bullet>  Zero discharges from drilling installations.
         <bullet>  Establishment of oil and gas spill response and 
        mitigation plans, to be developed in consort with a regional 
        citizens advisory councils.
         <bullet>  Establishment of an adequate fisheries disaster fund 
        to provide compensation to the fishing industry and coastal 
        communities in the event of disruption of fisheries.
         <bullet>  A commitment from the oil and gas industry and the 
        federal government to develop and implement a long term 
        scientific monitoring program to assess potential impacts to 
        the marine environment and the fisheries.
         <bullet>  A prohibition of any use of offshore energy 
        facilities for open ocean aquaculture.
         <bullet>  Inclusion of commercial fishing organizations in the 
        planning process as stakeholders on par with the status of 
        other cooperating municipal, state and federal agencies.
         <bullet>  Restrict lease-related use will to prevent conflicts 
        with local commercial, subsistence, and sport harvest 
        activities. All OCS operations, both onshore and offshore, must 
        be designed, sited and operated to ensure that:
            (a)  adverse changes to the distribution or abundance of 
            fish resources do not occur;
            (b)  fish or shellfish catches are not adversely impacted 
            by OCS activities;
            (c)  all exploration, construction and operation activities 
            is coordinated with the fishing community to maximize 
            communication, ensure public participation, and avoid 
            conflicts;
            (d)  ballast water treatment is required to remove or 
            eliminate non-indigenous species.
            (e)  fishermen are not displaced or precluded from access 
            to fishing areas, unless they are adequately compensated 
            for the displacement;
            (f)  fishermen are not precluded from participating in 
            designated fishing seasons, unless they are adequately 
            compensated for the lost season(s); and
            (g)  fishermen are compensated for damage to fishing 
            equipment, vessels, gear and decreased harvest value from 
            OCS operations in a timely manner.
Why Offshore Drilling is Not a Good Move
    When PCFFA formulated it policy 30 years ago to oppose new offshore 
drilling, it did so unaware of climate change or its implications, 
including the acidification of ocean waters. We felt there was a 
compelling case to be made then for not expanding offshore drilling 
beyond the high yield basins where it was then taking place.
    From what we have learned in the past decade, certainly the past 
year and even month, it is evident that we need to phase out carbon-
based fuels as quickly as possible. We say that knowing our fishing 
boats currently rely on diesel fuel for power. But if we don't stop 
putting carbon into the atmosphere from burning coal and oil there 
won't be any fish in the ocean for our members to harvest. This is a 
problem that needs fixing now.
    This past summer was particularly disturbing for those of us who 
remember the summers of the late 1960's, when many of the nation's 
cities were burning. We heard then the chants of ``Burn, Baby, Burn.'' 
Most of us understood the frustration of those rioting, torching 
buildings. The years of Jim Crow, inequality, lack of opportunity, and 
brutality at the hands of police and vigilante groups set off a powder 
keg. Understandable as it was for many of us, looting and burning was 
no answer.
    When the President lifted the executive order on the offshore 
moratorium, when Congress allowed the moratorium to lapse, when we 
heard people shouting ``Drill, Baby, Drill,'' we felt for our fisheries 
the way a shop owner must have felt in those hot summers of the late 
1960's as the mob converged. We understood the frustration with the 
prices at the pump. The cost of diesel had taken the profit out of 
fishing, keeping many tied to the dock. And, we understood the 
frustration with paying for fuel imported from nations that are openly 
hostile to our interests.
    But drilling for a small amount of oil and gas, putting at risk 
America's oldest industry, to further exacerbate global warming--which 
may not be reversible for a century, is no solution. It is no more an 
answer to our energy needs than burning the cities was in the 1960's in 
response in discrimination and inequality. Are we now prepared to loot 
and burn the planet, chanting ``Drill, Baby, Drill?''
    There is no doubt that immediate action is needed on the energy 
front, but in so acting we should not threaten our food supplies, nor 
life on Earth. Prompt and thoughtful action, based on good science, is 
what's needed. It's time to ``Think, Baby, Think.''
    Mr. Chairman we urge you and committee members to rethink our 
offshore drilling policies, both in terms of damage to the environment 
and industries such as fisheries that rely on a clean environment, as 
well as damage to the planet from continued reliance on carbon based 
fuels.
    A better course I would suggest is to focus on the development of 
renewable energy sources--continue to push solar and wind and 
development of alternative fuels that can safely power everything from 
fishing vessels to jet aircraft. We do not expect any of the oil from 
development of new offshore leases to be available for a decade. 
Wouldn't we be better off spending this next decade working to be free 
of not just foreign oil, but oil as a fuel altogether?
    Thank you Mr. Chairman for this opportunity to testify and I'll be 
happy to answer any questions you or members of the Natural Resources 
Committee may have.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Allen.

             STATEMENT OF BRUCE ALLEN, CO-FOUNDER, 
                         SOS CALIFORNIA

    Mr. Allen. I would like to thank Chairman Rahall and the 
Committee for the invitation to speak here today. I am Bruce 
Allen, a co-founder of SOS California, a nonprofit dedicated to 
educating the public about how offshore oil and gas production 
can actually improve the marine environment and provide a 
bridge to our renewable energy future.
    Due to advances in subsea wellhead, platform and pipeline 
technology, according to the National Academy of Sciences, less 
than 1 percent of hydrocarbon pollution in all U.S. waters now 
comes from drilling and extraction, while natural oil seeps 
contribute 63 percent.
    Published studies document that, in the Gulf of Mexico, 
natural hydrocarbon seepage may far exceed the environmental 
significance of production and transportation of oil and gas. 
Surprising to many is the fact that California offshore oil and 
gas production has been drying up seepage pollution. Similar 
seepage productions also appear to be occurring in other oil 
and gas resource basins.
    Natural oil and gas seeps off the California coast are the 
second most active in the world, seeping 70,000 barrels of oil 
into coastal waters and 3 billion cubic feet of methane into 
the air every year. This annual oil seepage volume equals the 
entire 1969 oil spill and equals the Exxon Valdez oil spill 
amount every 4 years. Local beaches are washed with oil seepage 
from State and OCS waters for 100 miles of Central California 
coastline.
    These seeps pollute the ocean and beaches, sicken surfers, 
and are a significant source of air pollution in Santa Barbara 
County. For example, in January 2005, an increase in this 
seepage killed or oiled as many as 5,000 seabirds that washed 
ashore from Santa Barbara to Huntington Beach, creating a 25-
square-mile oil slick, which went largely unreported.
    These seeps are being reduced by offshore oil and gas 
production. It is well known to longtime Santa Barbara 
residents that over the last 40 years, the amount of oil 
washing up on their beaches has been declining and is commonly 
assumed that offshore oil production is the reason. These 
observations are supported by research documenting a 50 percent 
reduction in the seepage near an offshore oil platform that was 
studied for 20--over 20 years. If after the 1969 spill all 
California offshore oil production had been stopped, these 
long-term seepage reductions would never have occurred.
    In the last 40 years, there have been only 872 barrels of 
oil spilled offshore California due to offshore oil production, 
with no lasting long-term environmental impact, compared to the 
2 million barrels of oil seepage into the same coastal waters. 
A 2008 opinion poll shows that, by 62 percent to 29 percent, 
Santa Barbara County residents support more offshore production 
in California, a population that follows this subject more 
closely than any other. The Gulf of Mexico offshore production 
also has an excellent safety and environmental record even in 
the face of Hurricanes Katrina and Rita.
    Modern technology and 3-D seismic allows reserves to be 
accurately targeted, including seep zones and resources at risk 
from earthquakes. For example, the 1925 Santa Barbara 
earthquake caused a massive flood of crude oil from seabed 
fissures to pour into coastal waters and onto California 
beaches.
    Pacific OCS resources are estimated by MMS to be at least 
13 billion barrels of oil equivalent. Discovered resources in 
the California OCS and State waters--which are not allowed to 
be produced--amount to about 1.8 billion barrels, are near 
existing infrastructure, and are producible within 18 months--
given permitting approvals. Eleven of 13 reservoirs are 
overlaid by active seeps in State and OCS waters, seepage which 
could be permanently reduced by offshore extraction. Royalties 
from these resources could fund conversion to electricity use 
by 20 million Americans for solar electricity and cut 
California oil imports in half.
    This would reduce the risk of a large spill in coastal 
waters since studies show the risks from large oil tanker 
spills are greater than from offshore platforms or pipeline 
spills. Total 2006 MMS estimated OCS resources are 160 billion 
barrels of oil equivalent. Royalties from these resources 
exceed $3 trillion, which in terms of renewable energy, could 
buy 1,000 gigawatts of solar electric-generating power--an 
amount equal to all U.S. electric-generating capacity.
    Assertions that new offshore oil production will slow 
conversion to renewable energy are not correct. More OCS 
production will actually accelerate the conversion. SOS 
California believes new offshore production royalties should be 
tied directly to funding renewable energy infrastructure to 
accelerate the transition to solar electric vehicles and other 
renewables. The U.S. will not be able to borrow overseas money 
for 30 years to pay for building a renewable energy 
infrastructure while running a $600 billion a year trade 
deficit due to primarily imported oil moratorium.
    I urge Congress not to reimpose an OCS moratorium. New OCS 
production will allow Americans to benefit from safe extraction 
of domestic energy resources with royalty revenues accelerating 
the transition to renewable energy. For coastal Californians, 
intelligently expanded production in the OCS and State waters 
would further reduce coastal seepage pollution for future 
generations.
    Thank you.
    [The prepared statement of Mr. Allen follows:]

          Statement of Bruce Allen, Co-Founder, SOS California

    I would like to thank Chairman Rahall and the Committee for the 
invitation to speak here today. I am Bruce Allen, a co-founder of SOS 
California, a non-profit dedicated to educating the public how offshore 
oil and gas production can actually improve the marine environment and 
provide a bridge to our renewable energy future. Due to advances in 
subsea wellhead, platform and pipeline technology, according to the 
National Academy of Sciences less than 1% of hydrocarbon pollution in 
all U.S. waters now comes from drilling and extraction, while natural 
oil seeps contribute 63%.
    Published studies document that in the Gulf of Mexico natural 
hydrocarbon seepage may far exceed the environmental significance of 
the production and transportation of oil and natural gas.
    Surprising to many is the fact that California offshore oil and gas 
production has been drying up seepage pollution. Similar seepage 
reductions also appear to be occurring in other oil and gas resource 
basins.
    Natural oil and gas seeps off the California coast are the second 
most active in the world, seeping 70,000 barrels of oil into coastal 
waters and 3 billion cubic feet of methane into the air every year. 
This annual oil seepage volume equals the entire 1969 oil spill and 
equals the Exxon Valdez oil spill amount every 4 years. Local beaches 
are washed with oil seepage from state and OCS waters for 100 miles of 
central California coastline. These seeps pollute the ocean and 
beaches, sicken surfers, and are a significant source of air pollution 
in Santa Barbara County.
    For example, in January 2005 an increase in this seepage killed or 
oiled as many as 5000 seabirds that washed ashore from Santa Barbara to 
Huntington Beach, creating a 25 square mile oil slick, which went 
largely unreported.
    These seeps are being reduced by offshore oil and gas production. 
It is well known to long time Santa Barbara residents that over the 
last 40 years the amount of oil washing up on their beaches has been 
declining, and it is commonly assumed offshore oil production is the 
reason. These observations are supported by research documenting a 50% 
reduction in seepage near an offshore platform studied for over 20 
years.
    If, after the 1969 spill, all California offshore oil production 
had been stopped, these long term seepage reductions would never have 
occurred.
    In the last 40 years there have only been 872 barrels of oil 
spilled offshore California due to offshore production with no lasting 
long term environmental impact compared to the 2 million barrels of oil 
seepage into the same coastal waters. A 2008 opinion poll shows by 62% 
to 29% Santa Barbara County residents support more offshore production 
in California, a population that follows this subject more closely then 
any other.
    Gulf of Mexico offshore production also has an excellent safety and 
environmental record, even in the face of Hurricanes Katrina and Rita.
    Modern technology and 3-D seismic allows reserves to be accurately 
targeted, including seep zones and resources at risk from earthquakes. 
For example, the 1925 Santa Barbara earthquake caused a massive flood 
of crude oil from seabed fissures to pour into coastal waters and onto 
California beaches.
    Pacific OCS resources estimated by MMS are at least 13 billion 
barrels of oil equivalent. Discovered, but not allowed to be produced 
resources in California OCS and state waters are about 1.8 billion 
barrels, near existing infrastructure producible within 18 months given 
permitting approvals. 11 of 13 reservoirs are overlaid by active seeps 
in state and OCS waters, seepage which could be permanently reduced by 
offshore extraction. Royalties from these resources could fund 
conversion of electricity usage by 20 million Americans to solar 
electricity and cut California oil imports in half. This would reduce 
the risk of a large spill in coastal waters, since studies show risks 
from large oil tanker spills are greater then from offshore platform or 
pipeline spills.
    Total 2006 MMS estimated OCS resources are 160 billion barrels of 
oil equivalent. Royalties from these resources could exceed 3 trillion 
dollars, which in terms of renewable energy, could buy one thousand 
gigawatts of solar electric generating power, an amount equal to all 
U.S. electric generating capacity.
    Assertions that new offshore oil production will slow conversion to 
renewable energy are not correct; more OCS production can actually 
accelerate the conversion. SOS California believes new offshore 
production royalties should be tied directly to funding renewable 
energy infrastructure to accelerate the transition to solar, electric 
vehicles and other renewables.
    The U.S. will not be able to borrow overseas money for 30 years to 
pay for building a renewable energy infrastructure while running a 600 
billion dollar a year trade deficit due primarily to imported oil.
    I urge Congress not to re-impose an OCS moratorium. New OCS 
production will allow Americans to benefit from safe extraction of 
domestic energy resources with royalty revenues accelerating the 
transition to renewable energy. For central coast Californians, 
intelligently expanded production in OCS and state waters would further 
reduce coastal seepage pollution for future generations. I would be 
pleased to answer questions. Thank you.
                                 ______
                                 

    Response to questions submitted for the record by Bruce Allen, 
                       Co-Founder, SOS California

    I submit this memo to the House Committee on Natural Resources 
Chief Clerk to be forwarded to all House Natural Resource Committee 
Members and request its inclusion and the attachments in the 
Congressional Record in response to questions to me at the February 11, 
2009 Natural Resources hearing and the request for citation for the 
Record by Rep. Capps regarding my comments on the source of California 
Monterey County beach seepage tar and the chemical typing of this 
seepage tar.
    I also would like to request a copy of the letter by Bruce Luyendyk 
regarding SOS California that Rep. Capps indicated she would submit to 
the Record, and request that I be given the opportunity to include my 
comments on the letter in the Congressional Record. I was not offered 
an opportunity to see the letter to which Rep. Capps referred before or 
after the hearing.
    I would note for the Committee that Bruce Luyendyk did submit a 
letter to the Santa Barbara County Board of Supervisors in August 2008 
(a copy of which I have attached), in which the letter points to 
``clarifications'' in regard to SOS's position on offshore oil. In his 
letter, Luyendyk stated,
    ``Their premise is based on interpretation of two 1999 UCSB studies 
on oil seeps offshore Coal Oil Point in Goleta, the location of 
Venoco's platform Holly. As a member of that UCSB research team I want 
to point to several qualifications in this SOS argument. The 
relationship between ongoing production and decreasing seepage remains 
a hypothesis that is not fully tested. The relationship is well 
established for the Coal Oil Point field under current production 
methods but not tested by scientific studies elsewhere in the 
Channel.''
    SOS California's ``premise'' is NOT solely based on the two 1999 
studies, and is not restricted to the Santa Barbara ``channel''. Our 
analysis includes other published research which includes seep zones in 
California, reservoir engineering opinions, analysis of the advances in 
offshore drilling technology and discussions with many petroleum 
geologists and researchers that did not include Luyendyk and he was not 
been privy to any of those discussions. That the ``hypothesis has not 
been fully tested'' merely states the obvious fact that to be ``fully 
tested'', the offshore oil fields in seep zone areas that are currently 
off limits would need to be produced and seepage reductions measured. 
Petroleum geologists with current offshore oil production technology 
experience have consistently given opinions that if extraction of 
hydrocarbon resources from many reservoirs in undeveloped active seep 
zone areas offshore California occurred, it is highly likely that 
extraction with modern technology would reduce this existing seepage 
pollution.
    In his letter Luyendyk states, ``It is true that natural oil 
seepage may be the major source of oil in the ocean: to what degree is 
uncertain. However, labeling this natural floating oil to be pollution 
is not so simple.''
    I believe it is clear that natural seepage emissions, including 
oil, tar and ROG (reactive organic gases) emissions off the coast of 
southern and central California are considered pollution sources per 
definitions by the EPA, California Air Resources Board, and other 
agencies. I believe it is clear these seepage emissions harm the 
environment, and are responsible for wildlife deaths.
    Bruce Luyendyk also stated in the August 2008 letter, ``Even if 
drilling were to go forward as a means of decreasing seepage, some 
seeps are located where oil drilling would not occur either because of 
non-economic deposits or legal restrictions.''
    SOS California believes that drilling and extraction are clearly a 
means of decreasing seepage. If the resources are not economic to 
produce, they will likely not be produced and SOS has never said 
otherwise, and SOS California believes many of the seep fields off the 
coast of California are economic, based on existing known resource 
estimates and many detailed seep field studies. With respect to legal 
restrictions, this is the very policy issue SOS California is 
addressing through public education and hearings.
    SOS California has not changed its position since Luyendyk's letter 
was sent to the Santa Barbara County Board of Supervisors, dated August 
18, 2008. I believe the conclusions of the 1999 UCSB studies speak for 
themselves, and I encourage the committee to read their conclusions, 
including the conclusion ``...oil production here has resulted in an 
unexpected benefit to the atmosphere and marine environment.'' The 1999 
studies are a notable set of studies, but implying that our policy 
position is solely based on those findings is incorrect.
    SOS California does not consider the other studies we have reviewed 
and analyzed to constitute ``evidence'' as was asked by Rep. Capps at 
the hearing, but rather these other studies and geologists opinions to 
be significant factors in our assessment of the potential for seepage 
reductions along the California coast due to oil reservoir extraction.
    With respect to the request by Rep. Capps to provide for the record 
a source for my reference to the fact that tar from Santa Barbara area 
seepage washes up on Monterey County beaches, and the issue of their 
chemical typing, I include below a USGS (United States Geological 
Survey) April 2008 Sound Waves article citing chemical analysis of tar 
ball samples by the California Department of Fish and Game, Oil Spill 
Prevention and Response (OSPR) and titled:
    ``Tar Balls from Southern California Seeps Appear on Central 
California Beaches'' By Helen Gibbons, Bob Rosenbauer, Tom Lorenson, 
and Randy Imai (CDFG Office of Spill Prevention and Response) April 
2008:
    Excerpt: ``Tar balls that appear on central California shores 
during the winter months mostly originate in southern California seeps, 
as evidenced by their chemical fingerprints. These tar balls are 
believed to be carried northward by the Davidson Current, which 
periodically flows northward along the California coast, often aided by 
winter storms that bring southwesterly winds to the region.''
    http://soundwaves.usgs.gov/2008/04/fieldwork2.html
    Attached also to this memo is a published news article dated March 
6th, 2007 that gives some additional context regarding the question of 
natural oil and tar seepage flowing up the coast of California and 
deposition on Monterey and San Francisco area beaches.
    I would note for the Committee that Santa Barbara and California 
residents over the last 40 years have clearly observed the major 
improvement of their coastal environment due to less natural oil and 
tar on their beaches that has always been present even before offshore 
oil production began in California. The best scientific evidence points 
to offshore oil and gas production as the cause of this benefit. I 
believe the potential to even further reduce natural offshore seepage 
pollution through expanded offshore oil and gas production is a 
significant potential benefit that the Committee should seriously 
consider as a factor in evaluating the benefits of offshore oil and gas 
resource development.
                                 ______
                                 
Attachment 2

August 18, 2008

TO:  Board of Supervisors, Santa Barbara County

RE:  Statement on oil seeps and drilling for August 26 meeting, ``State 
and National Energy Crisis--Discussion''

    The local group Stop Oil Seeps (SOS) has gained a lot of traction 
lately as alarmed southern Californians react to sharply increasing 
gasoline prices. Part of the SOS agenda is to promote offshore drilling 
and oil production as a means of reducing natural oil and gas seepage 
and their effects in the Santa Barbara Channel. Their premise is based 
on interpretation of two 1999 UCSB studies\1\ \2\ on oil seeps offshore 
Coal Oil Point in Goleta, the location of Venoco's platform Holly. As a 
member of that UCSB research team, I want to point to several 
qualifications in this SOS argument.
---------------------------------------------------------------------------
    \1\ Quigley, D. C., J. S. Hornafius, B. P. Luyendyk, R. D. Francis, 
J. F. Clark, and L. Washburn (1999), Decrease in Natural Marine 
Hydrocarbon Seepage near Coal Oil Point, California Associated with 
Offshore Oil Production, Geology, 27 (11), 1047-1050.
    \2\ Hornafius, J. S., D. C. Quigley, and B. P. Luyendyk (1999), The 
world's most spectacular marine hydrocarbons seeps (Coal Oil Point, 
Santa Barbara Channel, California): quantification of emissions, 
Journal Geophysical Research - Oceans, 104 (C9), 20703-20711.2
---------------------------------------------------------------------------
    The relationship between ongoing production and decreasing seepage 
remains a hypothesis that is not fully tested. The relationship is well 
established for the Coal Oil Point field under current production 
methods but not tested by scientific studies elsewhere in the Channel. 
Many oil reservoirs offshore in fact are not seeping so drilling them 
would have no effect. Those reservoirs that are seeping, to my 
knowledge, are discharging far less that the Coal Oil Point field, 
minimizing any effect of drilling on seepage. Even if drilling were to 
go forward as a means of decreasing seepage, some seeps are located 
where oil drilling would not occur either because of non-economic 
deposits or legal restrictions. Further, any relationship between 
ongoing production and decreasing seepage could only apply in the early 
history of an oil field during a phase known as primary production 
where natural subsurface conditions allow easy extraction of 
hydrocarbons. As oil fields age more elaborate Enhanced Oil Recovery 
measures are required, and these could have the opposite result of 
increasing seepage.
    The argument is also made by SOS that most of the oil floating on 
the surface of the ocean today is of natural origin, not industrial, 
and that therefore our enemy is really natural seepage. It is true that 
natural oil seepage may be the major source of oil in the ocean: to 
what degree is uncertain. However, labeling this natural floating oil 
to be pollution is not so simple. Ecosystems have adapted to ongoing 
hydrocarbon seepage as they have done at Coal Oil Point. On the other 
hand, a sudden accidental spill of even a small magnitude is something 
that natural systems experience as acute stress and could have far 
greater impact than continual natural sources.
    The Coal Oil Point field emits gases that are classified as noxious 
air pollutants and precursors to ozone. These are likely of large 
magnitude offshore but are highly dispersed once they blow onshore to 
Goleta. That area is rarely beyond state or federal air quality (ozone) 
standards according to our county monitoring records.
    Our 1999 UCSB studies were made on a special case of marine seeps; 
one of the world's most active. However, these seeps occur over a 
limited area. To extrapolate the findings of our studies beyond the 
Coal Oil Point area cannot yet be substantiated, and there are many 
reasons to caution against generalizing our study results to the 
greater Santa Barbara Channel, much less to the California continental 
shelf.

Sincerely,

Bruce P. Luyendyk
Professor of Marine Geophysics
UC Santa Barbara
                                 ______
                                 
Attachment 3

                http://www.mcpost.com/article.php?id=695

Winter Storms Wash Santa Barbara's Tar onto Central Coast Beaches Thick 
        Tar Balls from Naturally Occurring Seepage
By Monica Woelfel March 6, 2007
    On Feb. 23, the state Department of Fish & Game's Office of Spill 
Prevention and Response (OSPR) identified the source of the tar balls 
that have been washing up on local beaches. The tar, according to OSPR 
information officer Rob Hughes, is ``Monterey formation crude'' from a 
natural seep, and does not originate, as some had feared, from offshore 
drilling or from an oil tanker spill.
    ``There isn't much we can do about that except monitor it,'' Hughes 
said of the natural source. ``We're waiting for nature to clean itself 
up.''
    Fortunately, according to Hughes, ``There hasn't been any wildlife 
impact and there haven't been any [human] health concerns.''
    Petroleum and environmental geochemist Fran Hostettler has been 
working with the Monterey Bay National Marine Sanctuary Project for 
years.
    ``There are no known seeps in the Sanctuary,'' she said. ``That's 
why people pay attention whenever tar shows up, because it could be 
from an oil spill.''
    The findings of the OSPR lab, however, are no surprise to 
Hostettler. For decades, she and other researchers have documented the 
presence of tar balls on Monterey Bay beaches that come from natural 
seeps as far south as Santa Barbara.
    In the latest instance, the tar started washing up on the Central 
Coast from Asilomar at Pacific Grove to San Francisco's Ocean Beach on 
Feb. 10 and continued to come ashore for about a week.
    Aside from the tar balls, no other evidence of a potential oil 
spill (such as oiled wildlife) was found.
    ``It was reported to our department from the public,'' said local 
Fish and Game warden Jess Mitchell, of the tar washing up. ``I 
collected a few samples down at Asilomar State Beach. They were flat, 
like a pancake and pliable. They ranged from the size of a dime to 
about 4 inches by 8 inches.''
    According to Hostettler, past reports have documented flattened tar 
balls as large as three feet in diameter.
Tar Balls Date Back Thousands of Years
    In addition to Mitchell's samples from Asilomar, OSPR, San Mateo 
County and State Parks staff collected recent tar balls in February 
from Fitzgerald Marine Reserve, and Manresa and Sunset State Beaches.
    Fish and Game officers sent the samples to OSPR's Petroleum 
Chemistry Laboratory in Rancho Cordova for analysis. The lab was able 
to ``fingerprint'' the oil, using gas chromatography-mass spectrometry 
analysis.
    Any sample of oil has a mix of specific chemicals within it, 
explained Hostettler.
    ``The ratio of the amounts of different chemicals within the 
sample,'' she said, ``gives you that oil's fingerprint.''
    Two samples of oil from the same source, she said, even if they are 
collected from locations far apart, will give exactly the same 
fingerprint.
    Scientists can pretty easily distinguish natural-seep tar from that 
which has been drilled out, according to Hostettler.
    ``The stuff that comes up from deep down is not as degraded,'' she 
said. ``These seeps are very close to the surface.''
    As a result, microbial systems have degraded it.
    For those who have known the Central Coast beaches well over the 
years, the appearance of tar balls is not all that surprising. Last 
year, Mitchell said, he saw a similar event happen.
    Hostettler's historical re-search turned up interesting results.
    ``These tars have been showing up here for thousands of years,'' 
she said.''
    In fact, she found reports that some boats of the original Indian 
residents of the Monterey Bay area were sealed for waterproofing using 
tars from the same source.
    ``Essentially what happens,'' said UCSC earth sciences professor 
Gary Griggs, director of the Institute of Marine Sciences, ``is those 
hydrocarbons seep out of the sea floor. The light stuff evaporates and 
the heavier tar balls form and move with the currents.''
    He said that currents bring the tar north in winter.
    ``During the summer and fall the coastal current is going south,'' 
Griggs said. ``But in the winter months the Davidson Current, which is 
near shore, is going north. And that is a mechanism to move tar balls 
from the Santa Barbara Channel up to the Monterey, San Mateo, and Santa 
Cruz coast.''
    Weathered tar balls are not very sticky while they're in the ocean, 
therefore they pose a minimal threat to marine life, according to the 
Department of Fish and Game. Once on shore, however, the sun's warmth 
melts the tar some, making it sticky and potentially a hazard to marine 
life and pets.
    Fish and Game officials remind the public that oil, even from 
natural sources, contains hazardous chemicals, and the public should 
avoid contact with the tar balls. The tar must be removed from beaches 
by people with personal protective equipment, and disposed of at a 
licensed hazardous waste facility.
    If someone has reliable evidence that an oil spill may have taken 
place (in this or any other instance), they should contact the 
Department of Fish and Game's CalTIP (Californians Turn In Poachers and 
Polluters) toll-free at 888-DFG-CALTip (888-334-2258).
                                 ______
                                 
Attachment 4

February 20, 2009

The Honorable Nick J. Rahall II
Chairman
Committee on Natural Resources
1324 Longworth House Office Building
Washington, D.C. 20515

RE: Natural Resources Committee hearing Wednesday February 11, 2009

Dear Chairman Rahall,

    Thank you for providing me the opportunity to testify before the 
Committee on Natural Resources on February 11. I hope that my testimony 
and answers were helpful to the Committee's work. I would also like to 
respond to several aspects of a letter sent to you by Bruce Luyendyk 
regarding me and the organization SOS California, and references to the 
letter by Rep. Lois Capps which were directed to me in the February 11 
Committee hearing. I only have had an opportunity to view the contents 
of the letter after the hearing.
    The statement in the letter from Dr. Luyendyk that I represent 
``the industry group Stop Oil Seeps (SOS)'' may suggest that I and SOS 
represent an industry, which is not the case. The issues we are 
addressing as an independent non-profit are a confluence of offshore 
oil and gas, the marine and coastal environment, long term quality of 
life issues, renewable energy and responsible governance.
    The statement in the letter that ``The SOS premise is based on 
interpretation of two 1999 UCSB studies'' is misleading for several 
reasons. It has been overwhelmingly obvious to long time Santa Barbara 
and ``South Central Coast'' residents, and members and supporters of 
SOS California that the amount of oil and tar on their beaches has been 
declining for decades and their belief is that offshore oil production 
has been the cause of this benefit. These very long term environmental 
benefits have previously received virtually no public acknowledgement 
and are even resisted by some organizations that apparently do not wish 
the public and policy makers to be aware of these benefits. I addressed 
SOS California's view of the economic benefits and safety aspects of 
California and U.S. offshore oil development in my written testimony.
    The likely connection between the reduction in seepage pollution 
and offshore oil and gas production has been known to many geologists 
not associated with the UCSB 1999 study and they have expressed the 
opinion that the 1999 study findings of seepage reduction and net 
environmental benefit are ``no surprise'' and also the expected result 
of resource extraction in many other seep areas offshore south central 
California. SOS California would be pleased at your request to provide 
the Committee on Natural Resources a portfolio of information 
documenting the seepage oil and tar pollution reductions along 
California's south central coast beaches and ocean waters over the past 
50 years independent of the above referenced 1999 studies.
    We believe that the benefits of seepage pollution reductions 
through offshore oil and gas production should be a significant factor 
in the policy consideration for resource planning for future offshore 
oil production. I would note that the issue of long term seepage 
pollution reduction and the associated environmental benefits appears 
to have never been a federal or state policy consideration for offshore 
oil and gas production and SOS California believes this has been a 
policy deficiency that should be corrected.
    The letter from Dr. Luyendyk further states, ``To assume that 
natural marine seeps are a source of pollution that needs to be 
controlled ignores the fact that they have coexisted with the natural 
environment of the Santa Barbara Channel for more than half a million 
years. Ecosystems have developed around them and are fully adapted.'' I 
would note that if the current seepage rates in the major seep zones 
off the coast of California which have not been explored with modern 3-
D seismic were to continue in time for only an additional 20% longer, 
then there are offshore resources well beyond 7 billion barrels 
equivalent (BOE). These resources would be within close proximity to 
coastal infrastructure and extractable through safe slant drilling 
which would eliminate all California oil imports for 30 years (400,000 
barrels per day) and provide an additional 260,000 barrel per day 
surplus. With respect to the ecosystem, there is no evidence that 
humans, other mammals, birds and many other species are ``fully 
adapted'' to oil and gas pollution. The suggestion that the seepage 
pollution is benign defies common sense and ignores standard 
environmental regulatory agency policies concerning pollution sources 
and hazardous substances.
    I have attached a front page newspaper article, dated August 28, 
2008, in which a surfer describes a typical experience surfing in ocean 
waters contaminated with natural seepage near Santa Barbara. The surfer 
states, ``It's been pretty bad out there. When I go out surfing for an 
hour I can literally feel the tar and oil in the back of my throat. I 
actually get a sore throat if I go surfing too long,'' The EPA and CARB 
(California Air Resources Board) define geogenic (seepage) emissions to 
be pollution whether natural or man made. The California Department of 
Fish and Game treats oil and tar seepage collected on California 
beaches as a hazardous substance and requires its disposal at a 
hazardous waste facility. Bird death estimates off the south central 
coast of California from natural seepage pollution in the last 40 years 
significantly exceed bird death estimates due to all California 
offshore oil spills, including the 1969 oil spill. In January 2005 
there were 1400 oil covered birds that were injured or dead collected 
on California beaches in one incident alone due to ``natural'' offshore 
oil seepage. Generally total bird casualties far exceed the number of 
birds actually collected.
    Dr. Luyendyk's letter then states, ``Fumes from seeps, although 
noxious up close, are barely detectable onshore.'' I find this 
statement to be surprising and contradicted by the facts in detailed 
peer reviewed published research, including studies sponsored by the 
U.S. Minerals and Management Service on California South Central Coast 
Air Quality. In a series of studies published in the Journal of Applied 
Meteorology, May 1991, the issue of geogenic (seepage) air pollution 
emission levels in the region was studied. In one of the papers, titled 
``Factor Analysis of Hydrocarbon Species in the South-Central Coast Air 
Basin'', page 733, the paper identifies two major sources of 
hydrocarbon air pollution in the region, surface transportation 
vehicles and geogenic (seep) sources. The study summary states ``The 
second major source is high in methane, ethane, and propane, but also 
contains reasonable amounts of butane and pentane. This type of 
composition suggests a geogenic source.'' I have attached the abstract 
and first page of the study.
    I would encourage that the Committee staff read the full set of 
studies that detail the levels and sources of hydrocarbon air pollution 
that are estimated from the air sample data which is the basis for the 
estimates and air quality modeling over the regional population 
centers. It is clear that the seep emissions are a major source of the 
regions air pollution. I would also note as a Santa Barbara Air 
Pollution Control District Community Advisory Council Member that the 
2007 Santa Barbara Air Pollution Control District (APCD) Air Quality 
Plan Inventory estimates total ROC (reactive organic compound) seep 
emissions to be 6,075 tons per year, compared to ROC's from all on-road 
vehicles of only 4,846 tons, and note that man-made ROC's are heavily 
regulated due to their environmentally damaging health effects.
    I also believe the statement in Dr. Luyendyk's letter, ``This 
natural phenomenon contrasts sharply with industrial oil spills, which 
are sudden acute events of obvious stress to the marine environment.'' 
may not be entirely representative for California south central coast 
oil pollution. I have attached a published, July 4th, 1925 eyewitness 
account of the 1925 earthquake offshore oil release in an area 
previously free of seepage which speaks for itself. Other eyewitness 
accounts corroborate the nature of the massive and sudden 1925 
earthquake release of offshore oil.
    In the last 40 years, there have been only approximately 872 
barrels of oil spilled due to offshore production versus  2 million 
barrels from natural seepage in that 100 mile region. The offshore area 
near Coal Oil Point near Santa Barbara is estimated to contain 
approximately half of the south central coast oil and gas seeps, with 
most of the other half concentrated in the Santa Maria Basin state and 
OCS waters off the coast of northern Santa Barbara County. Many of the 
Santa Maria Basin seepage areas are also very active with high 
concentrations of oil, tar and gas seepage pollution in proximity to 
discovered but off limits oil and gas resources (``Geological Controls 
of Hydrocarbon Seeps in Santa Maria Basin, Offshore California'', Dr. 
Peter J. Fischer, Joseph M. Saenz, AAPG 2003)
    In response to the statement in Dr. Luyendyk's letter, ``If it is 
successfully argued that seeps need to be controlled, then 
indiscriminate drilling offshore is not the clear solution. This is 
because not all oil reservoirs in the offshore are seeping. Therefore 
drilling them would have no impact on seepage.'' I would note that in 
my Committee testimony in reference to California offshore, I referred 
to ``11 of 13 reservoirs are overlaid by active seeps in state and OCS 
waters''. Most of these reservoirs are in the Santa Maria Basin and 
surrounding area, which has very active oil, tar and gas seeps, 
including areas near Point Conception that have very extended areas 
offshore encompassing seabed oil and tar seeps and tar mounds covering 
the ocean floor that are 12-15 feet thick. The beaches all along the 
coast in this region are also heavily impacted from oil and tar from 
natural seepage pollution.
    In the same letter the statement that ``It is also important to 
realize that the drilling-seepage relationship could be in question if 
aggressive artificial means to enhance subsurface production were 
employed, as is often the case for mature oil reservoirs. Seepage could 
in fact increase over time negating the expected positive effects.'' 
fails to note that the offshore platform (Holly) in the 1999 study has 
seen major reductions in surrounding seepage, even with the use of 
standard re-injection practices for aging fields.
    This issue should be viewed in the context that reservoir pressures 
can indeed be managed by offshore field operators, and as part of the 
regulatory process, consideration for maximizing field production while 
maximizing seepage reductions can be included in the approval process. 
In this light, the seepage reductions due to reservoir extraction can 
be even greater then would otherwise be the case.
    Most of the discovered, but off-limits California state and OCS 
hydrocarbon resources and seepage zones are within reach of land based 
slant drilling which would have no new risk of an offshore spill. In 
the case of offshore production, a single offshore platform now has the 
capability to drain a hydrocarbon resource basin and seep zone area 
covering 80 square miles.
    In addition to offshore oil and gas resource potential, resource 
size, proximity to infrastructure, economic potential, potential 
adverse environmental impacts and safety, SOS California believes that 
the potential for seepage pollution reductions is a significant policy 
consideration that heretofore has not been recognized. We also strongly 
encourage that future royalties from any new offshore production be 
directed to funding solar electricity and electric vehicles and other 
renewable energy programs.
    I would be pleased to provide any additional information on the 
issues of energy, natural resources and the environment that may be 
helpful for the Committee's work.

Sincerely,

Bruce Allen
Co-Founder
SOS California
                                 ______
                                 
[NOTE: Additional attachments have been retained in the Committee's 
official files.]
    The Chairman. Mr. Angers.

         STATEMENT OF JEFFERSON M. ANGERS, PRESIDENT, 
                CENTER FOR COASTAL CONSERVATION

    Mr. Angers. Mr. Chairman and members, my name is Jeff 
Angers. I am the President for the Center for Coastal 
Conservation. I am a native Louisianian.
    We have talked a lot about Louisiana here this morning and 
this afternoon, and I am a recreational fisherman. The center 
is a coalition of the leading advocates for marine recreational 
fishing and boating. Our mission is to promote good stewardship 
of America's marine resources.
    I was asked to discuss today the compatibility of 
recreational saltwater fishing with the oil and gas industry. 
Not only do the two industries coexist in Louisiana, but they 
both thrive. To start, I would like to quote from the Accord 
for New Sustainability for America's Energy Coast, which is an 
initiative sponsored by America's WETLAND: ``Host to almost 90 
percent of America's offshore oil and gas supply and a third of 
all oil and gas consumed in this country, the region is 
connected to 50 percent of the Nation's refining capacity. It 
is home to the largest port system by tonnage in the world, 
moving the bulk of America's waterborne commerce. The region 
also provides habitat for dozens of endangered and threatened 
species and millions of migratory waterfowl and songbirds. The 
region produces more than a third of the fish caught in the 
Lower 48, and our coastal wetlands serve as a nursery ground 
for marine life throughout the entire Gulf of Mexico.''
    Mr. Chairman, one of the addendums to my testimony was this 
accord published by America's Wetlands, which was a 
collaborative effort brought together by government, industry, 
the national conservation community, academia, and all the 
major stakeholders. And as this Committee discusses a 
collaborative process to move forward, this would be a model 
that I would commend to the Members of the Committee.
    Though I am not an energy expert, I can give you a couple 
of facts about the oil and gas business in Louisiana. Louisiana 
ranks first in crude oil and second in natural gas production. 
The total direct and indirect economic impact of the oil and 
gas industry in Louisiana is $65 billion. Clearly, it is a big 
business.
    There is a companion big business in Louisiana about which 
I am here to testify today, and that is the recreational 
saltwater fishing industry. Just last month, NOAA reported that 
Louisiana was one of the top five States in economic impact of 
saltwater angling; $2.9 billion pumped into the Louisiana 
economy just from recreational saltwater fishing. The other 
States that were atop that list were: Florida, $16.7 billion 
from recreational saltwater fishing; Texas, $3.2 billion; 
California, $3 billion; Louisiana, as I said, $2.9 billion; and 
North Carolina with $2 billion. The overall $31.4 billion in 
total U.S. expenditures in 2006 contributed $82 billion in 
total sales; $39 billion to the gross national product; $24 
billion in personal income; and supported nearly 534,000 jobs.
    Commercial fishing is another big business in Louisiana 
that coexists and thrives with the recreational fishing 
industry and the oil and gas business. The commercial fishing 
industry generated $2.1 billion in sales in 2006, $1.1 billion 
in income, and supported 46,000 jobs.
    Structure and infrastructure is something that we have 
talked a lot about today. Ninety percent of the more than 4,500 
oil and gas-related structures in the Gulf of Mexico are in 
Louisiana waters or in our adjacent waters. Since the first 
offshore platform was built in the 1940s, these structures have 
been very important. First, they have, in recent years, 
provided the United States with a quarter of our oil and gas 
requirements. They have also served as hard structures in an 
otherwise soft bottom environment for reef fish to grow and 
prosper. Thanks in large part to the leadership of former 
Senator John Breaux, who sponsored the National Fishing 
Enhancement Act of 1994, coastal States began to establish 
artificial reef programs, converting many of these rigs into 
permanent artificial reefs. The ``Rigs-to-Reefs Program'' has 
been nothing but an overwhelming success in the entire Gulf of 
Mexico.
    Beyond the structure offshore, which anglers target--
because clearly you want to go to where the fish are--we like 
to tell everyone, ``Come to Louisiana because we have all the 
fish''--we target fish on the structure but also the 
infrastructure that we enjoy onshore really comes about in 
large part because of what the oil and gas industry has created 
for themselves, and we are somewhat of a secondary beneficiary. 
There would not be four-lane highways to many of the coastal 
fishing destinations in rural Louisiana were there not a bigger 
business, and that indeed is what the oil and gas industry has 
been.
    There has been a lot of talk about wetlands loss in 
Louisiana and coastal erosion. Surely all of the industries 
that operate on Louisiana's coast have contributed to the 
wetlands loss, but thanks to the foresight of the Members of 
this Committee and of the Congress in 2006 passing the OCS 
revenue sharing bill, Louisiana is seeing some of the revenues 
that are going to be able to help us to restore our coast.
    Going forward, one recommendation that I would like to 
recommend to the Committee would be the inclusion of a process 
similar to the permitting of offshore LNG terminals that was 
established years ago. The reliance on adjacent State Governors 
for input added a very positive dimension to the policy debate 
around LNG sighting and permitting in the Gulf of Mexico.
    That concludes my testimony, and I will be happy to take 
any questions, Mr. Chairman.
    [The prepared statement of Mr. Angers follows:]

             Statement of Jefferson M. Angers, President, 
                    Center for Coastal Conservation

    Good morning Mr. Chairman. My name is Jeff Angers, and I am the 
President of the Center for Coastal Conservation, a native Louisianian 
and a recreational fisherman. I would like to thank the Chairman for 
this opportunity to address the Committee as it begins its 
consideration of the measures to facilitate offshore energy 
development.
    The Center is a coalition of the leading advocates for marine 
recreational fishing and boating. It is dedicated to promoting sound 
conservation and use of ocean resources. Our mission is to promote good 
stewardship of America's marine resources.
    I was asked to discuss the compatibility of offshore energy 
development with recreational fishing in coastal areas. Not only do the 
two industries co-exist in Louisiana, but they both thrive.
    Coastal Louisiana is the portal for 27 percent of America's oil and 
gas. It is home to the largest port complex in the country. Coastal 
Louisiana produces over half of America's shrimp and is the leading 
producer of oysters. It also supports a recreational fishing industry 
for 1.2 million American anglers which pump $2.9 billion into 
Louisiana's economy.
Oil and Gas: Big Business
    Although I am not an energy expert, a couple facts and figures 
about oil and gas in the ``Sportsmen's Paradise'' should be set forth 
at the outset: Including current Outer Continental Shelf production, 
Louisiana ranks 1st in crude oil and 2nd in natural gas production. 
Excluding OCS production, Louisiana ranks 4th in crude oil and 5th in 
natural gas production.
    According to Mid-Continent Oil and Gas, the total direct and 
indirect economic impact of the oil and gas industry on Louisiana is 
approximately $65 billion. The direct impact comes from the taxes, 
royalties, fees, salaries, and other money spent in Louisiana by the 
oil and gas industry. The indirect impact results from the salaries and 
wages earned by oil and gas employees being spent in the state as well 
as service companies.
    The offshore industry operating in the Gulf of Mexico just outside 
the state's territorial boundaries has a huge impact on the state. A 
study conducted by Applied Technology Research Inc. shows that the 
offshore industry has a direct impact of $3 billion on the state. The 
offshore industry pays more than $500 million in salaries and wages to 
people working in the Gulf of Mexico. Another $2.5 billion is spent 
with companies operating in Louisiana and doing business with the 
offshore industry. It is important to remember that everything used on 
an offshore platform has to come from somewhere onshore.
Recreational Fishing: A Companion Big Business
    Just last month, the National Oceanic and Atmospheric 
Administration reported Louisiana was one of the top five states in 
economic impact of saltwater angling: $2.9 billion pumped into the 
state's economy. Nationally, saltwater anglers are estimated to have 
spent $5.8 billion on trip-based expenses, such as ice, bait, and fuel, 
and another $25.6 billion on fishing equipment and durable goods like 
fishing rods, fishing tackle, and boats.
    The top five coastal recreational fishing states were Florida 
($16.7 billion), Texas ($3.2 billion), California ($3.0 billion), 
Louisiana ($2.9 billion), and North Carolina ($2.0 billion). In 
addition to quantifying angler expenditures, this study examines how 
these expenditures circulated through each state's economy and the 
national economy using a regional assessment. The $31.4 billion in 
total U.S. expenditures in 2006 contributed $82.3 billion in total 
sales, $39.1 billion to gross national product, $24 billion in personal 
income, and supported nearly 534,000 jobs.)
Commercial Fishing: Another Big Business
    Louisiana's commercial fishing industry generated $2.1 billion in 
sales (mostly menhaden, shrimp and oysters), $1.1 billion in income and 
supported 46,000 jobs.
    The fishing and oil and gas industries in Louisiana are strong 
economic engines.
Structure and Infrastructure
    Ninety percent of the more than 4,500 oil and gas-related 
structures in the Gulf of Mexico are in Louisiana waters or adjacent 
waters. Since the first offshore platform was built in the 1940s, these 
structures themselves have been very important to America:
    1.  They have in recent years supplied our nation with 25% of its 
oil and gas requirements, and
    2.  They have served as hard structures in an otherwise soft-bottom 
environment for reef species to grow (including barnacles, corals, and 
all sorts of other reef animals). This species growth, in conjunction 
with the cover provided, makes the structures an ideal habitat for all 
sorts of commercial and recreational fish, especially snapper, grouper, 
cobia, amberjack and various mackerels.
    The presence of these fish gives them economic importance, since 
fishing is big business. When large numbers of scuba divers who 
frequent the rigs and nearby commercial fisheries are included, the 
result is the creation and maintenance of many jobs and a large tax 
base.
    Thanks in large part to the leadership of former Senator John 
Breaux, who sponsored the National Fishing Enhancement Act of 1984, 
coastal states began to establish artificial reef programs converting 
many of these rigs into permanent artificial reefs. The rigs-to-reefs 
program has been nothing but an overwhelming success in the Gulf of 
Mexico.
    Beyond the structure offshore which anglers target having the 
largest aggregations of fish, the onshore infrastructure provided 
mostly by the oil and gas industries provides access to coastal waters 
that anglers would otherwise not enjoy.
Wetlands Loss
    Louisiana has lost 1,900 square miles of land since the 1930s (an 
area roughly the size of Delaware). Still the state has 30 percent of 
the total coastal marsh and accounts for 90 percent of the coastal 
marsh loss in the lower 48 states. Coastal Louisiana is losing about 
10.3 square miles of vegetated wetlands per year (one football field 
every 90 minutes). The primary culprits:
    <bullet>  Levees have cut off sediment replenishment from the 
overflow of the river.
    <bullet>  Oil and gas exploration and pipeline canals have allowed 
salt water intrusion into freshwater areas.
    <bullet>  Navigation channels have also allowed the distribution of 
salt water into fresh areas.
    <bullet>  Natural sinking of the sediments and natural sea level 
rise.
    Coastal restoration efforts are more important than ever to 
Louisiana and its estuarine environment. Thanks to OCS revenue sharing 
legislation championed by Sen. Mary Landrieu and former Rep. Bobby 
Jindal, Louisiana will see substantial federal revenues to help save 
its coast.
Compatibility
    The fishing and oil and gas industries have co-existed in Louisiana 
for half a century. And they've worked well together.
    Going forward, I would like to recommend to the Committee the 
inclusion of a process similar to the permitting of offshore Liquefied 
Natural Gas terminals. The reliance on adjacent state governors for 
input added a positive dimension to the policy debate around LNG citing 
and permitting.
TRCP's ``CAST'' Principles
    Continued offshore energy exploration and development is an 
important augmentation to the nation's plan to become energy 
independent. Oil, gas, wind and wave power facilities are all 
technologically and economically feasible. We must be mindful in the 
development of any program that the citing and impact of these efforts 
could be crucial to existing uses of the ocean.
    Recently the Theodore Roosevelt Conservation Partnership adopted a 
set of principles to guide in the development of offshore energy 
development. The coalition recognized that offshore energy development 
of all kinds is an important part of our energy security. It also 
recognized that marine recreational fishing is part of America's 
heritage and highly dependent on a healthy marine ecosystem. In 
addition to the fundamental environmental protections needed to protect 
that ecosystem, the coalition endorsed four concepts, called their 
``CAST Principles.''
    Conservation: Conservation concerns must top all others. A network 
of conservation areas important to recreational fishing and 
conservation must be established before offshore energy leasing and 
development should proceed. Those places crucial to the vitality of 
fish populations, recreational anglers and coastal economies should be 
restricted. Concurrently, the Minerals Management Service, the agency 
responsible for overseeing offshore development, should adopt and 
adhere to a new standard operating procedure that strives to balance 
the concerns of all ocean users.
    Allocation: Allocations of the royalties paid to the federal 
government by industry for offshore energy development must be used 
primarily to benefit aquatic resources. A significant portion of any 
such royalties must be directed to marine research and recreational 
fisheries conservation. Several vehicles already exist to ably deliver 
these funds.
    Science: Science-based, adaptive management strategies that respond 
continually to emerging information should be required for all offshore 
energy development projects. These strategies should begin with species 
inventory, include population monitoring and analysis, and carry 
through to any mitigation phase. Where gaps in data exist, they must 
not be used to justify development. Rather, they must serve to 
highlight areas where additional study is immediately necessary.
    Transparency: Transparency must characterize the management of all 
public trust resources. Not only does this mean that the decisions 
affecting our shared aquatic species must be made in a manner that 
allows public oversight, it also means that public comment must be 
addressed and integrated during the decision-making process.
    These principles represent a responsible way forward as the nation 
develops its offshore resources. Recreational anglers, like all 
sportsmen, have always been the first line of defense for coastal and 
marine environments, and their voice must be heard when considering the 
future for these special places.
    The coalition believes that the development of these offshore 
resources can be done in an environmentally responsible manner that 
protects the traditions of recreational anglers. In that regard I would 
like to point out how oil and gas development have worked together with 
Louisiana recreational fishermen to provide a healthy resource and 
additional habitat.
OCS Revenue Sharing
    In 2006 while still with the Coastal Conservation Association, I 
testified on H.R.4761, the Domestic Energy Production through Offshore 
Exploration and Equitable Treatment of State Holdings Act of 2006, a 
bill designed to increase offshore energy development while protecting 
important fisheries habitat. The principal elements of that bill 
facilitated the recovery of one of Louisiana's most important 
resources, its coast and coastal habitat.
    Most of the fish species harvested in the Gulf of Mexico are 
estuarine dependant. And coastal habitat loss along the Gulf has a 
direct correlation to the health of fishery stocks. Louisiana is the 
Sportsman's Paradise because of the productivity of this habitat, which 
coexists with oil and gas industry. Improvement of habitat and 
reversing the degradation of our wetlands provides a multiplicity of 
benefits, one of which is better stewardship of these nursery grounds.
    As we all know, the Gulf of Mexico has successfully been the site 
of oil and gas extraction for the last 50 years. One of the unintended 
benefits of that extraction has been the creation of fisheries habitat, 
particularly for reef fish. The most well-known reef fish in the Gulf 
is red snapper, a prized recreational fish and the primary target 
species for a number of charter boat fishermen in the upper Gulf. The 
members of this Committee are familiar with the ongoing efforts to 
restore and rebuild the red snapper fishery. What members may not 
realize is the importance of the habitat created by the offshore oil 
and gas industry to that rebuilding process.
    Red snapper have been commercially harvested in the upper Gulf for 
over 100 years. As early as the 1880s, there were federal research 
efforts to find harvestable quantities of red snapper. Today the 
fishery is rebuilding from being overfished by the directed fishery and 
particularly by extensive bycatch from the shrimp fishery.
    After World War II, three events occurred which impacted red 
snapper. The first: a dramatic expansion of the shrimp fleet resulting 
in an incredible bycatch of snapper. Secondly, an influx of people to 
coastal communities, many of whom were--or were to become--anglers. 
Both of these events increased the mortality of red snapper. The third 
event (more of a journey) has helped increase the abundance of red 
snapper. The structures facilitating extraction of the oil and gas from 
the Gulf have created habitat. And better and more habitats have 
created more fish.
    Many of the rigs now in place are nearing either the end of their 
useful life or the end of their license period. When they were put in 
place, most companies and regulators thought well heads ought to be 
capped; structures removed; cleaned up, and disposed of on shore. For a 
number of years, recreational interests have supported the use of oil 
and gas rigs as artificial reefs. Gulf recreational fishermen continue 
to be beneficiaries of rigs converted to reefs much closer to shore.
    Many scientists have studied the impact of this method of habitat 
enhancement to determine if it creates more fish or simply aggregates 
fish from surrounding habitat making them easier to catch. The debate 
for the most part seems to be endless, but the red snapper example 
seems to produce the most definitive long-term result. Yes, new habitat 
creates more fish. Sound fishery management is necessary to address the 
health of the entire stock, but more fish is still better than less. 
Artificial reefs are new habitat or continuing habitat, and we support 
their use inshore and off.
    We would like to work with the Committee to ensure that the fishery 
management system now in place is included in determinations. State 
fish and game agencies, regional Fisheries Management Councils and the 
National Marine Fisheries Service all have responsibilities that will 
be impacted by the decisions made to allow offshore energy development. 
All of them have a positive role to play in these decisions.
    Mr. Chairman, that concludes my testimony, and I would be happy to 
take questions.
                                 ______
                                 
    The Chairman. Thank you. The Chair would advise the panel 
just by the way of House announcement that we are voting on the 
Floor now. So, in about 5 minutes, we will recess the Committee 
for approximately 15 minutes, more like 20, so we can go over 
and answer these votes, and then we will come back and resume 
the Committee hearing.
    Let me begin.
    Ms. McCormick and Mr. Minich, I certainly appreciate all 
that you had to say about the benefits of travel and tourism 
industry as it relates to your coastlines. Probably any summer 
or anytime during our miners' vacation in West Virginia, you 
will find as many license plates from my home State of West 
Virginia at your respective places as you will from your own 
home State. So, it is a very popular area.
    And of course, Mr. Minich, as I grew up as a youngster my 
family had a chain of radio and TV stations. The corporate 
headquarters was in St. Petersburg--WLCY TV and radio--and I 
always went down with my father during the summers and spent 
summers as a kid at the old Don CeSar Hotel in St. Petersburg 
Beach. I don't know if it is still there or not. So, I 
certainly know of benefits of tourism to your area and how 
popular it is.
    Mr. Grader, I was particularly struck by the comparisons 
you made between the current efforts to expand offshore oil 
drilling with your experiences in the late 1970s, when oil 
companies promised that new production off the California coast 
would provide multiple benefits with virtually no risks or 
conflicts with the fishing industry. Clearly, your industry 
rejected that as a false promise then and continues to reject 
the cry of ``drill, baby, drill'' today, urging us instead to 
``think, baby, think.''
    With that in mind, can you elaborate on the actions that 
you think at a minimum must be taken to ensure that any new 
drilling that is allowed to occur does not undermine the 
economy of the fishing industry in California and elsewhere?
    Mr. Grader. As I said, I think there are some areas that if 
we do--if the moratorium remains lifted, that is, we proceed 
ahead with drilling, that there are some areas that permanently 
need to be taken off the table. And again, I say Bristol Bay 
and part of the Arctic, certainly Northern California area, and 
the Georges Bank. And then there are certainly some other areas 
that may be under consideration, for example, the Outer Banks. 
I don't know those areas as well. But I think certainly--and 
you have a copy of my testimony--some mitigation measures that 
were suggested by the United Fishermen of Alaska, which I think 
are very good. Now, this is no left-wing conservation group. 
They have year-in and year-out endorsed Senator Stevens, and 
all that. These are pretty rock ribbed--many of them rock-
ribbed Republicans, so there are no leftists out there, and I 
think they came up with some very good suggestions on the 
measures that need to be taken--both as far as preplanning the 
type of standards we have to put in place for oil drilling that 
is going to occur where fishing is, and then the types of 
mitigation and compensation that have to be put in place. I 
think those are there at a minimum.
    The other thing I should point out, and it came up this 
morning, is that there has been a lot of discussion--we are 
certainly very enthusiastic about developing offshore renewable 
power sources. I remember Mike Patching at the time about 30 
years ago was first proposing wave energy to develop hydrogen 
to power fishing boats.
    Mr. Grader. Unfortunately, I think he came along 30 years 
too soon. But we do need to do some really good planning for 
that, because right now what we have is a very dysfunctional 
planning service. We are going through this right now in 
Northern California--and certainly in Oregon and Washington 
they are, too--about planning for these renewables, and it 
really is a mess. You have the Minerals Management Service 
doing one thing, the Federal Regulatory Commission doing 
something else. We really do need to consolidate the process 
and make it comprehensible and make it make sense, because 
right now that process doesn't--certainly, that is one of the 
alternatives that we need to come up with to offshore drilling.
    The Chairman. Thank you very much.
    I believe we will recess at this point for 15 minutes so we 
can go vote. The Committee stands in recess.
    [Recess.]
    The Chairman. The Committee will resume.
    The Chair will recognize the gentleman from Washington Mr. 
Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman.
    Let me correct a statement that Mr. Grader made. He 
referenced a Mr. Hastings coming out with a statement on the 
Antarctic, and that was not Mr. Hastings, it was Mr. Inslee. 
But I just wanted to correct that for the record. We are both 
from Washington.
    I just want to ask a question of all of you, and just a 
``yes'' or ``no'' question, if you would. Do you support the 
reinstatement of the Outer Continental Shelf oil and gas 
moratoria that was put in place in 1982?
    And I will start with Ms. McCormick.
    Ms. McCormick. Yes, we do support.
    Mr. Hastings. Mr. Minich?
    Mr. Minich. Definitely, yes.
    Mr. Hastings. Mr. Grader?
    Mr. Grader. Yes.
    Mr. Hastings. Mr. Allen?
    Mr. Allen. No.
    Mr. Hastings. Mr. Angers?
    Mr. Angers. No.
    Mr. Hastings. Just for the record, Mr. Chairman, I note 
that we have had seven panelists on these two panels today. And 
I know this is the first of three meetings on OCS, and I know 
we will go into a lot more detail, but I just note for the 
record that five of the Majority witnesses were ``no,'' and two 
of the Minority's were ``yes'' as far as the moratorium.
    The Chairman. Would the gentleman yield quickly?
    Mr. Hastings. I would be happy to yield.
    The Chairman. As you mentioned, this is the first of our 
hearings, and we will have the other side amply represented 
before all is said and done.
    Mr. Hastings. I may save that question even for them, too, 
but thank you, Mr. Chairman.
    I would like to ask Mr. Minich and Ms. McCormick a 
question. When we had the high gas prices last summer, did that 
affect your industry in your respective areas? I know, Mr. 
Minich, yours is a different time of the year, but 
nevertheless, I am sure there are people who go to Florida in 
the summertime. Did it affect your industries?
    Mr. Minich. We targeted the instate market very heavily, a 
drive market. And even with the $4-a-gallon gas prices, people 
were not ready to give up their vacation because the tank of 
gas was going to be $70, versus $30 or $40. Where we were 
concerned was with the airline industry, because a good 
portion, 70 percent, of our folks come in by air, and we were 
concerned about the airline prices.
    But overall, our summer business was stable, and we 
actually picked up or gained 25 to 35 percent over the summer 
each month with European visitation because of the weakness of 
the dollar. So, overall, our summer was good, despite the fact 
that there were $4-a-gallon prices.
    Ms. McCormick. Thank you. That is a very good question.
    June, July and August represent 66 percent of the revenue 
of the Outer Banks, which includes three counties where 
revenues come from. And we were certainly blessed that we did 
see an increase in visitation, but due to the same things that 
my colleague here did, we refocused our advertising efforts and 
spoke to people within a tank's drive. Now, it did have an 
impact on our camping industry and those that use recreational 
vehicles because the cost was so high.
    There is another thing that we had put into place and 
continue to put in place, and that is advocating carpooling. 
Instead of bringing three cars to one of those big houses on 
the beachfront, we push and promote the fact that people need 
to actually leave a couple cars at home and come on vacation. 
Now, that is not to say that the current state of today's 
economy is not going to have an impact on our summer----
    Mr. Hastings. I was talking specifically on gas prices. So, 
you didn't see much of one because of your advertising?
    Ms. McCormick. Yes, sir.
    Mr. Hastings. And, Mr. Minich, you said that your increase 
came from overseas. Did I hear you correctly?
    Mr. Minich. The majority of our increase came from 
overseas, but then the instate made up for--we did see losses 
from our core markets in the Midwest and Northeast.
    Mr. Hastings. How did the Europeans get there?
    Mr. Minich. All by air. And it is primarily through the 
gateway cities of Orlando and Miami, and then they rent cars.
    Mr. Hastings. And just to make a point, how do the 
airplanes get from Europe to Orlando and Tampa?
    Mr. Minich. How did they get there?
    Mr. Hastings. Yes.
    Mr. Minich. They flew.
    Mr. Hastings. What powered them?
    Mr. Minich. Fuel.
    Mr. Hastings. I just wanted to make that point.
    I might also make another point on this, and that is, with 
the new generation of airplanes, specifically the 787, it is 
all carbon composites, which is a derivative of oil and gas. 
Now, we had a bit of a discussion earlier on here about the 
byproducts of oil and gas, and it is something that is going to 
be with us in our economy for a long time. And thank you for 
answering that way.
    Mr. Allen, you mention in your testimony--and I will be 
very brief here, Mrs. Capps--you mentioned in your testimony 
about an oil spill here some--let us see, what year was that? I 
think it was--well, in your testimony you mention that. And you 
mention there were some 5,000 sea birds that were washed up, 
and it was quite a slick--25 miles, or something like that. But 
yet, I think in your testimony you also said that there was not 
a whole lot of discussion on that. Now, why do you think that 
was the case?
    Mr. Allen. Yes. That was 2005, in January. There was an oil 
seep event off the coast of Santa Barbara. It is not well 
understood. They are not sure why it happened, but it did 
happen. It created an estimated--there are photos as well, 
which I brought--about a 25-square-mile oil slick. There were a 
few reports in the Los Angeles Times and the local paper, but 
that was about it. It was not reported nationally, at least 
that I saw. And that oil seep event caused birds to wash ashore 
from Santa Barbara, from Huntington Beach. They collected 
approximately 1,400 birds, and the estimates were as many as 
5,000 birds or more may have been oiled or killed from that oil 
seep event. That was in 2005.
    Now, that wasn't widely reported, and yet if the same event 
had occurred, but it had been tied to an oil spill, I believe 
it would have gotten national recognition and--a lot of 
national recognition--and been reported extensively in the 
newspapers. And yet from our perspective, our organization's 
perspective, it killed just as many birds as a spill would have 
done and was the same basic oil.
    So, it is essentially a pollutant in the ocean, and we view 
that as a significant issue with respect to our marine 
environment off the Central California coast. And so, in that 
sense, because the word ``seep'' is attached to it or 
``natural,'' it gets no recognition within the media. But if a 
spill is attached to the word, then it gets a lot of attention.
    And there are several mentions. In December, there was a 
27-barrel spill from Platform A, the same one from the 1969 
spill that was mentioned. That got a lot of media attention, 
both in California and nationally. And I would just point out 
that spill, which was rare, but that spill was the equivalent 
of 3 hours' worth of natural seepage along the central coast. 
So, today, during this hearing, there will be about 200 barrels 
of oil seepage, and that is, of course, not going to be 
reported, but that is almost 10 times as much oil in our 
environment as has occurred from that December spill.
    Mr. Hastings. If I may continue on this line, how was that 
cleaned up? What is the response, I guess I should ask, when 
there is a substantial seepage like the one you cited in 2005? 
I mean, you are getting enormous seepage all the time, but how 
is that cleaned up, or does Mother Nature take care of it?
    Mr. Allen. That is a good question. It is not. The December 
spill, for example, was immediately cleaned up. And there was a 
lot of attention, and in a matter of days, it was essentially 
cleaned up. But the oil seepage, in essence, is never cleaned 
up, except when it washes up on the beaches. Then it does need 
to be addressed. And California Fish and Game, for example--the 
seeps also wash up tar balls as far north as San Francisco and 
the Monterey Bay. And actually, there it is required to use 
protective suiting to clean up those tar balls, and it is 
required to be put in a hazardous waste dump. And yet that is 
natural seepage, but it is only cleaned up essentially when it 
washes up on California beaches.
    Mr. Hastings. So, that spill that did not wash up on the 
beaches then, somehow Mother Nature took care of that?
    Mr. Allen. In the 2005 event, because in the winter the 
currents generally flow north--and it takes the oil seepage and 
deposits, much of it, along the Monterey coast--that wasn't 
noticed as much by Santa Barbara County or Ventura and L.A. 
Counties because the currents were taking it north. If it would 
have happened during another time of year, and it would have 
flowed south, much of that would have washed up on Southern 
California beaches.
    Mr. Hastings. And finally, how much washed up on the beach? 
Is there any way to estimate that?
    Mr. Allen. No, that would be difficult to estimate. From 
the 2005 event, there were no published statistics on how much 
there was, but I would point out that there were 1,400 birds 
that were washed up on California beaches.
    Mr. Hastings. So, what was washed up was taken care of, and 
what wasn't washed up was--Mother Nature took care of it-
however Mother Nature takes care of those things.
    Mr. Allen. Correct. It eroded over time.
    Mr. Hastings. Right. Thank you very much for your 
indulgence for the time.
    Mrs. Capps. [presiding.] And to my colleague from 
Washington, I am fine with the fact that you went over time 
because I intend to do the same. Since I am sitting in the 
chair, I was going to take the Chair's prerogative to do that.
    And I appreciate the testimony of all of the witnesses 
here. And I do have questions for several of you, so I will go 
as quickly as I can, and perhaps we will have some succinct 
answers as well.
    But I do want to start with Mr. Minich and Ms. McCormick. 
This question is addressed to both of you, but, Mr. Minich, 
like the coast of Florida, Santa Barbara, where I hail from on 
the Pacific Coast, is an international tourist destination. 
Many of my constituents are concerned by the amount of onshore 
infrastructure that is needed to support offshore drilling 
operations.
    In Santa Barbara County, we have several treatment and 
processing plants--one right next to a luxury hotel--and dozens 
of storage tanks and public stations, miles and miles of 
pipelines. Even without an oil spill, much of this 
infrastructure is at odds with the nature and economy of our 
local community, and the tourist industry especially, but for 
all kinds of purposes. And my question to you both, would 
increasing the industrialization of the Florida coast affect 
your existing economic base which relies on tourism and coastal 
recreation? If you could each give a brief answer to that 
question.
    Mr. Minich. Absolutely. We actually don't have room for it. 
While we are home to some of the world's most famous beaches, 
we are also one of the smallest, geographically, counties in 
the State of Florida and the most highly densely populated, so 
we really don't have room. And all of our areas now that are 
protected, that would be the only place you could move into.
    And I think especially on the Gulf Coast of Florida, you 
look at places like Sanibel Island and down in Naples and that 
area, and all the way up our coast, Sarasota, we are renowned 
for the natural beauty, ecotourism, all those kinds of 
activities. And this counteracts everything that we have been 
known for and promoting over the years.
    Mrs. Capps. And Ms. McCormick?
    Ms. McCormick. Along the coast of the Outer Banks of North 
Carolina--as you know, that is a very thin strip of barrier 
islands, arcs into the Atlantic Ocean. The mainland is 50 miles 
away. So, when you take a look at land mass--also 7 percent of 
the land on the Outer Banks is owned by the Department of the 
Interior--we don't have the land available.
    Now, Wilmington, North Carolina, which is a port town that 
doesn't have the problems that we face as barrier islands, 
could probably support that meshing of those land-based 
refineries with their tourism-based economy. But to succinctly 
answer your question--probably our biggest issue is the land-
based.
    Mrs. Capps. All right. I appreciate that information from 
each of you.
    I want to turn now to my constituent. I welcome you here, 
Mr. Allen, and I am very familiar with your work, and also the 
work that your organization, Stop Oil Seeps--SOS, as you call 
it--has been doing in the community that we both hail from.
    Much of your referencing points to work that has been done 
by Dr. Luyendyk and others at UCSB regarding how drilling can 
reduce oil seeps. In fact, the references are primarily made to 
one study, not to an additional study. And I am now referring 
to a study from Dr. Luyendyk in which he looked at natural 
seepage at Coal Oil Point, which is right off the shore, 
actually very near UCSB, from 1996 to 1999. And it is important 
to note that, despite drilling at Platform Holly right there 
during all that period of time, the seepage did not decrease 
during that time. It remained pretty much constant.
    Yesterday, Dr. Luyendyk sent this Committee a letter 
refuting the conclusions that your group draws from his 
research. And I ask consent now to include that letter, which I 
have here, into the record of this hearing. And in it he says, 
and I am quoting now, ``I feel that SOS, Stop Oil Seeps, has 
both overstated the adverse effects of this phenomenon and the 
overall applicability of the drilling seepage relationship to 
offshore oil development policy. The marine seeps issues that 
have been raised by SOS are, at best, not relevant, and at 
worst, a red herring in a much larger debate.'' And here is 
another quote from him. He notes that, ``To attribute our 
findings to the broader offshore with the present state of 
knowledge is an extrapolation that is not justified either 
scientifically or as a matter of national energy policy.''
    And I have a question at this point. Given that Dr. 
Luyendyk emphatically claims that his research cannot be used 
to bolster these claims, do you have other scientific evidence 
that can be used to do so?
    Mr. Allen. Well, first of all, I think it is a 
misperception that our work is based on the studies and set of 
studies that Professor Luyendyk was one of six professors they 
participated in.
    First of all, as you may know, I have been in Santa Barbara 
since 1984 and have been visiting Santa Barbara since the 
1960s. And as Representative McClintock said, it is very clear 
to long-time Santa Barbara residents that over the last 50 
years, oil seepage pollution that washes up on Santa Barbara 
beaches has been declining, and has been declining 
significantly.
    Mrs. Capps. Could I interrupt you to ask you, I listened to 
Mr. McClintock's testimony, and I have lived on the same 
coastline since 1964, and I know what it is like to get the 
vegetable oil out when you come back from a day's outing at the 
beach with your kids. But that is anecdotal evidence that he 
gave. And what you are citing to me is not a study either; it 
is anecdotal evidence.
    Mr. Allen. What I am saying is that anecdotal evidence, 
taken with the set of studies from 1999 that were published 
that Professor Luyendyk was one of six professors of, he also 
said to me personally and has also said that he stands by the 
conclusions in those published studies. And if I may just quote 
from one of those studies, the conclusion in the study was, 
``The effect of the offshore oil drilling there was an 
unexpected benefit to the environment.'' That was in the 
conclusion of the study.
    He also said, at the Santa Barbara County Board of 
Supervisors hearing in August, when the County Supervisors 
voted to support more offshore drilling, he said he stood by 
the conclusions of that report.
    Mrs. Capps. Of that particular study. OK. I am just going 
to make sure that we get this letter inserted.
    [The letter submitted for the record by Bruce Luyendyk, 
Professor of Marine Geophysics, follows:]

February 9, 2009

The Honorable Nick J. Rahall II
Chairman
Committee on Natural Resources
1324 Longworth House Office Building
Washington, D.C. 20515

RE:  Natural Resources Committee hearings Wednesday, February 11, 2009

Dear Congressman Rahall;

    I recently learned that on Wednesday February 11, 2009, Bruce 
Allen, representing the industry group Stop Oil Seeps (SOS) will be 
testifying before your Natural Resources Committee. Because he will be 
speaking about research that I was part of, I want to be sure my 
comments are taken into account.
    Part of the SOS agenda is to promote offshore drilling and oil 
production as a means of reducing natural oil and gas seepage and their 
effects in the Santa Barbara Channel and offshore generally. The SOS 
premise is based on interpretation of two 1999 UCSB studies [1],[2] on 
oil and gas seeps offshore Coal Oil Point in Goleta (California), the 
location of Venoco's oil platform Holly. We documented a decrease in 
gas seepage over a period of 23 years that we hypothesized was due to 
continuing oil and gas production from platform Holly (the drilling-
seepage relationship). We further speculated that this relationship 
might be found elsewhere in similar geologic situations should further 
investigations take place.
    The SOS group has been representing our research as a rationale for 
increased offshore oil drilling as a means of decreasing marine seepage 
and its effects. As a member of the UCSB seep research team I want to 
point to several qualifications in this SOS argument. I feel that SOS 
has both overstated the adverse effects of this phenomenon and the 
overall applicability of the drilling-seepage relationship to offshore 
oil development policy.
    The marine seeps issues that have been raised by SOS are at best 
not relevant and at worst a red herring in the larger debate about 
offshore drilling and national energy policies.
    To explain:
    <bullet>  To assume that natural marine seeps are a source of 
pollution that needs to be controlled ignores the fact that they have 
coexisted with the natural environment of the Santa Barbara Channel for 
more than half a million years. Ecosystems have developed around them 
and are fully adapted. Fumes from seeps, although noxious up close, are 
barely detectable onshore. This natural phenomenon contrasts sharply 
with industrial oil spills, which are sudden acute events of obvious 
stress to the marine environment.
    <bullet>  If it is successfully argued that seeps need to be 
controlled, then indiscriminate drilling offshore is not the clear 
solution. This is because not all oil reservoirs in the offshore are 
seeping. Therefore drilling them would have no impact on seepage.
    <bullet>  Other offshore reservoirs with seeps are being drilled 
now but these have small seeps in comparison to Coal Oil Point. Any 
drilling-seepage benefit is unknown but is likely small.
    <bullet>  Some seepages are located where oil production would not 
occur or be possible; e.g. the National Marine Sanctuary. Drilling 
elsewhere offshore would not affect these seeps.
    <bullet>  It is also important to realize that the drilling-seepage 
relationship could be in question if aggressive artificial means to 
enhance subsurface production were employed, as is often the case for 
mature oil reservoirs. Seepage could in fact increase over time 
negating the expected positive effects.
    <bullet>  Finally, the Coal Oil Point field is by far the largest 
seep source in the California offshore, if not the world, and it 
already is being drilled with a resulting decrease in seepage, so I 
consider this ``seep problem'' as being dealt with now. It is 
unnecessary and ineffective to drill elsewhere offshore if controlling 
seepage is the goal.
    The Coal Oil Point field is the only California seep field where 
the drilling-discharge relationship has been proposed. To apply this 
more broadly to other potential offshore oil reservoirs would require 
additional investigations. To attribute our findings to the broader 
offshore with the present state of knowledge is an extrapolation that 
is not justified, either scientifically, or as a matter of national 
energy policy.
    Our studies at Coal Oil Point are on a special case marine seep 
field, one of unusually large discharge from a limited area. I do not 
feel our findings at Coal Oil Point can be applied elsewhere in the 
offshore without increased levels of study.

Sincerely;

Bruce Luyendyk
Professor of Marine Geophysics
____

[1]  Quigley, D. C., J. S. Hornafius, B. P. Luyendyk, R. D. Francis, J. 
        F. Clark, and L. Washburn (1999), Decrease in Natural Marine 
        Hydrocarbon Seepage near Coal Oil Point, California Associated 
        with Offshore Oil Production, Geology, 27 (11), 1047-1050.
[2]  Hornafius, J. S., D. C. Quigley, and B. P. Luyendyk (1999), The 
        world's most spectacular marine hydrocarbons seeps (Coal Oil 
        Point, Santa Barbara Channel, California): quantification of 
        emissions, Journal Geophysical Research - Oceans, 104 (C9), 
        20703-20711.
                                 ______
                                 
    Mrs. Capps. I have another question to ask you. A portion 
of the tar on Santa Barbara beaches does come from seeps, but I 
am wondering how you conclude, particularly when you are 
talking about San Francisco Bay, that all of the beach tar is 
attributable to seepage? According to another UCSB-produced 
study and recently confirmed by the State Lands Commission, 
samples collected from natural seepage cannot be differentiated 
from Platform Holly. In other words, if you see the beach tar, 
you make the inference that it is seepage, but the tar itself 
is indistinguishable from that which Platform Holly, in this 
particular instance, produces.
    To me, this implies that artificial sources of oil, such as 
leakage from platforms and ships, also can contribute to tar. 
And I am wondering again, do you have scientific evidence, not 
just anecdotal, but scientific studies that documents the fact 
that the tar that we see on the beaches or the tar that was 
collected in San Francisco and had to be specially disposed of 
is actually seepage tar and not some other kind of tar that 
comes from a platform or a pipeline?
    Mr. Allen. On that point, the MMS has sponsored studies 
where they have done chemical typing of the oil emissions to be 
able to trace it back to the sources. And California Fish and 
Game, it was actually published March 6, 2007, at least that I 
recall, where they stated that, based on the chemical typing of 
sending those samples to a lab, they traced it back to Monterey 
formation oil that--at least California Fish and Game 
believed--came from Santa Barbara oil seepage.
    Mrs. Capps. So, this is documented? Are you able to get 
that study for us and to include it with the record here?
    Mr. Allen. I will do so.
    Mrs. Capps. All right. We will make that a point in the 
recording of the hearing that this documentation will be added 
to it, but we don't have that at this time.
    Mr. Allen. But if I may just say for the record, I have 
also spoken both with the MMS and the State Lands Commission, 
Paul Thayer, who is the Executive Officer of the State Lands 
Commission, requesting that studies be done to take the 1999 
studies that UCSB did and actually extend them and try to 
determine to the extent how much--if more offshore oil 
production were done along the coast, how much more reduction 
in seepage would there be, and would there be benefits? I was 
told there is no money for such studies, so we have endeavored 
to have additional studies on this point.
    Mrs. Capps. But, right now, there are no studies that we 
have documented, right here, for this hearing.
    Mr. Allen. I would point out there was a letter published 
by Professor James Boles, who was the Chair of the Crustal 
Studies Institute of UC Santa Barbara, of which Professor 
Luyendyk is a member, and he published a letter in which he 
said----
    Mrs. Capps. Was that a study or a letter?
    Mr. Allen. He published a letter where he said there should 
be no surprise that oil production above seep zones would 
decrease the seepage. That is the same conclusion that was 
actually reached in the study you are referring to. The study 
concluded you would expect that production of offshore oil 
above seep zones, it should be no surprise that you would 
reduce seepage.
    Mrs. Capps. OK. We will look for documentation of those 
studies, because I agree with our new Secretary of the Interior 
that we are going to try to base our energy policy on 
scientific knowledge, and we will hold for that.
    I do have questions now for Mr. Grader, if I could.
    I want to refer to the Cosco Busan spill in the San 
Francisco Bay. I believe it illustrates--and it is very 
pertinent to our discussion today--how close to impossible it 
is to control oil spills once they have occurred. And you were 
a firsthand observer, I understand. What consequences did you 
observe to the severe oiling of the shorelines and mortality to 
marine life of that spill from that barge?
    Mr. Grader. In spill terms, it was fairly small. It was 
bunker fuel from a container ship. We were totally unprepared 
to handle it, although California has in place its OSCA program 
to clean up oil, but they were ill prepared for it. We did 
finally get the fishing boats out there working it, doing the 
clean-up. And thank God they did, because they were the only 
ones who really knew what they were doing, as opposed to the 
professional responders.
    Mrs. Capps. I guess we should add that that is your 
profession then.
    Mr. Grader. Yes. There was a little bit of anger that a 
Coast Guard committee, when they were out there in November, 
heard some of our wrath.
    But the problem we have seen is that it looks like some of 
the other species of fish have recovered, but we have seen no 
recovery of our herring. There has been virtually no herring 
fishery this winter, which is supposed to be going on right 
now, in San Francisco Bay. And this pretty much follows up what 
happened in Prince William Sound after the oil spill there. The 
herring fishery to Prince William Sound has just not responded. 
So, it hits at the herring, which are important because they 
are critical to the--not the exact base of the food chain, but 
they are important for such things as salmon.
    Mrs. Capps. I hear you.
    I want to ask you one more question. And to my colleague, 
Mr. Cassidy, I hope you realize that I have gone way over time, 
and that you are entitled to the same privileges----
    Mr. Cassidy. I am a freshman. I just show up when I am 
supposed to.
    Mrs. Capps. Your questions are as credible as anybody 
else's. And if I could add, Mr. Hastings and I were both 
freshmen once, too.
    Mr. Grader, one more question--by the way, I am so pleased 
that we do have a fisherman on the panel here.
    Practically all stages and operations of offshore oil and 
gas production are accompanied by discharges of waste. These 
pollutants include drilling muds and mounds, which contain 
toxic metals like mercury. Our local fishers association, which 
belongs to the Pacific Coast Fishing Association, worked with 
you--I think you have been part of that consortia--to have the 
oil companies reduce the amount of these wastes.
    Could you elaborate, if you would, just for a couple 
minutes on the impacts these wastes might have on water 
quality, or, more importantly, actually--well, equally 
importantly on the fish?
    Mr. Grader. Yes, exactly. And this is something that tends 
to get overlooked in these discussions on offshore oil.
    A number of years ago the Santa Barbara fishermen, the 
Commercial Fishermen of Santa Barbara as well as the Southern 
California Trawlers Association, expressed to us their concern 
that in these drill muds, that they were using diesel fuel, and 
that they were saying, ``Look, we are getting more and more 
hydrocarbons into the water column; some of the fish are 
picking up the contaminants.'' It wasn't necessarily killing 
them, but certainly it was making them so you couldn't market 
them.
    Mr. Grader. And so we did go, and fortunately we have a 
good Coastal Commission. We went to our Coastal Commission, and 
they demanded that at least in State waters that all drill muds 
had to be then taken and disposed of properly onshore. And that 
is a condition that we did get put in place, and I believe the 
Minerals Management Service then extended that to the area--to 
the west of that in the Federal waters.
    I don't know if that occurs elsewhere. Certainly in my 
reading of, for example, the lease sale for Alaska for Bristol 
Bay--that is one of the issues that actually MMS concedes--is 
that what happens to those drill muds and cuttings--and this 
really came out of some news clippings that we began getting 
out of Alabama about what was going on in the Gulf of Mexico--
was the fact that it wasn't just the diesel fuel and the 
hydrocarbons, but there were actually heavy metals, and that 
they were detecting much higher levels of mercury and other 
heavy metals in fish found around the platforms down there. And 
indeed, they did some samples of blood testing of people 
fishing around those and found it higher.
    At the very least, if we are going to go ahead with more 
drilling, I would say one of the strict prohibitions that have 
to be put in place is you cannot dispose of drill muds on the 
seabed. It has got to be brought back to shore and disposed of 
properly, because--forget the discussions about oil spills and 
seeps and how much gets in. We have to do something about those 
drill muds if they are contaminated.
    Mrs. Capps. Thank you very much, and I beg the indulgence 
of my colleagues for going so far over the line.
    And, Mr. Cassidy, you can have all the time you wish. 
Sorry. I am getting a little pushback from staff. A reasonable 
amount of time.
    Mr. Chairman, I will never be asked to take the chair 
again. I can tell that.
    Mr. Cassidy. I missed your testimony, much of it, but I 
read it so I am familiar with it. And, Mr. Angers, you have to 
put an ``L'' in your name--``Angler.'' What a great guy for a 
fishing organization.
    But what I hear from you is that tourism is fantastic 
around where they are doing offshore drilling. We are spending 
about $2.9 billion on fishing tackle.
    Mr. Angers. The economic impact in 2006 of recreational 
saltwater fishing in Louisiana, $2.9 billion and, truly, people 
come to--Louisianians fish in Louisiana because that is where 
the fish are, and people come to Louisiana because that is 
where the fish are. We love to go to Florida because they have 
beautiful water, and they have plenty of fish there, too, but 
we know there is plenty of fish in Louisiana and doing good 
things for the economy.
    Mr. Cassidy. And I will vouch for it. I caught 100 speckled 
trout with my son and two other people. It is important to 
specify we were under the limit, but 100 speckled trout, and we 
did very well.
    So, Mr. Minich, it comes to mind that there is already 
offshore drilling off of Florida, and as I remember--I don't 
have the map, and I can't remember precisely, but I think that 
offshore drilling is somewhere west of Tampa Bay, St. Pete. Is 
that currently negatively impacting your tourism industry?
    Mr. Minich. There is no drilling anywhere near our coast.
    Mr. Cassidy. But it is considered off the coast of Florida, 
and if you grandfathered it in before the moratorium--I just 
researched this when I was running for office, and it is out 
there.
    Mr. Minich. It is way out there. It is not what you are 
talking about. Where the protected area was went out, I 
believe, 150 miles.
    Mr. Cassidy. This is within 150 miles.
    Mr. Minich. It is way farther out.
    Mr. Cassidy. And it is considered to be in the eastern 
Gulf. So, the fact that you are unaware of it makes me think, 
my gosh, it is not even impacting your tourism. I know that 
because the pipelines go under the Gulf to Louisiana.
    Mr. Minich. Yes.
    Mr. Cassidy. They go up under Port Fushon.
    Mr. Minich. Yes.
    Mr. Cassidy. So, your concern is you don't have room for 
this industrial complex.
    I think, ma'am, your observation was perfect. We will just 
take it not over the barrier islands, but rather through 
Wilmington. Let them have the economic bonanza of a pipeline 
company, but it would avoid bringing it onshore where you are. 
Similarly, I would love for your oil and gas to come to 
Louisiana. It would be great as far, as I am concerned.
    Mr. Minich. We just don't want any drilling off of our 
coast, because if you look at the currents in the Gulf of 
Mexico----
    Mr. Cassidy. But you have drilling.
    Mr. Munich. We do not----
    Mr. Cassidy. I promise you. I will----
    Mr. Minich. There is drilling in the Gulf, yes. There is 
absolutely drilling in the Gulf.
    Mr. Cassidy. It is in the eastern portion.
    Mr. Minich. But it is not in the currents--if you look at 
the way the currents flow in the Gulf of Mexico, the waters do 
not come from that area and come down.
    Mr. Cassidy. So, you don't mind if there is drilling as 
long as----
    Mr. Minich. There is no effect from those wells that are 
hundreds and hundreds of miles from our coast.
    Mr. Cassidy. So, whatever that distance is off the coast, 
you would be OK with drilling at that point, I presume, because 
it apparently has had no impact whatsoever upon your tourism.
    Mr. Minich. That drilling is there already. There is----
    Mr. Cassidy. But would you mind its expansion? Because 
apparently it has had no impact. I mean, the fact that we are 
having a debate whether it even exists tells me it hasn't had 
an impact.
    Mr. Minich. Because it is too far away.
    Mr. Cassidy. But it still is considered the eastern 
segment--it is still subject to the moratorium, just 
grandfathered in.
    So, my question is if it is already there, and it is not 
bothering you, and pipelines go through Louisiana, could we 
have more of the same however far off that is?
    Mr. Minich. We don't want it off of our coast. If a 
hurricane moves off of our coast 300 miles, that is one thing. 
If it moves within 20 miles or 50 miles of our coast, that is a 
totally different thing. I think you are familiar with 
hurricanes. So, we don't want those--that kind of activity--
within close proximity of our beaches.
    Mr. Cassidy. I see what you are saying, but I am not seeing 
a rationale now because it is already there, and so even if we 
didn't move it in further, but kept it at that distance from 
the coast where it is currently, and apparently it has had no 
impact--so I guess I am--you say, ``We don't want it,'' but I 
don't understand why not, if it hadn't had a negative impact, 
but indeed would give cheaper gasoline for the people coming 
into your State.
    Mr. Minich. No. There is no--we don't want it close to our 
coast. There is nothing close to our coast right now and----
    Mr. Cassidy. Let me just stop you right there. But if it is 
no further in than it is currently, are you OK with that?
    Mr. Minich. Well, it is already there. We can't----
    Mr. Cassidy. And are you OK with expanding it, as long as 
it stays that far out?
    Mr. Minich. We can't change what is already there.
    Mr. Cassidy. OK. Then my next question is, are you OK with 
expanding it, as long as it remains that far from the coast?
    Mr. Minich. I am only--my information and what I have 
knowledge of is near my coast, so I can't address whether the 
expansion is good or bad. But I think you heard this morning 
time and time again that opening up this area is not going to 
affect gas prices----
    Mr. Cassidy. It is going to affect natural gas prices. 
Natural gas prices are, of course, very important for many 
things, and they are also a source of BTU. You may have noticed 
that the buses that go through Washington, D.C., use natural 
gas because it has a lower carbon footprint. So, one of the 
things people argue to help with global warming is converting 
to natural gas, and much of what we produce in the Gulf is 
natural gas.
    One more thing. I am a little curious that everybody is 
concerned about the negative impact on tourism. My wife is from 
Mobile. We go over to the Eastern Shore, go to the Orange 
Beach. Man, it is booming. The only thing that keeps that from 
being any bigger is that it is so small. And huge--you can see 
oil rigs off the Mobile Gulf Coast. You can see the platforms 
out there. You can see the boaters out there boating. That has 
had no negative impact, as far as I can tell. Hurricanes do, 
but not offshore drilling.
    Any comment on that? I mean, there seems to be a real fear 
that it is going to keep people from the beach but, in Alabama, 
their beach is within eyesight of it, and they are having a 
great old time.
    Mr. Minich. I think that our customers are used--they have 
been coming for 100 years to the St. Pete beaches, and they are 
used to what we have to offer, and that is not what we have to 
offer.
    Mr. Cassidy. So, it is almost more a fear of change. I 
mean, I am not trying to minimize what you are saying, but it 
does seem as if we fear change.
    Mr. Minich. And I don't want our hotels to have to put as 
part of--you know, hotels have little bottles of shampoo and 
little bars of soap. You look at hotels in some of those areas, 
and along with the shampoo and along with the soap are little 
packets to remove tar from the bottom of your feet from the 
beach.
    Mr. Cassidy. It is interesting because when I was a kid, we 
used to go to Pensacola and Panama City, and there used to be 
tar balls all over the place. So, I read Mr. Allen's testimony, 
and it all of a sudden made sense. The physics make sense to 
me. The physics make sense that here you have a pressure-filled 
volume. Pressure is equal to flow times resistance. So, you 
have something set there. And you plug a hole in it, and you 
start to remove it on a graduated basis, and you would relieve 
that pressure.
    There are fewer tar balls now in Panama City beach than 
there was when I was a kid, even though they are now doing 
offshore drilling, you know, 30 miles away, because obviously 
Pensacola is right next to Mobile.
    Actually, Mr. Allen, I like the physics of what you are 
talking about. Intuitively it makes sense. So, I will just 
comment on that. I am not sure that you would have that. 
Actually, we used to have that on the Panhandle of Florida. Now 
we don't.
    Mr. Minich. Our beaches are pure white. There is no tar 
whatsoever on our beaches because we don't have natural 
seepage, and we don't want to open up anything that could----
    Mr. Cassidy. The panhandle does.
    Mr. Minich. I am not here speaking on behalf of the 
panhandle. I am speaking on behalf of Pinellas County beaches.
    Mr. Cassidy. Yes, ma'am.
    Ms. McCormick. Just one comment. You had made the comment 
that tourism is booming, sir. Tourism is not booming right now 
anywhere except here in Washington, D.C., over the last couple 
of weeks. I did--very quickly, went to Biloxi 6 months after 
Katrina and helped clean up, and I did visit some of those 
refineries, and was saddened to see the history that was 
destroyed and not put back.
    And what you have in Biloxi is you have an emergence and a 
realignment of casinos that have gone from being water-based 
casinos to land-based casinos, and that is why Biloxi has been 
able to revive themselves. It is not because of the drilling.
    But I do want to set the record straight. We have a problem 
in America today. Tourism is not booming. This is a challenge 
for all of us.
    Mr. Cassidy. Biloxi does not have offshore oil; so if you 
heard me say that that is the reason Biloxi is coming back, 
that is not true.
    Ms. McCormick. You said tourism was booming. I just wanted 
to make sure that you understood----
    Mr. Cassidy. Tourism is booming on Orange Beach. It is 
interesting because I look at the downfall in tourism as when 
gasoline went to $140 a barrel. Now, in Louisiana it was great 
for the coffers, but it was bad for the people taking trips 
outside of their hometown.
    Ms. McCormick. Absolutely.
    Mr. Cassidy. And so it is interesting, and I think you are 
agreeing with that. So, I think actually our energy crisis, 
which has persisted, has thrown us into this recession, which 
now has people staying at home. So, actually I would like to 
think that you are supporting my argument that we need to 
diversify, not just offshore drilling, do everything, but on 
the other hand, oil platforms make a nice place for a windmill.
    Ms. McCormick. They sure do, and I support a good portion 
of your argument, but I do not support drilling on the Outer 
Continental Shelf.
    Mr. Cassidy. I am not quite sure why not, because whenever 
I come up with a specific, it is just, ``Well, we don't want 
it,'' as opposed to, ``No, we have documentation,'' and such.
    Ms. McCormick. Well, the gentlemen this morning did a very 
good job, and one thing I stated in my paper, and I may not 
have stated that as clearly as I would like to, what I would 
like to encourage us to do is to find alternatives, find 
renewables, put those energies and those efforts--in 1933, man 
first flew in Kitty Hawk; 66 years later we landed on the moon. 
We can do so much, so much together, and I would hate to see 
that we feel, or you feel, that opening oil and drilling along 
the Outer Continental Shelf is going to fix the problems that 
we are facing today.
    Mr. Cassidy. There is no one fix. It is an amalgamation.
    Mr. Minich. And in terms of the expansion, they are only 
using 8 million of the 43 million acres that they have under 
lease; so there is your expansion. Go where you have already 
got these lands leased. There are 43 million acres of leased 
land with the Big Oil companies, and they are currently only 
using 8 million of those acres. So, that is where you go.
    Mr. Allen. Can I make a comment on that? Santa Barbara has 
about almost 2 billion barrels. They know exactly where they 
are. It is close to infrastructure, and it is producible in the 
near term safely, and it is off limits. And that would be the 
quickest oil that could be produced in this country offshore, 
and it would make a significant impact at least with respect to 
the revenue that could be generated for the local economies, 
Santa Barbara and California. And that money taken as royalty 
revenue could actually, in the case of Santa Barbara County 
sharing that revenue, in 4 years pay for the build-out of an 
entire electric grid infrastructure based on solar energy, but 
it is not being done because it is off limits.
    The Chairman. The gentleman from Colorado Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And I apologize I didn't get to hear all of your testimony 
earlier because I was in another committee. So, I am going back 
and forth. But I do have your written statements here that I 
can look at later.
    To follow up on what you were just saying, sir, could you 
talk to me about the litigation climate? Maybe you have already 
addressed this, but I see that sometimes there is talk about 
why aren't all the acres being used that are leasable, or why 
does it take so many years? And I am aware a little bit how 
litigation can really slow that down, snarl that up. Do you 
have any insights on that?
    Mr. Allen. Yes, litigation is actually--in the case of 
offshore Central California--what stopped a number of leases 
from being produced. And then there was a moratorium imposed, 
and those leases to this day have not been produced. 
Exploratory drilling was done. There were resources discovered. 
But they have been off limits and remain off limits both in the 
OCS and in California State waters.
    There was recently a PXP, a deal with Plains Petroleum from 
a platform in the California OCS to slant drill with no new 
infrastructure into State waters to produce those State 
resources, and that was voted down by the California State 
Lands Commission 2 to 1. And the primary reason--I was at the 
hearings given by the Lieutenant Governor--was that it would 
send the wrong signal that California was open to offshore 
drilling.
    Mr. Lamborn. As a follow-up, do the duration of time that 
these leases are available sometimes run out while litigation 
is being pursued?
    Mr. Allen. Well, in the case of those leases, that is 
actually a subject--I believe ongoing litigation and potential 
resolution, and I haven't really followed in as much detail as 
I should have exactly the current legal status of those 
particular OCS leases that were subject to litigation. And I 
believe it is between the oil companies and the courts and the 
Federal Government now.
    Mr. Lamborn. Well, it just strikes me that if the 
litigation climate was a little easier to navigate, faster and 
so on, then we wouldn't have as many problems with needing to 
look for--because I do believe we need to look for more sources 
of domestic energy, and if we could somehow get on top of the 
litigation issues, whether to expedite the lawsuits or whatever 
it takes, then we would not have some of these problems that we 
are talking about, where existing current leasable land is not 
being used, and then some of us want to look to expand that. 
So, maybe if you all could help me with suggestions on how we 
could--while protecting everyone's rights--but expedite the 
whole legal process.
    Mr. Allen. Well, there is one note that perhaps you would 
be much more knowledgeable than I, but I believe there is a 
1990 congressional action that was signed into law that where 
pollution sources are identified, there should be efforts made 
to mitigate them or reduce them. And we view, because of the 
coast of Central California, by far the largest source of 
hydrocarbon pollution are the natural oil seeps.
    The best peer-reviewed science to date shows a strong 
connection that the seeps are being reduced by oil production 
in that seep zone in that study that Representative Capps 
referred to. So, the best science strongly suggests that is the 
case. So, we would ask or encourage that future studies be 
conducted, or funded, or supported by Congress to explore 
better whether or not that is indeed true for the whole central 
coast/OCS areas that are subject to the seeps that would reduce 
the offshore pollution and be in line with that legislation for 
reducing pollution sources.
    And in Santa Barbara County, the offshore emissions are the 
single largest source of ROCs, reactive organic compounds, in 
the county. They exceed automobile and surface transportation 
air emissions by 50 percent, 6,000 tons per year. And in the 
research that Representative Capps cited, it clearly states 
there has been a reduction of those emissions, apparently due 
to the offshore oil production. So, it is a net benefit to the 
environment.
    Mr. Lamborn. Thank you.
    In the short time remaining, anyone else would care to 
comment----
    Mr. Grader. I am a little bit disturbed that thinking that 
litigation somehow is slowing everything down. Everything I 
read, and in particular in preparing for this, is that in some 
of the most recent papers, it indicated that one of the biggest 
impediments right now, one of the reasons it would take 10 
years or more before any of these, if we did lease some of 
these new areas, to come on is just the infrastructure, the 
physically--the shipyards, the building of the rigs and all 
that, the demand you have elsewhere.
    So, I think if you are going to be doing further hearings 
on this issue, that is certainly something that should be posed 
to the oil companies is what is the nature right now? What are 
those impediments? Stop blaming the lease processes or claiming 
that it is litigation, but just that the technical or the 
physical aspects of getting these places into production. I 
think that really is the bigger issue. It is not litigation or 
States being intransigent. I think it is just the oil company 
itself--with its infrastructure--of how quickly it can put new 
oil into production.
    Mr. Minich. And I think I heard this earlier this morning 
that the third session of this will be with the oil companies, 
and I think what needs to be asked of the oil companies is that 
they should give you a cost comparison on some of these leased 
lands that they do not want to use, and are not using, versus a 
cost comparison if they drilled in the shallow Gulf of Mexico, 
because some of the information that we have is that it is 
cheaper in these waters that are currently out of bounds than 
on some of the leased lands that they have to their liking. And 
if you look at the profit and loss statements, and the profits 
of the oil companies, I think they can afford to drill in some 
of these other areas.
    And, yes, he is correct. I mean, you know, it would take 
somewhere between 10 to 30 years to get rigs built, a $700 
million rig, and most of those rigs that are under construction 
right now at shipyards are being shipped off to other places in 
the world for use in other places.
    Mr. Lamborn. Thank you very much.
    The Chairman. The gentleman from Washington, Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman.
    I just have one question. Mr. Minich, I just want to ask 
you one question here. How does your position, which you have 
very well enunciated, differ from that of the Florida 
Association of Convention and Visitors Bureaus?
    Mr. Minich. The Florida Association of Convention and 
Visitors Bureau did last fall release a report, and they are 
saying that they are supportive of offshore drilling. I do not 
agree with the Florida Association. I have adamantly not agreed 
with them, and I do not understand why they are taking that 
position.
    Mr. Hastings. Well, I just wanted to, because I understand 
at least your local association is probably a part of that, and 
I just wanted, for the record, to denote that in Florida there 
are some that have a different view than yours. So, thank you 
very much.
    Mr. Chairman, I ask unanimous consent to submit for the 
record--and I have a list here that I can read off or just give 
to you, whichever way you want to do that.
    The Chairman. Just throw it in.
    Mr. Hastings. OK. I will just throw it in. With that, there 
are seven statements, including Mr. Lamborn's opening 
statement, and I ask unanimous consent that that be submitted 
for the record.
    The Chairman. Without objection, so ordered.
    [A CRS memorandum entitled ``Possible Federal Revenue 
Estimates From Oil and Gas Production in Areas Currently Off-
Limits (under leasing moratoria or inaccessible)'' submitted 
for the record follows:]

Memorandum                                         September 12, 2008

_______________________________________________________________________
TO:        House Committee on Natural Resources
             Attn: Kevin V. Kennedy

FROM:     Marc Humphries
             Analyst in Energy Policy
             Resources, Science, and Industry

SUBJECT:  Possible Federal Revenue Estimates From Oil and Gas 
Production in Areas Currently Off-Limits (under leasing moratoria or 
inaccessible)

_______________________________________________________________________
    This memorandum is in response to your request for estimates of 
revenues from royalties and corporate income taxes if the public lands, 
now off-limits, (i.e., outer continental shelf moratoria and onshore 
inaccessible areas) were open and available for oil and natural gas 
leasing and development.
    Resource estimates in Table 1 are from the Department of the 
Interior Statement of Stephen C. Allred before the Senate Committee on 
Energy and Natural Resources, Resource Estimate Table, January 25, 2007 
and onshore resource estimates in Table 2 are from the Interagency 
report: Inventory of Onshore Federal and Natural Gas Resources and 
Restrictions to Their Development, 2008.
    I hope this information meets your needs. If you have any further 
questions, please call me at ext. 7-7264.
Background
    The federal government currently collects revenues from oil and gas 
leases on public lands in the form of bonus bids, annual rents, and 
royalties. Bonus bids are upfront payments made to secure a lease in a 
competitive lease sale. Leases are awarded to the highest bidder. 
Royalties are based on the value of production. Annual rental payments 
are made by lessees on a per acre basis. Once commercial production 
begins, rental payments are no longer required. The primary lease term 
for onshore leases is ten years. For offshore leases the primary term 
is 5 years for shallow water (<400 meters), 8 years for mid-depth water 
(400-800 meters) and 10 years for deep water (>800 meters). Leases 
continue as long as commercial production takes place. The Bureau of 
Land Management (BLM) administers the onshore leasing program and the 
Minerals Management Service (MMS) administers the offshore leasing 
program. The MMS collects and disburses all revenues from federal 
leases. The MMS and BLM are agencies within the Department of the 
Interior.
    In FY2007, the MMS collected about $11.5 billion from leasing 
activity on public lands. About 90% came from royalty payments. A 
royalty rate of 12.5% applies to onshore leases and up to 18.75% 
applies to offshore leases. <SUP>1</SUP> All states except Alaska 
generally receive 50% of the revenue generated from leasing activity 
within their state for onshore leases. Alaska receives 90%. The 
Reclamation Fund receives 40% of onshore receipts and the General 
Treasury receives 10%. Revenues from offshore leases are statutorily 
allocated among the coastal states, the Land and Water Conservation 
Fund (LWCF), the National Historic Preservation Fund (NHPF) and the 
General Treasury. Revenue sharing among the coastal states is limited 
to revenues generated within an area three miles beyond the state's 
boundary and revenues from leases identified in the Gulf of Mexico 
Energy Security Act of 2006 (P.L. 109-432). <SUP>2</SUP> Despite the 
statutory allocations, the vast majority of revenues from offshore 
leases go to the General Treasury.
---------------------------------------------------------------------------
    \1\ The Mineral Leasing Act of 1920, as amended, established a 
minimum royalty rate of 12.5% for federal leases. The most recent 
offshore lease sales contained a royalty rate of 18.75%. MMS 
Congressional Affairs representative Lyn Herdt indicated that MMS would 
likely continue to impose the 18.75% rate on offshore leases in the 
foreseeable future.
    \2\ For a more detailed discussion of revenue sharing see CRS 
Report RL33493 Outer Continental Shelf: Debate Over Oil and Gas Leasing 
and Revenue Sharing by Marc Humphries.
---------------------------------------------------------------------------
Assumptions
    A number of assumptions are made in this memo to simplify a very 
complex process of making revenue projections. Supportable projections 
of revenue generation would require complex economic modeling and would 
likely include many more variables. A simplified approach here assumes 
that leasing restrictions were lifted and once those restrictions were 
lifted, discovery and production of all possible undiscovered 
technically recoverable resources (UTRR) estimated by Department of the 
Interior in the OCS and onshore would be produced over a 58-year time 
horizon (2010-2068). Federal revenue projections are over the entire 
recovery cycle (58 years), until oil and gas is no longer recoverable. 
Production rates, however, are beyond the scope of this memo. It is 
assumed that once legislation to open withdrawn lands is enacted, it 
could take at much as 5 years or longer for lease sales in the newly 
opened areas to be held. Production might begin 5-10 years from the 
lease sale if commercial quantities were found. However, in certain 
areas of the OCS, production, if resources are discovered, could come 
onstream much sooner, thus, revenues might be generated as soon as 
2010, assuming there is known geological data and infrastructure 
requirements, among other variables, are in place. To receive revenues 
as early as 2010, an assumption is made that the administration would 
begin its new 5-year OCS leasing program in 2010. Further, a lease sale 
would need to occur in 2010 along with drilling and development. 
According to assumptions in this memo, most of the revenues would 
likely be generated beyond 2018. The revenue estimates are based on the 
mean resource estimates provided by the Department of the Interior and 
the base forecasted price ($113/barrel oil, $10.34/thousand cubic foot 
of natural gas) by the Energy Information Administration within the 
Department of Energy. Price and revenue estimates are in nominal 
dollars. Revenue estimates are not discounted to reflect present value. 
These revenue projections are very rough and meant to reflect what 
might happen, not what will happen. Data in Tables 1 and 2 reflect 
receipts to the General Treasury only and do not include bonus bids and 
rents collected or revenues to the states.
    Royalty revenue estimates in Table 1 assume the federal government 
(General Treasury) would receive a 50% share and the coastal states 
would receive 50%. Statutory allocations to the NHPF and the LWCF would 
come out of the revenues allocated to the General Treasury. This 
assumption reflects a distribution formula that is included in nearly 
all of the legislation proposed to lift the moratoria in the outer 
continental shelf (OCS). The royalty revenue estimates in Table 2 are 
based on the current onshore distribution allocation that distributes 
50% to the states, 40% to the Reclamation Fund, and 10% to the General 
Treasury. This formula also includes revenue estimates from ANWR. 
Alaska would also receive 50% of the estimated royalty revenues.
    Corporate income tax estimates are based on calculating pre-tax 
profits from assumed oil production in the newly opened areas, then 
multiplying that amount by an estimated effective federal corporate 
income tax rate for large integrated oil companies that would have an 
interest in oil and gas development. Net pre-tax profit for those 
companies averaged 31% of revenue and the average effective tax rate 
for the years 1998-2005 was 33%. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ For more details on corporate income tax rates and production 
costs see CRS Report RL34547 Possible Federal Revenue from Oil 
Development of ANWR and Nearby Areas by Salvatore Lazzari.
---------------------------------------------------------------------------
Caveats
    These rough estimates should be used with caution. There are major 
uncertainties involved. First, the amount of recoverable resource is an 
estimate based on assumptions and probabilities; in fact, they are 
educated guesses. Second, projecting the price of oil for a few years 
is difficult and complex; projecting for decades is highly uncertain. 
Lastly, the possible legislation and its terms are not known at this 
time.
Results
    Given the above caveats, OCS leases might generate royalty revenue, 
(over a 50-year period), of about $518.5 billion of which 50% ($259.25 
billion) might go to the states and 50% ($259.25 billion) might go to 
the General Treasury. Corporate income tax revenue is estimated to be 
about $283 billion.
    Onshore leases (excluding ANWR) in areas that might be opened might 
generate an estimated total royalty revenue of about $280 billion, of 
which about $28 billion would flow to the General Treasury, $140 
billion to the states and $112 billion to the Reclamation Fund. 
Corporate income tax revenue is estimated at about $230 billion.
    ANWR leases might generate royalty revenue of about $114 billion of 
which $11.5 billion might go to the General Treasury, $57 billion might 
go to the states, and $45.5 billion might go to the Reclamation Fund. 
Corporate income tax receipts could total about $95 billion.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 
    [A Florida Association of Convention & Visitors Bureaus' 
paper entitled ``Position on Offshore Oil Drilling'' follows:]

                                 FACVB

          FLORIDA ASSOCIATION OF CONVENTION & VISITORS BUREAUS

                   Position on Offshore Oil Drilling
Introduction
    Serving as the single unifying voice for all of Florida's 
convention and visitor bureaus, the Florida Association of Convention 
and Visitors Bureaus (FACVB) strives to provide insight and direction 
on emerging trends that may impact the effectiveness of Florida CVBs' 
destination management efforts. Energy availability is a key factor in 
Florida's tourism industry. Affordable and available fuel makes it 
easier for consumers to consider Florida as their vacation destination.
    The FACVB has been monitoring impacts on Florida's tourism industry 
associated with recent trends in energy affordability and reliability. 
The FACVB recognizes that a comprehensive, long-term energy policy, 
including conservation, efficiency, renewable and alternative fuels as 
well as increased U.S. domestic oil and natural gas production, is 
essential to maintain a healthy, vital Florida tourism industry.
Tourism Trends in Florida
    During 2007, Florida tourism generated $65.5 billion in revenues 
from 84.5 million visitors and was responsible for directly employing 
991,300 Floridians, according to VISIT FLORIDA research. Over the five-
year period between 2003 and 2007, revenues increased 21.4 percent and 
visitors increased 11.7 percent. Effective marketing efforts combined 
with Florida's attractions and natural resources continue to make 
Florida a favored destination throughout the world and tourism a prime 
contributor to Florida's growing economy. However, the five-year growth 
trend statistics also indicate a flattening of the growth trend between 
2005 and 2007. In particular, visitor and revenue growth grew only 0.8 
percent during 2007, and visitors arriving via automobile actually 
declined 2.3 percent during 2007. It is important to note the 
correlation between the flattening growth in Florida tourism and the 
concurrent rise in energy costs. Energy in Florida
    Florida's tourism industry heavily relies on consistently 
affordable energy from dependable sources. The state's residents and 
visitors consume approximately 23 million gallons of gasoline per day, 
more than 8 billion gallons per year. In addition to meeting the 
transportation needs of Floridians, products are necessary to fuel 
vehicles for more than 40 million tourists arriving via automobiles; to 
fuel cruise ships, fishing and recreational watercraft; and to fuel the 
airplanes servicing Florida's numerous airports.
    While U.S. demand has slowed over the past decade, global demand 
for crude oil, the raw material of most refined transportation fuels, 
has increased dramatically due to emerging markets in Asia and other 
parts of the world. This has led to a tightening of supplies. Many of 
the congressional and presidential moratoria that prevented domestic 
oil and natural gas exploration and production were either recently 
withdrawn or expired; however, the long-term status of the moratoria 
will probably remain unclear for some time after the elections in 
November. During the duration of the various moratoria over the 
previous three decades, our country's dependence on imported oil has 
increased from 40 percent to 60 percent of our total consumption.
    Significant state and federal legislation and efforts of the 
Governors Climate Action Team are designed to address global climate 
change and have established aggressive renewable fuel mandates for 
transportation fuels. Florida has been a leader in recognizing the 
importance of alternative fuels, and this year has mandated that by 
December 31,2010, all gasoline must contain at least 10 percent 
ethanol. Additionally, federal mandates dictate that 9 billion gallons 
of renewable fuels must be blended with transportation fuels in 2008, 
expanding to 36 billion gallons by 2022. Further, increasing amounts of 
the renewable fuels must originate from cellulosic sources beginning in 
2011; however, it is questionable as to whether adequate commercial 
cellulosic fuel refining plant production will be available to meet the 
mandate. No commercial cellulosic product is available in Florida or 
the United States at this time.
    Florida is committed to taking a new direction in energy 
production, requiring utilities to meet stringent air emission 
guidelines amid concerns about global climate change. Florida utilities 
have always been more reliant on natural gas for power generation than 
our surrounding states; this commitment to clean-burning natural gas 
will only grow stronger through the next decade. According to Florida 
Public Service Commission statistics, total utility generation capacity 
that uses natural gas will increase from 29 percent to 44 percent by 
2014. Many sources for natural gas fall under the same moratoria that 
had been issued for oil production; therefore, the industry has had to 
rely more on imported natural gas to meet growing demand. Recent 
tightening of supplies in the natural gas markets, evidenced by the 
increased price of natural gas and the subsequent rise in utility 
rates, ultimately increases operating costs of airlines, cruise ships, 
attractions, convention centers and hotels.
FACVB Position on Offshore Oil and Natural Gas Production
    The state and federal governments, along with entrepreneurs and 
major energy companies, have made a long-term commitment to the 
development of alternative energy sources; the FACVB endorses the 
diversification of energy sources, particularly lower carbon 
alternative and renewable fuels, as a means to address global climate 
necessities. However, petroleum products will remain a key energy 
source for our country as we make necessary technological advancements 
so alternative energy sources become cost efficient. Recognizing that 
affordable and reliable energy is essential to nourish the future 
growth of Florida tourism and the state's economy, the FACVB evaluated 
domestic oil and natural gas access, including off Florida's coasts. 
The FACVB conducted an Offshore Oil Drilling Summit on October 2, 2008, 
allowing members to discuss issues in depth with representatives from 
the environmental community and the petroleum industry. The discussions 
covered long-term energy projections, the local and global 
environmental impacts of drilling, impacts to fishing industries, 
advanced drilling and production technologies, mitigation of risks 
through redundant systems, regulatory oversight, revenue sharing, 
impacts of hurricanes, and the availability of oil and natural gas 
based on previous seismic and geophysical data.
    After carefully considering all factors, the Florida Association of 
Convention and Visitors Bureaus (FACVB) endorses state and federal 
energy policies allowing the production of oil from existing leases 
within the Gulf of Mexico out of sight of Florida's coast (at least 30 
miles offshore), with the following conditions imposed by state and 
federal lawmakers:
    1.  Any Florida offshore drilling must be a component of a 
comprehensive energy policy dedicated to reducing America's dependence 
on foreign oil.
    2.  Production facilities must incorporate the most advanced zero 
discharge natural gas and oil production systems.
    3.  The federal revenue sharing plan affecting Gulf of Mexico 
resources, which currently does not include revenue sharing to Florida, 
must be changed by the U.S. Congress to include significant revenue 
dedicated to the state for 1) beach renourishment projects; 2) 
alternative energy investments for the state of Florida; 3) tourism 
promotion to attract more visitors to Florida to bolster the state's 
economy and tax collections; and 4) a catastrophe fund to reimburse 
Florida for expenses related to any oil release into the environment as 
a result of these oil production activities;
    4.  A five-year moratorium on new leases in the eastern Gulf of 
Mexico must be established so state officials can evaluate oil 
production safety and evaluate any impact on Florida's natural 
resources. This moratorium should permit exploration by seismic and 
geophysical scientific testing to identify potential future reserves.
    The military mission of the U.S. Department of Defense shall have 
the first priority in the offshore in the Gulf of Mexico.
Conclusion
    Changes in global energy markets have affected the price and supply 
of oil and natural gas and subsequently may have a future impact on 
Florida's tourism industry. The FACVB recommends that environmentally 
responsible exploration and production of domestic oil and natural gas 
from current leases be an essential element of state and federal energy 
policies. Experts expect production from existing leases could commence 
as early as within 2 years from the date leaseholders are permitted to 
proceed.
                                 ______
                                 
    [A list of documents retained in the Committee's official 
files follows:]
    <bullet>  American Petroleum Institute booklet entitled 
``Strengthening Our Economy: The Untapped U.S. Oil and Gas Resources'' 
dated December 5, 2008
    <bullet>  U.S. Department of Energy / Office of Fossil Energy 
booklet entitled ``Environmental Benefits of Advanced Oil and Gas 
Exploration and Production Technology''
    <bullet>  U.S. Department of the Interior/ Minerals Management 
Service fact sheet entitled ``OCS Oil Spill Facts'' dated September 
2002
    <bullet>  The National Academies report entitled ``Oil in the Sea 
III''--Copyright 2002 by The National Academy of Sciences
                                 ______
                                 
    Mr. Hastings. And with that, Mr. Chairman, thank you very 
much for the indulgence. And I want to thank the panel very 
much for their time, and especially for the break that we had 
when we had to go do our business on the Floor of the House. 
And I appreciate your being here.
    The Chairman. Per our usual unanimous consent requests, all 
Members will have a right to submit statements for the record.
    [The prepared statement of Mrs. Capps follows:]

  Statement of The Honorable Lois Capps, a Representative in Congress 
                      from the State of California

    Thank you, Mr. Chairman.
    I'm pleased the first hearing before this Committee will deal with 
the impacts of offshore oil and gas drilling on the environment and 
coastal communities.
    I have been a long time opponent of new offshore oil and gas 
development.
    It's no surprise that I don't want to see more oil rigs off my 
congressional district.
    I witnessed firsthand the devastation of the Platform A blowout in 
1969.
    The disastrous spill created an 800 square-mile slick and marred 35 
miles of California's coastline.
    I saw the dead birds and seals, the beaches covered with oil, the 
land that I love so much nearly destroyed.
    In the years since oil accidents and drilling-based pollution in my 
congressional district has been an ongoing story.
    In December, more than 1,400 gallons of oil spilled into our 
coastal waters from the same location as the infamous 1969 spill nearly 
40 years ago.
    Also last year, Exxon-Mobil agreed to pay millions in fines for 
releasing dangerous PCBs into the Santa Barbara Channel from Platform 
Hondo.
    Spills of course are not limited to offshore locations on 
California's Central Coast.
    Greka Oil has been polluting our local creeks with toxic runoff and 
countless oil spills, looking like it got its environmental policies 
straight from the movie There Will Be Blood.
    There was also the Torch pipeline explosion in 1997 and the 
decades-long pollution that required rebuilding the entire town of 
Avila Beach.
    And that's not even including the impacts on our local air and 
water quality we deal with every day.
    So, yes, my constituents and I don't want more of that.
    Even so, my opposition to new offshore drilling is mostly because 
it is simply not in the best interests of this country.
    It is the slowest, dirtiest, and most expensive way to produce 
energy.
    And the longer we try to fool ourselves into believing that new 
drilling will bring us lower gas prices and that we still have plenty 
of time to get ourselves off this oil addiction, the tougher the day of 
reckoning will be.
    Mr. Chairman, America's coastal waters and economies should not be 
sacrificed for campaign sound bites.
    That's why I was pleased by the Obama Administration's responsible 
decision to take a fresh look at the 5-year offshore leasing plan that 
former President Bush released on his last day in office.
    Future leasing decisions must be based on the strongest, most 
objective science available, especially in areas that have previously 
been off limits to drilling for decades.
    While we need to take a more reasoned approach to managing our 
public energy resources, I continue to believe there are cheaper, 
cleaner, faster, and more sustainable energy solutions than more 
drilling.
    Energy efficiency and clean, renewable energy will start saving 
consumers and businesses money today.
    Improved vehicle standards on their own would do more to lower gas 
prices than wiping out sea otter habitat to drill for more oil.
    I'm hopeful this Committee will invest its time, energy and 
creativity into real solutions that put us on the right path, toward 
renewable energy solutions for our future.
    Our nation shouldn't be known for chasing after yesterday's energy 
solutions, but for its leadership toward the clean energy solutions of 
today and tomorrow.
    Thank you again for calling this hearing and I look forward to the 
testimony from our knowledgeable witnesses.
                                 ______
                                 
    The Chairman. Gentlemen, lady, thank you very much for 
being here. I know some of you have traveled long distances, 
and your input into our deliberations will be very useful. And 
I appreciate the facts you have presented, and the manner in 
which you presented it, and this story shall be continued. 
Thank you.
    The Chair wishes to thank all Members, too, on both sides 
of the aisle, I might add. I think we had a very good 
attendance record today, and I appreciate so many Members 
attending. Let that be on the record.
    The Committee is adjourned.
    [Whereupon, at 4:46 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]
    [A letter submitted for the record by Brant Branham, 
Chairman, and Brad Dean, President & CEO, Myrtle Beach Area 
Chamber of Commerce, follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    [A letter submitted by Faith Gemmill, REDOIL, follows:]

    Resisting Environmental Destruction on Indigenous Lands (REDOIL)

       P.O. Box 74667 * Fairbanks, AK 99701 * PH: 907-456-2181 * 
            Fax: 907-456-2184 * Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a584f4e4543461b6a4b49594b464b59414b04444f5e">[email&#160;protected]</a>

February 11, 2009

Chairman Nick Rahall (D-W.Va.)
House Natural Resources Committee
1324 Longworth House Office Building
Washington, DC 20240'

Respectful Greetings;

    Today we submit these comments for the record to the House Natural 
Resource Committee on behalf of Resisting Environmental Destruction on 
Indigenous Lands (REDOIL) an Alaska Native Network of the Inupiat, 
Yupik, Aleut, Tlingit, Eyak, Gwich'in and Denaiana Athabascan Tribes. 
REDOIL is a movement of Alaska Natives who are challenging the fossil 
fuel and mining industry and demanding their rights to a safe and 
healthy environment conducive to subsistence. REDOIL aims to address 
the human and ecological health impacts brought on by unsustainable 
development practices of the fossil fuel and mining industry, and the 
ensuing effect of catastrophic climate change. REDOIL supports the self 
determination right of Tribes in Alaska, as well as a just transition 
from fossil fuel and mineral development to sustainable economies, and 
sustainable development.
    The Alaskan Outer Continental Shelf (OCS) provides an abundance of 
marine life, and is adjacent to some important terrestrial public 
resources in Alaska. Alaska Native coastal communities have depended on 
marine subsistence resources since time immemorial. The Beaufort and 
Chukchi Seas, North Aleutian Basin (Bristol Bay), Cook Inlet and other 
offshore areas are critical to Alaska Natives subsistence. REDOIL is 
deeply concerned with the risks posed to sensitive marine and coastal 
environments from oil and gas activities in the Alaskan OCS. Vital 
subsistence resources that are intrinsic to the livelihood of coastal 
Alaska Native communities within the Alaska OCS area are at risk. Due 
to the serious risk posed to these ecological areas and the communities 
that are within these areas or in close proximity who rely upon coastal 
resources, REDOIL strongly recommends the entire Alaska OCS be 
suspended from the Federal OCS Energy Plan. Considering that the Bush 
Administration imprudently pushed through a massive expansion of oil 
and gas activities in the Beaufort and Chukchi Seas, North Aleutian 
Basin and Cook Inlet in the face of opposition from federal expert 
agencies, conservation groups, Alaska Native entities, and commercial 
fishing organizations. These experts and others correctly asserted that 
there is too little information known about the existing biological 
conditions in the Arctic, especially in light of changes wrought by 
climate change, to be able reasonably to understand, evaluate and 
address the adverse impacts of oil and gas activities on those 
environments. Therefore we recommend an immediate suspension and 
cancellation of oil and gas leases and activities within the Alaska OCS 
and other conservation priority areas in the NPRA and we also support 
the strongest possible protection for the coastal plain of the Arctic 
Refuge.
    Existing international law already protects subsistence rights. 
This right is recognized and affirmed by civilized nations in the 
international covenants on human rights. Article I of both the 
International Covenant on Civil and Political Rights, and the 
International Covenant on Economic, Social and Cultural Rights read in 
part: ``...In no case may a people be deprived of its own means of 
subsistence.''
    The Outer Continental Shelf of Alaska--Each of Alaska's OCS regions 
contains important subsistence resources that would be threatened by 
oil and gas development. Subsistence use of fish and other marine 
animals is both an established economy of Native coastal communities 
and is absolutely central to the survival of Alaska's indigenous 
cultures. Unlike oil and gas resources, the marine resources of the 
Alaska OCS can last indefinitely, and should therefore not be 
jeopardized by non-renewable resource development.
    Beaufort Sea--The Arctic Ocean's Beaufort Sea is the primary marine 
subsistence use area for the Inupiat of the North Slope. The Beaufort 
provides critical habitat for polar bears, walruses, seals, migratory 
birds, threatened spectacled and steller's eiders and the endangered 
bowhead whale. In this vulnerable and harsh environment, spilled oil 
will concentrate in restricted open water such as the leads and 
breathing holes where marine mammals surface and birds congregate, and 
along the sensitive coasts. The Arctic National Wildlife Refuge, with 
its incomparable wildlife and wilderness, adjoins the eastern portion 
of the Beaufort Sea in the United States. Critical bowhead whale spring 
migratory pathways in the lead zone are located east of Barrow, and 
fall migratory and feeding habitats are located offshore of the Arctic 
National Wildlife Refuge.
    Chukchi Sea--Lease Sale 193, would allow oil and gas exploration 
and development for almost 30 million acres of the Chukchi Sea. The 
Chukchi Sea is an important primary subsistence use area for Inupiat 
that live in nearby coastal communities. Oil leasing in Arctic waters 
of the Chukchi Sea threatens critical spring migration route for 
bowhead and beluga whales, important feeding areas for gray whales and 
other Whales and Pacific walruses, staging and molting areas for 
migratory birds, polar bear and walrus habitats. In Government to 
Government consultations the Native Village of Point Hope has 
consistently objected to any offshore activities toward oil and gas 
development, despite this, the Minerals Management Service has 
consistently approved offshore leases for exploration and development 
of the Chukchi Sea and this has been perceived as blatant disregard of 
government to government consultation.
    North Aleutian Basin (Bristol Bay)--President Bush lifted a 
longstanding presidential order that specifically prohibited oil and 
gas drilling in Alaska's pristine Bristol Bay. In light of the lifting 
of the moratorium, as part of the Outer Continental Shelf (OCS) five 
year plan offshore oil and gas development in Bristol Bay by as early 
as 2010 has been included. Bristol Bay supports the world's largest 
sockeye salmon run, other important fisheries, and abundant seabirds 
and marine mammals. Offshore drilling in this sensitive place would put 
fisheries, marine life, traditional subsistence livelihoods, and 
economies at risk.
    Cook Inlet--Cook Inlet is the birthplace of commercial oil and gas 
development in Alaska. With that we observe the ensuing effects of 
underwater seismic blasting, toxic dumping from offshore platforms, and 
regular leaks and spills which are the primary threats to the Cook 
Inlet Beluga Whales and their habitat. The U.S. Army also retains a 
presence in Cook Inlet, and its bombing range at Eagle River Flats on 
Fort Richardson regularly showers toxics and other pollutants into 
areas that support belugas and their prey. Cook Inlet is also a major 
shipping hub and fishing center, and ship traffic, noise, port dredging 
and prey disturbance may be affecting belugas. The National Marine 
Fisheries Service (NMFS) listed the beluga whale as ``endangered'' in 
October 2008 after an exhaustive scientific review. The State of Alaska 
announced its intent to challenge the listing in a January 12, 2009, 
letter to NMFS. We support maintaining the ``endangered'' listing of 
the Beluga.
    It is an undisputed fact that the burning of oil, gas, and coal 
(``fossil fuels'') is the primary source of human-induced climate 
change. The United States appetite and high consumption of energy 
creates a stubborn insistence upon the use of non-renewable sources of 
energy, particularly, unsustainable and highly polluting, fossil fuels. 
Pristine and un-recoverable ecosystems are being assaulted in the 
shortsighted quest for new sources of fossil fuel. Indigenous 
communities are disproportionately impacted by fossil fuel exploration 
and extraction/drilling activities, and by the resulting effects of 
pollution, global warming, and climate change. Here in Alaska this is 
our reality. We are living with unsustainable fossil fuel extraction, 
and dealing with ensuing cumulative impacts of loss of our subsistence 
resources, detrimental impacts to human and ecological health and this 
is compounded by climate change. Further pursuits into pristine 
ecosystems of which Alaska Native peoples depend on for subsistence 
such as the Beaufort and Chukchi Seas, North Aleutian Basin (Bristol 
Bay) and Cook Inlet is a threat to Alaska Native subsistence 
livelihoods, culture, spirituality and social systems.
    If these critical offshore areas within the Alaska OCS are pursued 
and allowed to proceed and development of these critical subsistence 
use areas ensues, the harm to Alaska Native cultures and subsistence 
livelihood would be severe and in some cases irreparable.
    In regard to Federal OCS plans specifically in Alaska's OCS we 
strongly encourage the Department of the Interior to fulfill and honor 
their government to government responsibilities and work 
collaboratively and in good faith with Tribes in Alaska on these 
important issues. It is unfortunate that the federal agencies have 
disregarded the federal government to government meeting outcomes in 
which Tribes have consistently opposed any development activity within 
the oceans which provide the very lifeblood of their communities. The 
experience thus far of tribes in Alaska on these issues with the MMS 
has been a clear erosion of federal trust responsibility.
    We are also gravely concerned with the threat of an oil spill in 
Arctic waters if development is allowed within the Alaska OCS--the MMS 
itself has stated that the risk of a significant oil spill can be as 
high as 51 percent. Because of the remoteness of these areas and the 
extremely harsh environment it may be near impossible to have immediate 
response to any spill or accident that occurs due to oil and gas 
development. The detrimental impacts that may occur to key subsistence 
species may create a situation where they may never be able to recover 
from the stresses that oil and gas development will cause. It has 
become clear that if an oil spill occurs within the Alaska OCS, there 
is no proven technology to clean up oil spills in Arctic waters. 
Demonstrations have shown that oil cannot be cleaned up in Arctic 
waters.
    The fact remains that we cannot drill our way to oil independence. 
The U.S. must break its insatiable dependence on oil--be it foreign or 
domestic--if we are to achieve true energy independence and national 
security. Limiting leasing and development could have an even more 
profound impact on this country's energy landscape if coupled with a 
re-direction of billions of dollars in federal subsidies, tax breaks 
and incentives away from fossil fuels and toward renewable energy 
sources, energy efficiency and conservation. The United States 
generates about 25 percent of world petroleum demand. This fact alone 
indicates that Americans can have a much larger impact on global 
markets on the demand side than on the supply side. This conclusion is 
strengthened by the fact that there are large untapped energy 
efficiency resources, yet the United States government continues to 
focus almost exclusively on exploiting non-renewable oil and gas 
resources. Energy efficiency alternatives to opening up these sensitive 
areas are numerous. Using available technology, we could save an 
average of 3.2 million barrels of oil per day within 10 years.
    Today's profit driven economies are not sustainable and threaten 
the existence of our future generations. Our actions as humanity are 
creating an imbalance within the natural order and natural laws created 
for all our benefit. The decisions that are made today by government 
leaders will effect the rights of the unborn and this responsibility 
cannot be taken lightly. Though Alaska Natives are hit first and hit 
hardest by climate change, we now share the consequences together. We 
have to take action now to implement genuine measures of a just 
transition toward clean renewable energy and an energy efficient 
economy that supports sustainable jobs and communities. We ought to be 
weaning our addiction to fossil fuels now, not allowing more 
development in areas that are critical to the survival of Indigenous 
Peoples such as within the Alaska OCS.
    We strongly recommend that Congress begin taking concrete serious 
measures now to address the Climate crisis we are in, such as imposing 
a moratorium on all new exploration for oil, gas and coal as a first 
step towards the full phase-out of fossil fuels with a just transition 
to sustainable jobs, energy and environment. We take this position and 
make this recommendation based on our concern over the disproportionate 
social, cultural, spiritual, environmental and climate impacts on 
Indigenous Peoples in Alaska
    Should drilling in Alaska's OCS move forward without regard to the 
serious and profound concerns for the very survival of Alaska Native 
Peoples the dire implications of that decision would harm untold 
generations. We request that Congress by any means necessary suspend 
and cancel leases within the Alaska OCS.
    Thank You.
    K'eegwaadhat Noohaa Ooli'

Faith Gemmill, Executive Director
Resisting Environmental Destruction on Indigenous Lands (REDOIL)
                                 ______
                                 
    [The response to questions submitted for the record by 
Jefferson M. Angers follows:]

Response to questions submitted for the record by Jefferson M. Angers, 
               President, Center for Coastal Conservation

1.  Mr. Angers, do you believe that offshore wind turbines could also 
        provide similar fish habitat benefits to what you ascribe to 
        oil and gas platforms?
    From a fishery perspective, most structures do benefit the fishery. 
My testimony focused on the actual conditions related to offshore oil 
and gas production and the Gulf of Mexico fishery. I attempted to share 
with the committee my observations regarding the co-existence of energy 
activities and fish stocks. We currently do not have experience with 
offshore wind turbines; however, I think it important to note that one 
of the first offshore wind projects in the nation (Cape Wind) has been 
subject to significant opposition and delay.
2.  Mr. Angers, in your testimony you mention four primary culprits for 
        wetlands loss, and two of them, exploration and pipeline canals 
        and navigation channels, are either directly related to oil and 
        gas activity, or are a consequence of the increasing 
        industrialization of the coastline. Since you also mention that 
        most of the fish species in the Gulf are estuarine dependent, 
        can we be sure that the habitat destruction being caused in the 
        estuaries by the oil and gas industry isn't much more 
        significant than the habitat creation due to the platforms?
    I believe that it is important to clearly understand our coastal 
challenges in the Gulf. Numerous studies have confirmed that the 
primary cause of coastal wetlands loss (and associated ecosystems) in 
Louisiana was due to the installation of levees on the lower 
Mississippi River system. The levees achieved the goal of establishing 
a certain navigation channel and improved flood protection, but cut off 
the river sediment that provided for the accretion of land in 
Louisiana. Prior to this time, our state--and the estuary--was actually 
growing in size. Today, more than 30 states benefit from the maritime 
commerce accommodated by the levees and the navigation system they 
protect.
    Many have predicted a collapse of the marine fishery if domestic 
offshore oil and gas production were allowed to expand into new 
production areas. Based upon the experiences in the Gulf of Mexico, 
this is not the case. The states of Florida, Alabama, Mississippi, 
Louisiana and Texas remain as some of the most productive waters in the 
nation.
    I do believe that there were some important lessons learned in the 
oil and gas industry as it relates to coastal sustainability and proper 
stewardship of our marine resources, but in my opinion, these pale in 
comparison to the extraordinary impact that river levees have had on 
Louisiana's coast.
    Future offshore oil and gas development both in the Gulf of Mexico 
and in potentially new lease areas in other parts of the U.S. exclusive 
economic zone, must be done in the most environmentally sound manner 
taking into account critical habitat and the overall protection of 
fishery resources.
3.  Mr. Angers, could you elaborate on the new operating procedure that 
        you believe the Minerals Management Service should adopt in 
        order to balance the concerns of all ocean users? How would it 
        be different from how they operate now?
    First, I believe it critical that decisions be based upon the most 
accurate information possible. In many cases, extraordinary claims are 
made related to the adverse impacts of offshore energy production. Many 
of those claims are not supported by actual conditions in the Gulf of 
Mexico and should be challenged.
    In regard to improved operating procedures, balance is appropriate. 
Blanket policies, such as moratoria, are not appropriate in today's 
challenging economic climate. Commercial and recreational fishermen are 
affected in pursuing their vocation and their avocation by the price of 
fuel. Similarly, all the concomitant businesses that service the 
fishing industries feel that pain. Efforts to increase domestic energy 
production will help to temper future fuel price spikes that prevent 
America's fishermen from ever leaving the docks.
    There are some areas where any potential disturbance to a sensitive 
or threatened fishery may outweigh any benefits ascribed to the 
expansion of offshore energy production. In some cases, an area with 
promising energy potential may require innovative recovery techniques 
to ensure proper balance with other resource needs. I believe that 
current technologies are available to allow for win-win situations in 
most cases.
4.  Mr. Angers, you mention the need for a network of conservation 
        areas for fishing before offshore energy leasing and 
        development should proceed. Do we have the information we need 
        to make the determination of what areas need to be protected? 
        And what kinds of protections are you talking about?
    Information does exist related to essential fish habitat and 
productive marine wildlife areas. Rather than first trying to survey 
the entire exclusive economic zone of the United States for potential 
conservation area designations, prioritization may be appropriate. 
Reviewing areas that have attractive volumes of oil and gas, wind, wave 
and other energy potential to identify marine resources pressures would 
be a wise approach to balance our needs.
    The type of protections to be placed upon areas would depend upon 
the conditions of those areas. Again, blanket prohibitions preventing 
access to our marine resources is inappropriate in most areas.
5.  Mr. Angers, you call for additional transparency in the management 
        of the oceans. Coincidentally, that was one of the goals of 
        Oceans-21. Are you supportive of that legislation, and if not, 
        what are you calling for that is different from what is in that 
        legislation?
    Over the past 33 years since the passage of the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA), there have been many 
well-intended proposals to alter this unique federal/state fisheries 
management law. While not perfect, the legal structures under the MSA 
that created the eight regional councils have provided for important 
regional and local input on how best to manage the unique fishery 
resources in a particular ocean region.
    I believe the single biggest failing of the Oceans 21 proposal is 
its mandate to provide an overarching national ocean policy that would 
effectively subordinate the regional councils to a subcommittee status 
reducing substantially the critical input from the various regions. 
Oceans 21 proposes to enforce this national ocean policy by 
establishing another strata of ocean governance comprised completely of 
governmental officials from the federal, state, local and tribal level. 
This would take out all input and recommendations from user groups and 
local insights on the best management of unique regional ocean 
resources.
    I would suggest that fisheries management and ocean conservation is 
complex enough without an additional layer of governmental oversight. 
Rather than create more government, I would suggest providing greater 
transparency and public process in the ocean laws we currently have and 
make sure the best science available is used to make informed ocean 
management decisions.
6.  Mr. Angers, you describe vehicles that already exist to enable 
        royalties to be directed towards marine research and 
        recreational fisheries conservation. Could you specify which 
        vehicles you're talking about, and explain how they currently 
        direct funds to marine research and conservation?
    The Coastal Impact Assistance Program authorized in the Energy 
Policy Act of 2005 and the Gulf of Mexico Energy Security Act of 2006 
are two examples of vehicles that could be used to fund marine research 
and conservation activities. While I would not call either of these 
perfect, they do demonstrate a structure through which outer 
Continental Shelf revenues could be reinvested into under-resourced 
coastal needs. Other examples that have been proposed include the 
Conservation and Reinvestment Act (CARA) and the Coastal and Ocean 
Assistance for States Fund developed by Senators Inouye, Stevens, Kerry 
and the Coastal States Organization.
                                 ______
                                 
    [The response to questions submitted for the record by 
Philippe Cousteau follows:]

  Response to questions submitted for the record by Philippe Cousteau

1.  Mr. Cousteau, can you describe in more detail how an ocean 
        investment fund would work, and if it were established how it 
        could be used to support ocean planning.
    Congress could establish a permanently appropriated, dedicated fund 
that is capitalized through a percentage of revenue derived from 
offshore energy development. Funding sources could include OCS oil and 
gas development, wind, tidal and wave energy production projects, and 
potentially other revenue-generating uses of marine resources in 
federal waters, especially those that include fixed structures and/or 
preclude other uses. The Ocean Investment Fund (the Fund) should be 
used to pay for activities and projects that protect, maintain, and 
restore ocean, coastal and Great Lakes ecosystem health including the 
necessary research, planning, and management.
    Planning for the use of submerged areas is needed for both marine 
areas and the Great Lakes. For now, I will refer to it collectively as 
ocean planning.
    I would recommend that planning within state waters be voluntary. 
States should be able to access the Fund if they are willing to engage 
in ocean planning that is comprehensive and takes into account whole 
ecosystems including humans. Planning must be done in a way that 
anticipates the cumulative effects of given policies rather than 
focusing on single species, sectors, activities or concerns. It needs 
to entail spatial planning that allocates three-dimensional marine and 
freshwater spaces (ecosystems) for specific uses to achieve ecological, 
economic, and social objectives. These objectives would need to 
include: safeguarding ecological processes and ecosystem services, 
protecting special and sensitive areas, improving the resilience of 
ecosystems to disturbances, increasing the adaptability of ecosystems 
to climate change, and providing for sustainable economic development.
    Regional planning should be mandatory (for EEZ areas beyond state 
jurisdiction) and should be done in a manner similar to that described 
above for state waters. There should be incentives for states to 
participate in regional planning and to coordinate state plans with 
regional plans. Consideration should be given to using existing 
regional structures such as the West Coast Governors' Agreement and the 
Northeast Regional Ocean Council as the geographical basis for regional 
ocean planning. Areas where human activity is concentrated should be 
prioritized.
2.  Mr. Cousteau, if we were to pursue the ocean investment fund 
        concept, would the revenue be generated from just oil revenue 
        or renewable energy revenue as well?
    The Fund could be established and credited with a small percentage 
of existing oil and gas revenue that is collected by MMS and deposited 
into the Treasury. A portion of revenue from any new development of oil 
and gas production facilities in the OCS should also go toward this 
fund, but it should be structured so that it does not provide an 
incentive for such development.
    If such facilities are paying fees, a percentage of funds from 
leasing fees and/or a portion of revenue from renewable energy projects 
such as wind and/or hydrokinetic energy generation facilities should 
also be collected for the Fund since these facilities will impact the 
OCS ecosystem and will need to be properly sited. However, whether 
these facilities are paying substantial fees in the short term is a 
question related to our larger energy strategy, which ought to include 
encouraging renewable energy sources.
    In addition, consideration should be given to other offshore 
business ventures such as aquaculture facilities, transatlantic cables 
and other fixed-structure ocean activities being subjected to fees, of 
which a portion could be collected and deposited into the Fund.
3.  Mr. Cousteau, you mentioned on a number of occasions that we don't 
        know enough about the oceans, and that more scientific studies 
        are needed. Could you elaborate on what types of studies, and 
        where, you would like to see take place on the U.S. Outer 
        Continental Shelf?
    The first step would be to compile existing data and make it 
available in a spatially explicit form wherever possible. There should 
be a common framework for information such as a multipurpose marine 
cadastre, which could be an expansion of the cadastre currently being 
used by MMS. The data needs for a particular area will be a function of 
what data is available and what data gaps exist.
    Data on the geophysical and biological characteristics of an area 
as well as data on current and future human activities must be 
collected, as they are intertwined.
    Currently the greatest demand on the OCS is for the development of 
energy resources, and some have argued for seismic studies to determine 
as precisely as possible the location, extent and types of hydrocarbon 
resources that may exist. However, with respect to more preferable 
renewable energy development, studies are needed to assess the 
locations of potentially exploitable wind, wave and tidal energy. For 
example, wind speed, water depth, distance from shore (to determine 
visual impact), bottom type (to determine if piles can be driven) are 
some of the physical variables that need to be understood to site a 
wind facility. These studies will allow predictions of where additional 
exploration and development activities may occur including the 
transport of energy via ships, pipelines or transmission lines to the 
shore.
    Data on other human activities must also be complied in a spatially 
explicit, scientific, and standardized way. In many cases, data exists 
but it is patchy and/or anecdotal. Information is needed on activities 
such as shipping, sand and gravel mining, dredging and dredged material 
disposal, recreational and commercial fishing, recreational boating and 
diving, scientific research, and cultural and historic preservation 
such as shipwrecks and submerged artifacts.
    With respect to marine species, studies are needed to understand 
abundances, distributions and migration patterns. For example, more 
information is needed about endangered marine mammals such as the 
northern right whale and the humpback whale. Sea turtles comprise 
another group that merit further study including migration routes and 
juvenile and foraging habitats.
    In many cases, even basic maps of habitat distributions are 
unavailable. In order to conserve critical habitats and communities we 
need to know where they are. The submarine canyons and shelf edges are 
structurally complex and support diverse benthic and pelagic 
communities. Deepwater corals and golden tilefish (that construct 
extensive burrows that drive ecological processes) are examples of 
species that must be mapped in order to inform decisions about 
development of OCS resources.
    In terms of where these studies should take place, with finite 
resources it might be expedient to focus the effort on the OCS within 
25 miles, and locations where leases for oil and gas activity are being 
considered for areas between 25 and 200 miles. Human activities are 
currently concentrated within 25 miles of shore. At least for the near 
term this is also where development of renewable energy projects are 
expected based on transmission limitations. Some proposed oil and gas 
leases are extensive but if development of an area is a possibility, it 
should be adequately studied.
    Finally, the science of ``ecosystem services'' (the delivery of 
benefits from natural ecosystems to humans) needs to be advanced 
rapidly. It is impossible to evaluate the benefit of a project that 
provides economic benefit against the environmental impacts without 
understanding the economic value of the ecosystem itself.
4.  Mr. Cousteau, you talked about the need to initiate marine spatial 
        planning to avoid the ``suburban sprawl'' of the oceans, but 
        won't this type of national marine planning take many years to 
        implement? Is it worth starting such a protracted national 
        process now, when the industrialization of our oceans is 
        already upon us?
    It's never too late to start planning for, and managing 
development, whether on land or in the ocean. The alternative is a 
continuation of poorly planned uses contributing to the degradation of 
marine resources.
    With adequate funding, marine spatial planning can be accomplished 
relatively quickly. In Massachusetts the Oceans Act was signed into law 
May 28th, 2008, the draft plan is due June 2009, and the entire plan 
must to be completed and promulgated by December 31st 2009. Rhode 
Island is developing a marine spatial plan within a similar 18-month 
time frame. Proper planning is expected to actually expedite the siting 
of projects such as renewable energy facilities by increasing the 
certainty of permitting outcomes. It might be possible to provide 
funding first to those states and regions that have the most pressing 
needs based on pending permit applications for offshore projects.
    Industrialization of our oceans may be upon us, but it is expected 
to accelerate in the near future. Existing uses, especially those that 
include fixed structures, have been permitted without comprehensive 
planning. However, that is no reason to allow all future uses to be 
sited without a plan. Some states may choose to hold permit 
applications for projects in state waters until a plan is complete. 
This is the approach that Rhode Island has taken but federal 
legislation should not mandate this approach for either state or 
federal waters.
5.  Mr. Cousteau, you mentioned the need for more consideration to be 
        given to siting issues in the leasing process. Do you think the 
        current MMS and NEPA processes provide sufficient safeguards to 
        ecosystem health? Do you think they look comprehensively at all 
        marine activities and their cumulative impacts on the oceans?
    The current MMS siting process does not take a comprehensive look 
at all marine activities. The process focuses on oil and gas 
exploration and development and evaluating the impacts of those 
activities on the marine environment. It does not consider how oil and 
gas development might preclude other ocean uses, and the process was 
not designed to accommodate renewable energy siting. Furthermore, when 
determining the long-term economic value of fossil fuel development 
there is no consideration given to whether a renewable energy project 
in the same area would have comparable economic returns with fewer 
environmental impacts. The value of ecosystem services is also not 
considered.
    Among the criteria examined for siting are key geographic and 
geological features of these regions. But, MMS does not examine whether 
these regional features might be better suited to a different use. 
Given the increased competition for ocean spaces, it is imperative that 
we manage ocean energy uses in concert with all other economic 
development uses and conservation. The MMS process is insufficient to 
address this need. Marine Spatial Planning is needed to ensure that 
each use is sited in an environmentally appropriate manner, and that 
ocean space is used efficiently.
    The NEPA process was designed to evaluate the impacts of a 
particular project and does not consider the cumulative impacts of 
multiple projects, nor does it require specific actions to be taken to 
mitigate environmental harm. It is entirely reactionary--driven solely 
by competing uses that apply for permits. A developer proposes a 
location usually based on a dearth of knowledge as opposed to knowing 
what locations might be appropriate for the project based on an 
understanding of the ecosystem including current and future human uses. 
The NEPA process also does not have the capacity to consider any future 
ecosystem changes such as shifts due to climate change.
    Putting an ocean plan in place does not eliminate the need for the 
NEPA process or intrude on the authority of MMS or any other agency for 
siting projects. A full NEPA process that evaluates environmental 
impacts would still need to be done. However, many of the environmental 
variables, for example the locations of sensitive habitats, would have 
already been identified during the planning process. Ocean planning is 
intended to streamline the NEPA process.
6.  Mr. Cousteau, some points were made in the hearing about the number 
        of environmental reviews that must occur before oil and gas 
        production can begin on the OCS. Does that seemingly intensive 
        review process give us the information that we need to make 
        informed decisions about where to make new drilling decisions?
    There is no doubt that the MMS process is both time consuming and 
intensive, but that alone does not lead to sound decision-making. The 
MMS process starts with proposing specific planning areas, then after a 
period of comment the agency issues a final proposed program along with 
a draft EIS for that program. The process hinges on the initial 
planning areas that are proposed. If those are not evaluated correctly, 
it does not matter how thorough the EIS is. When MMS decides which 
sites to initially propose they look at eight key factors ranging from 
energy interests to environmental and predictive information for the 
area. The decision on where to locate leases in the OCS is made by 
balancing those eight factors and MMS uses a comparative analysis to 
evaluate potential sites. The problem is that key data is not included 
or not factored into the comparative analysis.
    For example when evaluating potential environmental costs of 
offshore drilling they do not calculate the costs from catastrophic 
events or impacts on unique resources such as endangered species--both 
of which are two of the primary concerns with offshore drilling. Even 
when they assess the risk of incidental oil spills, they present an 
incomplete estimate. When MMS assesses the risk of incidental oil 
spills they evaluate shoreline sensitivity. Shorelines are ranked 
according to their sensitivity to oiling, the natural persistence of 
oil, and the ease of clean up. It is important to note biological 
productivity and sensitivity only applies to the physical shoreline and 
not biological habitats that are on or adjacent to the shoreline. What 
is not included is whether or not a wetland shoreline serves as a 
habitat for endangered birds, or whether a beach is a haul out site for 
endangered seals.
    The comparative analysis is only used to rank the planning areas; 
the final decision is still at the discretion of the Secretary. Several 
court cases have elaborated on the Secretary's role in decision-making 
stating, ``The environmental and coastal zone considerations are 
undoubtedly important, but the act does not require they receive a 
weight equal to that of potential oil and gas discovery.'' <SUP>1</SUP> 
No part of the OCSLA requires MMS to give equal weight to environmental 
impacts.
---------------------------------------------------------------------------
    \1\ California I, 668 F.2d, p.1317.
---------------------------------------------------------------------------
7.  Mr. Cousteau, if, as was cited during the hearing, there are dozens 
        of law overseeing our oceans and protecting the natural 
        resources of the outer continental shelf, why do we need a new 
        planning process? Aren't the current laws sufficient?
    There are many laws that were designed to protect the natural 
resources of the outer continental shelf and a myriad of agencies that 
implement them. That is part of the problem. Authorities are fractured 
and there is no coordination of the various efforts. Each agency has 
responsibility for a particular sector or issue but there is no 
overarching plan that connects them nor is there a common vision or a 
set of goals. The underpinning of ocean planning is the coordination of 
existing planning efforts. Upon that is built a spatially explicit, 
comprehensive plan that is based on adequate information.
                                 ______
                                 
    [The response to questions submitted for the record by Ted 
Danson on behalf of Oceana follows:]

      Response to questions submitted for the record by Ted Danson

1.  Mr. Danson, could you elaborate a bit on the difference between 
        natural seeps and man-made spills, and why we should be 
        concerned about the small fraction of the oil in the ocean that 
        comes from manmade spills?
    First, according to the National Research Council, more than half 
the oil released into the world ocean comes from the extraction, 
transportation and consumption of petroleum, so this is not really a 
``small fraction'' as stated in the question.
    Crude oil can seep naturally from beneath the sea floor into the 
marine environment. While these seeps do release oil, the rate of 
release is very slow, and it tends to be in fixed locations, two 
factors which allow the surrounding ecosystems to adapt to the oil in 
their surrounding environment. Many mobile animals such as fish and 
marine mammals are able to avoid these slow releases. Additionally, 
while some species can adapt, others may be unable to do so, even given 
the slow release and the fixed location. \1\ Unlike natural oil seeps, 
however, human caused spills, and even relatively small ones, can cause 
considerable harm in areas that have not adapted to oil. Even animals 
with some degree of prior oil exposure tend to be unable to cope with 
the impacts of a spill which generally will involve more oil than what 
they may have been exposed to naturally. \2\ Most animals, which are 
not naturally exposed to oil seeps, will be even less able to cope, 
including the marine mammals that I described in my written testimony.
---------------------------------------------------------------------------
    \1\ Committee on Oil in the Sea (2003) Oil in the Sea III: Inputs, 
Fates, and Effects, Ocean Studies Board, Marine Board, and 
Transportation Research Board, National Research Council http://
books.nap.edu/catalog/10388.html
    \2\ Luyendyk, B. (2008) Statement on oil seeps and drilling. 
Presented to the Board of Supervisors, Santa Barbara County at the 
August 26 meeting. State and National Energy Crisis--Discussion. http:/
/ www.geol.ucsb.edu/faculty/luyendyk/seeps%20pubs/luyendyk_BOS.pdf
---------------------------------------------------------------------------
    It is important to note that there is very little evidence that oil 
drilling reduces natural seeps. \3\ In fact, we are aware of only one 
study, in one specific location, that has linked oil drilling to a 
reduction in natural seeps. \4\ Even in such a case, reductions in 
natural seep rates may only occur at the early stages of drilling, when 
oil is easily extracted. Beyond this point, as an oil field ages, oil 
recovery becomes more difficult and more advanced technology and 
drilling techniques are required. Importantly, these more advanced 
techniques may in fact, increase the likelihood of seepage, rather than 
decreasing it. \5\ Therefore, the suggestion that drilling reduces 
seeps requires much more evidence to back it up.
---------------------------------------------------------------------------
    \3\ Luyendyk, B. (2008) Statement on oil seeps and drilling. 
Presented to the Board of Supervisors, Santa Barbara County at the 
August 26 meeting. State and National Energy Crisis--Discussion. http:/
/ www.geol.ucsb.edu/faculty/luyendyk/seeps%20pubs/luyendyk_BOS.pdf
    \4\ Quigley, D. et al. (1999) Decrease in natural marine carbon 
seepage near Coal Oil Point, California, associated with offshore 
production. Geology, 27(11):1047-1050
    \5\ Luyendyk, B. (2008) Statement on oil seeps and drilling. 
Presented to the Board of Supervisors, Santa Barbara County at the 
August 26 meeting. State and National Energy Crisis--Discussion. http:/
/ www.geol.ucsb.edu/faculty/luyendyk/seeps%20pubs/luyendyk_BOS.pdf
---------------------------------------------------------------------------
    The bottom line is this: natural oil seeps are largely out of our 
control. However, the impacts from unnecessary offshore oil 
exploration, production and transportation are entirely in our control.
2.  Mr. Danson, there was a comment made in the hearing about the 
        percentage of a barrel of oil that goes to fuel and the 
        percentage that goes to plastics and other materials. Could you 
        provide the exact data on the breakdown of products that are 
        derived from a barrel of oil?
    First, we must recognize that while oil provides resources, it has 
become more obvious that we must move away from a carbon-based society. 
The costs associated with drilling and producing petroleum products are 
increasing as our climate warms. These costs are even more dramatic 
with regard to offshore oil production.
    According to the U.S. Energy Information Agency, a 42-U.S. gallon 
barrel of crude oil provides slightly more than 44 gallons of petroleum 
products. This is largely made up of finished motor oil, diesel fuel, 
propane and other energy producing fuels. Other products that can be 
made from components of oil include, according to EIA, things like ink, 
dishwashing soap, deodorant, tires, and even heart valves. \6\ EIA 
reports that about 16% of a barrel goes to these ``other'' uses though 
it is unclear whether that includes only non-energy-related purposes.
---------------------------------------------------------------------------
    \6\ Energy Information Agency, Energy Kids Page (2009) http://
www.eia.doe.gov/kids/energyfacts/sources/non-renewable/oil.html#Howused
---------------------------------------------------------------------------
    It is important to keep in mind, however, that none of these 
products requires drilling on the Outer Continental Shelf, and each can 
and will continue to be produced regardless of whether the OCS is 
opened to additional drilling. The OCS provides such a small fraction 
of our oil needs, its use is irrelevant to the manufacture of the above 
products. In fact, our ability to continue to use oil to make these 
products in the future is furthered by implementing the shift away from 
oil use as fuel, and towards alternatives, as I recommended in my 
testimony. Finally, it is important to keep in mind that many of the 
products that are made with petroleum components can be made using 
alternative materials.
3.  Mr. Danson, following up on a line of questioning from the hearing, 
        could you describe the differing environmental impacts between 
        a properly sited wind tower and a properly sited oil rig? 
        During the hearing, it sounded as if you and Mr. Cousteau were 
        saying that the environmental impact of the rig itself is no 
        different than the impact of the tower.
    There are tremendous differences between offshore oil production 
and offshore wind production. The impacts of oil rigs are numerous, 
beginning with siting the rig, the oil production process, the 
transportation of the product, and ultimately the use of the product 
itself. I discussed each of these steps in my written testimony, 
including the impacts associated with each of them, for the record. 
Wind turbines, on the other hand, do not require the same siting 
process; they produce only minimal impacts and present no risk of oil 
spills.
    While it may appear that the physical infrastructure is the same, 
there is a big difference between building a structure that drills into 
the earth's crust, injecting and extracting materials through it 
constantly, and one that is anchored to the ocean floor, harnessing the 
wind that passes above it.
    In addition, there are a variety of factors associated with oil 
drilling that present risks to marine life and coastal economies. 
Accidents, for example, inevitably accompany all stages of offshore 
production. The most typical causes of accidents include equipment 
failure, personnel mistakes, and extreme natural impacts from seismic 
activity, ice movements, hurricanes, and so on. Besides accidents, 
offshore oil and gas activities create a myriad of other threats to 
marine life including routine spills, and disposal of wastes such as 
drilling muds and produced water, and noise pollution.
    Furthermore, daily offshore drilling operations create a variety of 
pollutants that affect marine and other wildlife. Offshore rigs can 
dump tons of drilling fluids, metal cuttings, including toxic metals 
(lead, chromium and mercury) and carcinogens (such as benzene, xylene 
and toluene and especially polycyclic aromatic hydrocarbons) into the 
ocean. Drilling muds are used to lubricate and cool the drill bit and 
pipe. One drilling platform normally drills between seventy and one-
hundred wells and discharges more than 90,000 metric tons of drilling 
fluids and metal cuttings into the ocean. Some studies suggest that 
drilling-related chemicals can stunt fish growth and affect breeding 
patterns.
    Wind, on the other hand, creates little if any pollution 
surrounding the site. While some concerns exist with the impact of wind 
turbines on wildlife, we believe these concerns can be alleviated 
through a proper environmental review process prior to siting. However, 
the overall suggestion that a rig is the same as a wind farm is a ``red 
herring'' designed to distract attention from the myriad of risks 
clearly and indisputably associated with offshore oil and gas drilling 
and production.
4.  Mr. Danson, in your opinion, how would you like to see Congress 
        moving forward to address ocean acidification?
    First of all, it is crucial to recognize that the only way to avert 
ocean acidification is to stabilize and ideally reduce the amount of 
carbon dioxide in the atmosphere. No other plausible technological 
fixes exist. The most important thing that we can do now is to cap and 
reduce carbon dioxide emissions in our atmosphere.
    Preventing the expansion of offshore oil and gas drilling on the 
Outer Continental Shelf is a first step. We also need to stop ongoing 
activities in the Arctic until we develop a comprehensive conservation 
and clean energy plan as I described in my testimony and as I discuss 
further below.
    We must shift toward a future in which we rely upon affordable, 
carbon-free, renewable energy; a future in which our oceans and the 
environment are healthy. Part of this effort must include an emphasis 
on development of carbon-free technologies such as wind and solar and 
improved energy efficiency.
    To make this shift, we will need to strengthen the infrastructure 
for energy alternatives such as solar and wind. We also need to 
increase the efficiency of cars, trucks, trains, planes and ships, as 
well as homes, office buildings and industrial processes, while cutting 
down on deforestation and promoting reforestation efforts to help 
``draw down'' carbon dioxide levels in the atmosphere.
    As I stated in my written testimony, there are many conservation 
measures that could be put in place immediately to reduce our energy 
needs and that will help us lower the demand that needs to be filled by 
renewables. The United States Department of Energy has projected that 
we can generate 20% of our electricity demand from renewables by 2030. 
Offshore wind could provide 20% of this amount. This effort has 
started, as the United States added enough wind power in 2007 alone to 
provide electricity to more than a million homes.
    As you can see clearly from my testimony and from my answers to 
these questions, Oceana is not opposed to harnessing energy from the 
oceans. We must do so based on sound science and a thorough assessment 
of the ecosystem, risks, and benefits. At this point, an objective 
assessment of the comparative risks and benefits of oil and wind 
clearly demonstrates that wind can better help us solve climate change 
with minimal impacts to marine resources. In shifting to clean, 
renewable energy, we are reducing our reliance on carbon dioxide 
emitting energy sources that put our oceans at risk from climate change 
and ocean acidification.
5.  Mr. Danson, in your testimony you mentioned the need for the 
        development of a comprehensive conservation and energy plan for 
        the Arctic. Could you elaborate on the unique characteristics 
        of the Arctic that you believe would necessitate such a plan? 
        And also, who do you think should be in charge of putting 
        together such a plan?
    The Arctic is home to vibrant communities of indigenous peoples and 
provides vital habitat for some of the world's most iconic wildlife 
species. The region is warming at approximately twice the rate of the 
rest of the planet, and the resulting changes--particularly the loss of 
sea ice--have created the potential for rapid industrialization. 
Science-based, precautionary management should be implemented through 
an interagency task force charged with developing an Arctic 
conservation and energy plan.
    Tens of thousands of people inhabit the Arctic region of the United 
States, which is entirely in Alaska. The majority of these residents 
consider themselves to be Alaska Natives and, though organized into 
towns and villages like elsewhere in the country, inhabitants of the 
far north lead a much different life. For many Arctic residents, 
culture is dependent on subsistence harvesting, sharing of food, travel 
on snow and ice, traditional knowledge, and adaptation to Arctic 
conditions.
    In addition to the vibrant communities that have adapted to the top 
of the world, the Arctic also supports some of the last remaining 
relatively pristine terrestrial and marine ecosystems. The Arctic Ocean 
provides important habitat for 23 species of marine mammals, including 
polar bears; bowhead, beluga, and gray whales; narwhal; walruses; and 
bearded, ringed, and ribbon seals; 100 species of fish including Arctic 
cod, capelin, and herring; and more than 50 species of seabirds, 
including spectacled Eiders, Arctic terns, and Ivory Gulls.
    In addition, the Arctic plays an important role in regulating our 
climate. The long periods of little to no sunlight and high 
reflectivity of snow and ice during periods of sunlight result in a net 
loss of heat. These factors help drive the circulation of the Earth's 
atmosphere and ocean currents which transport heat from the tropics to 
the poles where it is released from the planet. Thus, the health of the 
Arctic is important to the Earth's atmospheric and oceanic circulation 
patterns, which affects climate, weather, and natural systems 
worldwide.
    The changes to the Arctic are occurring in an area that is not well 
understood by scientists. According to the U.S. Arctic Research 
Commission Report on Goals and Objectives for Arctic Research, the 
Arctic is ``the least studied and most poorly understood area on 
Earth,'' and, in particular, the Arctic Ocean is the least understood 
of all the world's oceans. Scattered efforts are underway to gather 
data on Arctic Ocean ecosystems, but no comprehensive, reliable 
database of this and other relevant information exists to inform 
federal policies and agency actions with regard to the American Arctic.
    Further, the reduction in Arctic sea ice over the last few years 
also is opening the Arctic Ocean to the possibility of unprecedented 
industrialization. The expansion of high-risk activities such as large-
scale commercial fishing, shipping, and oil and gas exploration and 
development would add additional pressures to the already-stressed 
communities, animals, and ecosystems of the far north. Of particular 
concern is the 70 million acres opened for drilling in the Beaufort and 
Chukchi seas in the current 5-year OCS leasing plan (2007-2012). 
Leasing has occurred, and there is ongoing seismic exploration in many 
of these areas.
    These leasing decisions were made despite an acknowledged, 
substantial risk of a major oil spill and the direct recognition that 
there is no proven technology to clean up such a spill in icy Arctic 
conditions. The same environmental conditions that contribute to oil 
spill risks in the Arctic--lack of natural light, extreme cold, moving 
ice floes, high winds and low visibility--can make spill response 
operations extremely difficult or totally ineffective.
    Current drilling activities must stop until a comprehensive, 
science-based, precautionary approach to any industrial activity is 
developed. The federal government must design a comprehensive Arctic 
conservation and energy plan based on a full scientific assessment of 
the health, biodiversity, and functioning of Arctic ecosystems to guide 
decisions about whether, when, where, and how industrial activities are 
permitted. Creating a comprehensive plan would begin with a gap 
analysis and research plan developed by independent scientists, such as 
the National Research Council. Further, the plan could be created in 
conjunction with broader climate and energy plans for America.
    An interagency task force comprised of federal agencies regulating 
activities in Arctic and those with expertise in the region should 
oversee the creation and implementation of an Arctic conservation and 
energy plan and could be headed by a new position in CEQ or by the NOAA 
Administrator. In addition to federal agencies, creation of an Arctic 
conservation and energy plan will require participation from local 
governments, Native tribes, and other local entities.
                                 ______
                                 
    [The response to questions submitted for the record by W.F. 
``Zeke'' Grader follows:]

                        PACIFIC COAST FEDERATION

                      OF FISHERMEN'S ASSOCIATIONS

                             14 March 2009

The Honorable Nick J. Rahall II
Chairman
House Natural Resources Committee
Washington, DC 20515

RE:  Response to Questions for Testimony Presented 11 February 2009--
``Offshore Drilling: Environmental and Commercial Perspectives?''

Dear Chairman Rahall:

    The following are my responses to written questions sent me in your 
2 March 2009 letter:
    1. The precautionary zones our members in the Santa Barbara Channel 
are subject to are 1,000 feet in diameter around each platform. Those 
zones were imposed following the attacks of 11 September 2001. They 
appear to be fairly well enforced for commercial fishing craft, but 
perhaps less so for smaller recreational fishing vessels. Prior to 9/11 
there were precautionary zones placed around rigs in the North Sea and 
at times off Santa Barbara. These are the ones I am aware of and that 
were reported to me. For trawlers operating around rigs in deeper 
waters such as the Santa Barbara Channel and the North Sea there have 
been de facto closed areas to fishing around the rigs due to cables and 
anchor extending out from the platforms that can snag or destroy 
fishing gear.
    2. Pipelines create a problem for fishing gear, including trawls, 
troll lines and traps, where the pipelines are not covered over and 
create snags - for gear either being towed through the water near the 
bottom or gear is being dropped to the bottom (e.g., traps). I have not 
had reported to me any instance where fishing gear encountering a 
pipeline has caused a leak, but it is reasonable to expect that as 
pipelines age they will be more vulnerable to leaks, particularly if 
hit by a hard, heavy piece of fishing gear such as the weighted metal 
door used to keep a trawl net open. Conflicts between fishing gear and 
pipelines can be kept to a minimum as long as the pipelines are 
adequately buried or, if not buried, as long as they have smooth 
surfaces and no protrusions that may snag fishing gear.
    3. Yes, there are three reasons why we do not believe offshore oil 
platforms should be converted to offshore aquaculture facilities.
    First, there are the lease agreements requiring platforms to be 
removed at the end of their useful life in oil and gas production. This 
was the legal condition on the leases and from a fishing industry 
perspective we expect them to be removed, the seabed cleaned-up and the 
area returned as it was so it may again be used, among other things, as 
fishing grounds. As far as we're concerned the oil industry has a legal 
obligation to remove those platforms and we expect nothing less.
    Second, offshore aquaculture is highly problematic (excepting 
perhaps certain types of mollusks) from the standpoint of feed (i.e., 
demand on wild fish for feed, conversion ratios of feed to edible 
protein), pollution, spread of disease/parasites, and escapes. The 
thrust for aquaculture development at this time should focus on 
completely-contained, land-based facilities utilizing non-carnivorous 
species as stocks for such operations.
    Third, the water quality around oil and gas platforms may not be 
suitable for raising edible fish/shellfish products, where there are 
increased hydrocarbon levels in the water column or seafloor sediment 
around a platform or increased levels of heavy metal toxicity. The 
whole point of eating seafood is that it is supposed to be healthy--
good for you, not kill you.
    4. Yes, we know there will be spatial conflicts with other types of 
offshore development, including renewable energy generation, such as 
wind and wave. We are generally supportive of renewable energy 
development (e.g., as replacement power to help facilitate removal of 
salmon-killing hydro electric dams), particularly since it is non-
carbon based and does not contribute to green house gas emissions 
which, in turn, make the oceans more acidic. Currently we are having to 
deal with a number of wave energy proposals along the west coast--
mostly from San Francisco north to the Canadian Border--that would 
either displace fleets from traditional fishing grounds and/or create 
navigation hazards. We have called for a better mechanism than the 
current conflicting authorities between FERC and the Minerals 
Management Service for siting offshore energy development to minimize 
conflicts with fishing and other maritime activities.
    Thank you again for the opportunity to testify. If there are any 
further questions, please do not hesitate to contact me.

                               Sincerely,

                             W.F. ``Zeke'' Grader, Jr.

                               Executive Director

                                 ______
                                 
    [The response to questions submitted for the record by 
Carolyn McCormick follows:]

March 10, 2009

The Honorable Nick J. Rahall, II, Chairman
Committee on Natural Resources
1324 Longworth House Office Building
Washington, D.C. 20515

Dear Chairman Rahall and U.S. Congressional Members, Committee on 
Natural Resources:

    Once again, I would like to personally thank each of you for the 
opportunity and your time to discuss our nation's future energy needs 
and pleased the Committee on Natural Resources has recognized that 
tourism based economies are part of the discourse and will be part of 
finding solutions to our energy needs.
    I have addressed your three (3) questions as succinctly as possible 
and would welcome the opportunity to elaborate if needed.
1.  ``I've heard the term, sustainable tourism used in the past and 
        wonder if you could elaborate on what exactly this means?''
    The classic definition of sustainable tourism is: ``...sustainable 
tourism is achieving quality growth in a manner that does not deplete 
the natural and built environment and preserves the culture, history, 
and heritage of the local community.'' (Managing Sustainable Tourism: A 
Legacy for the Future by David L. Edgell, Sr., PhD, page 4). Further: 
``Managing sustainable tourism...depends on forward-looking policies 
and sound management philosophies, including a harmonious relationship 
between local communities, the private sector, and governments in 
developmental practices that protect natural, built, and cultural 
environments in a way compatible with economic growth'' (Ibid, page 4).
    ``It means handling tourism in such a way that the place is not 
degraded, so that future generations can also enjoy it--historically, 
culturally, environmentally, and visually.'' Jonathan B. Tourtellot, 
Director, Center for Sustainable Destinations, National Geographic 
Society; and Geotourism Editor, National Geographic Traveler
2.  ``And you could also give concrete examples of things being done in 
        your community to address these issues.''
    <bullet>  GOSPL--Green Open Space Preservation of Land grant 
program created in 2000 by the Dare County Tourism Board, a public 
Authority. The Dare County Tourism Board recognizes the natural 
resources that have attracted citizens and visitors to Dare County and 
the physical beauty of our coastal environment is Dare County's 
greatest asset. The GOSPL program is available to all Governmental 
Municipalities in Dare County as well as the County of Dare.
    Written proposals are required and must demonstrate applying 
organizations' ability to meet the GOSPL criteria., and N.C.G.S. 121-34 
et seq., the Uniform Conservation and Historic Preservation Agreements 
Act (hereinafter ``the Act'') provides that public bodies of the State, 
including subdivisions thereof such as the Dare County Tourism Board 
may enter into preservation and conservation agreements; and whereas, 
N.C. House Bill 225, Section 7, provides that the Dare County Tourism 
Board may expend funds on services or programs subject to certain 
limitations; and whereas, governmental partnerships to preserve and 
protect land is in the best interest of the entire community directly 
benefiting citizens and visitors for generations to come. Adopted the 
21st Day of September 2000.
    The Dare County Tourism Board is proud to have recently purchased 
nineteen (19) acres of land in critical mass areas that have been 
placed with conservation deeds.
    <bullet>  The (Short Term) Restricted Fund Grant is designed to 
help Dare County based Municipalities and nonprofit organizations with 
projects such as highway beautification, beach and sound accesses, or 
hike/bike walk trails. Grants are disbursed on a 50/50-match basis.
    Since 1994 the Dare County Tourism Board, doing business as the 
Outer Banks Visitors Bureau, funded fifty (50) public and sound beach 
accesses and multi-use paths. These projects were funded in order to 
increase non-motorized mobility and encouraging park and walk, bike 
ride run, skate and free and open access to America's beaches.
    In addition to the above adaptation and mitigation concrete 
projects that in fact minimize carbon emissions, the State of North 
Carolina is currently working on an adjustment to coastal development 
due to the ever changing nature of these barrier islands and sea level 
rise.
    <bullet>  The State of North Carolina Coastal Resource Commission 
(CRC) has set forth new set back rules for building along the coast and 
although these rules have not been approved by the NC legislature there 
are ardent steps being taken to protect property, the economy and the 
environment.
Current rules:
    Residential buildings: 30 times erosion rate setback or if greater 
than 5000 sq ft then 60 times erosion rate or minimum of 120ft.
    Commercial structures: 60 times erosion rate.
    Buildings less than 5000 sq ft: 30 times erosion rate is rate less 
than 3.5 ft/yr but if greater than 3.5ft/yr then 30 times rate plus 105 
ft.
Proposed rules adopted by CRC and in public hearing stage:
    Building size: less than 5000 sq ft 60 feet or 30 times erosion 
rate whichever is larger.
    Greater than 5000 but less than 10,000 sq ft: 120 feet or 60 times 
erosion rate whichever is larger.
    Greater than 10,000 but less than 20,000 sq ft: 130 feet or 65 
times erosion rate whichever is larger.
    Greater than 20,000 but less than 40,000 sq ft: 140 feet or 70 
times erosion rate whichever is larger.
    Greater than 40,000 but less than 60,000 sq ft: 150 feet or 75 
times erosion rate whichever is larger.
    Greater than 60,000 but less than 80,000 sq ft: 160 feet or 80 
times erosion rate whichever is larger.
    Greater than 80,000 but less than 100,000 sq ft: 170 feet or 85 
times erosion rate whichever is larger.
    Greater than 100,000: 180 feet or 90 times erosion rate whichever 
is larger.
    Other projects that the County and several towns have spent 
millions of dollars, years and countless hours; concrete projects 
needed but have not been funded due to lack of federal funding and 
limited local funds are:
    <bullet>  Beach re-nourishment. - Currently there is a 1% occupancy 
tax in place to build this fund and the project is on the Army Corps of 
Engineers list.
    <bullet>  Public Transportation system. Task force met for four 
years and disbanded in late 2008 due to lack of funding.
3.  ``And explain how that relates to this issue of energy 
        development.''
    Energy that contributes to global warming and sea-level rise pose 
an obvious long-term threat to any barrier island destination, not to 
mention the still-undetermined risk from changes in storm patterns, as 
well as risk to portions of the marine food chain that are dependent on 
back-bay wetlands and supply the area's seafood. Pollution risk is an 
obvious hazard. Visually, industrial-style activity close within 
eyeshot and land based infrastructure for refineries would have an 
obvious negative impact on the desirability of the locale for a 
vacation.
    Dare County and the Towns of Duck, Southern Shores, Kill Devil 
Hills, Kitty Hawk, Nags Head and Manteo, along with the State of North 
Carolina, are working together to revise wind generated energy 
opportunities along the coast and also in preliminary discussions on 
hydro technology.
    Energy development is critical to the mobility of humans and 
diversification and innovation should remain the driving force to find 
alternative ways to keep American's working and traveling while 
understanding the perils barrier islands face as we dance with Mother 
Nature.
    As always, I remain,

With best regards,

Carolyn E. McCormick
Enclosures (5)

cc: Dare County Tourism Board
                                 ______
                                 
              CLIMATE CHANGE AND TOURISM: THE CASE FOR THE
              COASTLINE OF THE OUTER BANKS, NORTH CAROLINA

 David L. Edgell, Sr., PhD, Department of Hospitality and Management, 
                                  East

                          Carolina University

 Carolyn E. McCormick, Managing Director, Outer Banks Visitors Bureau,

                             North Carolina

Introduction
    The tourism industry generates trillions of dollars in income and 
provides memorable experiences to individuals and families worldwide. 
Tourism brings people outdoors and so is heavily dependent on changing 
climates and ecologies. Coastal areas are amongst the world's most 
important tourism destinations and are especially vulnerable to climate 
change. This paper discusses planning, public perception, climate 
change and tourism on the Outer Banks of North Carolina.
    Tourism creates jobs, adds to income, spurs economic development, 
promotes economic diversification, introduces additional products, 
spawns new businesses, increases tax revenue, and contributes to 
economic integration. Global tourism, a U.S. $7.1 trillion industry, is 
a large fast growing industry that employs more than 232 million 
people. The U.S. tourism industry is one of America's major retail 
industries with $700 billion in total expenditures, employing 7.5 
million people. In North Carolina tourism is a $15.4 billion industry 
with employment at 184,000, and North Carolina's Outer Banks accounts 
for expenditures of $705 million and 15,000 jobs.
    The tourism industry has identified climate change as key to future 
strategic planning. United Nations World Tourism Organization's 
Secretary General, Francesco Frangialli, addressing climate change 
said: ``We (tourism industry) are part of the problem (global warming) 
and we will be part of the solution''. Social scientists recognize the 
need to create innovative responses to projected impacts of climate 
change on tourism. Climate change presents a special challenge to the 
Atlantic Ocean coastline of the Outer Banks of North Carolina. 
Stakeholders along this dynamic chain of barrier islands are planning 
strategies now to mitigate future negative climate change impact. The 
beautiful environmental coastline is a major reason why five million 
visitors from more than 50 countries visit the Outer Banks each year.
Impact
    The tourism industry consists of an integrated set of private 
businesses, private-public partnerships, and public agencies. Tourism 
and travel are nearly synonymous and many of its key businesses are 
highly dependent on fossil fuels; which emit large amounts of 
greenhouse gases (GHGs). Forecasted growth in tourism suggests that 
these emissions are likely to increase. These interactions between 
climate change and tourism have to date not been examined on a large 
scale (Viner and Becken, 2003).
    Researchers from four North Carolina universities collaborated on a 
scientific study entitled ``Measuring the Impacts of Climate Change on 
North Carolina Coastal Resources.'' The scientists considered the 
impacts of sea-level rise on coastal recreation and tourism. Their 
study, using 2004 data, measured the impact of climate change on 
``beach recreation and tourism'' in four southern North Carolina 
counties (Carteret, Onslow-Pender, New Hanover, Brunswick; excluding 
the high density tourism counties of Dare and Currituck) and on marine 
recreational fishing (along the entire North Carolina coastline). This 
study estimated, in 2004 dollars, that the value lost to local beach 
goers would be $93 million a year by 2030 and $223 million a year by 
2080 and for local anglers, $15 million a year by 2030 and $17 million 
a year by 2080 (Bin et al, 2007).
    In a February, 2007, interview, Dr. Stanley Riggs, a geology 
professor at East Carolina University, stated that ``The Outer Banks is 
one of the most important coastal systems in the world, there is no 
other place like this one'' (Bragunier 2007). Dr. Riggs pointed out 
that climate change along the coast has been taking place for thousands 
of years but it is only recently that we have good geologic records of 
such changes. He presented diagrams showing substantial loss of 
shoreline from the years 1962-2005 on the Outer Banks. He concluded his 
presentation with the following remarks: ``There is a lot of human 
modification to the Outer Banks without understanding the dynamics of 
the system...Conflict of natural dynamics and human dynamics and they 
are on a collision course. We have to start to understand the natural 
dynamics and work with them, work in partnership with nature.''
    The research reviewed and developed for this paper suggests that 
much of the tourism industry does not understand the present and future 
impact of climate change on tourism. ``Tourism administrators must 
undertake a paradigm shift away from overuse of natural resources 
toward environmental stewardship...Additionally, as global warming 
comes to the forefront in environmental concerns, tourism managers will 
need to stay attuned to forecast changes...Individual regions need to 
address their potential climate changes and the effects on 
international inbound travel.'' (Edgell, et al, 2008, p. 351).
The Changing Coastline
    The authors of this study (Edgell and McCormick) made an aerial 
reconnaissance to review and better understand the dynamics of coastal 
changes. We noted damages to tourism related facilities that had taken 
place in the recent past due to beach erosion, storms, and hurricanes. 
From this aerial view, there was no visual evidence of transformations 
resulting from climate change.
    The authors met with Research Hydraulic Engineer Bill Birkemeier at 
the Field Research Facility, U.S. Army Corps of Engineers, Engineer 
Research and Development Center for Dare County's Outer Banks. This 
facility, considered the finest such center in the U.S., measures the 
level of the coastal waters and climate change. According to Mr. 
Birkemeier, ``over the past twenty years there has been a slight rise 
in both sea temperatures and sea levels due to climate change. Because 
the Outer Banks are dynamic and ever changing, and since sea-level rise 
is at present small and gradual, relative to twice-daily tidal 
variation and surges caused by frequent storms, it is difficult to 
determine what changes on the coastline are due directly to sea-level 
rise. A more immediate concern would be whether climate change may 
increase the number or severity of storms on the coast as storms have a 
major impact on coastlines''.
    Dr. Nancy White, Director, University of North Carolina Coastal 
Studies Institute has been studying water quality and coastal 
sustainability. Tourism, which is water-dependent and an important 
coastal industry, is of concern to the Institute. Dr. White suggests 
that ``currently there is not enough research or evidence to suggest 
that climate change is impacting tourism in a negative way in the Outer 
Banks''. In an interview with Dr. Patrick Long, Director, North 
Carolina Center for Sustainable Tourism, and a researcher on climate 
change and tourism, he stated that ``We need to further our knowledge 
about climate trends and projections, the impacts of variability and 
seasonality on federal, state, local, and private sector tourism 
communities, and the development of strategies to adapt to and mitigate 
effects of climate change''.
    While it is not clear whether Outer Banks tourism is being impacted 
by climate change, the issue has generated serious discussion and some 
concern amongst private business interests, government agencies and the 
public. Carolyn McCormick, in an article in The Island Breeze, and 
Outer Banks newspapers, said: ``Before the concerns about climate 
change and the effort by some to make us a symbol for climate change 
became part of the public debate, Outer Banks officials, including 
those of us at the Visitor's Bureau and the members of the Tourism 
Board, worked with state and federal officials and environmental groups 
on climate change discussions and helped to shape policy for coastal 
dwellers and visitors''. A colleague working with Ms McCormick on 
related issues, Dr. Stephen A. Smith stated ``I believe that the 
tourism industry can become a leading voice to help educate visitors 
about the vulnerabilities of the Outer Banks and other important 
natural areas''.
Conclusion
    Few industries are more dependent on climate change than tourism. 
Paradoxically, climate change may not be totally negative to beach 
tourism; certain coastlines may be able to extend their seasons due to 
higher water and air temperatures. Regardless, we must better 
understand the interactions of climate change and tourism and respond 
with responsible plans and policies.
    The Outer Banks is particularly vulnerable to storms, beach erosion 
near homes, and loss of fish habitat (due to erosion and the 
increasingly close link between the land and near shore waters causing 
decreased water quality). These changes affect the quality of the 
environment, the experience of tourists, and, finally, the number of 
visitors. It is clear that a changing climate and rising water levels 
could have a tremendous impact on tourism in the Outer Banks. 
Researchers, businesses, and government agencies in the Outer Banks are 
cooperating and developing ideas to respond to climate change and storm 
severity. Tourism stakeholders need to seek solutions now in order to 
cope with the impact of climate change on tourism in the future.
Recommendations
    With respect to climate change and tourism along the Outer Banks 
coastline., the tourism industry (business and government) should:
    1.  Work with individuals and institutions to improve data 
collection and communication of climate trends /projections to the 
community.
    2.  Help to develop, monitor and test climate change models and 
assess the effect of individual storms over a substantial time period.
    3.  Sponsor open forums of discussion on climate change and tourism 
to seek long-term sustainable solutions.
    4.  Develop strategies to lessen the impact of tourism and travel 
on greenhouse gas emissions.
    5.  Embrace sustainable programs that encourage efficient usages of 
energy and land resources in tourist destinations like the Green Open 
Spaces for People and Life program in Dare County.
    6.  Investigate solutions to the impact of climate change and storm 
severity with respect to long-term erosion of the coastal beaches.
    7.  Improve emergency planning and crisis management with regards 
to the evacuation of coastal areas.
References
Bin, O., C. Dumas, B. Poulter, and J. Whitehead (2007). ``Measuring the 
        Impacts of Climate Change on North Carolina Coastal 
        Resources.'' National Commission on Energy Policy. March 2007. 
        Washington, DC.
Birkemeier, B. (2008). Personal Interview. U.S. Army Corps of 
        Engineers, Engineer Research & Development Center. January 18, 
        2008. Duck, NC.
Bragunier, V. (2007). ``Geologist: Climate Change Will Impact Banks.'' 
        Sentinel, February 27, 2007. Nags Head, NC.
Edgell, Sr., D.L., M.D. Allen, G. Smith, and J. R. Swanson (2008). 
        Tourism Policy and Planning: Yesterday, Today and Tomorrow. 
        London: Elsevier.
Frangialli, F. (2007). Keynote address on ``Tourism Can Help in Global 
        Action on Climate Change and Poverty'', Bali, Indonesia, 
        December 13, 2007.
Long, P. (2008). Personal Interview. North Carolina Center for 
        Sustainable Tourism. January 23, 2008. Greenville, NC.
McCormick, C. (2007). ``Climate and the Coast'', The Island Breeze, 
        September 2007. Outer Banks, NC.
Smith, S. (2008). Interview by telephone and email. Executive Director, 
        Southern Alliance for Clean Energy. February 2, 2008.
Viner, D. and S. Becken (2003). ``Climate Change Mitigation Policies 
        and the Global Tourism Industry.'' Climate Change Management, 
        12 (December).
White, N. (2008). Personal Interview. University of North Carolina 
        Coastal Studies Institute. January 20, 2008. Manteo, NC.


David L. Edgell, Sr., PhD            Carolyn E. McCormick
Department of Hospitality            Managing Director
 Management                          Dare County Tourism Board
East Carolina University             Outer Banks Visitors Bureau
RW-325 Rivers Building               One Visitors Center Circle
Greenville, NC 27858-4353            Manteo, NC 27954
Ph 252-328-4962                      Ph: 252-473-2138
Fax 252-328-4963                     Fax: 252-473-5777
Email Address: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e1e0e3e1e8e8e0c4e1e7f1aae1e0f1">[email&#160;protected]</a>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
